<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
 DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2004

                              ----------                              

                                           Thursday, March 6, 2003.

                         DEPARTMENT OF JUSTICE

                                WITNESS

JOHN ASHCROFT, ATTORNEY GENERAL

                    Chairman Wolf's Opening Remarks

    Mr. Wolf. The hearing will come to order.
    Thank you, Attorney General Ashcroft, for appearing before 
the subcommittee this afternoon to discuss the Department of 
Justice's fiscal year 2004 budget request. This is your third 
appearance before this subcommittee, and we welcome you.
    This is a budget hearing, but we would like to take the 
opportunity, and I am sure all the members would, to 
congratulate the Federal law enforcement agents responsible for 
the arrest this past week of Khalid Sheikh Mohammed. Hopefully, 
his arrest will further hamper the ability of terrorists to 
strike at us and, hopefully, we will arrest Osama bin Laden, 
but I want to congratulate you and all the men and women in the 
government that were part of that effort.
    I would also like to start the hearing by commending you 
personally and all the men and women of the Department of 
Justice for their efforts over the past year. The collaborative 
efforts of the Departments of Justice and State and local law 
enforcement to prevent terrorism are greatly appreciated by 
both the Congress and by the American public.
    The prevention of terrorism both domestically and abroad is 
an enormous challenge. While we will provide you with the 
necessary resources to perform this mission, we obviously 
expect the Department to continue its extraordinary efforts to 
protect our families and communities from crime, as you are 
currently doing.
    The Department of Justice's budget has grown tremendously 
over the last several years while at the same time the Congress 
has bestowed significant authority and responsibility upon the 
Justice Department to accomplish its important missions. Now 
the burden falls to you and all the people who work for the 
Department of Justice to ensure that we can live in a society 
that cherishes and protects its civil liberties while at the 
same time is protected from acts of terrorism and other crime. 
That is a constant struggle, but we really have to, as we go 
through this very difficult time, remember that it has to be 
done in a way that protects and respects the civil liberties of 
American citizens.
    I would also like to take a moment to thank the thousands 
of Border Patrol agents, immigration inspectors and other 
employees of Immigration and Naturalization and the Office of 
Domestic Preparedness. These Federal employees are entrusted 
with tremendous responsibilities, and we wish them well in 
their new Homeland Department.
    On the same note, we would like to welcome the men and 
women of the Bureau of Alcohol, Tobacco, Firearms, and 
Explosives to the Department of Justice. I recall during the 
sniper attack in this region last fall how well they worked 
with the FBI and other law enforcement. I am sure they will 
continue to enjoy a good, cooperative relationship, 
particularly now that they are in the Justice Department where 
they probably belonged at the outset.
    Let me briefly provide an overview of the request before I 
recognize Mr. Serrano. The budget request for the Department of 
Justice for fiscal year 2004 is $18.3 billion in discretionary 
appropriations. This represents a decrease of almost 5 percent 
from comparable fiscal year 2003 enacted levels. The budget 
request does not--I stress does not--include funding for INS, 
ODP, or the National Infrastructure Protection Center, but 
reflects the transfer of these entities to the homeland 
security subcommittee. The request does include $852 million 
for the Bureau of Alcohol, Tobacco, Firearms and Explosives, 
which has been transferred to the Department of Justice from 
Treasury.
    The budget request includes several notable increases, 
including $513 million for the FBI--and I must say last year I 
think we were $45 million above in this committee, above what 
the administration asked for--$58 million for the Drug 
Enforcement Program, and $243 million for the Bureau of Prisons 
while other accounts remain largely static, other than 
adjustments to base.
    The main themes of these increases include funding to 
continue to fight and prosecute the war on terror and to stem 
white collar corruption. The fiscal year 2003 budget recently 
passed by the Congress already provides increases above the 
request for the Justice Department to fight corporate 
corruption.
    The committee, though, will face considerable challenges in 
funding these proposed increases in part because the budget 
request includes--and I understand, having worked for a Cabinet 
member, former Secretary of the Interior Roger C.B. Morton, the 
problems of OMB and the Thursday afternoon visits and the 
Friday afternoon visits and how they tell you what you have to 
do. But there are some problems, the offsets, including $216 
million in undefined reductions across the Department for 
cross-cutting efficiencies and a $1.2 billion or 35 percent 
reduction for State and local law enforcement assistance 
grants.
    Since the September 11th attacks, crime has increased in 
the country and State and local governments are suffering. 
Everyone--it seems everyone comes in here wanting something 
from a historic budget shortfall. Yet the budget request 
dramatically decreases funding for successful State and local 
programs for law enforcement hiring, overtime, drug prevention 
and technology programs, and juvenile delinquency prevention at 
the very time that we see crime going up. So that is really 
going to be a difficult issue.
    Before I recognize Mr. Serrano, I want to thank you for 
your service. You probably have one of the toughest jobs in the 
government. If you are successful, sometimes you can't talk 
about your success. If you fail, obviously, having been a 
Member of this body, you know that it will be brought out. I 
know it is a constant balance, and I know you are a good 
person.
    At times, the criticism of you has been justified, but at 
other times, knowing something about some of the issues, I 
think it has been totally unjustified. Yet I think you have 
been a--I don't want to use the world ``soldier,'' but a good 
American who has not tried to explain or complain or anything 
else. And it is a difficult job.
    As you know very well, 30 people from my district died in 
the attack on the Pentagon, some who I knew. The first person 
that was killed in fighting in Afghanistan was a constituent of 
mine, a CIA employee. The world is a dangerous place.
    I led the first congressional delegation to Afghanistan a 
year ago January. When we were there, we were told that 15,000 
people went through the al Qaeda training camps. We have caught 
now maybe 4,000, I don't know; and others have perhaps been 
killed in combat. But there is still a significant number of 
people who went through those training camps, and the world is 
a dangerous place.
    So, as there is criticism and perhaps some of the questions 
will be aggressive and I think from an oversight point of view, 
as you served in this Congress, it is a tremendous 
responsibility--the men and women on this committee care 
deeply. But, overall, I want you to know that I do appreciate 
your service and know how difficult it is. I want to thank you 
and thank the men and women of your Department who are working 
with you to keep America safe.
    I would also say again, just to stress, I think it is 
important that we be very careful with regard to civil 
liberties and protection. I think you should have someone close 
to you in the Department who is, in essence, the conscience on 
this issue who people could call, ask the tough question, are 
we being sure that we are protecting the civil liberties in 
these cases?
    But I did want to thank you for your service. I think you 
have done an excellent job.
    With that, let me just recognize Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman; and thank you to you, 
too.

                     Mr. Serrano's Opening Remarks

    Let me, first of all, echo Chairman Wolf's last comment, 
his idea that I totally agree with, that we discuss the 
possibility of a situation where someone is assigned other than 
yourself to make sure that we make no mistakes as we do what we 
have to do.
    With that in mind, Mr. Chairman, it is a pleasure to 
welcome the Attorney General to the subcommittee this 
afternoon. As always, it is good to see you.
    As I said last year, this hearing always presents me with a 
dilemma. On one hand, I like you. Usually, you don't hear that 
from liberal Democrats, but you are hearing it from this one. I 
have the highest regard for the Justice Department and all the 
important work it does. The response to the attacks of 
September 11th, 2001, was and is deeply appreciated by New 
Yorkers, especially this one.
    On the other hand, some of the policies the Department has 
proposed to combat terrorism are deeply troubling; and I fear 
some officials are so intent on fighting against terror that 
they forget what we are fighting for. People across the 
spectrum fear for our civil liberties. We worry that during a 
time of crisis some steps may be taken that cause long-term 
harm to the values we stand for. This concern is not unique to 
this time. Last year I discussed how other crises, real or 
imagined, led to the internment of Japanese Americans and to 
decades of persecution of the Puerto Rican independence 
movement.
    I don't like people reading my e-mails or listening to my 
phone calls. The books I buy are my own business. I don't like 
people poking around in my personal life when my personal life 
is not a threat to my country, and my constituents feel the 
same. I know the balance is very delicate between protecting us 
from terrorists, finding them, bringing them to justice, 
preventing further acts of terror, and preserving our liberties 
for ourselves as well as for our children and our 
grandchildren.
    Maintaining a proper balance is extremely difficult, and I 
recognize that. But we must never tip the balance away from the 
rights and freedoms that make us Americans and make the United 
States a beacon to the world. After all, our struggle is about 
freedom. That is what we hear from the President all time time. 
It is about our freedom. It is about other people's freedoms. 
If we forget who we are and behave badly here or in other 
places, then the September 11 crowd have won.
    I have heard some people say, Mr. Attorney General, during 
a crisis we will give up a few of our rights if we have to. I 
disagree. We must never give up our rights. That is what makes 
us Americans. I trust you know that I mean no disrespect to 
you, but I think this issue is too important not to speak out.
    I look forward to your testimony and the discussion to 
follow, and rest assured that on budgetary and other items I 
continue to be an ally of yours, a supporter. But I will 
continue in every way that I can to remind you that your main 
goal is to protect our rights and during this crisis you cannot 
allow our rights not to be protected.
    Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Attorney General, you may proceed. Read your 
full statement summarize or proceed as you see fit.

                  Attorney General's Opening Statement

    Attorney General Ashcroft. Let me first thank you and thank 
the members of the committee who are here today. I am grateful 
to you. It is an honor for me to be with you, Chairman Wolf and 
Ranking Member Serrano. Let me thank you for your statements.

                            CIVIL LIBERTIES

    Before I get into my statement, let me indicate that I 
don't believe we can ever have too many people who view it as 
their responsibility to carefully monitor the safeguarding of 
the liberties of the United States of America. That is an 
important task. It is the single most important task we have. 
It happens to be the role of the Justice Department.
    At the beginning of this republic, when there were but four 
Cabinet agencies, there was the Department of State to deal 
with foreign powers, a Department of War to wage war and 
defense, a Department of the Treasury to look at financial 
matters; and it is no shock to learn that the Attorney 
General's Office became the office which developed a focus on 
protecting and nourishing an environment of freedom. That is 
why we house the Civil Rights Division under the Attorney 
General's office. That is why we have a special sensitivity to 
it.
    We always need to be reminded and welcome reminding that 
the pursuit of civil liberties is the responsibility of the 
Justice Department, and we will continue to make that our 
highest priority.
    The only thing worth securing, if we are seeking security, 
is securing freedom; and we must not abandon freedom in the 
pursuit of security. So I am pleased to have you mention those 
things.
    I think mentioning the fact that in the past we have had 
circumstances that have been embarrassing to us in the light of 
history, like the internment of citizens, something we have 
been able to learn from history and know that we don't want to 
repeat and refuse to repeat. We will continue to work hard in 
defense of the freedoms we enjoy and seek to defend them.
    I am honored to be here today to present the President's 
budget request for the DOJ. It is true that the first and 
overarching priority of this budget and the Department of 
Justice is the protection of American freedom and the 
protection of Americans in exercising that freedom from actions 
of terrorism and, of course, to bring justice to terrorists.
    I thank you for your assistance in providing the Justice 
Department with the resources to confront this threat, to 
detect, to disrupt and to destroy terrorism. We have taken 
these resources as well as tools provided by President Bush, 
the Congress and the American people and dedicated them to 
preventing future acts of terror.
    Today, America is better protected and better prepared to 
defeat terrorism. Even as the men and women of the Justice 
Department continue to fight the war on terror, we do so within 
a framework of justice that upholds our other crucial 
responsibilities. We remain committed to combating corporate 
corruption, drug trafficking, the unspeakably inhumane crime of 
human trafficking. We remain focused on preventing and 
prosecuting crimes against children, enforcing gun laws, and 
protecting the civil rights of all Americans.

                          2004 BUDGET REQUEST

    The budget request I am here to discuss today will 
strengthen our capacity to fulfill all of these priorities. The 
President's budget request is $23.3 billion for the Department 
of Justice, including a $19 billion item in discretionary 
funding and $4.3 billion for the Department's mandatory and fee 
funded accounts. The fiscal year 2004 budget reflects the 
transfer of the Immigration and Naturalization Service, the 
Office of Domestic Preparedness and a portion of the FBI's 
National Infrastructure Protection Center (NIPC), to the 
Department of Homeland Security. A portion of NIPC is retained 
for the investigation of crimes against our infrastructure: the 
prevention portion obviously transferred to the Department of 
Homeland Security.
    The budget also reflects, as mentioned by the chairman, the 
transfer of the Bureau of Alcohol, Tobacco, Firearms and 
Explosives to the Justice Department.

                       COUNTERTERRORISM RESOURCES

    Above all, this budget request reflects our intense focus 
on preventing acts of terrorism, identifying, disrupting and 
dismantling terrorist networks. With the resources we have 
already been provided, we have built an integrated prevention 
strategy aimed at combating terrorism, and we are improving 
every day. The attacks of September 11th made it clear that the 
defense of America requires a new culture of prevention, 
nurtured by cooperation, built on coordination, and rooted in 
our constitutional liberties.
    The excessive constraints imposed in the late 1970s erected 
barriers to cooperation between government agencies, that 
segregated law enforcement and intelligence gathering, and 
prohibited information sharing. Those barriers must be replaced 
systematically. Today, Americans are safer because we have 
strengthened this culture of cooperation and in so doing have 
transformed the rules of engagement for investigating and 
prosecuting terrorists within our borders.
    The Justice Department is fighting the war on terrorism by 
integrating, not separating, our law enforcement capacity and 
by integrating, not separating, our intelligence capabilities. 
The Central Intelligence Agency and the Federal Bureau of 
Investigation have set new, integrated standards for 
cooperation and coordination. The FBI's domestic intelligence 
operations are strengthened substantially by the CIA's 
information sharing, intelligence analysis and operational 
coordination.
    It is to the credit of this new ethic of cooperation as 
well as an alert, vigilant and supportive public that we have 
not suffered another major terrorist attack in this country. 
The FBI indicates that, since September 11th, 2001, over 100 
terrorist plots have been disrupted as a result of the 
excellent work of that agency in cooperation with others. Yet 
our survival and our success in this long war on terror demands 
that we continuously adapt to improve our capabilities to 
protect America from a fanatical, ruthless enemy.
    I will continue to seek the assistance of Congress as we 
enhance a culture of prevention and ensure the resources of our 
government are dedicated to defending Americans.

                     INTEGRATED PREVENTION STRATEGY

    Now I would like to give you just a brief overview of the 
results to date of our integrated prevention strategy.
    First, we are gathering and cultivating detailed 
intelligence on terrorism in the United States. Hundreds and 
hundreds of suspected terrorists have been identified and 
tracked throughout the United States. Our human sources of 
intelligence have doubled. Our counterterrorism investigations 
have doubled in 1 year; 18,000 subpoenas and search warrants 
have been issued. Over 1,000 applications in 2002 were made to 
the Foreign Intelligence Surveillance Act Court, FISA court, 
targeting terrorists, spies and foreign powers who threaten our 
security, including 170 emergency FISA applications. This 170 
number is more than three times the total number of emergency 
FISAs obtained in the 23 years prior to September 11th.
    Second, we are arresting and detaining potential terrorist 
threats. There were four alleged terrorist cells--in Buffalo, 
Detroit, Seattle, Portland, Oregon--broken up; 212 criminal 
charges brought to date, including the recent indictment of 
Sami Alarian and seven co-conspirators and the charges unsealed 
just 2 days ago against Mohammad Ali Hassan Sheikh al-Moayad 
and Mohsen Yahya Zayed; 108 convictions or guilty pleas to 
date; including those of shoe bomber Richard Reid; the American 
Taliban John Walker Lindh and one member of the Buffalo cell; 
and 478 deportations linked to the September 11th 
investigation.
    Third, we are dismantling the terrorist financial network. 
We have been able to designate 36 organizations as terrorist 
organizations. $124 million in assets have been frozen and over 
600 accounts frozen around the world; 70 investigations into 
terrorist financing, with 23 convictions or guilty pleas to 
date out of the 70, and progress, on the others.
    Fourth, we are disrupting potential terrorist travel and 
terrorist threats to the travel industry. More than 50 major 
airport sweeps in Operation Tarmac resulted in more than 1,200 
arrests for ID and document fraud and other crimes. The major 
alien smuggling networks have been disrupted, hundreds of 
terrorists and criminals stopped through the National Entry-
Exit Registration System. Among those individuals: eight 
suspected terrorists, with at least one known member of al 
Qaeda; 551 aliens were stopped at the border who were wanted 
criminals, had committed past felonies or violated other laws; 
and 46 felons identified through the Domestic Enrollment 
Program, the special registration where individuals were called 
back in who had already been in the country, who were in the 
country illegally, including cocaine traffickers and child 
molesters and individuals convicted of assault with a deadly 
weapon. This is a result of the entry-exit program mandated by 
the Congress first in 1996 and scheduled for comprehensive 
implementation by the year 2005.
    Fifth, we are building our long-term counterterrorism 
capacity. Thanks to the Congress, we have had a 270 percent 
increase in counterterrorism funds; over 1,000 new and 
redirected FBI agents dedicated to counterterrorism and 
counterintelligence; 250 new assistant U.S. attorneys; 66 Joint 
Terrorism Task Forces; 337 percent increase in the Joint 
Terrorism Task Force staffing; and flyaway expert teams for 
rapid deployment to hot spots around the world when the 
expertise of investigative skills is especially pertinent.

                      COUNTERTERRORISM OPERATIONS

    These accomplishments demonstrate that our extensive FBI 
counterterrorism operations now blend human resources, 
intelligence resources, advanced electronic surveillance, deep 
undercover operations, terrorist financing savvy, criminal 
subpoenas and search warrants, seamless law enforcement and 
intelligence cooperation.
    We have made tremendous progress, due in no small part to 
your continued leadership, but there is more to be done. The 
safety and security of America is in our hands, and we must 
continue to anticipate and adapt to new and changing threats. 
To that end, the budget request includes an increase of $598.2 
million for programs that support our mission to prevent and 
combat terrorism, including $516.2 million to enhance or 
complement the FBI's counterterrorism program.
    Even as we have concentrated our efforts and energy upon 
identifying, tracking and dismantling terrorist networks, we 
have maintained a steady focus on our other crucial 
responsibilities. Our efforts to combat terrorism, coupled with 
our integrated prevention strategy, have enhanced enforcement 
of the law across the board.

                       CORPORATE FRAUD TASK FORCE

    At the same time the Department has fought the war on 
terror, we have addressed other core missions. First, the 
Department of Justice has taken decisive action to combat 
corporate corruption and punish corporate lawbreakers. The 
relentless work of the Corporate Fraud Task Force, chaired by 
Deputy Attorney General Larry Thompson, has resulted in 150 
investigations opened into suspected corporate fraud, 200 
individuals charged, 60 convictions obtained to date, $20 
million in assets frozen, $14 million forfeited to date, and we 
are asking and seeking to restore more than $2.5 billion of 
forfeited funds to the creditors and investors that lost the 
money as a result of corporate fraud.
    The Department is committed to ensuring a marketplace of 
integrity and restoring the confidence of the American 
investor. To that end, the fiscal year 2004 budget requests 
$24.5 million to support the Corporate Fraud Task Force.

         ORGANIZED CRIME DRUG ENFORCEMENT AND DRUG TRAFFICKING

    Second, the Department of Justice has continued to fight 
the scourge of illegal drugs. Thanks to the tireless efforts of 
the Organized Crime Drug Enforcement Task Force, and the DEA, 
the Drug Enforcement Administration, we have increased seizures 
of drug assets from major trafficking organizations by 20 
percent. We have dismantled 305 drug trafficking organizations 
in 2002 alone, more than doubled the amount of heroin seizures 
from 2000 to 2002, and attacked the nexus between drug 
trafficking and terrorism, including bringing charges in San 
Diego against individuals for conspiring to trade heroin and 
hashish for antiaircraft missiles, which were allegedly 
intended to be sold to the al Qaeda forces in Afghanistan.
    These threats call us even more urgently to action as we 
continue to battle drug-related crime. The fiscal year 2004 
budget request includes $117.9 million to augment our efforts 
to reduce the availability of illegal drugs, to identify and 
dismantle drug trafficking organizations, and to support drug 
treatment.

                        CRIMES AGAINST CHILDREN

    Third, the Department of Justice has prevented and 
prosecuted crimes against children. It has done so by 
allocating $2.5 million to develop an effective nationwide 
AMBER Alert system. It has reassigned three FBI investigative 
analysts to work full time at the National Center for Missing 
and Exploited Children. It has supported Internet crimes 
against children tasks forces across the nation. The Justice 
effort has dedicated $3.6 million to the FBI's Innocent Images 
National Initiative to keep pace with the nearly 2,000 percent 
increase in investigations since 1996 and to combat 
proliferation of child pornography and child sexual 
exploitation via the Internet.
    The Department remains steadfast in its commitment to 
protect and defend America's children. Along with the $2.5 
million set aside to develop a nationwide AMBER Alert, the 
proposed budget provides $3.6 million to support the Innocent 
Images National Initiative and $13 million to support the ATF's 
Youth Crime Gun Interdiction Initiative.

                       PROJECT SAFE NEIGHBORHOOD

    Fourth, the Department of Justice has protected, 
increasingly, Americans from gun crime. In the first 2 years of 
this administration, Project Safe Neighborhood's initiative to 
combat gun crime has provided an increased federal gun crime 
prosecution rate, up by 32 percent, which has helped lock up 
repeat offenders and lower crime in cities across America.
    For example, in Philadelphia robberies at gunpoint dropped 
11 percent, and the homicide rate is the lowest it has been 
since 1985. In Kansas City, where members of my family happen 
to live, the murder rate dropped 23 percent to its lowest level 
in three decades. This reduction translates to 27 human lives 
that are saved, that continue to live, which would not have had 
previous rates continued.
    U.S. Attorneys have charged 10,634 defendants for violating 
gun statutes. They have convicted and taken 7,747 gun 
criminals, off the streets so far. In 2002, the conviction rate 
for Federal gun crime prosecutions was nearly 90 percent, and 
more than half of those gun criminals were sentenced to more 
than 5 years in Federal prison.

                              CIVIL RIGHTS

    Fifth, the Department of Justice has protected vigorously 
the civil rights of all Americans by prosecuting more than 90 
discriminatory backlash hate crimes in the wake of September 
11th, including: securing the conviction of Zachary Rolnik for 
violating the civil rights of Dr. James J. Zogby, the President 
of the American Arab Institute; securing the guilty plea of 
Earl Leslie Krugel for conspiracy to manufacture and detonate 
bombs at a mosque and a field office of United States 
Congressman Darrell Issa of California; prosecuting 43 non-
September 11th-related hate crimes cases in the last 2 years; 
and initiating over 600 additional non-September 11th hate 
crime investigations.
    We worked hard to secure the civil rights of Americans by 
coordinating the voting rights initiative to ensure access, 
honesty and integrity at the polls on Election Day. That effort 
resulted in a smooth election with far fewer complaints than 
were reported in recent years.

                           HUMAN TRAFFICKING

    We have investigated, prosecuted, and convicted record 
numbers of individuals involved in human trafficking and sex 
trafficking cases. Mr. Chairman, I wanted to take a moment to 
recognize your tireless efforts in defense of human rights and 
human dignity, particularly in combatting human trafficking. In 
fiscal years 2001 and 2002, in those two fiscal years, the 
Department more than doubled the number of trafficking 
prosecutions and doubled the number of convictions for 
trafficking over the previous 2 years. We have successfully 
convicted 36 defendants in sex trafficking prosecutions, 3 
times the number of sex traffickers prosecuted in the previous 
2 years. We have initiated investigations into human 
trafficking in 46 states and in all United States territories.
    Chairman Wolf, the Department of Justice shares your 
commitment to eradicating the scourge of human trafficking, and 
we will continue our aggressive efforts to protect the victims 
of trafficking, and to bring those to justice who violate their 
human dignity.
    I would also like to note that I regularly raise the human 
trafficking issue in my discussions with foreign counterparts, 
as I did just yesterday with a friend who came to visit us from 
around the world.

                               TERRORISM

    Mr. Chairman, members of the committee, the overarching 
priority of this budget is to defend Americans from the threat 
of terrorism. As we work to achieve this objective, we will not 
relent in our efforts to defend Americans from any threat to 
freedom, be it illegal drugs, human trafficking or child 
exploitation. We will not allow their civil rights to be 
trampled. The budget request that I have highlighted today 
builds upon the firm foundation laid down by Congress in the 
days and weeks following the September 11th attacks. It is a 
foundation of resolve backed by resource. It is a foundation of 
American strength backed by American purpose.
    Let me close by quoting Stephen Flatow, whose daughter, 
Alisa Flatow, was a 20-year-old American student killed in 
Israel when a terrorist drove a van full of explosives into the 
bus in which she was riding. Stephen said this: When you know 
the resources of your government are committed to right the 
wrong committed against your daughter, that instills you with a 
sense of awe. As a father, you can't ask for anything more.
    As a Nation, we demand nothing less. Securing our homeland 
and safeguarding the lives and liberties of our citizens is the 
responsibility with which history has charged us.
    Chairman Wolf and members of the committee, I appreciate 
the opportunity to testify here and to reiterate the commitment 
of the Justice Department, in the words of Stephen Flatow, to 
right the wrong committed against America, to pursue justice 
and to defend freedom. I thank you for your leadership, your 
counsel, and your support for all you do to secure and to serve 
the American people, and I am pleased to be responsive to your 
questions.
    Mr. Wolf. Thank you, Mr. Attorney General.
    [The information follows:]

       [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
                      COMPREHENSIVE DRUG STRATEGY

    Mr. Wolf. In the interests of time, because my district is 
right here, I am going to ask one or one and a half questions 
and then let the rest of the panel go, and then I will stay. We 
can both--since we both live here, we can spend a little more 
time at the end, if the Members want to leave.
    Since September 11, the FBI's main mission has been to stop 
terrorist activities before they occurred. As you know, the FBI 
has pulled 567 agents out of drug investigations to focus on 
terrorism. That is certainly a correct approach. However, when 
we approved those changes to the FBI, and it was the end of 
June last year, we asked Justice for a comprehensive drug 
strategy to ensure that we can continue to halt the sale of 
illegal drugs.
    We have not yet received the strategy. So do you have any 
idea when we are going to get it? This is important.
    Secondly, we note with dismay that DEA's budget includes 
program increases of $42.9 million. It also includes $52.9 
million in offsetting program reductions and cross-cutting 
efficiencies, which will result in a net reduction in DEA 
activities for 2004. So you have a net reduction, you then have 
taken FBI agents. Either they were doing nothing and all kind 
of hanging around, which I don't believe is the case, or they 
were doing something, you have taken them away, and you request 
this reduction with regard to DEA.
    As I mentioned, when I was in Afghanistan, they were 
telling us that the poppy trade was beginning for the last 
year. I was with a group the other day that said that they had 
just gotten back from Afghanistan. Karzai has no control of the 
government outside of Kabul, and the poppies are growing, and 
there is no program to eradicate it. So you get more poppies, 
more drugs coming out of there and other places. So there 
really does seem to be a disconnect.
    What is the Department's overall drug strategy, and how 
does a reduction in DEA's resources advance that strategy?
    Attorney General Ashcroft. Mr. Chairman, thank you very 
much.
    The President has announced a goal to reduce the drug 
supply and drug use by 10 percent over the next 2 years, and by 
25 percent through a 5-year interval. He announced that almost 
a year ago. So by saying the next 2 years, I mean in this year 
and next year.
    Our strategy is to target the most significant 
organizations responsible for the Nation's drug supply in an 
effort to eliminate their infrastructure. And I would make sure 
that--I want to try and indicate that if you just want to get 
drug convictions, you can do what sometimes is referred to as 
street sweeping. You can go through virtually any major city, 
go to the right neighborhood, get a lot of people and get 
convictions, but you haven't done anything to actually impair 
the drug supply, you haven't done something to curtail the 
availability.
    So we are working on developing a comprehensive plan in 
response to what you have asked us to report, because we think 
this strategy is very important. The strategy and plan that has 
been requested by Congress is at OMB for clearance. I believe 
it will be available soon. We have completed our work on it, we 
believe, and it should be to you shortly. It embodies, let me 
just say, some major--let me give you six major points.
    The first is to identify, disrupt, and dismantle the major 
international drug supply and money laundering organizations. 
The second is to eliminate the financial infrastructure of 
these organizations. The third is to develop a strategic plan 
to prioritize targets on a regional and nationwide basis to 
coordinate investigations of entire networks. I may need to 
explain that just a little bit.
    So often in the past, with an emphasis on racking up 
numbers of convictions as soon as a small part of an 
organization could be nailed, someone in some part of the 
country would simply file a charge and rack that up as a notch 
on the enforcement gun. We need to see these organizations not 
for how many convictions we can get on the periphery of the 
organization, but how we can work up the ladder to get to the 
heart of the organization. With that in mind, the strategic 
plan prioritizes targets and coordinates the investigations so 
that we get to the heart of the network.
    Number four, we are expanding and exploiting drug 
intelligence information from all investigative agencies to 
identify the links. And some of the link analysis that have 
been employed in the fight against terrorism can also help us 
make the connections in the drug war as well.
    Number five, realigning Federal resources and positions to 
match principal drug threats and our strategic priorities, and 
frankly, we have to be more efficient. You have called our 
attention to something that is very important, that in sending 
as many resources as we have into the antiterrorism fight, we 
can ill afford not to be very efficient in what we are doing in 
drug trafficking.
    And, number six, establishing new performance standards to 
meaningfully measure our process in achieving the goal of 
reducing drug availability. So getting the right understanding 
of what drugs are available, how we measure the decline in the 
available type, and how we restrict the availability of drugs 
is very important.
    These are the primary components that I think you will find 
in the plan, which should be to you shortly, and which I 
mentioned is now awaiting clearance at OMB. We look forward to 
providing it for your review.
    Mr. Wolf. Well, thank you. I am going to ask the others 
later on and follow up. I do think at times OMB and the 
administration take advantage of the Congress, of the 
committee, and, quite frankly, of me, perhaps, because there 
are some areas that I am not going to allow to be reduced. We 
are not going to cut money for sexual trafficking. We are not 
going to cut money for child pornography. As long as the blood 
pumps in my veins, we are not going to do that.
    So sometimes they know that Mr. Rogers is concerned about 
drugs with regard to OxyContin, Mr. Serrano is concerned with 
regard to this, and they are going to take care of those 
issues. So we will cut, cut, cut, and the Congress will fill in 
the holes. And it almost becomes a little bit like a gimmick. I 
would hope those issues are so important that you would instead 
reduce programs that don't impact people.
    Every time there is a person addicted from drug abuse, it 
is not just a person that is addicted to the drug abuse, it 
just doesn't impact that person, but the entire family. So if 
the son, or the daughter, or the husband, or the wife is 
addicted, the whole family gets devastated.
    So I do think there is a little bit of sleight of hand 
sometimes done by OMB, and we will follow up after that.
    Let me recognize Mr. Serrano, then Mr. Rogers.
    Mr. Serrano. Thank you, Mr. Chairman.
    Let me first comment on your last comments. In the hearing 
this morning with Secretary Evans, I made the same comment to 
him, that there are some budget cuts that come before us that 
the committee agrees it is going to restore. And I am really 
wondering if there is a plan out there to say we will cut here, 
because they will put it back, and then we will still get this 
money over here.
    Well, if this economy keeps hurting like it is we may not 
be able to do that. So I would suggest to some people at OMB 
and other places that they begin to tell us exactly what they 
want, and keep in mind what we want, because after all, some 
people propose and others dispose.

                       SEPTEMBER 11TH DETENTIONS

    Mr. Attorney General, can you tell me to date how many 
people have been detained or arrested within our country as a 
result of the September 11th investigations? On average how 
long are these individuals being held? How many have you 
released? And how long do you think these types of detentions 
will continue?
    Attorney General Ashcroft. I think I have some data on 
that. I am not sure I can satisfy all of those.
    To date, the INS has detained 766 aliens who have been or 
are being investigated in connection with the September 11th 
attacks. The vast majority of those, about 489--now, first of 
all, the people who were detained are people who were 
violators. We didn't detain people who were not in violation.
    The vast majority of those 489 have been deported on 
immigration charges or have left the country voluntarily, 
saying, don't bother to deport us, we are on our way out. 
Currently there are only 29 aliens of this category that remain 
in INS custody.
    As you well know, INS maintains in custody large numbers of 
individuals, but not related necessarily to the 9/11 sort of 
concerns. Of those 29 that remain in INS custody, only 3 have 
been identified by the FBI as individuals that it has a 
continuing investigative interest in.
    Now, of the individuals who--aliens who remain in the 
country, most are no longer of an investigative interest. They 
fall into these three categories: aliens in criminal 
proceedings or subject to convictions, those who were accused 
of criminal activity and were convicted--they are being 
detained; aliens who remain in immigration proceedings and are 
pursuing relief from removal--in other words, they have been 
ordered to be removed and have not and are appealing or, three, 
aliens who have succeeded in obtaining relief from removal, 
have lawful immigration status, and, therefore, they just are 
free.
    There are only 29 that remain in custody. Only three are 
the subject of any interest on the part of the FBI as it 
relates to the 9/11 attacks.

                     DETENTION RELATED TO TERRORISM

    Mr. Serrano. Now, all of the ones you mentioned seem to 
have some relation to an immigration issue. Am I correct in 
that, or is it that INS has been given the opportunity to be 
the one that apprehends those people? In other words, I want to 
know why it is INS. And if it is not only INS, then are there 
other people detained, arrested at this point who don't qualify 
under some INS criteria? I mean, I know of one we will get to 
in a second who is an American citizen. But are there other 
people who are not INS-detained, if you will?
    Attorney General Ashcroft. Well, there are individuals who 
have been detained for committing crimes, and they are----
    Mr. Serrano. Related to September 11th.
    Attorney General Ashcroft. Related to terrorism. For 
example, the so-called shoe bomber and the American Taliban 
individual. These individuals have been convicted of criminal 
activity and are serving sentences. There are individuals who 
are detained as a result of conviction for criminal activity as 
well.
    I am not in a position to name all of the individuals. I 
would be happy to try and develop the information for you that 
might help you be aware of what numbers there are. My staff 
just handed me information that there have been 212 criminal 
charges brought to date; 108 convictions or guilty pleas to 
date based on criminal charges and not INS charges.
    Mr. Serrano. These criminal charges are related to 
terrorism?
    Attorney General Ashcroft. Well, these were individuals 
that we believe were related to terrorism, the criminal charges 
are not always. Some of the criminal charges are related, for 
example, to document fraud. Some of the document fraud for 
which they were--these individuals were charged were related to 
documents that were provided to terrorists.
    Mr. Serrano. Right.
    Attorney General Ashcroft. So document fraud is not always 
terrorism-related, but certainly can be terrorism-related.
    Mr. Serrano. Mr. Attorney General, what I am trying to get 
at here is there are many instances where you hear Americans 
say, and the media for that matter, that we are not sure that 
we know the number of people that are being held in this 
country related to our war on terrorism. I don't need to say 
this, but I will anyway--we are not asking these questions in 
any way, shape, or form to be supportive of anybody who is 
caught up in this situation.
    Attorney General Ashcroft. I understand that.

                              CIVIL RIGHTS

    Mr. Serrano. But we all should be supporting everybody's 
civil rights and civil liberties. So, with that in mind, what I 
am trying to find out from you is, are there people detained 
related to perceived or suspected terrorist activities that are 
not the usual names we heard or we have read about? Because the 
ones you gave me who are nameless and shall remain nameless 
seem to be a lot of overstaying visas or people related to what 
country of origin or what organization they might belong to.
    Attorney General Ashcroft. Well, we have had individuals 
who have been convicted of crimes against Arab Americans, hate 
crimes that related to 9/11, but certainly they are not the 
names you would expect of----
    Mr. Serrano. No. I am speaking about people who are, quote/
unquote, rounded up. How many people are being held? These are 
the people I am interested in. I am glad you convicted the 
other ones. I do seriously commend you for that.
    But, yes, that is related to 9/11, but it is not related to 
the war on terrorism. Who is suspected of having a link to al-
Qaeda or to terrorism who is being detained in this country at 
this moment?
    And, by the way, I think my question is totally proper in 
view of your opening statement where you say that the one thing 
we should not ever do again is what happened to Japanese 
Americans, for instance, during World War II. Now, there are 
some folks who don't know, but are concerned that maybe this is 
happening. So I will throw in also, again having prefaced my 
comments by saying we are not here in defense of anybody, there 
is an American citizen, I believe his name is Jose Padilla, who 
is held, and from what we understand, he was arrested, he is 
still detained, he hasn't seen a lawyer, and he hasn't been 
charged.
    Now, again, after September 11th, being a New Yorker, we 
sort of focus on getting the bad guys. But I know that there is 
a little terrifying thought about my walking down the street 
and being arrested and no charges brought, and this has been 
now, what, close to a year?
    Attorney General Ashcroft. Let me try and state some things 
that I hope will be helpful. No people have been detained who 
have not been charged by the Justice Department.
    Mr. Serrano. Mr. Padilla has been charged?
    Attorney General Ashcroft. He is not held by the Justice 
Department; I would be happy to address that issue, and I will.
    Everyone who has been--no one has just been rounded up. 
Individuals have not been detained unless they were the subject 
of an express specific violation. Individuals detained by the 
Justice Department, either in the former part of the Justice 
Department until last Saturday, INS, or in the Justice family 
of enforcement agencies, all have access to attorneys. The only 
people who were detained and were not the subject of a specific 
charge are individuals who are detained on what was called the 
material witness warrant. That is, where a circuit court judge 
decides, in accordance with the provision of the law, that a 
person is a valuable component of a criminal justice 
proceeding, and is held in order to make sure that their 
contribution to the proceeding is protected and preserved. That 
is all judicially supervised by the courts.

                         JOSE PADILLO DETENTION

    Now, let me go to the Jose Padilla situation. Jose Padilla 
is being detained as an unlawful enemy combatant. Individuals 
who are a part of a war effort against a country, in other 
words those taken as enemy combatants, are traditionally not 
the subject of specific charges, and are not the subject of 
judicial proceedings. They are not taken by the judicial 
process, they are held as a result of the military process.
    People who are taken on the battlefield or involved in 
battlefield endeavors or activities are eligible to be taken 
not by the Justice Department, but by the President in exercise 
of his Article II powers to protect the country in time of war. 
There are, I believe, two individuals in that category who are 
American citizens that I know of, and I believe one is Mr. 
Hamdi, and the other is Mr. Padilla. Mr. Hamdi was intercepted 
on the battlefield in what is the traditional theater of 
operations. Mr. Padilla was intercepted in the United States of 
America.
    Mr. Serrano. Let me just say something to you that perhaps 
you already know. The perception is that the Justice Department 
is overseeing all of this. That is what people think. So if I 
ask you, it is because we would never think of asking a 
military person, under civilian rule as we have in this 
country, if they are holding someone. I certainly hope the 
military doesn't hold anybody, because that is what makes us 
different from other countries.
    Attorney General Ashcroft. Well, the military has always 
held combatants who are intercepted in the process of fighting 
against the country.
    Mr. Serrano. That is true. On the battlefield, for the most 
part. Hardly ever on the streets of Brooklyn or Waukegan, 
Illinois.
    Attorney General Ashcroft. I think it is hard not to say 
that New York was not a battlefield.
    Mr. Serrano. I understand that.
    Attorney General Ashcroft. With all due respect, I think 
the battlefield is nontraditional in the war against terror.
    Mr. Serrano. I understand. In a nontraditional situation we 
have to be careful that we don't commit nontraditional civil 
liberties and civil rights violations.
    Again, I am not discussing that in this case, I am 
concerned that this becomes some sort of a pattern.
    Now I will close, because obviously I am not going to get 
any farther here. I only regret at this moment--I have never 
said this--that I am not in Mr. Rogers' or Mr. Wolf's head at 
this moment, because they know the law, I don't. I am not a 
lawyer. And I am not going to put words in their mouths or 
thoughts in their heads, but I have to believe that if you are 
a lawyer you have to be concerned that there are American 
citizens detained without charges.
    Again, I could care less about the individual, but about 
the thought of walking down the street during a difficult time. 
I remind you that there must have been Members of Congress or 
someone asking these same questions during the Second World War 
and the answer they got back was, Chicago is a battlefield, 
Ohio is a battlefield, and San Francisco is a battlefield. And 
now we all realize that that was wrong. And so that is my 
concern, not the individual, but the idea of being detained 
without charges and not being able to see a lawyer scares the 
hell out of me, Mr. Attorney General.
    Attorney General Ashcroft. May I respond to that 
additionally? First of all, it is a very serious matter. 
Whether or not American citizens could be detained as enemy 
combatants is not a novel thing that hasn't been considered by 
the highest Court in the United States. It has been considered 
by the highest Court, and the Supreme Court in the Second World 
War indicated that it didn't matter what citizenship you held, 
if you were an enemy combatant, you could be detained as an 
enemy combattant. And as a matter of fact, the Quirin case 
involved a group of individuals who sought to disrupt the 
United States with acts of sabotage. A group of Germans that 
came ashore were joined by an American to use explosives to 
disrupt this country, and in that case, I believe it is fair to 
say that the Court ruled very clearly that one's citizenship 
does not keep one from being identified as an enemy combatant.
    I really want to agree with you, and that is that this--we 
have only one individual so treated who was intercepted in the 
United States and then has been maintained as an enemy 
combatant, and I take that very seriously. I have looked at the 
law very carefully on it. And this is being litigated, as a 
matter of fact, right now, so I am limited as to what I can 
say. But the matter of Mr. Padilla is on appeal after having 
been ruled and considered by the courts. So this is not a 
matter that is being taken indifferently. We are aware that 
this is a matter of serious concern. I thank you, and I respect 
your concerns. I respect the concerns of every American that is 
concerned about freedom.
    Mr. Serrano. Let me just close, Mr. Chairman, by simply 
saying, history will judge us all for this period of time. And 
as one who started off by saying, I like you, I want history to 
judge you as the one who, during a very difficult period, tried 
to strike a balance and not one who allowed people to get 
carried away to a point where we hurt ourselves and threw away 
our Constitution.
    Thank you, Mr. Chairman.

               CIVILIAN PROSECUTION VS MILITARY TRIBUNAL

    Mr. Wolf. As I recognize Mr. Rogers, I would say, I think 
that case was when they were picked up, I think on Long Island. 
There were four or five who came--who infiltrated during World 
War II, if my memory serves me, the case you are referring to.
    I would say that my sense is, though, they ought to be 
prosecuted and brought to justice. I think by doing that, you 
probably personally as an individual needlessly get criticized. 
I think there is this sort of attention that when something is 
going on that people might have a problem with, they say, let's 
say it is John Ashcroft's fault, which is not really fair, 
because--and yet you are fair--so my sense is, and I would 
agree with Mr. Serrano, the appropriate thing is, unless there 
is something I am not aware of, and I read every article in 
every paper--the appropriate thing would be to prosecute that 
individual and bring him to court, as you did to John Walker, 
the American Taliban. That way it is the process that everyone 
understands. As you have been in this business for a long 
while, sometimes perception becomes reality, and that becomes 
very unfortunate. So I would agree with Mr. Serrano. I think a 
prosecution would probably be the best approach.
    Attorney General Ashcroft. May I make a comment? Sometimes 
answers seem easy when they are not. The kind of safeguards 
that we have that surround prosecutions and the kind of 
information that is provided in prosecutions sometimes might 
not be in the best interests of the United States immediately. 
So that throughout history those individuals who have involved 
themselves as combatants in wartime, generally have been 
individuals subject to detention, at least until the end of 
hostilities. Frequently the kinds of prosecutions, whether they 
be through military commission or tribunal, have taken place at 
the end of the hostilities.
    I would just submit that there may even be a more important 
consideration in a setting where the enemy doesn't operate in 
ways that are consistent with the traditional laws of war. I 
know the ``laws of war'' phrase has a sort of dissonant ring 
about it, because war seems to be against the law, but when you 
are involved in surreptitious and covert attacks on innocent 
civilians and their lives, sometimes judicial proceedings which 
lay things out may not be in the best interests of security 
during the time of the conflict. That is one of the reasons.
    These are tough issues to be balanced. I thank you for 
allowing me to say this. We are not discussing someone held by 
the Justice Department, but I need to take responsibility. It 
is my responsibility to provide a legal framework and context 
in which detentions are understood and sustained. The right of 
the President to conduct the defense of this Nation in the time 
of war is something upon which I give counsel and which I work 
to defend, and that encompasses this area.
    So, I don't mean to repudiate; in fact, I endorse the 
President's activities here.
    Mr. Wolf. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman, and thank you for 
allowing some of us to proceed.

                   DRUG DIVERSION/OXYCONTIN PROBLEMS

    General Ashcroft, welcome to our hearing room again. We 
thank you for being here with us.
    Since we met last year at this time, we have had an 
unfortunate set of circumstances in my area of the State and 
country. As I left home Monday of this week, a young 21-year-
old former prom king in his high school, star student, stood in 
the county courthouse and pled guilty to the assassination of 
my sheriff at a political rally last spring, hooked on 
OxyContin, he said.
    I had to speak at the--give the eulogy for this great 18-
year sheriff of my county, a very popular figure, and I had to 
try to console some 2,000 people, law enforcement people, from 
all over the country, because he was a widely respected and 
highly loved sheriff.
    And we didn't know at the time what had motivated this 
young man to assassinate the sheriff from the bushes at a 
political rally picnic. Now we know it was OxyContin.
    There was a series of articles in the State--in the 
Lexington newspaper over the last several months now, front 
page, enormous stories about the scourge of mainly diverted 
drugs that has absolutely swept my district and the eastern 
half of Kentucky. It is unprecedented. Nothing like this has 
ever happened. Every day there is a story in the paper about 
some kid dying or some doctor under indictment for diverting 
enormous quantities of this highly addictive OxyContin drug, 
which is a great pain reliever for those who are severely in 
pain, but whose 24-hour capsule can be consolidated and quickly 
taken in a quick dose for an enormous high.
    You and I talked about this last year. I appreciate the 
fact that in 2003 you requested a significant increase, $24.5 
million, for the drug diversion account. I don't see that, 
however, requested in the 2004 submission. I am very 
disappointed. This is an enormous problem. It is not just my 
area. OxyContin has been linked to more than 100 deaths in 
southern New Jersey and Philadelphia in the last 2 years. In 
the first half of the year, 54 people died in Palm Beach 
County, Florida, of oxycodone. In Virginia, Mr. Chairman, 49 
people died in the 18 months from January 2000 to June 2001, 
direct result of oxycodone intoxication.
    I could go on. It is a huge problem, and it is killing 
people. This is not a--I mean, I am against marijuana, too, but 
we have spent so much money eradicating marijuana, which I 
support, and we are spending pennies on things that kill you. 
And I don't see in your budget submission anything that would 
address this horrific problem.
    There was a newspaper article in the Monday newspaper as I 
left home coming up here of a doctor in northern Kentucky who 
was being disciplined by the State medical association for 
dispensing OxyContin pills by the truckload.
    And so it is not just a law enforcement problem. It is--the 
medical profession bears some huge responsibility here. But 
trying to assess blame at this point is not my choice. My 
concern is that with the shifting of the FBI duties from 
counternarcotics to homeland security, which we have to have, 
obviously, I am just wondering how we are going to fill the 
void that is being left there of the inability to prosecute 
these killers.
    I mean, OxyContin will kill you just like a terrorist will. 
And, unfortunately, it is the younger people who are getting 
hooked on this stuff and killing and dying, and the crime rate 
is soaring because they will do anything to get this drug.
    Can you help me out?
    Attorney General Ashcroft. Well, let me just say to you 
that this is not something that we take lightly at all. The 
2004 budget does include the increase that was proposed by the 
President in 2003. We want to devote our efforts to crippling 
the organizations that work in the area of OxyContin. I think 
you know some of these. The Operation Cotton Candy, an ongoing 
investigation begun in December of 2001; the investigation of a 
distribution organization in northern Virginia, responsible for 
the distribution of over 2 million dosage units and other 
prescription drugs with a street value of over $18 million 
resulted in some guilty pleas. That is an example of one that 
has been successful, 19 guilty pleas, over 2,000 dosage units.

              DIVERSION OF RESOURCES TO HOMELAND SECURITY

    Mr. Rogers. Let me interrupt you, Mr. General. I want you 
to be able to give us your complete statement. I am not really 
driving at numbers here. My experience has been--and the 
newspaper analysis that has been done, and the series in the 
Lexington Herald Leader was a good series, well investigated, 
well documented--perverse, widespread use of this drug.
    And it was not being distributed by a huge organization. 
These are people who perhaps were in a car wreck, and the 
doctor prescribed OxyContin as a pain reliever, and they became 
addicted to it, and they couldn't get off the addiction when 
the wreck injury healed itself. And they will do anything to 
get the drug. So they go out and rob a store or double-fill a 
prescription at a pharmacy that is not quite on the up and up. 
These are individuals by and large. It is not a huge 
organization that is doing this, I don't think.
    And my problem is, we have diverted so much of the FBI's 
budget now to counter--to homeland defense, which we must do, 
we have left an enormous void in the ability of Federal law 
enforcement to be able to get at these--this problem that we 
are infested with.
    It is not just my area. It is not just OxyContin. The meth 
labs are taking over as well. And I am worried that we are not 
filling the void that we created when we shifted FBI to 
homeland defense. Do you feel okay by that?
    Attorney General Ashcroft. Well, let me just say that there 
are those cases where individuals become addicted as a result 
of prescriptions. There are lots of other cases where this drug 
is being made available. We are trying to attack this on 
multiple levels. Mitchell Wall, the head of a criminal 
organization in Maine and New Hampshire, was sentenced to life 
imprisonment because his distribution network resulted in 
people dying. So it is being taken seriously on the 
distribution network level.
    Let me address this problem that you have raised, which is 
an important consideration. That is, that as we have devoted 
resources to counter the threat of terrorism, we have to make 
sure that we don't leave an anemic capacity behind in dealing 
with these other problems.
    The fiscal year 2003 enacted appropriation and the fiscal 
year 2004 budget request include a total of 449 new DEA 
agents--216 new DEA agents from 2003, that is 233 from 2004. So 
we are trying to build back the capacity in terms of anything 
that has been diverted. You are talking mainly diversion in the 
FBI. We take these matters seriously.
    We are working to allocate our resources more effectively 
as well, but we believe that OxyContin is one of the most 
serious threats. It was at one time sort of an Eastern, east of 
the Mississippi, threat. It spread. There are major problems in 
St. Louis, major problems in other areas of the country where 
we have had reports of its use.
    Mr. Rogers. Well, the 2003 budget request that we discussed 
with you last year at this time did propose a significant 
increase, as I mentioned. You increased the drug diversion 
account, which is the one that the DEA uses to prevent, detect 
and investigate the diversion of prescription drugs and all 
controlled substances, particularly OxyContin. You increased 
that last year for DEA.
    But, the 2004 budget you did not--you included that amount, 
you started out at that level, but there was no further 
increase in the drug diversion request. And the problem since 
that time has grown enormously, and I am troubled that we--you 
did not request more money for that particular account in DEA. 
So you will understand when we look at your budget request here 
that that is of uppermost importance to some of us.
    Attorney General Ashcroft. Indeed.

                 IMPACT OF PROPOSED ``REALITY'' TV SHOW

    Mr. Rogers. Now, quickly, Mr. Chairman, I wanted to cover 
another subject, and I will do it hopefully briefly so others 
can have time. And I don't want to be parochial entirely today, 
but I feel on this one I must. And I don't know what I am going 
to ask you to do here. I don't know that you can do anything.
    CBS Television is advertising in all of Appalachia to find 
a hillbilly couple that they can take to Hollywood and put them 
up in a Beverly Hillbillies redo.
    Attorney General Ashcroft. The Clampetts?
    Mr. Rogers. Yes. And expose them to the new world that is 
out there. Now, if you took--if you--if CBS advertised in New 
York City for a Puerto Rican couple to take to Hollywood----
    Mr. Serrano. Personal privilege.
    Mr. Rogers [continuing]. And poked fun at, or a Jewish 
person in Miami, or an African American in Alabama, and you 
were going to expose them and ridicule them, poke fun at them 
in that situation, why the Nation's press would go crazy, 
rightly so.
    But then you advertise for a person from the Appalachian 
region, who, per capita, furnished more volunteers in the 
service of our Nation's military than any other part of the 
country. You take those people out there and poke fun at them, 
and no one says a word.
    Now, I have written the President of CBS, Mr. Leslie 
Moonves. I want to give you a copy of the letter, and for the 
record as well.
    Mr. Rogers. We have been working in our region to improve 
ourselves. We are making great progress. In my area of the 
State, and I represent an Appalachian region, I am a life-long 
resident of Appalachia, we are now recruiting higher-tech 
businesses in there to employ hundreds of people.We have had to 
move out over the years to the bigger cities in the north 
because we didn't have the jobs. We have reversed that now. The 
census now shows we are gaining population and we are doing 
good things. I even call my area Silicone Hollow.
    But you would never know that from this proposed program of 
CBS. And I say in the letter: Despite the progress we have 
made, many people, including you, Mr. Moonves, continue to 
believe the long since outdated and erroneous stereotype that 
Appalachians are lazy, uneducated, barefooted hicks. Making 
matters even worse, your network now seeks to reinforce this 
grossly inaccurate stereotype and present it to the world as, 
quote, reality.
    Quote, this show is a slap in the face to all that we have 
accomplished and threatens the positive progress and momentum 
that have taken years to create. Most significantly, it will 
seriously damage the image of our region and our tourism 
efforts, which are critical to economic development and job 
creation.
    I can go on.
    Now, I realize you probably can't do anything about this, 
but does it smack you as being discriminatory, or does it have 
any elements of violations of civil rights or something like 
that?
    Attorney General Ashcroft. Congressman, I have trouble 
maintaining responsibility for my own conduct let alone that of 
CBS; I am pleased to say that that is not something which I 
would endorse in any way. I regret that you have to come to the 
committee with an item like that, but I don't--believe that 
what you have described to me is a matter that the Justice 
Department can address.
    Mr. Rogers. No, and I didn't expect you to do that. But 
being the Nation's chief law enforcement officer and a moral 
leader, I think this may fall in the--in your--in that category 
of----
    Attorney General Ashcroft. It is pretty close to the 
Ozarks.
    Mr. Rogers. What if they took a couple from the Ozarks and 
poked fun at them? Would you feel differently?
    Attorney General Ashcroft. Well, CBS has poked fun at me 
before, and as long as they leave my wife out of it, I will 
consider it a win.
    Mr. Rogers. Well, I thank you for listening to me on this, 
and I hope you understand my outrage at the vast wasteland that 
is public--commercial television these days. I am afraid that--
well, I won't say that.
    Mr. Chairman, thank you so much.
    Mr. Wolf. I thank you, Mr. Rogers, and I share your 
concern, too.
    Mr. Kennedy.
    Mr. Kennedy. Thank you, Mr. Chairman.

                   CUTS TO JUVENILE JUSTICE PROGRAMS

    Welcome, Mr. Attorney General. And I had a couple of 
different questions on a couple of different lines of thinking. 
One, I didn't know whether you wanted to comment on this 
morning's New York Times article that pointed to the fact that 
the FBI was not, in the view of the woman that kind of reported 
some of the problems of 9/11, ready for, prepared for--Colleen 
Rowley, I think it was. I will give you a chance to comment on 
that if you haven't already.
    But I wanted to go through a couple of specific things with 
the budget first, if I could.
    Office of Juvenile Justice and Delinquency Prevention, 
which, you know, the Justice Department, which now bears the 
name of my late uncle, Attorney General Robert Kennedy, he was 
a major part of that creation of the Office of Juvenile Justice 
and Delinquency Prevention with believing firmly that 
prevention could really help save people's lives and keep 
people from suffering unduly from crime because of the 
investments that would be made to keep kids out of situations 
where they might otherwise get caught up in violence and drugs 
and the like. And, unfortunately, that block grant, which I 
know has been retitled JAIBG, has been totally eliminated from 
what I can see. And Title 5 funding, which also deals with 
prevention funds, has been cut 18 million below your 2003 
request.
    So I understand the war on terrorism, you know, taking 
precedence, and I--I appreciate that. I just wanted to get your 
feeling as to what we are going to do to help keep these 
investments and prevention going, and how you feel that they 
have paid off, whether you feel that they have paid off or not. 
Maybe in your view they haven't done what they need to do, and 
maybe you have some other ideas as to what we can do to help to 
address juvenile crime so that we can--I will just give you an 
example.
    In my State we have a family court judge, Chief Jeremiah, 
who goes around and sits in every school, brings the kids who 
were delinquent, brings their families in, and asks them why 
they are delinquent, puts the heat on them, and you know what? 
They have increased overall attendance in each of those schools 
that these judges visit.
    Just as an example, you know that delinquency, when you 
look at the trajectory, often leads to other----
    Attorney General Ashcroft. Truancy.
    Mr. Kennedy. Truancy leads to other problems down the road. 
So what I am saying is that kids, hopefully they are malleable 
enough that we can keep them from going into a life of hard 
crime.
    What are we doing in light of the fact that the OJJDP, 
which was the original program, has since been cut from what 
was $250 million to zero, and that Title 5 funding, which goes 
in to help in prevention programs, has been cut by $30 million 
below the 2003 budget?
    Attorney General Ashcroft. The President's 2004 budget, 
which was submitted prior to the enactment of the 2003 fiscal 
year appropriation, the President's proposed appropriation for 
Title V is funded above the 2003 appropriation was. I think 
that recognizes the fact that we would like to----
    Mr. Kennedy. I appreciate that Congress in the omnibus bill 
did not appropriate the necessary dollars, but previous 
Congresses had approved over $97 million, and I would compare 
that as well. So that is the point I want to make.
    Attorney General Ashcroft. Well, I would guess--I hope that 
we learned something from the previous opportunities we have 
had. This takes us a little bit to the philosophy of what 
Federal programs are for: to introduce us to innovative and 
creative things like your judge who decided to intervene early, 
to change behavior early. In many respects, the Federal role is 
to help introduce communities to opportunities that can be 
fulfilled by the communities in their responsibility for this.
    I hope that in the programs we have had in the past, that 
we will have learned that there are things that we can do that 
make a difference. Obviously the submission by this 
administration would provide more funding next year than we had 
during this year.
    Mr. Kennedy. Well, I look forward to working with your 
Department, your office on what exactly--what kinds of things 
you are looking forward to doing in the years ahead. Given the 
fact that, as you know, this is a constant scenario where we 
can avoid crime, and given the fact that we have more per 
capita than any other industrialized country of people in jail, 
it should concern us as a Nation that we are not doing enough 
to prevent crime, that we are only patching up after the crime 
happens, which, of course, leaves many families victims. We 
should try to prevent those families from ever seeing their 
loved ones be victims of crime by investing more in prevention.

                           CAPITAL PUNISHMENT

    And in that regard, with regard to your policy on the death 
penalty and overriding different States, I mean, you just said 
that you are interested in--this administration is interested 
in States having some of their own views upheld and 
appreciated, but that is not the case with your view of the 
death penalty. You have tried to override by recommending to 
your prosecutors that even in places where they have chosen not 
to seek the death penalty, that they are to seek it anyway, 
even though it costs, as you know, a great deal more to impose 
the death penalty as compared to life without parole.
    And if you think of all of those, let alone all of the 
arguments that you found within your own Department that it 
makes it very difficult for plea bargains that could otherwise 
be used to help avert further crime, aside from all of that, it 
costs so much more, and all of that extra money is not, you 
know, is not falling off the tables here. And if you point to 
the fact that just for this Title 5 prevention, we could use 
that other money that otherwise goes to all of those trials and 
continuances and appeals for those death penalty cases, against 
the wishes of the local States, in which they are asked to 
enforce these death penalty cases, and you could put all of 
those moneys into prevention.
    I would be interested in what your response is to that.
    Attorney General Ashcroft. I am very pleased to have an 
opportunity to respond. The Federal Government has enacted, 
this Congress, as the President has--not this particular 
Congress, but Congress as an institution has--and the President 
has signed into law a capital--a set of capital sanctions for a 
variety of infractions of the law.
    Mr. Kennedy. Right.
    Attorney General Ashcroft. As part of that, they have 
mandated that the Attorney General be a part of every decision, 
with a singular, I believe, purpose in mind, and that is to 
make sure that we had a Federal law. If you are going to have a 
Federal law, you should have some uniformity. A Federal law 
shouldn't be one set of penalties in one part of the country 
and another set of penalties in another part of the country.
    Attorney General Ashcroft. Now, State laws should have the 
ability to be varied. But, if you are going to have a Federal 
law, I think the Congress reasonably decided that we shouldn't 
have capital punishment for some part of the country and not 
capital punishment for another, or for some group of people in 
the country and not another. We don't want racial disparity.
    Mr. Kennedy. I like where you are going with this, Mr. 
Attorney General. Believe it or not, I like it.
    Attorney General Ashcroft. Well, good. The point is this: 
It is the law. So the Federal Government does not allow for the 
repeal of the death penalty in various States because a State 
doesn't like the death penalty. If the Congress of the United 
States wants to have a Federal law that includes the death 
penalty, and it sets up a mechanism where it says to the 
Attorney General, we want you to oversee this so it is not 
enforced in a disparate way, so that it is not enforced with 
economic disparity, ethnic disparity, or geographic disparity, 
but so that there is uniformity, because this is one Nation 
that should have a uniform deal, when the Attorney General has 
that responsibility, I accept that responsibility because it is 
part of the law.
    We have at the Justice Department what is called a capital 
case review committee to say--for laws which are chargeable 
under the Federal law which are capital eligible--that there 
should be some sense in which the law is the same in various 
parts of the country, because it is a national law. It is not a 
State law, it is not a municipal ordinance, this is something 
that was passed by the Congress. If we have equal justice for 
people across the country, equal justice should mean they are 
subject to equal penalties and similar penalties. It is with 
that in mind that I have done what every Attorney General has 
who has followed the law on this--and that is to have a review 
committee that says to local prosecutors--very frankly this 
isn't designed for a law that reflects the locality. The 
Congress of the United States enacted this law as a Federal 
law, and it is designed to reflect the will of America as a 
whole. And there should be some fairness, some equal 
application across America as a whole, with liberty and justice 
and equal justice for all. And that means that the penalties 
have to be equal.
    So my view is that this is my responsibility. I have sworn 
to uphold the law. It is one of the jobs that Congress has 
asked me to undertake. And I do it with that in mind. If I were 
to somehow say that law should be equally enforced and I had to 
respect the right of some district, some State, to say there 
would be no death penalty, in order to make things equal with 
that I would have to, by my own activity, abolish the death 
penalty in the face of the law that the Congress had said we 
should have a death penalty.
    Mr. Kennedy. All right.
    Attorney General Ashcroft. I don't think that is why I took 
my oath of office. I don't think that is my responsibility. I 
think my responsibility is spelled out in the law to try and 
fairly make sure we have an approach to this that gives a sense 
of equality and uniformity to the law across the country in 
accordance with the will of the Congress.

                 DISPARITY IN DEATH PENALTY SENTENCING

    Mr. Kennedy. Thank you, Mr. Attorney General. Given that 
being your feeling, and you do not like to see any disparity, 
groups be treated inequitably, then what is your response to 
the former Attorney General Janet Reno's full investigation and 
study that reveals that there are great disparities in the 
application of the death penalty throughout this country; that 
predominantly African Americans and Latinos and minorities 
overwhelmingly represent the highest percentage of those who 
receive capital punishment, and that if you happen to be coming 
from the South, your chances of getting sentenced to death are 
quadrupled if you happen to commit that same crime in the 
North. And your chief job is to make sure the law is followed 
equitably around the country, then what is your response to 
that, Mr. Attorney General?
    Attorney General Ashcroft. My job is to make sure that the 
Federal law is imposed with a sense of uniformity and fairness.
    Mr. Kennedy. Okay. In New England we are not giving people 
death, but we are doing it down south; so, hey, just to make 
things equal, we ought to make sure we fry them everywhere.
    Attorney General Ashcroft. Congressman, I would like for 
you to let me finish this answer, because I think you are 
talking about State cases and Federal cases and studies that 
may have mixed the kinds of cases. The studies done by the 
Justice Department don't reveal the kind of prejudice you 
indicate. I am not prepared to comment on the cases that are 
not Federal cases. That is not my responsibility and 
jurisdiction.
    The studies, I believe, done by my predecessor and 
certainly those that have been done in the Department regarding 
activity that happened during the time of my predecessor and 
goes into my opportunity to serve the American people in this 
job, indicate that we don't have an improper disparity as 
relates to race or geography. That is one of the things we are 
trying to avoid.
    Mr. Kennedy. You do have the charge of overseeing people's 
civil rights. And, clearly, even though this is a State system, 
like you point out, you have a responsibility to make sure the 
States don't violate people's civil rights as protected under 
the Constitution, one.
    Two, in the Federal system, you and I both know that Native 
American lands are entirely in the Federal system and Native 
Americans as a group suffer disproportionately as a result of 
that from all Federal crimes, and there are other instances 
like that. So to think that other studies have been done--the 
fact is the evidence of this is so overwhelming, to hear you 
say as the chief law enforcement officer, as the enforcer of 
justice in this country, that that is not your job, that your 
job is a narrow ``whatever Congress tells me on the Federal 
law,'' in spite of the fact that we are the laughing stock of 
the world for our barbaric approach to the death penalty, aside 
from the fact that every single person in this country that has 
been studying the death penalty sees that it is 
disproportionately impacting minorities, you say that is not 
your job.
    And I don't know, and actually Mr. Rogers who was here 
earlier is unsettled by the fact that people in his area may be 
singled out, I don't think it is much conciliation to African 
Americans who may be listening to this, or Latinos, that you 
are going to say to them that that is not your business as the 
head of the Department of Justice of this country to look into 
the gross disparities in the application of the death penalty. 
I don't know if you want to settle for that answer, if that 
will be your answer, fine, but I don't know if that is going.
    Attorney General Ashcroft. Congressman, it never was my 
answer.
    Mr. Kennedy. Tell me what your answer is.
    Attorney General Ashcroft. My answer, as it relates to my 
responsibility to oversee the Federal system, I have made these 
judgments. I would particularly like to ask the Chairman if I 
may disassociate myself with his statements of what my answers 
are so that I may give my own.
    Mr. Wolf. Sure. Without objection.
    Attorney General Ashcroft. I would be happy to answer the 
questions, but I do not want the answers ascribed to me to be 
considered my answers, when in fact they are not.
    Mr. Wolf. Right.
    Mr. Kennedy. Well, then, will you give your answer?
    Attorney General Ashcroft. Well, my answer is that as it 
relates to my responsibility imposed by the law for me to work 
to see to it that there is not a disparity in the imposition of 
the death penalty at the Federal level. In the Federal system I 
have exercised my responsibility to see to it there is 
uniformity. As we have reviewed that and that has been 
reviewed, not only the performance of that in my setting but 
also in the setting of my predecessors--We have found that it 
has not been disparate in the way it has been approached.
    I would be happy to supply to this committee documentation 
of that which is done in a scholarly way and done in an 
independent way which reflects the quality of the 
implementation of the law at the Federal level.
    Mr. Wolf. Without objection, we can put that in at this 
point.
    Mr. Kennedy. Mr. Chairman, I would like for the record 
Attorney General Reno's study that she has submitted to the 
Congress before you took the office of the Attorney General, 
describing how in the Federal system there were inequities in 
the Federal system in terms of the number of people represented 
in the Federal system as opposed to their population, 
percentage of the population nationwide. And that was the--
Attorney General Reno's commission prior, I think, Mr. 
Ashcroft, to your coming in. But I don't imagine it is a whole 
lot different than it is today, although I hope it is.
    Attorney General Ashcroft. I will be happy to provide the 
studies done by the Justice Department historically. And I 
think I would be very pleased for the committee to make its own 
judgments about the conclusions that the studies have made.
    Mr. Wolf. We will do that. We will include both or any 
other that you submit for that.
    [The information follows:]

                  Recent Federal Death Penalty Studies

    The Department of Justice is providing studies on the Federal Death 
Penalty requested by the House Appropriations Subcommittee and 
Representative Kennedy at the March 6, 2003 hearing. These studies 
represent the historical surveys, analysis, and revised protocols 
prepared by the Department on the Federal Death Penalty system.
    Due to the significant size of these studies, they are not included 
in this hearing volume. Instead, the titles are listed below for 
reference:
    The Federal Death Penalty System, A Statistical Survey (1988-2000), 
United States Department of Justice, September 12, 2000.
    The Federal Death Penalty System: Supplementary Data, Analysis and 
Revised Protocols for Capital Case Review, United States Department of 
Justice, June 6, 2001.

    Mr. Kennedy. If I could submit the rest of my questions for 
the records.
    Mr. Wolf. You are welcome to. Since I have been Chairman of 
this committee and the other one I have never used a gavel. We 
obviously would, you know, have to move on.
    Mr. Kennedy. I am sure others will ask questions about the 
COPS program.
    Mr. Serrano. The gavel questions.
    Mr. Kennedy. The gavel questions, right.
    Mr. Wolf. Mr. Sweeney.
    Mr. Sweeney. Thank you, Mr. Chairman. Welcome, Attorney 
General Ashcroft. I have a number of questions I as well will 
submit for the record.
    Mr. Wolf. Without objection.
    Mr. Sweeney. And they involve issues of drug interdiction 
policy and preventing crimes against children, the Federal 
detention system, and the identity theft bill that I have 
introduced that I am interested in talking to your staff and to 
you about, sale of dietary supplements that I believe you may 
share an interest in some of those. But I am going to limit my 
questions because for some of us time is of the essence in 
terms of transportation needs, and focus specifically on the 
post-September the 11th world and back on to the war on terror 
and homeland security issues.
    I sought appointment to a number of committees, was lucky 
enough to be selected and appointed to this committee in part 
because of the jurisdictional issues relative to the Justice 
Department, as well as the Subcommittee on Homeland Security, 
as well as the Select Committee on Homeland Security, and in 
part did that in a macro sense because I am quite concerned 
about our capabilities in the progress that we make and how 
critical I believe the progress we need to make is in ensuring 
that the intergovernment communications system that is 
established is sound and universal.
    I was happy just prior to coming into the hearing to go to 
an organization meeting of the Subcommittee on Homeland 
Security where Chairman Rogers laid out a wide breadth of 
agenda items and included at the top of that list this idea 
that we needed to work hard on our internal capabilities to 
make sure that there was a common architecture in terms of the 
various entities. And it is somewhat cumbersome, or clumsy 
anyway in its design, that we have homeland security in one 
place and intelligence gathering and enforcement capacity 
somewhere else. But I recognized the depth of the challenge 
that we were going to face last year, in just forming a 
Homeland Security Department and concept, that maybe these are 
questions, in terms of the integration under one roof, better 
left for another time.

                     TERRORISM INFORMATION SHARING

    In two parts I want to say something and really just get 
your broad response to: One is, recently some Members of the 
Senate concluded that the FBI had failed to take advantage of 
some of the sweeping investigative powers that Congress 
afforded them and that--essentially saying the FBI and Justice 
Department had sometimes confused the basic elements of the 
law. And specifically they pointed to the need for 
strengthening, or the lack of strengthening of information 
sharing as it related to counterintelligence efforts. And 
allegations that the FBI--and I hear this still frequently and 
I think it is part of the two faces of the culture relative to 
the FBI--that the FBI is still not as cooperative as it needs 
to be in informing, be they first responders, or really working 
with other Federal entities out there.
    And I see in your testimony--this is the second part of 
it--that you have allocated 72 positions and $4.4 million to 
enhance policies to develop and disseminate intelligence 
information reports. My question, fundamentally: Is this 
enough? What is the time line that you envision? And most 
specifically, have there been extra efforts to look at the 
timeliness in delivery? You know, the intelligence information 
gathered pre-September the 11th, 2001, that has come to light 
since that time was of little use because of the timeliness 
issue. And I ask the question in part to emphasize the concern 
of Congress that you and your partners in the Federal 
Government spent a lot of time focusing on that particular 
point. If you could answer that, I have a second question 
relative in terms to that I would like to ask.
    Attorney General Ashcroft. First of all, this is a profound 
question that goes to the heart of readiness and prevention. 
When it comes to prosecution, you can take your time in 
assembling information. When it comes to prevention, time is of 
the essence. And there are so many of these things, you have 
gone through a broad range of things, and I just jotted down 
about seven or eight notes and I could talk for a while on all 
of them.
    Having the information subject to analysis at a central 
location that has all the information and not just parts of 
it--because you may not recognize it is a dog if you see just 
the leg, but if you see a leg and a muzzle and an ear, and see 
a trunk--you can say that is a dog. I hope that was clear.

                  TERRORIST THREAT INTEGRATION CENTER

    The President has recently convened what is called the 
Terrorist Threat Integration Center, which is designed to make 
available to analysts in all of the Intelligence Community the 
information developed in all the other parts of the 
Intelligence Community. You have a place where you could have 
an integrated analysis that can touch all of the information.
    Mr. Sweeney. I don't mean to interrupt you but, as I 
understand, that will be housed in the CIA.
    Attorney General Ashcroft. It will be initially housed in 
the CIA. Subsequently this will be stood up in an area where 
the counterterrorism unit of the FBI will be associated with it 
and a counterterrorism unit of the CIA will be associated with 
it. And the information from all, a number of other agencies, 
Homeland Security will also have a place at that table. And at 
that central location they will be able to move into all the 
databanks. That is very important.
    Secondly, the FBI which has historically been a case-
oriented organization so that an office in some part of the 
country would be working on a case and a set of facts. It would 
be a hard copy case and not necessarily available, that 
information, in some other part of the country--and it is very 
important to know has going on. You might see things that are 
related in the development of its information technology--it is 
now building a virtual case electronic data management system 
so that cases are kept in an electronic file, so that all the 
information available anywhere is available everywhere. So you 
coordinate that into the CIA-type system.
    The FBI has changed dramatically. We are dealing with a new 
FBI. Never before has the FBI done what is called report 
writing. I have to explain this. They haven't taken their 
intelligence and stripped out the sources and methods of 
developing the intelligence so then they can take the 
information from their investigation and put it in a central 
bank or in a place where it should be available to other 
resources. Sources and methods frequently should not be 
compromised. The FBI is embracing that new approach, which has 
been an approach of the CIA for a long time.
    As we make these changes in process and make these changes 
in structure, we assemble the sort of critical mass of the 
availability as the basis for analysis to be for Homeland 
Security, the Defense Department, the Intelligence Community, 
the law enforcement community, together at the Threat 
Integration Center. That is a very important thing.
    That means that the wall we once had between the 
enforcement community and the Intelligence Community will not 
keep us from sharing that information.

                    FBI INFORMATION SHARING SYSTEMS

    Let me add two other things. The FBI understands that we 
not only need to have coordination between agencies at the 
Federal level--and the administration does in the TTIC or the 
Terrorist Threat Integration Center--but we have to have the 
participation of people all the way down to those who have 
their feet on the street, the law enforcement officials. The 
FBI is in the process of creating information sharing systems. 
One is known as Gateway. It is a pilot project in St. Louis. 
Another in San Diego, where we literally begin having shared 
information with local authorities as well. And by the end of 
this year we should train a total of over 40,000 local 
officials in using that kind of integrated approach.
    We not only need a horizontal sharing at the Federal level, 
we need a vertical sharing that takes us down to information on 
the street. These local law enforcement officials who are 
participants in the antiterrorism Task Forces and the Joint 
Terrorism Task Forces at the local level are participants in 
the information flow.
    These are the kinds of things which make it possible, 
especially with the new data processing technology, for 
information to be available at the same time it is discovered, 
virtually at the same time of discovery, to all the agencies. 
This is the timeliness thing. It used to take a while for an 
agency to process the information and then make a decision 
whether it was eligible to throw the information over the 
barriers that had been erected between law enforcement and 
intelligence. You all have helped bring that barrier down. The 
FISA court of review in its first-ever judgment on a FISA 
appeal brought that barrier down. Now we have a structure which 
can utilize the information developed in these various places.
    I want to bring to your attention one or two important 
points about the capacity of law enforcement to develop 
intelligence. We think of law enforcement as being 
prosecutorial rather than preventional. But in important cases, 
the process of prosecution and even the continuity of detention 
provides a basis for enhanced intelligence.
    There was an individual named Rassam who came--was 
intercepted coming from Canada to the United States at the 
millennium change. He is known as the Millennium Bomber. He is 
now serving time in the Federal Penitentiary. He has decided he 
wants to cooperate in an effort that his life sentence is some 
time, something less than life. This process of people who 
decide they want to cooperate as they are a part of the 
prosecution and law enforcement system is a big opportunity for 
us to get information regarding terrorism. His cooperation is 
important.
    We have an individual who pled guilty out of the Buffalo 
cell. His sentence was 10 years, but it is understood in the 
court that if he cooperates and is very helpful to the United 
States it could be reduced but not below 7. The interval set 
was between 10 and 7 years; that individual providing that kind 
of cooperation can reduce the kind of impact that the sentence 
has on him.
    That capacity to elicit information and to enhance our 
intelligence gathering from those who have been directly 
associated with terrorism is important. So that is sort of an 
extra that I throw into this information system. The 
Intelligence Community and the law enforcement community can 
benefit from the fact that they are integrated. This whole idea 
of having the Terrorist Threat Integration Center an equal 
mutual access jointly on a contemporaneous basis to information 
is the strategy that we have that we believe best achieves the 
prevention objective, which is the overwhelming number one 
objective in terrorism.
    Mr. Sweeney. I would agree with you. Let me reemphasize the 
point the common architecture is largely what we will all be 
judged on in terms of our success. You have highlighted great 
plans. And I am still interested and will continue to ask 
questions on what we are doing on the Federal level, whether 
these changes are incremental, and what the progress is on 
them. And I will recognize, as you reported earlier, that we 
have had some terrific success. We have built a system--we have 
begun to build a system from the ground up and it is critical 
that we move forward in a contemplative way, and it really will 
be our most important service.

                   TERRORIST FINANCIAL INVESTIGATIONS

    Let me finish with this question regarding the indictments 
of two Yemeni businessmen who have allegedly supported with 
arms and financial support the al Qaeda network. Do you believe 
there are many more instances such as those occurring on U.S. 
soil? And do you have adequate funds in this proposal to pursue 
cases like that? And how will that progress, how will that fit 
into the overall system and structure?
    Attorney General Ashcroft. We believe that the disruption 
of the financial resources of the terrorist network is a very 
important thing. And in addition to the apprehension of Khalid 
Sheikh Mohammed, we believe an individual apprehended with him 
was an important component of the financial resource network. 
Our ability to interdict people like Al-Moayad, whose 
indictment was unsealed 2 days ago, and his accomplice was a 
result of outstanding FBI work with human resources, as well as 
surveillance techniques, undercover activity and international 
cooperation with the Germans who were very helpful to us in 
this matter. We believe that is very important.
    I believe that the request we have made will allow us to do 
those things that are necessary in this arena to continue to 
make progress. We look forward to a continuing and expanding 
effort to interdict their resources. Obviously as the flow is 
curtailed, things will be harder and harder to find. But as the 
flow is curtailed we will also make it harder and harder for 
terrorists to operate.
    Mr. Sweeney. And there are more instances and thus the need 
to continue that----
    Attorney General Ashcroft. Yes.
    Mr. Sweeney [continuing]. That work.
    Attorney General Ashcroft. We believe that we have 
constricted the stem of nourishment to the so-called head of 
terrorism but we do not believe that we have choked it. And our 
effort is not only to pursue it on the battlefield but to 
pursue it in terms of financial institutions and in the arena 
of money transfers.
    Mr. Sweeney. Mr. Attorney General, thank you. Thank you, 
Mr. Chairman.
    Mr. Wolf. Before I recognize Mr. Kirk I want to say you are 
right about the FBI. I think you and Director Mueller have done 
an outstanding job. The criticism of the FBI that is being made 
by some individuals, some who may very well serve in the 
Congress and some outside, would be valid if you were talking 
about the FBI of 3 years ago. I think what has happened, the 
dramatic change, and I would urge all the Members as we--and I 
met with Director Mueller yesterday to bring up to the Hill and 
let the Members see Trilogy and some of the changes.
    I think the problem is you have been moving so fast, making 
so many changes--the FBI has been transforming itself, that it 
perhaps hasn't actually been explained to individuals--I know 
there was one Member of the other body who was very, very 
critical, and I happened to watch the other day--you and the 
Director were there, I caught 15 or 20 minutes of it, but that 
individual said he had been down to the FBI and he had seen 
what had been done. So the FBI has dramatically changed. The 
criticism, like I say, had it not changed the criticism would 
be valid if you were talking about the FBI 3 years ago. But the 
changes have been amazing. So I think you make a very good 
point.
    Mr. Wolf. Mr. Kolbe, I didn't know you were here when I 
said Mr. Kirk.
    Mr. Kolbe. That is fine.
    Mr. Wolf. If you can--whoever has the latest plane. Mr. 
Kirk.
    Mr. Kirk. First of all, thank my Ranking Democratic Member 
for mentioning the security of Waukegan, and I am equally 
concerned about the security of Brooklyn. I would note you were 
the author of a business law book, and we are all waiting for 
you to get the next edition out based on your new experience. 
We are here all completely----
    Attorney General Ashcroft. Don't hold your breath.
    Mr. Kirk. People are completely abuzz with the Jerusalem 
Post article saying that the President is going to announce the 
arrest of Osama bin Laden. And I know the White House has 
knocked that down.

                   INTERNATIONAL DRUG POLICY SUPPORT

    When we talk about other international threats, I am 
dealing with a threat from a unique part of Europe, as many 
other communities are, out of the Netherlands. And especially 
Belgium, the Ecstasy and other club drugs coming into the 
country. The drug policy of the Government of Belgium, I would 
guess, is not number one on Secretary Powell's agenda but would 
be much higher on your agenda since you folks are on the 
business end of this. And being the Federal law enforcement 
guy, the lax policy of the Government of Belgium with regard to 
Ecstasy and other club drugs is a real concern. And this is now 
surging into the suburban Chicago community, agricultural, 
direct from Belgium.
    Is there a way for you, inside the Cabinet, to raise this 
as a bilateral issue with the Government of Belgium and 
forcibly to say knock this off as an ally of the United States?
    Attorney General Ashcroft. May I just say to you that I 
have taken the matter up with individuals in Western Europe, 
the lowland countries, and in Belgium. And I raise this issue 
with them and bring it to their attention. It is a matter of 
grave concern to me, and I believe it is to my law enforcement 
counterparts there, that they have become to that extent a 
focal point for this evil. I will continue to do so. We have a 
responsibility in terms of doing what we can to interdict it 
and to prosecute those who distribute it. We are working hard 
to get that done. And it is not a responsibility solely of 
those who make the drug available. We are aware, you know. On 
February 27th, the DEA and the U.S. Customs Service seized 
40,000 MDMA tablets and arrested two individuals at Chicago's 
O'Hare International Airport. The Cook County sheriff's, police 
department concluded a 2-month investigation with three arrests 
during an undercover investigation on the 31st of January. 
There are two cases in less than 4 weeks from your area.
    We are facing that problem, we are targeting the delivery. 
This is not something--methamphetamine obviously is a problem, 
some of which is cooked up in the backyards of Americans. This 
is, by and large, a problem that comes through organized 
substantial groups and we are pursuing those groups with 
intensity.
    In November 2002, DEA, launched what is called Operation X-
Out. It is a multifaceted initiative to respond to the 
increasing threat of club drugs. It focuses on not just the 
organizations, but trying to do something in terms of demand 
reduction as well. We will work with you in every way possible. 
In DEA's raid of the State Palace Theater in New Orleans, a 
rave club, they used the crack house statute. That reduced the 
number of overdoses in that city significantly.
    We believe that enforcement makes a difference, obviously 
this is a very important effort to try and effect some 
interdiction at a source level which has been focused where you 
have mentioned.
    Mr. Kirk. I really appreciate what your folks are doing, 
and we are going to support their efforts both at the Bureau 
and at the DEA to take this on. But in many ways you are now 
the voice of those officers, that we could make their job a lot 
easier if the State Department worked harder in Belgium and the 
Netherlands.
    Attorney General Ashcroft. Well, you know, the terrorism 
situation has caused us to expand our relationships. We have 
learned that criminality and terror in particular don't respect 
the boundaries of nations, jurisdictions, or States. I have had 
to reach out on a number of bases that relate to the pressing 
concerns of terrorism, but our cooperation can also extend to 
drug interdiction. As of yesterday DEA had disrupted or 
dismantled 39 priority organizations trafficking in Ecstasy. 
There are 730 Ecstasy priority organizations that are currently 
under investigation. This is one of those problems, similar to 
that OxyContin problem that Congressman Wolf and Congressman 
Rogers have raised. It is just mushrooming and we are doing 
what we can to curtail it.
    Mr. Kirk. I want to thank you. Also I want to urge the 
continued support and the committee's support to understand we 
funded the Byrne grants, much of which supports the local law 
enforcement activity. The Illinois Drug Enforcement Officers 
Association contacted me about the Byrne grants. They are very 
happy with what this committee did and what Congress does on 
this. And that is critical. But as we fund your people and as 
we fund local law enforcement to cooperate with your people, I 
am hoping that we have a little heart to heart with our friends 
in the Hague and in Brussels about what they are shipping into 
our country.
    Thank you very much, Mr. Attorney General. Thank you.
    Mr. Wolf. Thank you, Mr. Kirk. Mr. Kolbe.

                              BORDER ISSUE

    Mr. Kolbe. Thank you, Mr. Chairman. General Ashcroft, thank 
you very much for your patience today with all these questions 
you have been getting. I want to ask a few questions, as you 
might expect, about border issues. I think it is just safe to 
say that our border security--and I ask these questions 
realizing that INS no longer is a part of Justice Department, 
but some of my questions relate to some Justice programs and 
particularly with prosecutions which still remain in Justice.
    I think, as an overall statement, I think it is safe to say 
that our border security is completely dysfunctional, it just 
isn't working at all. We are not apprehending people. We don't 
have any system for controlling the border. We don't have any 
system really for deciding how we should control the border. We 
don't have any plan for trying to control the flow of these 
people across the border by using guest worker or temporary 
worker visas and criteria. We have this just staggering problem 
of deaths of people along the border. The numbers--we have 
vandalism, we have environmental degradation, we have this 
balloon effect. As we push on one part of the border, it 
balloons out in another part of the border, and it happens to 
be in Arizona where it is all ballooning out. More 
apprehensions in Arizona than the rest of the southern border 
combined, almost all of those in my congressional district. It 
is really a nightmare.
    But the first question I have goes to the issue of the 
State Criminal Alien Assistance Program. When President Bush 
was Governor of Texas, he thought this was a very important 
program and believed that it was something that should be and 
was on record as demanding that the then Clinton administration 
fulfill its obligations to support States in the incarceration 
of undocumented aliens that were of foreign nationals in our 
State prisons. I believe that that is correct, that is a 
correct statement he made when he was Governor.
    My view is pretty simple: If someone comes into this 
country illegally or is a foreign national in this country, it 
is a Federal responsibility when that individual is 
incarcerated in a prison. And I believe the State government 
should be--State and local officials should be compensated for 
that cost. I am wondering if you could tell me why it is the 
view of the Justice Department or the administration that it is 
no longer a core responsibility of Justice to support this 
incarceration of people, who are criminals in the United 
States, in the local and State jails?
    Attorney General Ashcroft. Congressman Kolbe, the challenge 
of regulating the border is a very serious and difficult 
challenge. It is one which has been allocated to the Department 
of Homeland Security. But I will try and reflect in some 
measure upon the kinds of challenges you face.
    First of all, a substantial resource is being invested in 
trying to provide some order to the border. You are right; as 
enforcement efforts have increased and security has been 
developed at other points, it has had a diversionary effect, so 
that I believe Arizona is one of the places where we have 
increased difficulty instead of a regularized approach.
    The objective of the administration is to secure the border 
more effectively, to decrease the kinds of costs that are 
associated with a border that doesn't work well. Its efforts 
have been--our efforts have been a little at a time. We have 
recently provided for I think 18 new Federal judges, a number 
of them to be available on the southern border. Supporting new 
additional Federal resources in that respect, has supported 
some serious increases in the prosecution resources along the 
border; $50 million in the President's request this year for 
the Southwest Border Prosecution Program.
    All of these things are things that I think are steps in 
the right direction, but these things do not address your 
question about the SCAAP program. The SCAAP program is a 
program which is necessitated in part because we have not had 
the success in regulating the border that we should have had. 
We would hope that there would be less need for it as we 
improve our performance on the border.
    That is no longer a portfolio I control, but I believe that 
is the thinking behind the approach we have.
    Mr. Kolbe. Although I believe, as you know or may know, 
although the administration in 2003 requested no funds for 
that, the Congress did include $250 million for that program 
and I think that still is administered through Justice.
    Attorney General Ashcroft. SCAAP would be, but the other 
parts of the equation are out of our hands.

                 PROSECUTION AND INCARCERATION SUPPORT

    Mr. Kolbe. I understand that. So my question was 
specifically about SCAAP. Let me turn to the issue of the 
prosecutions there. I know funds have just been released so 
that there are some funds to help support the prosecution. But 
there is nothing for the support for--well, we have cut the 
incarceration in half. We don't have anything for the defense 
that is required for these individuals or the technical support 
that is required. Forty percent in Cochise County, which is one 
of the counties along the border, 40 percent of all the 
indicted felony drug defendants result from Federal referrals. 
These are people that are picked up at the border, picked up by 
Border Patrol, and simply turned over to the county for 
prosecution. Why should that be a responsibility when it is a 
Federal law enforcement agency that arrests these people? Why 
should it fall on Cochise County to prosecute and incarcerate 
that individual?
    Attorney General Ashcroft. The prosecution of crime is a 
shared responsibility around the country. Federal prosecutions 
and violations of Federal law that are within the capacity of 
U.S. Attorneys to prosecute are prosecuted by U.S. Attorneys, 
and things which are not within their capacity are frequently 
referred to the local governments. In the event there are local 
laws that proscribe the behavior or make it illegal, the 
reference is made to the local authorities for their 
prosecution if they choose to prosecute them.
    Obviously this is a very difficult situation because as a 
border State you are part of the protection for the entire 
country. I understand that when Arizona prosecutes such 
individuals, it serves America as well as the interests of 
Arizona. But the responsibility for prosecution of criminal 
matters under Federal law relates to the Federal prosecutors, 
and what they don't do in that respect they frequently refer to 
or make available to local prosecutors for their prosecution 
under State or local provisions.

                         PROSECUTION THRESHOLDS

    Mr. Kolbe. Should there be a common threshold? I realize 
the different U.S. Attorneys have different caseloads and 
responsibilities, but should there be a common threshold in 
terms of what gets referred? I know you don't like to publicize 
it, but we know--actually it has been public information, 
because information came to me from the county association, 
Border County Association, there is a different threshold in 
terms of how many pounds of marijuana have to be seized before 
it will be prosecuted in Arizona, and it is about five times 
the amount that it would be prosecuted in New Mexico where they 
have a smaller caseload, for example. Should there be some 
commonality in this?
    Attorney General Ashcroft. In my judgment, I think you have 
already hinted at it. I think it is bad policy to have an 
advertised threshold that says if you stay under this amount, 
you will never encounter the Federal officials, you will always 
be dealing with someone else because Federal officials don't 
care. I think we can ill afford to advertise that you are under 
the Federal radar if you are in a certain category.
    My own view is that our policy is best if it is not 
uniform--it is a little bit like security. If you take the same 
route home every time, you increase your risk. I think we 
should have a varying policy so that people can absolutely 
never be sure that they won't have to deal with the Federal 
Government.
    There is a second benefit to that, if the Federal 
authorities will occasionally at least vary, then if the State 
authorities pick someone up and they--as is frequently the 
case, don't want to deal with the Federal Government--the 
authorities can say, look, we are going to turn you over to the 
Federal authorities unless you decide you want to cooperate 
here, that becomes a bargaining tool. I know in 
methamphetamine--when I sat in the Senate I was sitting on your 
side of the table, I was asking your questions and trying to 
accept the answers I am now giving.
    Mr. Kolbe. Do they go down any easier? Never mind.
    Attorney General Ashcroft. You are doing as good a job as I 
ever hoped to do. I thought it helped negotiations of these and 
other things if we didn't have hard and fast thresholds stated 
at the Federal level so that State prosecutors had credible 
opportunity to use the leverage, if I may say it that way, in 
these cases.
    You asked another question about uniformity between one 
district and another. My problem with that is that I hate to 
drive every Federal prosecutor. If we have to have uniformity 
to the place where the law is enforced in the place where we 
have--at the level where we have the least resources to enforce 
it, instead of where we have--if you have better enforcement 
capacity somewhere, you ought to be able to take advantage of 
it.
    Mr. Kolbe. But your decision, the Federal prosecutor's 
decision is made with looking at the resources of that State as 
to whether or not they have the resources to take care of it.
    Attorney General Ashcroft. No, there is no question in my 
mind the Federal prosecutors make the judgments based on 
Federal resources, not on the State resources, and I should be 
clear about that. They are wonderful people but they are not so 
generous as to regard the plight of the others over the 
responsibilities they have themselves.
    Mr. Kolbe. So do you understand the problem I have got when 
in Arizona it is five times what it is in New Mexico? There is 
a much greater burden on the counties in Arizona who have to 
prosecute more.
    Attorney General Ashcroft. Not only is there a burden if 
there is a threshold in one area that is clearly stated that is 
higher than it is in another. It is an incentive for traffic to 
go to that area, and that is a very serious problem. And we 
need to do what we can to address that problem. We don't want 
to incentivize people to either manipulate their criminal 
activity to escape certain kinds of responsibility by knowing 
that in one area circumstances are one way and in another, 
another. We are not talking about variances in penalties here, 
we are just talking about the caseload which allows prosecutors 
to move forward. Prosecutors, whether they are state or 
Federal, have limits to what they can humanly carry to court, 
and the courts have limits to what they can process. You have 
told me already that prisons have limits as to what they can do 
for incarceration. So these are the kinds of fundamental 
challenges that we have to work together to face.

               RESPONSE TO LOCAL PROSECUTION DECLINATIONS

    Mr. Kolbe. Attorney General, I thank you for your honesty 
and candor and grappling with this issue and trying to address 
it. I have one last question in this same area. As you know, 
States are facing horrendous fiscal problems, all States. My 
State is certainly included in that. It is my understanding, at 
least in one local country in El Paso, the county declined to 
take any of the Federal referrals at all. And I know that from 
the Border Counties Association there is consideration all 
along the border of counties doing that, of simply saying we 
won't take any of these referrals.
    If that is the case and all of them are simply released at 
the border and put back on the other side, we won't say where, 
but if it is 398 pounds of marijuana and they are put back on 
the other side, what will be your response, the Justice 
Department response to that? Because I think this is a very 
real consideration because of the financial problems of the 
States which are now being pushed down to the counties; as you 
know, they are being pushed right back down to the counties, 
and I think this is a very real possibility.
    Attorney General Ashcroft. I would hate to see that happen. 
I think it would be a terrible thing if we were to signal to 
those individuals in the criminal community that there were 
areas where there were not enough resources, either at the 
Federal or State level, to have meaningful prosecution. And in 
that setting we--that is unacceptable. We have to find ways to 
reallocate. And the allocation of criminal justice resources 
needs to be on a need basis. One of the things we are seeking 
to do as we reallocate resources in the DEA and otherwise is to 
do it in ways that reflect the real needs, not the politics, 
geography or other things. But obviously if an area is an area 
where a certain category of cases are beyond the reach of 
Federal resources and beyond the reach of State resources, too, 
that is a definition of a real problem.
    Mr. Kolbe. Well, thank you. I think we have a real problem. 
I really appreciate again your honesty in answering that. 
Because what is happening, of course, is that as the States are 
kiting down on the assistance they give to the counties, the 
counties are laying off prosecutors in a time when caseloads 
are soaring. And as you can imagine, locally elected 
prosecutors are going to be responsive to their local citizens 
who say I want the guy who shot my brother prosecuted, I want 
the guy who stole my car prosecuted. You know, these Feds are 
picking up these drug dealers, let them take care of them, just 
put them back across the border. And that is exactly what is 
going to happen here. So I hope together we can try and find a 
way to deal with this problem.
    Attorney General Ashcroft. We need to. I will work with 
you.
    Mr. Kolbe. Thank you.
    Mr. Wolf. Thank you, Mr. Kolbe.
    Mr. Attorney General, I will have a series of questions. I 
will go to Mr. Serrano then come back and close up.
    Attorney General Ashcroft. May I ask the Chairman how long 
do you think that will be and whether it would be appropriate 
to have some----
    Mr. Wolf. Want to take a 10-minute recess?
    Attorney General Ashcroft. If it is not going to be another 
half hour.
    Mr. Wolf. We will take a 5 minutes recess.
    Attorney General Ashcroft. That would be helpful to me. 
Thank you.
    [Recess.]

                       PROPOSED BUDGET REDUCTIONS

    Mr. Wolf. So we will try to go through these rapidly if we 
can, and Mr. Serrano will come back and close.
    The budget request includes line item reductions. Some of 
these we want to put on the record. I don't want to put you in 
a tough spot, I know how OMB is, but really when we mark up, we 
want some of this information.
    The proposed reductions at Justice are the agencies 
throughout the Department including the FBI, DEA, BOP, U.S. 
Attorneys, Marshal Service. From the level of detail we have 
been given, these reductions have been nothing more than 
gimicks to allow the Justice Department to show program 
increases for Federal law enforcement while keeping the total 
funding level static so there are not real increases for 
Federal law enforcement at all.
    How are they derived and how will the proposed reductions 
impact the administration of justice, the apprehension of 
prosecution of criminals, and the war on terrorism?
    Attorney General Ashcroft. Well, the cross-cutting savings 
opportunities we are pursuing include consolidation of 
facilities, streamlining facilities management, and more 
efficient deployment of human resources staff and information 
systems, outsourcing fleet maintenance and management, 
centralizing procurement for selected services. These are some 
of the cross-cutting savings opportunities that we are pursuing 
in an effort to try and focus our resources on areas where we 
have the greatest need.
    Mr. Wolf. We met sometime last year to submit the names of 
the examiners of the Office of Management and Budget who look 
at these programs because they ought to be held accountable. It 
just won't work. Let me read from Monday's Metro section:
    ``The FBI emphasis on terrorism''--and you know my region 
very well--``has prompted the Agency to scale back 
investigations of other once high-priority crimes throughout 
the Washington region, including white collar offenses, housing 
fraud, drug trafficking and street violence. The number of 
violent drug cases referred to the U.S. Attorney's Office in 
Washington dropped 41 percent in fiscal year 2002 from the 
previous years as agents shifted to antiterrorist duties. 
Federal prosecutors in Alexandria and Baltimore said they are 
getting fewer criminal case referrals from the FBI field 
office.
    ``The impact of the shift has been felt keenly in 
Washington where authorities repeatedly have warned of a 
terrorist strike. Since September 11, 2001 attacks on the World 
Trade Center and Pentagon, more than half of the 300 FBI agents 
in the Washington field office assigned to criminal cases have 
been transferred to counterterrorism and counterintelligence. 
Overall, the field office which is responsible for 
investigating an array of crimes in the District and northern 
Virginia, including public corruption''--and you are the only 
one, Justice is the only one that can deal with public 
corruption. And if we start taking the FBI out of public 
corruption, we will have public corruption like we have never, 
ever seen it. Kidnapping. The FBI is the only one. If somebody 
had their loved one kidnapped, the first person they would call 
would be the FBI.
    This office is devoting roughly 65 to 75 percent of its 
resources to terrorism and counterintelligence matters compared 
with 40 percent before September 11th. One senior law 
enforcement official said the field office has either, quote, 
``walked away from some nonterrorism cases or closed them 
prematurely and other investigations were never launched.'' And 
then it goes on.
    I will end with the FBI field office in Washington is 
considering creating another Violent Crime Squad to deal with 
narcotic rings and violent gangs, although it isn't clear where 
the staff would come from.
    We have a serious problem, we have a serious gang problem 
now in Herndon and in Leesburg and Loudoun County. A serious, 
serious problem. So the numbers--and you know, I like you, the 
record shows that you are my friend, but the fact is that some 
of the proposed cuts are wrong and we will pay the price. The 
reason that I do say that the examiner's name ought to be here 
is because when increased crime and drugs takes place, the 
chances are that the OMB examiner will live in Herndon or live 
in Leesburg or live in Arlington or live in McLean, all my 
areas.
    Another difficult issue is here: The administration has 
proposed $3.6 billion domestic preparedness programs for first 
responders under the Department of Homeland Security. However, 
this funding is offset by a $1.2 billion decrease in the 
Department of Justice, State, and local assistance programs and 
decreases in firefighting assistance programs previously funded 
under FEMA. We are giving with one hand and taking away with 
the other.
    Now the question we were going to ask--and I am not going 
to ask you this question to be answered now--is do you believe 
that the Department of Homeland Security program will fund the 
needs of State and local law enforcement that are currently 
being met through the Department of Justice program? And we are 
getting letters now from law enforcement saying, well, why 
didn't you fund more with regard to the first responders when 
the same Department is asking support grants with regard to the 
COPS program or grants with regard to other programs. There is 
domestic terrorism. Sexual trafficking--which I commend you for 
your activities--sexual trafficking is a form of terrorism; if 
you are a young girl who is taken across the border, if you are 
a young woman who is taken from the Balkans or Thailand and 
places, that is a form of terrorism. And the drug issues 
continue.

                  STATE AND LOCAL GRANTS PROGRAM CUTS

    The other concern: increased crime compared to fiscal year 
2003 appropriation. Your budget request dramatically decreases 
funding available for State and local law enforcement 
assistance including law enforcement hiring, overtime, 
technology, and drug prevention programs.
    The budget request also reduces funding available for 
juvenile delinquency prevention, juvenile accountability 
programs. According to the FBI's Uniform Crime Report released 
in December from January 2002 to June 2002, crime across the 
country increased by 1.3 percent when compared to the same 
period 2001. When we talk about percentages, we don't think of 
the hurt and the pain and the suffering and the agony in those 
families of those individuals. So 1.3, you may say that is not 
a very big number. When you look at the raw number it is big, 
and when you look at the moms and dads and husbands and wives--
this includes a 2.3 increase in murders, a 1.8 percent increase 
in forcible rape.
    Given that crimes such as murder and rape are increasing, 
how does the Justice Department or OMB justify a $1.2 billion 
or 35 percent reduction for State and local law enforcement 
grants compared to the funds appropriated in the year 2003? And 
I don't need you to answer the question, because I have never 
wanted to use this position to put people in difficult spots 
and try to separate them. I remember I have been at times where 
people try to get people to say something different from what 
the administration has, but I want you to know how personally 
these questions represent how I feel. And I feel passionate 
about it. And all of a sudden we put more money in for the FBI 
than the administration does, as I said earlier, I do think 
takes advantage of some of these things. So if you want to have 
a comment you are welcome to, but I am not asking you to make a 
comment. But I want you to know how I feel on these issues.
    Attorney General Ashcroft. Let me just say, Mr. Chairman, 
that I do know how you feel. I learn from you more than I just 
do once a year when I come for this hearing. You are insistent 
about raising these issues and you are thorough in your 
constant advice to the Department. And I know these to be 
matters of concern to you not only today but every day of the 
year. I appreciate those concerns and will do our best to work 
with you.
    Mr. Wolf. That is fine.

                       FEDERAL PRISON INDUSTRIES

    Federal Prison Industries. There have been attempts, and I 
believe there will be again this year, to dramatically scale 
back the Federal Prison Industries Program within the Federal 
Bureau of Prisons. Federal Prison Industries provide inmates 
with meaningful employment while incarcerated. I am tough on 
crime but if we are going to put a man or woman in jail for 15 
years and not expect a very bad, evil person to come out, we 
need to give them rehabilitation. I commend what the 
administration and Bureau of Prisons do on faith-based prisons 
and things like that, but I have been concerned that at the 
Office of Management and Budget there are others who are 
willing to perhaps abandon or allow the Federal Prison 
Industries to be kept back.
    Now, there are two reasons. One is budgetary. If you were 
to lose this program the cost would be about $400 million to 
the budget.
    The other side of the coin is we would be having hardened 
criminals come out without work skills. If a man is working 
with dignity and has an opportunity to learn a skill, and also 
with a portion of that money sending it home to their family 
and putting it aside, there is a greater likelihood that they 
won't go back to prison. I think the study shows people who 
work in prison--and I don't mean picking up cigarette butts 
like you did in the military, walking back and forth, if you 
remember those days, but really doing constructive work--and 
also participates in a faith-based program, the likelihood of 
them coming back is less. So if you would just make a comment 
or two about the Federal Prison Industries, I would appreciate 
how you see it.
    Attorney General Ashcroft. Well, very frankly, our system 
of Federal prison work would have probably been nonexistent had 
you not intervened personally last year. I do know that there 
is a strong impetus among some to change it dramatically. I 
hope that if it is changed, it has the balance in it that 
allows us to protect and preserve this capacity to provide 
meaningful opportunities to--for rehabilitation in the prison 
system. You have mentioned them. You have described them. I 
think those are understood by all observers and we need for our 
prison system to be a place where people change their behavior 
rather than intensify their revolution.

                    GAMBLING ON INDIAN RESERVATIONS

    Mr. Wolf. Another issue, and there is no need to comment on 
it. But there--Time Magazine did two feature stories, one cover 
story on gambling on Indian tribes. The non-Indians have 
exploited the Indians clearly and we are in the process of 
exploiting them now. Very few Indians, very, very few Indians 
get any money from gambling on Indian reservations. But that is 
the law of the land. I think there is something like 2 percent 
of all Indians, many who are perhaps not even real Indians, get 
a majority of the money. The tribes, many of the tribes who do 
not have gambling, suffer.
    But we have been getting reports, and the Time Magazine 
article inference, and I have talked to the people involved who 
tell me that there are problems, and so whether you are for 
Indian gambling or not, that issue is not there. But we are 
getting reports that some Indians in some of these tribes are 
not benefitting and life on the reservation is very, very 
difficult. Mr. Kennedy was exactly right. The crime rate is 
high. Alcoholism, bad housing, poor, poor education, poor, poor 
health care, and what the Congress and all administrations have 
done because they have given Indians the ability to gamble and 
have gambling casinos, that has almost been a reason for the 
Congress not to fund the legitimate programs of housing and 
health care and education.
    So its really a form of exploitation because then they turn 
and say, well, you can just open up a casino. But the issue is 
this: We are hearing from Indians who are connected with tribes 
that have gambling that are telling us that they are being 
pushed away, they are being pushed out and they have no place 
to go. They feel the IGRA, the Indian Gambling Commission has 
not been very, very effective. I think they have 
approximately--and we can fill this in for the record--37 to 50 
people over there, administering hundreds of Indian gambling 
casinos where as in the State of New Jersey, they have about 
700 employees administering about 12 to 15 gambling casinos in 
Atlantic City.
    So, the Congress and the administration and frankly, I 
think your department has not really done a good job here--and 
let the record show, I mean this with every bit of fiber, I 
think Mrs. Norton is not doing her job. I think the Secretary 
of the Interior has really failed. If I were--and having worked 
in Interior for 5 years, and knowing the exploitation of the 
Indian and knowing the trust relationship that she has, if I 
were the Secretary of the Interior, and I had seen two articles 
in Time Magazine, and had read those articles and did nothing, 
I would feel like I had not fulfilled my responsibility.
    I don't want you to comment. That is not it. But I think if 
there is anybody who knows her, they ought to tell her what I 
said. Because she has neglected to deal with these issues and 
the conditions on there. But back to the point. If you were a 
member of that tribe and you are being pushed out and someone 
is determined that you are not going to be part of that or 
different things that happen that may be illegal or immoral, 
who do you go to? You can't go to your tribal leadership 
because they are the ones that are doing it to you. You can't 
go to IGRA because they are not doing anything and don't have 
anybody. Some of these casinos barely ever get a visit. And so 
the only person, the only agency that you can go to is the 
Department of Justice.
    And I did send a letter down to the Department. Again, 
whether you are for gambling or not gambling, that is not the 
issue we are going to deal with. But, I mean on this issue, how 
do we reach out? What message can Justice send to an individual 
who is part of a tribe that is using gambling who has seen 
activity taking place and can't get anybody in authority to 
come and deal with it.
    Attorney General Ashcroft. Mr. Chairman, I would just 
mention three things quickly: One, there is new leadership at 
the National Indian Gaming Commission and it is a former U.S. 
Attorney named Phillip Hogan. Another commissioner is named 
Clois Choney, veteran special agent of the FBI, with extensive 
experience in fraud and white collar crime cases. We hope these 
will be steps forward. Secondly, the Attorney General's 
Advisory Committee, which is made up of U.S. attorneys, has an 
active Attorney General named Paul Heffelfinger. Pardon me. Tom 
Heffelfinger from Minnesota, who is heading up a task force or 
a subcommittee on Native American issues, and I have asked him 
to look into this because this is something that deserves our 
attention.
    Thirdly the Department has had two recent cases that have 
had success in enforcing gaming laws against Indian tribes. One 
was U.S. vs. Absentee Shawnee tribe, which is the western 
district of Oklahoma. We secured an enforcement of a matter 
regarding a contempt order against a casino manager. And then 
U.S. vs Seminole Nation of Oklahoma in the 10th circuit. The 
10th Circuit Court of Appeals agreed with the United States 
position upholding the ability of the National Indian Gaming 
Commission to order a temporary closure of a gaming facility in 
order to get compliance.
    I hope we will be able to make these circumstances ones 
that are characterized by fairness and equity. I know that is a 
high aspiration. But if I--when I look at these situations and 
I have looked at this in some measure because you keep bringing 
these matters to my attention. These are areas where I am 
trying to bring my influence to bear to say these are places 
where we can make a difference.
    Mr. Wolf. Well, I appreciate it. We are going to keep 
watching this issue. I think, frankly, the Bush administration, 
and I think Secretary Norton, too, should have asked for 
additional funding for the Commission, IGRA. And I think they 
purposely kept it weak because if you want to kill something in 
this town, you just don't fund it. And so the people at IGRA 
may be good people, and you may have had a new person, but they 
have not asked for any increases. They are funded out of the 
proceeds coming out of Indian gambling, and so it is almost a 
user fee. They are now beginning major political action 
committees that are going to give money to both political 
parties.
    And they purposely keep IGRA funding down, and so if we 
were to squeeze your office and squeeze the FBI and squeeze 
DEA, they may be able to do the job that they may very well 
want to do. So they may want to do it, but there has not been 
an increase in the funding and not to fund something is to kill 
something. And frankly, I have actually thought about calling 
for Mrs. Norton to leave.
    I feel so passionately about it and all she has to do is go 
on any Indian tribe and see how poorly the Indians live. We put 
$2 million in this bill last year to give grants to Indian 
tribes that do not have gambling to do some economic 
development and give them some opportunities, so they have some 
other place to go. The Navajos don't want gambling and don't 
believe in gambling. But yet they can't take advantage of any 
of those resources. And frankly, I think the American Indian 
has been poorly, poorly treated by this administration, by the 
Clinton administration, and by previous administrations, and 
this may very well be a time for positive change, and the Time 
Magazine article may very well be the impetus.
    So we would like to follow carefully what your people were 
doing and after they maybe have a month or two, if they could 
come on by the committee or come on by my office and talk to me 
about it.

                         TRAFFICKING IN PERSONS

    The last issue, and then I will refer to Mr. Serrano, is--
and thank you for your--the effort on sexual traffic. And I 
have a long question, but I know what you have done and I read 
your letter and I also, you know, looked at your statement that 
you made at the conference last week. So thank you for that. I 
encourage your people to bring as many cases. 50,000 people are 
sexually trafficked into this Nation. One individual at the 
conference came up and told me there is a ring of young girls 
coming from Mexico into the United States. And they say that 
they--the younger ones are more desirable because, they are 
concerned about HIV/AIDS, and so they look for young, young 
girls.
    So the more prosecution there, the better. As you know 
there are 4 million people sexually trafficked every year. And 
you probably know that the center that coordinates this in 
southeastern Europe, you have FBI agents over there in 
Bucharest. If you go to Romania, you may want to stop in if you 
are in the Balkans. I know you have been to Romania a number of 
times to encourage them, so that when the report comes out 
these nations know that this is something. They go on a list 
and they know that they ought to do something about it and it 
is very difficult to have sexual trafficking in a nation if 
certain law enforcement are not looking the other way.

                           CONFLICT DIAMONDS

    So I think if you do go to that region a visit by you or a 
visit by any top official would send a tremendous, tremendous 
message. With that, the other issue is the issue of conflict 
diamonds. I gave the Bureau a tape on the issue of conflict 
diamonds. There is a lot of information that we believe, and 
others who have said that diamonds from Sierra Leone and others 
are being used by al Qaeda, and perhaps Hezbollah, with regard 
to furnishing funds with regard to terrorism.
    I would urge you to make that a priority, to track it down. 
If we find the people, you should indict them and bring them to 
justice. I also believe that the FBI ought to open up a Legat 
office in western Africa. Western Africa is served out of 
France and Sierra Leone is a long way from France. And I think 
somehow, I think it would be helpful to have perhaps a Legat in 
the Ivory Coast, you know so you are close enough. The living 
conditions are not that difficult in the Ivory Coast. But I do 
believe the FBI needs, particularly with conflict diamonds and 
with Fada Sanko and Charles Taylor in Liberia and all the 
activity that is going on, I think you would probably want to 
have an FBI agent out there. Now, with that let me just turn it 
over to Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman. I don't want to keep 
the Attorney General here any longer. I have got to be nice to 
the Attorney General. He has got a lot of power and I don't 
want to create any more problems for myself. What I want to do 
is take nine--I am no fool--nine questions and submit them for 
the record. Then I will ask you two quick ones. Let me just 
make a comment first.

                     FBI AND DOMESTIC INTELLIGENCE

    The Chairman touched on and spoke about this issue of the 
FBI and how much time it is spending on counterterrorism and so 
on. And this is a concern of mine. I hope that we find a way--
and you tell us and the Director tells us what he needs from us 
to make sure that we also continue to pay attention to the 
other issues, drugs and fraud and white collar crime and all 
the other stuff that the FBI has always been good at, because I 
get the sense that some folks--you know, I almost sense a TV 
show coming of guys sitting around the table and saying, ``Boy, 
this is good. They are not after us, they are too occupied over 
there.''
    And this is something that also concerns me. There are a 
lot of relationships or working together between the FBI and 
the CIA. How do we assure ourselves that when this is over--and 
the war on terrorism is unfortunately an ongoing thing for a 
long time, we know that. But how do we assure ourselves that at 
no time does the CIA become a de facto domestic intelligence 
agency that takes over programs where the FBI should be? How do 
you deal with that issue?
    Attorney General Ashcroft. I think one, and first of all 
this is matter of great concern to me. The FBI has a culture 
that is used to working within the limits and framework of the 
respect for freedom that we have established in the United 
States. There are rules that apply in the United States. The 
CIA, when it goes overseas it goes by the rules of other 
cultures, in what they allow the CIA to do in collecting 
information. You would expect that. When in Rome do as the 
Romans do. I am not making any comment on Italian procedures 
there. I am using an old phrase. The FBI has serious training, 
has significant experience and while they have, from time to 
time, perhaps, been accused of not respecting those rules, they 
live in a culture where that rule is taught and where I seek to 
reinforce it at every moment.
    That is why I think it is important that domestic 
intelligence be conducted by an agency that is steeped in that 
understanding and responsibility, and frankly is always called 
to account for it when their cases go to court. If they don't 
follow those rules, the courts throw the cases out. That is the 
way the system operates.
    So the FBI has the habits that are appropriate to 
collection of information that are consistent with the 
constitutional rights and responsibilities. It has a civil 
rights investigative unit in the FBI. This is part of that 
culture. There is not a problem with information that is 
developed in that culture being available to the CIA. It is 
information which is appropriately collected. We want the 
collection in the United States to be a collection that 
respects the laws of the United States, and is accustomed to 
the judicial supervision of that collection.
    That is why I think it is so important to have as the 
intelligence collecting agency in the country, an agency which 
is a law enforcement agency, which is consistently involved in 
the courts and constantly accustomed to the supervision of the 
courts in that respect. Instead of having a sort of general 
intelligence agency, the United States has a system where you 
have international collection, which repairs to a number of 
standards internationally that relates to the international 
collection of information. It has a domestic collection system 
that is steeped in this tradition and accustomed to this 
involvement in the judicial process that imposes and encourages 
a continuing respect for these rights.
    So when you get to the threat integration, the Terrorist 
Threat Integration Center, you have information there from both 
agencies, international information from the CIA, domestic 
information from the FBI. It is subject to being understood by 
both agencies, but it is collected in ways that respect these 
different responsibilities.
    I feel deeply about this. I feel that it is important that 
the FBI is part of the Justice Department. I didn't have a 
chance to extol--I did, in some measure--the record of our 
Civil Rights Division, but it has been very aggressive and very 
successful in the last couple of years, not just in voting 
rights, but in a variety of other ways. To have the FBI as part 
of the heritage of the Justice Department is important because 
we have the responsibility to enforce civil rights and to 
protect them as well as to collect information. That is one of 
the reasons I have felt that it is important to keep 
intelligence collection as part of the law enforcement 
community rather than to set up a distinct organization.
    So, the respect for the rights not only in the 
Constitution, but the rights also that are enshrined in 
statutes that are passed in the Congress, signed by the 
President, that is a cultural characteristic of the FBI. And it 
is uniform across the country. CIA operates and other 
intelligence agencies may operate in a variety of settings 
around the world. But the FBI predominates in this with 
training and practice. And that is very important in terms of 
preserving those rights.

             EXPANDING ROLE OF CIA IN DOMESTIC INTELLIGENCE

    Mr. Serrano. Well, let me tell you that I am extremely 
pleasantly surprised with your comments. But then, it still 
leads to my question. What, if anything, can you do to make 
sure that the increased level of cooperation doesn't create--of 
the CIA--a de facto domestic intelligence agency? I mean----
    Attorney General Ashcroft. Well, you all have rules about 
the CIA collecting evidence in the United States.
    Mr. Serrano. But a lot of those things seem to have been 
put slightly, if not a lot aside since September 11, and that 
is my concern. Everything you just said, Mr. Attorney General--
I mean, I could have said it and people would have said Serrano 
said it, because you sounded just like me and I sounded just 
like you before that. And that is an accomplishment in itself. 
But you express my concern. And how do we deal with that 
problem?
    Attorney General Ashcroft. It is my concern as well.
    Mr. Serrano. Right. How do we deal with that problem?
    Attorney General Ashcroft. I think the point is what we 
have decided to do is to provide a basis for utilizing 
information across these barriers which used to be erected 
between the organizations but we haven't changed the rules 
about collecting information. And----
    Mr. Serrano. I know what you are saying. So let me then do 
this. Let me suggest something to you. Let me remind you and 
remind myself and remind the committee that you are right. From 
what we know, from what we have read, from what we suspect, one 
agency kind of sets its own rules traditionally and another has 
to follow certain rules and when it doesn't, it gets called to 
account for that. So then be careful, Mr. Attorney General, 
that that other agency doesn't begin to run amuck and begin to 
try to behave like it is the new FBI because that would concern 
a lot of us.
    Attorney General Ashcroft. I don't want to prolong your 
evening. But let me just say that I think this is a matter of 
great concern to this administration, and I think it is 
reflected in the way things have been structured. There were 
people who wanted to sort of amalgamate all the collections and 
to have a, not a Threat Integration Center, but to have a super 
intelligence policy.
    When the President made a decision to have a Terrorist 
Threat Integration Center that provided information that could 
come in and be available from a variety of sources. But which 
variety of sources would maintain their distinct identities and 
their responsibilities in cultures? I think it was his 
understanding that there were values in these distinct 
identities.
    And those are the values that you care about, that I care 
about, that I don't think I am always understood as caring 
about, but I still care about them. And I want to--I think we 
want to make sure that we continue to respect that collection 
in the United States is one responsibility; collection 
internationally another.
    And I don't mean to say that the CIA, and I hope I haven't 
left an impression that they don't follow rules. But, the rules 
they follow are different, in different settings because they 
are operating in different settings. And that is what should be 
expected of them. We want them to maximize their ability to 
collect with regard to the rights that are respected where they 
are collecting, et cetera. I can't speak for the CIA. I 
shouldn't.
    But I can speak for the FBI and I can speak for the Justice 
Department. We are not the department of law enforcement. We 
are the Department of Justice. And justice means something more 
than law enforcement. It means fairness, and it means equity, 
it means respect. And I want that to be a part of the FBI 
culture, and I will do what I can. I know that Bob Mueller 
does. He comes from 30, well, 25 years of working in the 
Justice Department. He is not just a creature of law 
enforcement and investigation, but his responsibility has been 
these other issues as well and that is important that he be the 
FBI director. I think he is a great choice by the President. 
And he reflects those concerns and values. And I will do 
everything I can and work with you to make sure that we 
continue to do that.
    Mr. Serrano. You know, listening to you, I had a thought 
that I had not considered before, and that is, when I speak to 
the community that I know best, when I speak to Latin Americans 
who have come to this country and become citizens, but who 
still have ties to the countries they come from, they see the 
FBI as part of their new country, as the top agency that 
gathers information and so on, they feel comfortable with that.
    Now you ask the same people--it is very interesting--what 
do you think of the CIA? Oh they remember the CIA back home as 
supposedly or allegedly the group that overthrew that President 
and did that to that guy and hooked up with that group and so 
on. If they--I mean forget the rest of them now. Imagine how 
the rest of us would feel. But if all our newest citizens now 
begin to think that they left a country where a certain agency 
was running amuck and now they find that this agency is going 
to handle such important duties here--I should stop now or the 
CIA will be looking for me, too.

                   NYPD EXPANDED SURVEILLANCE POWERS

    And one last question, and then I will retire for the day. 
New York City recently went to court. The Police Department 
wants to get expanded surveillance powers. Is that something 
that they were discussing with you folks? Do you support that? 
Do they really need to do that? Don't you handle that through 
the FBI again and other agencies?
    Attorney General Ashcroft. Well----
    Mr. Serrano. Because the thought, as you can imagine, of 
the local police department now having expanded powers to 
search your home and so on scares a lot of people.
    Attorney General Ashcroft. Well, we have a dual system in 
this country, and local police departments have the right to 
conduct searches supervised by courts, just as in many respects 
the Federal Government does. There are disparities in both 
local laws and federal laws that relate to various areas and 
some of the things that, you know, we think about. We have 
given special authority for drug cases that we don't even have 
for terrorism cases, for instance. I don't know what their 
request was. But, you know, if they wanted to say, we have got 
this authority for an area we used to think was the highest 
priority but now we have got a high priority in terrorism. We 
should probably have the same authorities there, that would be 
one question. I just don't know what they asked for. And I am 
not in a position to comment on it except to say that State and 
local law enforcement authorities have certain rights to 
develop information to support their cases. In many respects, 
those rights are parallel to the Federal rights to do so with 
appropriate court supervision in each case.
    Mr. Serrano. Well, I thank you, Mr. Attorney General, for 
your testimony today. I guess the difference between the 
average great citizen that sends us here and a member of 
Congress is that they can complain about what they think is not 
going right with your agency or any other. We have the 
responsibility to try to work with you to make it better. And 
so while I criticize a lot, always remember that I am also an 
ally in trying to accomplish what you need to do, and what we 
need do, and in that sense I continue to work with you as 
closely as I can. And I thank you for today.
    Attorney General Ashcroft. Well, I am grateful. Frankly, I 
must say to you that you, in saying that you try to improve 
things and help us do a better job, you speak the truth. I have 
never known you to do other than try and help the Justice 
Department deliver justice to the American people more 
effectively. I appreciate that very much and we look forward to 
working with you. We share a common objective in that respect.

            PLACEMENT OF TERRORIST THREAT INFORMATION CENTER

    Mr. Wolf. Just a closing couple of questions. On the 
question that Mr. Serrano said about the Terrorist Threat 
Center, it ought not be at the CIA. The CIA is in my 
congressional district. There are a lot of good people out 
there. They are good people.
    But I think for the very reason that Mr. Serrano raised, 
and so by having it totally separate at the outset and I know 
there has been some talk and perhaps it will be done that way. 
You will begin to think that this is going to be a center that 
is under the auspices of the CIA and not the FBI. People happen 
to be good people that are working there. But they are taking 
their direction from the CIA.
    I think the sooner you are in an independent building, 
wherever that building may be, and you should pick it where you 
think it is best for the American people and the country not to 
satisfy any particular person, but it ought to be a stand-alone 
entity because you are also going to bring in the Homeland 
Security people, and if you are at the CIA, they go through the 
CIA gate, and people begin to think this is an arm of the CIA. 
So the more independent it stands, the better. How soon will 
the center be set up?
    Attorney General Ashcroft. I think the initial operation of 
the--they are likely--they are going to try and confuse me with 
the facts here. But I think May is the time when they are going 
to first get the joint analysis together. Ultimately when it is 
independently located, it will have not just the analysis 
section, but it will have counterterrorism people from the FBI 
that are at that site, and CIA counterterrorism people at that 
site. They will work distinctly, pouring their work product 
into the Analysis Center.
    Mr. Wolf. Well, when you set it up, I would like to go out 
and visit, and I think if you could kind of keep us informed as 
to when and how it will be set up, because the committee is 
responsible for funding a portion of that and we are very, very 
interested.
    Attorney General Ashcroft. May 1st according to their item 
and there will be about 60 individuals at the start up.
    Mr. Wolf. Okay. And you will let us know the location or 
has the location been selected?
    Attorney General Ashcroft. It is my understanding that the 
location has been selected until the----
    Mr. Wolf. You don't have to tell me where. I mean it has 
been discussed.
    Attorney General Ashcroft. Yes.
    Mr. Wolf. So it will not be at the CIA center itself.
    Attorney General Ashcroft. I am not sure where it is. But I 
think there has been one selected and I think it will be housed 
in some relationship to the CIA until it is stood up 
independently.
    Mr. Wolf. Well there is a lot of empty office space in 
northern Virginia. And truly, there is. And it has to be close 
to the CIA. It has to be close to the Department of Homeland 
Security. And it has to be close to the FBI. You have a lot of 
facilities out there. Again, I am not asking you to put it 
out--wherever you put it is fine. I think it ought to only be 
put where it is in the best interest of the country. But I 
think you will create a little bit of a problem if you locate 
it at the CIA--an inertia sets in--sometimes to get phones 
changed takes a long time. All of a sudden they get in there, 
they get comfortable.
    There was some thought that the Department of Homeland 
Security was going to be in Northern Virginia, and the fact is 
there are some in the Department of Homeland Security that said 
it was going to be in Northern Virginia. I never said anything 
either way. A half an hour after Governor Ridge was confirmed, 
they announced it was going to be in the District of Columbia. 
I thought that was unusual. I thought if you believe deeply 
enough, you ought to be prepared to say it is going to be 
wherever it is before confirmation, after confirmation, during 
confirmation. There was a game played there. It was a game that 
I thought was unfortunate.
    It just isn't right to hold off and you have got something 
and then telephone calls are made saying it. So I think it 
ought to be up front wherever it goes. It ought to only be 
where you and Mr. Tenet, and more importantly, the President 
and everyone else thinks it ought to be. But there ought not be 
a game. And there was a game. There was a game played by the 
Department of Homeland Security. And when I see Mr. Ridge, of 
course everything I say is public. But when I see Mr. Ridge, I 
am going to tell him when he comes before the committee to have 
announced where it was going to be a half an hour after the 
vote. And if my memory serves me, the vote kind of came late in 
the day.
    And it's like the old games the government played where 
they announce things Friday afternoon at 4:30 or 5:00. It just 
isn't right. It's just kind of not the thing you do. So it 
ought not be at the CIA. It ought not be where Mr. Ridge is 
going to be, wherever he is going to be, and I hope he picks a 
spot that is the right spot for the country and not for any 
political involvement. It ought to be separate totally and 
distinctly separate, or else it will be viewed I think, just 
the way, the way Mr. Serrano said, as being controlled by the 
CIA.

                       PROSECUTION OF TERRORISTS

    On the issue of the prosecution. I didn't chime in, but I 
think Mr. Serrano and I made--I think you--you were talking 
about the prosecution of the one individual. This war may not 
end. There will not be a surrender. There will not be a formal 
surrender on any aircraft carrier or whereby the sword will be 
transferred over. The war has been going on. The war has been 
going on for 20 years. The shot was fired when 241 Marines died 
in Lebanon and we, I think, know who did that and we haven't 
done anything about it. The shot was fired when 90-some people 
were killed in the American embassy in Lebanon. They were shot 
in Tanzania when the people there died.
    It was when in Nairobi, Kenya when American citizens died 
along with Kenyans. The USS Cole. Just the other day when the 
American was killed, the AID employee in Jordan. There will be 
no official end. We won't have a date that young kids 20 and 30 
and 40 and 50 years will see that D day occurred on this day.
    And so knowing that, I believe the war will continue and 
you guys have done a great job, but the war will continue. 
There will be high points and low points, and I think the 
American people have to understand that. That being the case, 
you can't keep that individual until the end of the war. And my 
sense is whenever you think that you have a case, and obviously 
it doesn't compromise national security, and I don't want you 
to comment on whatever national security concerns you have, but 
at a certain point I think, and I think for an American to do 
that, is terrible, is treasonous. There ought to be a time 
where that individual has their day in court and then if there 
is evidence they convict him and you punish him.
    The other thing is, I wonder if at some time, and we don't 
know how this thing is going to develop. If you should consider 
having a special court location and not the Alexandria District 
Court. The Moussaoui case, there is pretty great pressure--and 
now that has been postponed--on the neighborhood. It is not my 
district, but it is Northern Virginia. Paul McNulty is an 
outstanding U.S. Attorney over there. But when I see how I 
believe this district of the Eastern District will be used in 
the future, my sense is there may be a time that the government 
has to look at having a courthouse, if you will, at Quantico or 
at some place like that because the pressure that I believe, if 
what I said was true, that this war will continue and the 
prosecutions will continue.
    You just may be putting so much of a pressure and a burden 
on that community, and as you build up and spend all that 
money. You may very well want to, for safety reasons, for 
security reasons and other reasons, put this on a military base 
where--not that people can't come and go to the trial, but a 
place that doesn't have the same security issues.

                            PRISON RAPE BILL

    I want to thank you for your commitment to come up with a 
good bill on prison rape. And I read your letter and I take you 
at your word and I thank you. 13 percent of men in prison are 
raped. It is brutal and once they are raped the stories are so 
gruesome that sometimes they literally stay with the person who 
does it as a protection against the others. And many of these 
people then get out of prison and do terrible, terrible, 
terrible things. And I think this bill will be a good thing.
    Mr. Sensenbrenner has given us a commitment to move it 
very, very quickly. I think Senator Sessions and Senator 
Kennedy are going to move it. So I appreciate your people 
working with us to get that thing resolved.

               FBI TERRORISM READINESS--NY TIMES ARTICLE

    The other issue--and I wasn't going to raise it, but I 
will, because I feel an obligation to--is the article in the 
New York Times today with regard to the young FBI agent, the 
FBI agent out in the Midwest. I don't know if you read the 
story. If you didn't then you can't comment. If you did, do you 
have any comment that you wanted to make on that? If you 
haven't read it, you don't have to comment on it, and you can 
just submit the comment for the record.
    Attorney General Ashcroft. Well, I have heard a lot about 
this article.
    Mr. Wolf. Have you?
    Attorney General Ashcroft. I would say these things. The 
United States faces a relentless threatening terrorist enemy or 
a group of terrorist enemies that want to destroy this country 
and the values and liberties and lives of Americans. We are 
hunting those terrorists down one by one. Khalid Shaikh 
Mohammed, Mustafa Ahmed al-Hawsawi, are the most recent of 
those we have apprehended. We are gathering and cultivating 
detailed intelligence on terrorism in the U.S. We are arresting 
and detaining potential terrorists and terrorist threats. We 
are dismantling the terrorist financial network. We are 
disrupting potential terrorist travel. We are building our 
long-term counterterrorism capacity every single day.
    Now, I believe the FBI is prepared to act to defend 
America, including the possibility of a war against Iraq. 
Thousands of FBI agents here and abroad are working day and 
night, and I say day and night because I know during this last 
week, my phone has rung at 1:30 in the morning. My phone rang 
last night at 3:30 in the morning. And it was a request for me 
to confer about things we were doing and things that we do on a 
regular basis.
    This isn't new. When we had young children, I learned not 
to hear the young children, and my wife heard their every cry. 
I asked my wife this morning if she heard the phone at 3:30 and 
she, after--at the end of the morning, she said no. Well, she 
has learned not to hear the phone ringing in the night. But I 
sleep in an effort to grab it off the hook before it finishes 
the first ring, and I did last night. But it is because there 
are people who are working at that time in the day and night in 
the FBI, both here and abroad to prevent terrorism and to be 
ready to protect Americans.
    And the FBI has a comprehensive, ongoing program relating 
to the protection of America, including, in the event that the 
United States enters into some increased level of hostilities. 
And it is designed to confront possible threats. And if there 
are any agents who are not prepared to defend America then I 
don't know them, but they had better get ready because it is 
our job in the Justice Department and in the FBI to defend 
America when we are called upon and when America's interests 
are threatened.
    So from my perspective, if the question is, is the FBI 
alert, ready and working, I am working with them hour by hour, 
day and night, and I can't imagine--I am overwhelmed with the 
commitment that these individuals have been showing. These are 
not crank calls to me. But weekend, days, nights, whether the 
ball game is on or not, when the rest of the world is asleep, 
these people are working, and I believe they are ready.
    Mr. Wolf. Well, I appreciate the comments. I agree with you 
that Director Mueller was an excellent, excellent choice. And I 
know they are doing an excellent job, although they are human 
and, as we move ahead, perhaps the administration ought to be 
asking for additional FBI resources. You have in this budget 
but perhaps not enough particularly, if you think in terms of, 
I believe, the FBI has about 11,000 agents, give or take.
    And the New York City Police Department has 40,000. And 
they have the five boroughs, and you have the United States 
plus you have Legats and so many other countries. So in some 
respects, with the new threat and the new mission, it may very 
well be that the FBI needs additional resources, which gets me 
back again to this not local issue, but with regard to this 
region, the shortfall, I mean, for a neighborhood that is 
terrorized by a gang that is stabbing and killing, or for a 
mother who is afraid to send her children out at night. That is 
a form of domestic terrorism and for public corruption, the 
only one that could deal with public corruption would be the 
FBI.
    So you may want to look at this, and we are going to ask 
Director Mueller, when he comes before the committee, about 
this. There may be some regions of the country, such as New 
York City where Mr. Serrano lives, here and others, whereby all 
or many FBI agents are being pulled off other cases and this 
really is the case whereby drug cases are being missed, 
corruption cases are being missed, and in those areas there may 
have to be an additional dramatic increase of agents. I don't 
know what I wouldn't want to investigate because who am I to 
say, whereby the threat itself is not exactly the same, that 
there is a backfilling or fewer pulled off or whatever the case 
may be.
    But I think it is serious for the region that I represent 
to have this type of an article written, whereby as great as 
you are doing on foreign terrorism, that there may very well be 
something that will drop.
    Now there will always be something dropping off. We all 
drop things in our own life. But if it is such a problem that 
people are saying this to U.S. Attorneys, then I think maybe we 
may need some additional people here, and I am sure maybe up in 
New York City, and maybe in San Francisco, and maybe in L.A. 
and places like that.
    In closing, I thank you for your testimony. I hope you will 
go back and thank the men and women of the Justice Department 
for the great, great job they are doing here. The hearing is 
adjourned.
    [Questions and answers submitted by Representative Sweeney 
appear on page 456.]
                                          Thursday, March 27, 2003.

                    FEDERAL BUREAU OF INVESTIGATION

                                WITNESS

ROBERT S. MUELLER, DIRECTOR

                            Opening Remarks

    Mr. Wolf [presiding]. The hearing will come to order.
    Thank you, Director Mueller, for appearing before the 
committee this morning to discuss the Federal Bureau of 
Investigation's fiscal year 2004 budget request.
    I want to start by saying that I believe you have been 
doing a good job transforming this organization from 
investigating crimes to preventing terrorist attacks, while at 
the same time replacing outmoded technology, all in the midst 
of a very terrible conflict, a very difficult time, both in 
Iraq and with al-Qaeda and with other terrorist groups.
    I fear that we are in a long, protracted battle against 
terrorism. To enable you to meet these challenges, you are 
requesting $4.6 billion for the salaries and the expenses of 
the FBI. This represents a 10 percent increase in funding above 
the fiscal year 2003 enacted level for the FBI. The request 
includes $513 million in programmatic increases, $133 million 
for adjustments to base, and $120 million in reductions for 
nonrecurring decreases.
    Last year, the Congress provided you with $45 million more 
than the request, and some $755 million in emergency 
supplemental appropriations since September 11th. Your budget 
has grown by 36 percent since fiscal year 2000 enacted levels. 
That is a big jump in three years.
    We will look to you to be accountable for the wise use of 
these funds and to ensure that the committee is kept fully 
informed of the new funding priorities and requirements of the 
FBI.
    Before we begin, I would like to recognize the chairman, 
Mr. Young, if he has any comments, then Mr. Serrano.
    Mr. Young. Mr. Chairman, thank you very much.
    I first want to welcome the director. He was kind enough, 
at your invitation, to spend a lot of time with us earlier this 
week. And we appreciate that.
    Mr. Director, you were not on the job very long when you 
were hit with an attack on the United States. And I agree with 
what Chairman Wolf said, you have done a tremendous job in 
responding to that.
    As you talk to the subcommittee this morning, what I would 
like to hear are any comments that you have to make about the 
supplemental and any part of the supplemental that you feel is 
important and how you would go about using those funds in the 
supplemental.
    And I would just tell you that it is my plan to move that 
supplemental really quick. And I know that my subcommittee 
chairmen have all agreed to be very, very cooperative. We are 
going to conclude our hearings this week on the supplemental. 
And actually plan to be in the committee marking it up on 
Tuesday morning. So any comments you would like to make along 
with your other prepared comments would be appreciated.
    Thank you very much.
    Mr. Wolf. Thank you, Mr. Chairman.
    Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.
    I want to echo the two previous speakers' support of the 
job you are doing. In fact, as a leftover liberal from the 
1960s, I find it hard at times to realize that I am praising 
the FBI, but that is the kind of guy you are and that is the 
kind of work you are doing. I once said when I first became a 
member of this committee, Mr. Chairman, that only in America 
can someone who probably had an FBI file in the 1960s now keeps 
files on the FBI. And so----
    [Laughter.]
    Mr. Serrano [continuing]. That is the beauty of our system.
    I just want to welcome you here today. I also want to hear 
comments from you on the supplemental, because I am committed, 
with both the committee chairman and the chairman of this 
subcommittee, to make sure that you get the resources that are 
necessary.
    I, of course, will direct my conversation with you today on 
my favorite subject, one that I believe you are very, very 
honest and sincere about, and that is the balance between 
protecting our country and protecting the civil liberties of 
the people who live within this country, who are staying within 
our borders.
    And to that extent, I really was extremely proud and 
honored to see you visit Northern Virginia some time ago and 
speak to the Muslim community and to Arabs in general, not only 
to let them know that it was not the intent of the Bureau to 
hurt them in any way, but also to ask for their support. And 
that said a lot to me about you and about your behavior. I hope 
you continue to do that.
    This is a very delicate balance. But if 20 years from now, 
Mr. Director, we look back and find out that in securing our 
homeland we destroyed a whole community or communities, as we 
did--we hurt some people during World War II--I think your 
tenure and my tenure will have been tainted rather than fully 
glorified.
    And so with that, I am looking forward to your testimony 
and stand always ready to support you.
    Mr. Mueller. Thank you, sir.
    Mr. Wolf. Thank you, Mr. Serrano.
    Just for the record, so people know, we moved the hearing 
back to this room for a major reason. There, I think, are going 
to be a series of votes today and when we are over in the other 
room, the last time we were breaking and coming back and forth. 
So this way we can continue the flow and I think the hearing 
will be a better hearing. And one member can be here and go 
vote--so that was the reason, for anyone who does not have 
enough seats, we moved over here.
    With that, your full statement will appear in the record. 
And you can summarize or proceed as you see fit.

          Opening Statement--Robert S. Mueller, Director, FBI

    Mr. Mueller. Well, let me, if I could, Mr. Chairman, thank 
you for the opportunity to appear today.
    Mr. Chairman, Congressman Serrano, thank you for your 
remarks.
    If I might, I will give a portion of my prepared remarks to 
indicate to the committee and the subcommittee our thoughts 
about the 2004 budget. The FBI, as all three of you have 
indicated, is going through extraordinary and, I think, 
positive change to better meet the threats posed by terrorists, 
foreign intelligence services, and criminal enterprises. We 
have changed our organizational structure to address the 
greatest threats facing our country, to be more dynamic and 
flexible, and to ensure accountability. And we are dramatically 
upgrading our information technology, as we will hear this 
morning.
    These changes and many others that are ongoing will ensure 
that the FBI stays on top of the current and future threats 
well into the 21st century.
    The FBI's fiscal year 2004 budget request will give us the 
resources we need to keep this positive momentum. Our total 
request, as you have pointed out, is $4.6 billion, and we are 
requesting program changes totaling $513 million, including 
2,346 new positions, 503 of which are special agents.
    This morning, I would like to briefly walk you through our 
progress to date, our assessment of the threat, and the changes 
we are making to align our organization and resources to 
address the threat.
    Before beginning, let me issue one caveat to my 
presentation. That is, we are still analyzing the impact of the 
2003 omnibus bill on our 2004 request, and it is possible that 
some other changes to the request may be required to reflect 
the 2003 enacted level. Quite obviously, we will be working 
with your staff and your committee on those changes.

                            COUNTERTERRORISM

    In counterterrorism, the prevention of another terrorist 
attack remains the FBI's top priority. And we are thoroughly 
committed to identifying and dismantling terrorist networks. I 
am pleased to report that our efforts have yielded major 
successes over the last 17 months. Over 212 suspected 
terrorists have been charged with crimes, 108 of whom have been 
convicted to date. There are several examples that I could 
mention which are in my prepared remarks. The fact that the 
Pakistani authorities arrested Khalid Sheik Mohammed 
approximately a month ago, a key planner and mastermind of 
September 11th, was a great advance on the war on terrorism.
    And since his arrest, we, along with our sister agencies in 
the federal government, as well as our counterparts overseas, 
have been working to disrupt his financial network, identify 
his co-conspirators, and ensure that we utilize any information 
received from him to prevent another terrorist attack on the 
United States or on United States interests overseas.
    We have had a number of successes which are recounted in my 
prepared remarks, which I will skip over. I might add, though, 
that we have addressed terrorism financing over the last 17 
months, and we have frozen approximately $113 million from 62 
various organizations and we have had 23 convictions arising 
out of our investigations into terrorist financing.
    Let me just spend a moment on the counterterrorism threat. 
Despite our successes, both overseas and within the United 
States, tangible threats remain. During this current period, we 
are clearly focused on the immediate threats to the nation 
because of the hostilities in Iraq. And in order to respond to 
these current conditions, the FBI's Strategic Information 
Operation Center is operating 24 hours a day. We have 
established Iraqi task forces in each of our field offices to 
address the current situation, and as of today, in the course 
of interviews around the country, we have interviewed more than 
5,000 persons who we believe might have information that might 
be helpful to us with regard to the hostilities in Iraq. Even 
as we guard against this potential threat, we believe that for 
the foreseeable future, the Al-Qaeda network is the most 
serious threat to this country. We have made substantial 
progress, as I have indicated, in disrupting Al-Qaeda at home 
and overseas, but the organization still retains the ability to 
inflict significant casualties within the United States with 
little warning.
    As Al-Qaeda and the other terrorist organizations have 
changed their tactics, the FBI also has evolved and must 
continue to evolve. We have, as you heard the other day, Mr. 
Chairman, dramatically increased our analytical capability, 
dramatically increased our intelligence analysis capabilities, 
as well as increased our intelligence dissemination 
capabilities. We will continue to upgrade those capabilities 
with the funds that have been provided in the 2003 budget, and 
with those funds we anticipate will be provided in the 2004 
budget.
    We are now, with regard to intelligence, focusing on long-
term strategies to enhance our ability to collect, analyze, and 
disseminate intelligence. We are putting into place a much more 
formal intelligence collection, analysis, and dissemination 
capability. I am in the process of selecting an Executive 
Assistant Director for Intelligence who will have direct 
authority over the FBI's national intelligence program and will 
ensure that we have optimum intelligence strategies, structure, 
and policies in place. In each of our field offices, we will 
have intelligence units staffed with reports officers, 
specially trained individuals who can collect and extract 
intelligence from our investigations and share that information 
with our law enforcement and intelligence community partners.
    Our request for fiscal year 2004 includes approximately $1 
billion in direct support for counterterrorism. Nearly 50 
percent of all requested program changes, or $250 million, 
supports counterterrorism. In particular, the 430 positions 
proposed in the 2004 budget will strengthen our operational 
support around the country and improve counterterrorism 
management and coordination at FBI headquarters.
    Also, the requested amount would support our 66 Joint 
Terrorism Task Forces--critical, multi-agency task forces that 
facilitate the cooperation and information sharing, and act as 
our first line of defense for preventing terrorist attacks. 
These funds would also expand our vital international 
partnerships by adding FBI legal attaches in Sarajevo, Bosnia; 
Kuwait City, Kuwait; Tashkent, Uzbekistan; Kabul, Afghanistan; 
and Belgrade, Serbia, and by enhancing our presence in several 
existing locations to handle the growing workload. Approval of 
this budget request would also allow us to be better prepared 
to respond to the scene of a terrorist attack at home or abroad 
quickly and effectively with all the equipment we need.

                          COUNTERINTELLIGENCE

    Let me turn, if I could, for a moment to our second 
priority, which is counterintelligence. Counterintelligence 
efforts are also vital to the security of the United States. As 
the committee, I am sure, is aware, we have had several 
successful investigations recently in this arena.
    Last month, Brian Regan agreed to accept a life sentence 
for attempted espionage and unlawful gathering of defense 
information after he was convicted of the underlying charges.
    And in October of last year, Ana Montes was sentenced to 25 
years in prison following her plea of guilty to one count of 
conspiracy to commit espionage on behalf of Cuba.
    The intelligence threats fall into four categories. The 
most significant threat and our top counterintelligence 
priority is the potential for an agent of a hostile group or 
nation to enhance its capability to produce or use weapons of 
mass destruction. That is the most important 
counterintelligence threat that we face. A second threat is the 
potential for a foreign power to penetrate the United States 
intelligence community. And a third threat is the targeting of 
government-supported research and development. And finally, the 
fourth threat is the potential compromise of certain critical 
national assets spread around the United States.
    To address these counterintelligence threats, we have 
worked to transform ourselves and to transform our 
counterintelligence program. Last May, we reorganized and, with 
the approval of this committee, reassigned agents and resources 
to our counterintelligence program. We reprogrammed 216 
positions from other investigative responsibilities to 
counterintelligence. We now have full-time counterintelligence 
squads in 48 of our 56 field offices.
    For fiscal year 2004, we have asked for program changes 
totalling $63 million and 599 positions, including 94 agents. 
These resources will provide us the necessary investigators, 
analysts, and surveillance capabilities needed to address 
emerging global threats, bolster our fixed and mobile 
surveillance capabilities, and improve our ability to detect 
espionage activities targeting national assets and our 
universities.

                              CYBER-CRIME

    Let me turn to our third priority, which is addressing 
cyber-crime.
    We have consolidated and created a new Cyber Division at 
Headquarters to manage investigations into Internet-facilitated 
crimes and to support investigations throughout the Bureau that 
call for technical expertise. We also have reorganized to help 
us coordinate with both the public, as well as private sectors. 
Forty-seven of our field offices have or will soon have a 
specialized cyber squad. Eight will have multiple cyber squads. 
And Cyber Action Teams are available to assist with specialized 
expertise around the country.
    This strategy of enhancing our capabilities is proving 
successful. For example, last year we identified 2,554 
compromised computers. Our efforts resulted in 95 convictions 
and $186 million in restitutions from these cases. During 2002 
our Innocent Images initiatives addressing the exploitation of 
children on the Internet resulted in 692 arrests, 648 
indictments or informations and 646 convictions.
    Despite using only 5 percent of all FBI resources, the 
cyber program is facilitating investigative activities across 
all of our bureau programs. Unfortunately, the threat from 
cyber-crime is explosive, not only for traditional crime, such 
as fraud and copyright infringement that have migrated online, 
but also new crimes like computer intrusions and denial-of-
service attacks.
    To date, terrorists have posed relatively low-level cyber-
threats, but some organizations and terrorist organizations, in 
particular, are increasingly using information technology not 
only to attack our infrastructure, but also for their own 
communications. As terrorist groups become increasingly more 
savvy, we ought to have and must have the capability to address 
them and to disrupt and dismantle their efforts.
    To meet cyber-threats, we have identified four priorities. 
They are: first, neutralizing individuals or groups conducting 
computer intrusions and spreading malicious code; second, 
addressing, arresting, indicting, and prosecuting successfully 
intellectual property thieves; third, pursuing those who commit 
fraud on the Internet; and fourth, addressing online predators 
that sexually exploit or endanger our children. Our success 
will depend on maintaining the state-of-the-art technical 
capabilities that we currently have and enhancing those 
capabilities to handle the complex investigations that we see 
facing us in the future.
    In the 2004 budget request, we are requesting $234 million 
to protect the United States against cyber-based attacks and 
high-tech crimes. This request represents program changes of 
$62 million and 194 positions, including 77 agents. These 
resources will enable the FBI to staff computer intrusion 
squads in field offices, enhance technical capabilities to 
identify persons illegally accessing networks, and provide 
funding for training and equipment we need to more aggressively 
investigate cyber-incidents.
    I should also add that the requested resources will enable 
us to increase our efforts to detect the sexual exploitation of 
children on the Internet. Over the past six years we have seen 
these cases grow in number from 113 cases to over 2,300 cases 
last year, and we must increase our commitment to address this 
expanding problem. Finally, the resources will allow us to 
expand our ability to conduct computer forensics examinations.

                         INFORMATION TECHNOLOGY

    Let me turn for a second from these three top priorities to 
our progress in the technology arena. Over the past two years, 
the FBI has made significant progress in modernizing our 
information technology infrastructure to better support our 
investigative needs. As part of our Trilogy project, to date, 
over 21,000 new desktop computers and high-speed local area 
networks have been deployed to 622 FBI locations, both in the 
United States and around the world. We have had in excess of 
3,000 printers and in excess of 1,400 scanners provided to our 
agents. And our wide area network is scheduled to come online 
at the end of this month, a substantial achievement.
    We now have 524 sites of our 594 that are operating on that 
new network that will be up totally, hopefully, by the end of 
this month.
    Finally, the Enterprise Operations Center which becomes 
operational this spring, and will manage data, network 
hardware, and software applications, as well as security 
access.
    We are now focusing on implementing a corporate data 
warehousing capability that is key to FBI intelligence, and 
investigative and information-sharing initiatives, as well as 
our Records Management System, which includes the Virtual case 
file application you were shown earlier this week. These 
technology upgrades will change the FBI culture from a culture 
of paper to a culture of digital information. It is a change 
that is critical to our capabilities to address the challenges 
of the future.

                             OTHER PROGRAMS

    Let me mention for a second what we have done in some of 
our other programs.
    As you are aware, Mr. Chairman, we have created a dedicated 
Security Division and are consolidating our security functions 
under a single management structure.
    And let me conclude with a brief mention of our criminal 
program, that has been going along during the events of the 
last 18 months much as it has before, with some modifications.
    For the Criminal Program, which is still critically 
important to protecting the American public, we have also made 
some requests in the 2004 budget. We have requested $16 million 
and 118 positions, including 56 agents, directed at the 
corporate fraud investigations that we are currently 
undertaking. At the end of fiscal year 2002, we had five 
investigations of companies in which there had been a loss in 
excess of $1 billion in each of those companies. We currently 
have eight investigations ongoing in which we are investigating 
companies where the lawsuit is in excess of $1 billion. The 
funds we seek in FY 2004 will assist us in addressing these 
crimes.
    To conclude, Mr. Chairman, the FBI has, I believe turned a 
corner in its history. With the support of Congress, we have 
been able to make dramatic and, I believe, substantive changes. 
Our transformation continues because the threats facing the 
United States homeland continue to evolve, and while we have 
made great strides, I believe, in the last 18 months, we still 
have a ways to go in a number of these areas.
    I want to assure you that we are committed to protecting 
this country from those who seek to harm us through acts of 
terror, espionage, cyber-attacks, or criminal acts. Every 
citizen must be able to enjoy the basic freedoms this great 
nation provides. The men and women of the FBI understand their 
roles in these challenging and uncertain times. With your 
support, we can give them the resources and tools they need and 
deserve to carry out our mission.
    Thank you very much, Mr. Chairman, for the opportunity to 
make this statement.
    [The information follows:]

     [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
        
    Mr. Wolf. Thank you, Mr. Director. We appreciate your 
testimony. I am going to first recognize Chairman Young.
    I know there are a lot of subcommittees, and we will just 
defer to you and further questions and then we will move.

                      FY 2003 SUPPLEMENTAL REQUEST

    Mr. Young. Mr. Chairman, thank you very much.
    Mr. Director, what is your request in the supplemental?
    Mr. Mueller. With the Department of Justice, I had some 
time ago indicated what we believe our needs were attributable 
to the hostilities in Iraq. My understanding is earlier in this 
week, as I think it is yours, a request was made by the 
President to Congress for a substantial supplemental. My 
understanding is that the Department of Justice, including the 
FBI, is allocated approximately $500 million out of those 
funds. Those funds for the FBI would be directed to the 
extraordinary efforts we are undertaking in this period of time 
to address the hostilities in Iraq. That would include overtime 
and items like language specialists that are necessary.
    Because we have heard, I believe on Tuesday, that $500 
million was allocated to the Department of Justice, we are just 
now undertaking discussions with the Department as to which of 
our priorities will be of that $500 million that was allocated 
to the Attorney General.
    Let me say that with the supplemental as well as the 2004 
request being here pretty much at the same time, it is fair to 
say that where we have seen a need in our 2004 budget, we have 
also brought that to the attention of those who were looking at 
the supplemental. But my understanding is that to the extent 
that we do have extraordinary needs attributable to the 
hostilities in Iraq, they will be met.
    Mr. Young. In addition to the hostilities in Iraq, what 
about increased terrorism, anti-terrorism activities, 
counterintelligence activities relative to what is happening in 
Afghanistan, al Qaeda, the worldwide responsibility? What I am 
getting at is, is $500 million enough to take care of your 
requirements and the Department of Justice requirements through 
our supplemental?
    Mr. Mueller. I would beg off speaking for the Department of 
Justice. I believe that in our discussions with the Department 
of Justice and the Attorney General's decision on the 
allocation of that $500 million, it will meet our request.
    Mr. Young. So you are comfortable with that window.
    Mr. Mueller. I am comfortable. I will tell you, as I have 
expressed before that I prioritize those budget items as to 
what we need, and the priorities, as I have expressed it here, 
go to counterterrorism, counterintelligence, cyber and 
criminal. I, in discussions with the Attorney General and his 
staff, have prioritized those requests, and my hope and 
expectation is that, whether it be in the 2004 budget or in the 
supplemental, that most of those priorities will be addressed.
    Mr. Young. We will very likely be, when we get to the full 
committee on Tuesday, asked to increase substantially the 
amounts going to various homeland security activities. It is 
your testimony that your responsibility in that regard, you 
believe this adequately covers it for the supplemental, and 
that 2004 will pick up whatever needs that you have?
    Mr. Mueller. Yes, I believe that to be the case. I must 
preface it by saying that my understanding is the $500 million 
in the Administration's request has been allocated to the 
Attorney General, and so we still have discussions to take 
place with the Attorney General and our staff.
    Mr. Young. I understand.
    Okay. Thank you very much, and again thank you for the good 
work that you and the agency have been doing without a lot of 
preparation for that type of an attack back on September 11th.
    Thank you, Mr. Chairman.

                    FBI'S ROLE IN THE WAR WITH IRAQ

    Mr. Wolf. Thank you, Mr. Young.
    Mr. Director, with regard to Iraq, do you have a team ready 
to go the minute Baghdad falls to search the wreckage and look 
and see what is there?
    Mr. Mueller. Yes.
    Mr. Wolf. Have you picked somebody?
    Mr. Mueller. Yes.
    Mr. Wolf. Do you know who it is going to be and how they 
are going to go?
    Mr. Mueller. Yes.

                         FUNDING FBI PRIORITIES

    Mr. Wolf. To support the efforts to fight terrorism, you 
are requesting an increase of $241 million and an additional 
244 agents. The question goes along the same lines that Mr. 
Young was asking. How many policemen does New York City have?
    Mr. Mueller. I think it is something like 14,000.
    Mr. Wolf. No, I think there are 44,000.
    Mr. Mueller. Forty-four thousand; I knew there was four in 
there someplace, 44,000.
    Mr. Wolf. Yes, and do they have people based overseas?
    Mr. Mueller. I believe they do have some people based 
overseas.
    Mr. Wolf. Do you know how many people they might have?
    Mr. Mueller. I believe less than 10.
    Mr. Wolf. And how many do you have based overseas?
    Mr. Mueller. I would have to get you that figure. I know we 
have 45 legal attaches offices; we have at least 150 if not 
more.
    [The information follows:]

                      FBI Employees Based Overseas

    As of April 2003, there are 334 FBI employees assigned overseas on 
official business. The 334 employees consist of the following:

        Type of Employee                                          Number
Temporary Duty (TDY)--Supervisory Special Agents and Special 
    Agents....................................................       137
Special Agents (Legat, Assistant Legat, Deputy Assistant 
    Legat)....................................................       114
Support Positions.............................................        72
Resolution 6 (FBI Special Agents working with the Drug 
    Enforcement Agency country attaches)......................        11
                    --------------------------------------------------------------
                    ____________________________________________________

      Total...................................................       334

    Mr. Wolf. My sense is that manpower--the committee has been 
very generous in technology, but manpower really is very 
important as well. You have taken 567 agents out of other 
cases, including drug cases. Drug use is now increasing, rape 
is up by 1.3 percent, murder is up by 2.8 percent, and when we 
talk about murder in percentages it, sort of, does not sink in. 
I mean, how many murders were there last year in the country? 
Do you have any idea?
    Mr. Mueller. I do not, off the top of my head.
    [The information follows:]

                 Number of Murders in U.S. During 2002

    The FBI is compiling data on the number of murders in the U.S. 
during 2002 for Crime in the United States, 2002, which is scheduled 
for publication in Fall 2003. Based on data submitted voluntarily by 
the nation's law enforcement agencies, which was compiled and reported 
in Crime in the United States, 2001, there were approximately 15,980 
murders in calendar year 2001.

    Mr. Wolf. If we could find that for the record, and we add 
that 2.8 percent, that is real people, there are families 
suffering, and so I worry a little bit about the demand that is 
taken from the drug war.
    The DEA testified last week and told the Committee that 
20,000 people in the United States died as a result of drugs. 
Three thousand died in 9/11; 30 people from my district were 
killed in the attack at the Pentagon. But we also need to be 
careful that we are not decreasing the ability of the bureau to 
deal with the issue of drugs, cartels, murder, or gangs that 
transit across jurisdictional lines.
    So along the lines of what the Chairman said I really worry 
that there may be too much of an emphasis for technology and 
for other things, which this Committee has been very generous, 
and not enough with regard to personnel.
    I am not going to put you in a spot with regard to that, 
but I think right now my sense of having looked at all this--
and this is your third time before the Committee and having met 
with you--the need at the bureau is really in personnel.
    And last week with DEA, we discussed the issue of terrorism 
at the tri-border area, which includes Argentina, Brazil and 
Paraguay. DEA and others have reported the presence of 
Hezbollah.
    Hezbollah was involved in the blowing up of the Marine 
barracks; 241 Marines were killed. Terrorism did not start on 
9/11, terrorism started late 1983, when 241 Marines were blown 
up, the American embassy in Beirut was blown up, and now we 
have had a whole series of things, the disco in Germany, 
Tanzania, Kenya, the USS Cole in Riyadh. Hezbollah and Hamas 
are in the region.
    Last week's Washington Post said there were reports that 
bin Laden was in the area in 1995. Do you know if he was down 
there in 1995?
    Mr. Mueller. I have not seen reporting to that effect.
    [The information follows:]

         The Presence of Osama Bin Laden in the Tri-Border Area

    The FBI has no corroborating reports to indicate that Bin Laden was 
in the tri-border area (Argentina-Brazil-Paraguay) in 1995.

    Mr. Wolf. Well, with our focus on the Middle East and in 
the U.S., flushing out terrorists there while just to the south 
are other potential dangers, does the FBI have a presence down 
in the tri-border area?
    Mr. Mueller. We did have a presence, and we are discussing 
reinstituting that presence down there. We have been and are 
concerned.
    I share your concern about that area. In fact, the Deputy 
Assistant Director for counter terrorism was down in that area 
in December with a number of senior officials from elsewhere in 
the government to address that particular problem. My 
expectation is that we will again reinstitute our presence in 
that area.

                       JOINT TERRORISM TASK FORCE

    Mr. Wolf. My sense is that with drugs and terrorism, and 
that is very close to the United States, that that would be an 
area--which gets back into the issue of the manpower issue.
    With regard to the FBI sharing of information with state 
and local law enforcement, and for expanding the Joint 
Terrorism Task Forces, you requested increases of $11.6 million 
for the Joint Terrorism Task Force efforts. What new 
capabilities will these increases provide for them?
    Mr. Mueller. Well, it will provide, first of all, the 
overtime and some of the equipment that is necessary for those 
task forces.
    I would say at the outset that the Joint Terrorism Task 
Force is the foundation for our effort to address terrorism in 
the future. The necessity of working closely together, shoulder 
to shoulder with state and local law enforcement in these task 
forces----
    Mr. Wolf. I agree.
    Mr. Mueller [continuing]. Are critically important. And 
what these funds will go to is increasing the numbers on those 
task forces. In other words, with those additional funds, those 
task forces can support additional officers from the state and 
local police departments, equipment, and transportation. It 
will be space, which has been a substantial expense for us, as 
well as computers, that are necessary for all of them to do 
their work.
    Mr. Wolf. How many state and local law enforcement officers 
have received security clearances and are now participating in 
Joint Terrorism Task Forces? I assume they cannot participate 
until they have had the full security clearance.
    Mr. Mueller. We have taken the position that state and 
local law enforcement officers that serve on the Joint 
Terrorism Task Forces should have access to the same 
information that their Federal counterparts on that task force 
have access to. And consequently we are clearing them to the 
top secret level.
    We now have approximately 650 state and local enforcement 
agents working on Joint Terrorism Task Forces around the 
country. Most of those, quite obviously, have their full 
clearances. I am not certain whether all of them do at this 
point.
    We have granted a total of over 1,000 clearances to Joint 
Terrorism Task Force members. Now, many of them are part time. 
When I talk about the 649 number, that is 649 full-time members 
of the task forces. We have granted a total of over 1,000. 
Actually, 1,087 clearances.
    Mr. Wolf. What do they get, a conditional clearance, and 
then how do you work that?
    Mr. Mueller. Yes, that generally is what happens.
    My understanding is that there is a conditional clearance 
that is given, allowing them to do certain tasks on the task 
force, but not giving them access to certain pieces of 
information.
    [The information follows:]

 Conditional Security Clearances for Joint Terrorism Task Force (JTTF) 
                                Members

    Upon completing a standard national security form that requires 
information on an applicant over the last 10 years, a member of the 
JTTF Program is provided an interim Secret clearance. This interim 
clearance provides escorted access in JTTF facilities. Upon successful 
completion of the background check, typically within 30-45 days, the 
FBI grants a Top Secret security clearance, and the JTTF member has 
complete access to JTTF facilities and information that is developed 
throughout the course of investigations.

    Mr. Wolf. Is that scattered? In some offices, almost 
everybody has the clearance and in others, almost nobody. There 
is one in seven.
    Mr. Mueller. I will tell you that there have been problems 
with the delays in getting clearances the last time I was here 
to discuss this with you, last spring, for instance. And we put 
into effect a much-enhanced program to assure that the 
clearances were granted much faster than they had been in the 
past.
    Mr. Wolf. You do clearances, don't you?
    Mr. Mueller. Pardon?
    Mr. Wolf. You do the background checks?
    Mr. Mueller. We do the background, yes, but we put in a 
process to enhance that because there were complaints, and 
justified in many cases that it was taking too long. I would 
say of those that we have out there, almost all of them are 
fully cleared at this point. We may have a backlog of some, but 
it is very minimal.
    Mr. Wolf. Is that a manpower issue?
    Mr. Mueller. Yes, to a certain extent. And also a 
processing issue, prioritizing their clearances.
    Mr. Wolf. And Mr. Serrano.

            FUNCTION AND MISSION OF AGENTS IN NEW YORK CITY

    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Director, how many agents do you have located in New 
York City now? And do we know how many we had prior to 
September 11th? And how have the functions and the mission of 
these agents changed in New York City, specifically, since 
September 11th?
    Mr. Mueller. I do not have with me the numbers in the New 
York field office. I would have to provide you those numbers of 
those we had prior to September 11th and those that we have 
now.
    [The information follows:]

 Number of FBI Special Agents Located at the New York City Field Office

    As of April 1, 2003, the FBI had 1,063 agents assigned to the New 
York City Field Office. Prior to September 11, 2001, the FBI had 1,096 
agents assigned to the New York City Field Office.
    The reduction is explained by an internal FBI analysis that 
determined there was insufficient compensation and benefit funding 
available to pay for FBI reported workyears. In order to address the 
funding issue during FY 2001 and FY 2002, the FBI eliminated 1,287 
work-years, including 518 vacant agent positions. This action resulted 
in across-the-board adjustments to headquarters and field staffing. The 
New York City Field Office eliminated 50 vacant positions as part of 
the hollow workyear reduction initiative.

    Mr. Mueller. I would say that the mission has not changed. 
The way we address terrorism throughout the United States has 
changed.
    Prior to September 11th, New York was the office of origin 
for the al Qaeda investigations, for instance. And so, the 
responsibility for gathering the information and pursuing the 
investigations fell almost solely on New York.
    Since September 11th, we understand that it is the bureau 
as a whole that has to address al Qaeda. And consequently, the 
responsibility for addressing al Qaeda now falls at the feet of 
the assistant director for counter-terrorism.
    As we understand, prior to September 11th, much of the 
information relating to terrorist groups was located in the 
field office responsible for addressing that terrorist group. 
Since September 11th, what we have attempted to do and are 
continuing to do is centralizing that information from all 
around the country, whether it be New York, Albuquerque, 
Spokane, or San Francisco, and being better able, when it is 
centralized, to analyze it and then disseminate that 
information, to not only our sister agencies in the federal 
government, but also the state and local law enforcement. And 
so, while the mission has not changed, they are doing in New 
York exactly what they did before. The responsibilities have 
changed somewhat.
    Mr. Serrano. Now, New York has a substantial population 
from the Middle East. And I know you have had different 
initiatives, including one that started as recently as the 
beginning of the war with Iraq. Within the boundaries of what 
you are allowed to tell me, have these special inquiries in 
these communities yielded any information that could be useful 
to us in general and specifically to New York City, as 
unfortunately, a target?
    Mr. Mueller. Yes, they have. If I might, Congressman, let 
me just say that the Muslim American communities, the Arab 
American communities, the Sikh American communities, the Iraqi-
American communities have been tremendously supportive since 
September 11th in the war on terrorism. From the perspective of 
the FBI, each of our special agents in charge, myself, and 
others at headquarters have reached out to these communities to 
explain and express our understanding that members of these 
communities are as much patriotic Americans as anybody else. We 
understand that. We elicit and solicit their support. And that 
support has been coming from those communities.
    Now, we have continued from the outset, from the time of 
September 11th, the outreach program to these various 
communities. It has been enhanced since the initiation of 
hostilities in Iraq. What we have found in our interviews 
around the country is a wealth of information from those who 
have spent substantial time in Iraq and learned the location of 
places like bunkers and telecommunications networks or 
structural information; persons who have served in Iraq over a 
period of time in various capacities and in fleeing Iraq have 
brought the United States that knowledge. In the course of the 
interviews we have conducted, which are voluntary interviews of 
those in the Iraqi-American community. And we have been 
gratified by the information that we have received, much of it 
very helpful to those who are now undertaking the war in Iraq.

       PROTECTION OF CIVIL LIBERTIES DURING THE WAR ON TERRORISM

    Mr. Serrano. As you know, Mr. Director, I have made it a 
point, during this period on this committee and any other 
committee that I get a chance to speak at, to continue to 
remind ourselves that we have to protect the homeland and 
follow the Constitution at the same time. And as I have said, 
this is a very delicate balance.
    Now, you oversee roughly 25,000 people. And I preface my 
comments again by saying that everything I hear from you 
publicly and everything in our private conversations indicates 
that you are also concerned about this and want to make sure 
that there are no abuses. But when you oversee 25,000 people a 
lot of things could happen.
    Now, last year, if my recollection is correct, we had some 
further conversation, a second hearing that dealt in part with 
the reorganization of the Bureau. And at that time GAO had 
proposed the possibility of having someone to oversee some of 
those actions that you take. Personally I think every agency 
involved in the war on terrorism should have someone, kind of, 
saying, ``Hold it, guys, you know, and ladies, cannot do it 
that way or should not do it that way, or look at the long-term 
impact.''
    One, do you think that you have something in place already 
that deals with that?
    Two, notwithstanding the fact that no one wants somebody 
looking over their shoulder, do you think that that is 
something that is necessary either for the bureau or in 
general?
    And lastly, how does my concern and the concern of many 
other people, in spite of the fact that they do not voice it as 
much as I do, make sure that we do not go crazy here?
    Because I mean, I will give you an example, the Attorney 
General came before us and I asked him, ``Why are you holding a 
gentleman accused of having a dirty bomb with no charges, no 
lawyer, you know, incommunicado, and he is an American 
citizen?''
    The chairman, to my pleasant--not surprise--but I was 
pleasantly happy to hear him say, ``Yes, at least try this 
guy.'' So the next day a judge said, ``We are going to give him 
a lawyer.'' And then, the Attorney General sent all the lawyers 
in to fight this notion.
    So what we get is this feeling that we are going to detain 
people. We are going to arrest people. We are going to put them 
away. And no one is going to answer for their civil liberties 
and their civil rights.
    The FBI, before you, had a history at times of horrible, 
horrible behavior. How do we try to stop that from happening 
again while we secure and protect this country of ours?
    Mr. Mueller. I believe, not only the FBI, but also the 
Department of Justice, is very concerned about the balancing 
and the necessity of assuring the appropriate recognition of 
the civil rights protection that is guaranteed to us by the 
Constitution. I do not think there is a person that I have 
talked to, whether it be in the Bureau or otherwise, that does 
not understand that we are here to protect the liberties 
afforded us under the Constitution, and we would have lost the 
war if we undercut those civil liberties.
    From our perspective, we have a number of things, I 
believe, in place now that were not in place in years past that 
protect the civil liberties of our countrymen; things like the 
Attorney General's guidelines, the fact that we now have a 
Foreign Intelligence Surveillance Act statute. We cannot, as an 
organization, the FBI, go to the Attorney General as you could 
in the years past and have the Attorney General sign off on a 
slip of paper and undertake a telephonic interception. Now, we 
go before an independent court to get that approval. We have 
congressional oversight. I am up here quite a bit. That is 
effective in terms of assuring that the civil liberties of the 
country are protected. We have items such as the Foreign 
Intelligence Surveillance Act, but also the Office of 
Intelligence Policy and Review at the Department of Justice 
that looks over each of our applications before it goes to the 
court.
    We have the Privacy and Information Act of 1996 that has 
not been there previously that protects the privacy of our 
citizens. So the extent that in the past the FBI has been 
looked upon as having abused its authorities, since that time 
there have been a number of both statutes, as well as 
regulations or guidelines have been put in place to protect the 
liberties of our systems.
    Additionally, if I might add, our training, the training 
that we do for our agents emphasizes the fact that it is a 
substantial responsibility we have, and it is an awesome power 
that is given to an agent to undertake an investigation of an 
individual, to carry a weapon and most particularly that if 
that is abused, we undercut that which we are there to protect, 
and that is the Constitution.
    One of the things we do that Louis Freeh put into place 
that I think is tremendously important, is that every agent 
coming through new agents class goes to the Holocaust Museum to 
see exactly what can happen when a law enforcement or an 
intelligence organization oversteps its bounds and abuses its 
authorities.
    So I believe that there is a great deal put into place that 
protects the civil liberties of our citizens. But also I 
believe that we, as an agency, understand our role is to 
protect those liberties.
    The last thing I will say in the same context of our 
dealing with communities, whether they be Iraqi American, 
Muslim American, Sikh American, Arab American is that, we are 
also--and understand that we are there to protect these 
citizens from hate crimes. We had in excess of 400 
investigations in the wake of September 11th of hate crimes in 
these communities, and we have had several since hostilities 
have begun. And we have and will pursue those investigations 
every bit as aggressively as we would pursue an investigation 
of a terrorist or a drug-trafficker.

   NUMBER OF DETAINEES IN THE U.S. RELATED TO 9/11 OR THE WAR IN IRAQ

    Mr. Serrano. Mr. Director, let me close my part because I 
do not want to take too much time from the other members that 
are here, but my concern is that what you just presented to us 
is either on paper or in theory at the Justice Department and 
at the Bureau.
    But I am embarrassed to say this on live TV, to be shown 
over and over for the next 48 hours, as this particular channel 
does, I am embarrassed to say that members of Congress do not 
have the information we should have.
    There is no member that can honestly tell you they know how 
many people are detained in this country right now related to 
September 11th or the war in Iraq. No member knows that, not a 
chairman, not a Majority Leader or Minority Leader, not a 
Speaker. No one knows it, and no one will tell us.
    No one knows if we have targeted a specific ethnic 
community beyond what we should be doing. No one knows that.
    And the history of the Bureau, the history of the CIA, the 
history of certain departments, is that years later we find out 
about plots to assassinate people, or plots to blow up 
airplanes and blame them on foreign governments so we can then 
invade that government and start a war with them. I mean, you 
name it, some agencies have done it.
    You are basically telling me safeguards are in place. I am 
appealing to you, as a person who comes across as being sincere 
about this, to do a reality check on yourself and on the 
department to make sure that it goes beyond theory; that we 
have to stop every so often and say, ``Are we, in fact, going 
beyond where we should be, and what is the price we are going 
to pay 20 years from now?''
    Mr. Mueller. Well, if I might respond briefly, in terms of 
the numbers, my understanding is that the Attorney General, 
either in his testimony or otherwise, indicated that in the 
wake of September 11th, what was the INS at that time had 
detained over 700 persons who were in violation of the terms of 
their being in the United States, and at the time that he 
testified, there were 29 of those who remained.
    Mr. Serrano. But, Mr. Director, he is telling us how many 
people overstayed their visas. He has not told us how many 
people are suspected of knowing a cousin who knows a friend who 
knows an employee somewhere in the old country that knew 
someone that could have been a terrorist that is also detained. 
We do not know that.
    We have no clue whether that is 29 or 2,229, and we will 
never know. And that is scary. That is really scary that we do 
not know.
    Mr. Mueller. Well, in the wake of September 11th, 
individuals who were detained for overstaying their visas or 
otherwise being out of status with the INS, I believe those 
figures are available and have been provided.
    Other individuals were arrested for a variety of criminal 
charges, not necessarily related to terrorism, but in the wake 
of September 11th. When we did interviews and looked at these 
persons, you might find that there was an outstanding warrant 
on them. There were a number that were arrested.
    Because they were arrested on state charges or local 
charges or other federal charges we may not have all that for 
you. But I do believe that most of those figures have been 
provided already.
    [The information follows:]

   Number of Detainees in the U.S. Related to 9/11 or the War in Iraq

    In conjunction with the conflict with Iraq, 42 persons have been 
detained or arrested. The arrests have been for various reasons, not 
necessarily related to international terrorism (e.g., visa overstay 
matters). Over 9,000 expatriate Iraqis have been interviewed in the 
United States since the beginning of the Iraqi conflict. With regard to 
the number of people detained related to the September 11, 2001 
terrorist attacks, according to testimony from the Attorney General 
given on March 6, 2003, the Bureau of Immigration and Customs 
Enforcement has detained over 700 aliens who were in violation and who 
have been or are being investigated in connection with the September 
11th attacks. As of February 5, nearly 500 individuals have been 
deported on immigration charges or have left the country voluntarily. 
Also as of February 5, only 29 individuals of the 700 remained in the 
Bureau of Immigration and Customs Enforcement's custody. Three of the 
29 individuals in custody have been identified by the FBI as 
individuals that are still of investigative interest.

    Mr. Serrano. Okay, then let me end with this, because I do 
not want to beat this to death. Do you disagree with this 
statement, that we are behaving in many ways the same way we 
behaved with Japanese Americans in World War II all over again 
during this period of time?
    Mr. Mueller. I would adamantly disagree with that. 
Adamantly. I think every time we have gone out and interviewed 
an individual, and in the latest round of interviews we have 
done so voluntarily, we have done it with courtesy, we have 
done it with the understanding that we are eliciting 
information. I think that is a far cry from what happened in 
World War II.
    Mr. Serrano. Well, in my profession we like to be right. I 
pray to God that I can openly admit some day that I was totally 
wrong.
    Thank you.
    Mr. Wolf. Thank you, Mr. Serrano.
    Before I recognize Mr. Vitter, just to comment a little bit 
on that, though. One, I have confidence in your leadership down 
there now and your people.
    But on the other side, just to cover a little bit of what 
Mr. Serrano said, there have been abuses in the past, and I 
think it is the responsibility of this Committee and the 
Judiciary Committee to be very aggressive. And I think in 
fairness to you, at the briefing that you gave the other day 
you were, you stressed congressional oversight; it is the 
responsibility of the Congress to stay on these issues, and if 
something comes up to be very, very aggressive.
    I have been very supportive of the Bureau now, but on the 
other hand, as you and I we have had a number of meetings, and 
there are times that I raise things that perhaps you go home 
and think it is perhaps not fair.
    So I think it is a balance in the sense I understand what 
he is saying, but I would just say that I have confidence now.
    And part of the problem was that Congress in the 1960s and 
in the 1970s pretty much gave the FBI free rein. It was sort of 
a potted-plant theory, they just were there and the bureau 
director came by and it was over. And I think the 
responsibility in this time is to aggressively ask these 
questions, to ask for the numbers, to raise the cases.
    So you understand what Mr. Serrano said. But I agree with 
you, and I think we should institutionally put in markers and 
you are going to be here hopefully for seven more years, or six 
more years, whatever the case may be--place road mile markers 
to make sure that the Congress is providing oversight. But I am 
confident that the Director is and----
    Mr. Serrano. Mr. Chairman, if you will yield a second--
    Mr. Wolf. I yield.
    Mr. Serrano. I believe you are sincere.
    But you make the comment about institutionalizing, he 
oversees 25,000 people. How many of those have been around 
longer than he has and have a mentality that they can abuse and 
abuse and he cannot stay on top of all of them?
    That is why I am saying what I need from him is to take his 
sincerity and make it a behavior pattern at the agency.
    Mr. Wolf. Well, I agree, and one of the questions that we 
have here will be about the Boston office. We have had 
conversations about the Boston office, I have been very 
troubled about the Boston office. So it is one of those things 
that I see from both sides.
    As long as I have the opportunity to serve on this 
Committee, I am going to ask the tough questions, but on the 
other side of the coin we want to give you the resources.
    Mr. Mueller. Yes.
    Mr. Wolf. But you understand how----
    Mr. Mueller. Sure, absolutely. Absolutely.
    Mr. Wolf. Yes, and, okay, go ahead.
    Mr. Mueller. Absolutely. And I think debate is healthy. We 
may not always see eye-to-eye with each other, but I respect 
the views of the Congressman. And I most particularly respect 
the concerns.
    And one of the things when I meet with the Muslim leaders 
is I say, ``I want you to bring me your concerns, but you hear 
from your persons. If we are overstepping our bounds in your 
communities, I want to hear about it. If there are particular 
instances, I want to hear about it.''
    I will tell you, from the latest rounds of interviews that 
we have had, most of the feedback, almost all, if not all, the 
feedback I have gotten has been positive. So I am open to those 
instances where there is a perception, wherever it is in the 
country, that we have abused our authority in some way.
    Mr. Serrano. Mr. Chairman, five more seconds, and I will 
really stop.
    The Director and I have an ongoing project that Director 
Freeh started, so I speak from experience. It was 60 years of 
persecution of a group of people in Puerto Rico and New York 
and Connecticut, maybe in your neighborhood, who believed that 
Puerto Rico should be an independent nation. For 60 years the 
FBI fabricated cases, ruined careers. Some people disappeared; 
that is another issue.
    And he has been good enough to be releasing those files to 
the senate and the assembly in Puerto Rico for scholars and 
other people to look at.
    And when you look at these 60-year files of what they did 
to a group of people on the island I was born in who simply 
said: ``Statehood, commonwealth, independence? We prefer 
independence.'' And they were driven into the ground. And so it 
has happened, and I am afraid it could happen again.
    Mr. Wolf. I understand. And I think the Director does. And 
I think the Director has transformed the Bureau.
    As the Committee knows, and as anyone watching this should 
know, we have the National Academy of Public Administration, we 
have GAO, and we have your agents providing oversight. And, 
again, I think a lot of the responsibility rests with the 
Congress, both the House and the Senate, to be mindful.
    But, you know, I think the Director is working in those 
areas, and I have confidence in the Director, and I have 
confidence in the men and women who work for him.
    On the other hand, if I saw something, and I hope if I do 
in the future, I will be very candid to speak privately, but 
also to speak out publicly.
    But I think you have transformed the Bureau, you have done 
a good job.
    Maybe the problem may very well be that you have hid your 
light under a bushel basket, that you have not told enough 
people of the transformation. Sometimes I hear comments made 
about the Bureau that in the context of the 1960s and 1970s may 
very well have been accurate, but in the context of this year 
they may be mistaken, but everyone does not know about the 
improvements, everyone does not have the opportunity to hear 
firsthand how things have improved.
    The briefing that you gave the Congress several days ago 
probably would not be a bad briefing whereby the American 
people can see the changes. Maybe they never heard that there 
is this program, there is that program, there is this check and 
that check.
    So sometimes you do something and you just think everyone 
knows, and they do not know, and you just have to say it. And I 
think, in politics, you have to sometimes say it 10 times 
before people focus.
    So maybe, if there is a criticism, if you will, it is that 
the Bureau has been very modest and has not actually said, ``We 
are concerned about these things and here is what we are 
doing,'' and saying it over and over and over. And you are 
hiding your light under a bushel basket.
    With that, Mr. Vitter.
    Mr. Vitter. Thanks very much, Mr. Chairman. Two quick 
comments with regard to previous comments.
    First of all, I share Mr. Serrano's concern about civil 
liberties. I know we all do. But I have to say, I do not know 
of any single fact or any single confirmed incident that would 
cause any reasonable person to mention activity of our 
government since September 11 in the same breath as treatment 
of Japanese-American citizens in World War II. And if there is 
a single fact or incident out there that would justify that 
comparison, which is, quite frankly, a very serious statement, 
I would love to hear about it, but I am not aware of it.
    Secondly, with regard to the Boston office, I just know 
from my experience in Louisiana, Ken Kaiser is moving from New 
Orleans, as head of that office, to Boston. He is a great 
Special Agent in Charge and he will provide great leadership in 
that office.

                         CHANGES IN FBI CULTURE

    Thank you, Mr. Director, for being here.
    I have some non-terrorism-related points, but first of all, 
on your obvious main focus and responsibility. It seems to me 
that your biggest challenge is really to change the culture of 
the FBI from this culture where FBI agents nailed everything 
down dead to rights to prepare a court case, whether it is 
drug-related or corruption-related, whatever it is, to being 
prepared to act a lot quicker than you can if you want to nail 
everything down dead to rights after a gazillion wiretaps and 
after you have every aspect of the case figured out.
    Could you give us some concrete examples or indications of 
what progress is being made in that pretty fundamental culture 
shift?
    Mr. Mueller. Let me start by saying that, when we talk 
about the culture of the FBI, that the essential culture of the 
FBI are agents who are exceptionally dedicated to public 
service, hardworking, and have the highest degree of integrity.
    And their mission has changed many times over the years. If 
you look at organized crime, for some point in time the records 
and the books will reflect that leadership in the Bureau would 
say there is no organized crime, and then all of the sudden, 
understood the threat of organized crime and the Bureau shifted 
180 degrees to address organized crime, it did that which we 
are doing now; that is, developing sources, utilizing the tools 
that we have, to build the cases. Building the intelligence. 
Although we did not at that time call it intelligence building, 
that is exactly what we were doing.
    And since September 11, I believe that the agents, almost 
to a one, would say that we understand that we cannot look at 
pieces of information solely as pieces of evidence in a 
courtroom; the information may fit into a larger mosaic that 
will enable us, if we utilize our capabilities in analyzing 
intelligence, to be more predictive about the next attack. And 
I think that shift is undertaken already in the Bureau.
    What has augmented and helped that shift is the USA PATRIOT 
Act, the recent ruling of the FISA court that has broken down 
the walls between the intelligence side of the house and the 
criminal side of the house. And we have had many examples now 
of intelligence gathering that has brought us to the point 
where we believe that we need to neutralize or to address a 
threat.
    An example would be the five individuals who were arrested 
in Lackawanna, and a sixth person rendered from Bahrain, which 
was both an intelligence, as well as, ultimately, a criminal 
undertaking, and those individuals are all pleading to 
sentences ranging from seven to 10 years this week. That is the 
kind of work that we are doing around the country now.
    So I do believe there has been a shift in our focus and 
that we are utilizing those tools and talents that we have had 
all along, but in different ways.
    Mr. Vitter. Okay. And again, I agree with you in terms of 
the fundamental values of the FBI: hard work and dedication, 
but it is very different to prepare a criminal case and try to 
cover every aspect of it so that person immediately has to 
plead guilty basically trying to disrupt ongoing terrorist 
activities, where you do not have the luxury of waiting two 
years to do every wiretap that you can conceive of.
    Mr. Mueller. Well, there is a balance, and it happens often 
when you are dealing with violent crime, as to how far you 
investigate before you take the violent criminal off the street 
because of the concern that the person may commit another act. 
It is not much different than that.
    It is different from doing a white collar case, where you 
get every piece of paper and you lock it up and you interview 
everybody. But I do believe that to a certain extent that the 
necessity to change the culture in that way may be somewhat 
overstated.
    The only other point I would make is that, over the years 
we have had a counterintelligence function. And the 
counterintelligence function rarely leads to a court case, yet 
there are a number of techniques that are used in the 
counterintelligence arena that lend themselves to the 
counterterrorism arena. The cases that you would get in a 
counterintelligence arena are quite obviously the espionage 
cases, and those are fairly few and far between. So I do 
believe we have both historically, as well as presently, the 
capability and the will to address counterterrorism.

                           PUBLIC CORRUPTION

    Mr. Vitter. Okay. Thank you. Quickly, three comments or 
questions on topics other than terrorism.
    First of all, as you may know, there is a very serious 
ongoing serial killer incident in Baton Rouge, Louisiana. I 
mostly want to compliment you and your office for providing all 
of the resources and all of the help that the locals have asked 
for. The mayor of Baton Rouge has personally told me that all 
have been super. And I certainly look forward to that 
continuing so that this person can be caught as quickly as 
possible.
    Secondly, in New Orleans, as I am sure you know, there is a 
very real focus on public corruption. Right now, there are two 
public corruption squads in that office, which is the most any 
office has in the country, including offices in metropolitan 
areas, like New York or Miami, which are far, far larger. And 
at least in the local leadership there in that office, there is 
a desire for a third public corruption squad or group, whatever 
the term of art is.
    And I think in terms of the workload, unfortunately, it is 
completely justified. And I would encourage your office to be 
able to support that sort of continuing focus on public 
corruption in that office in particular, particularly as a new 
Special Agent in Charge comes in.
    You may not have any reaction off the cuff, but do you 
think your budget will be able to support that sort of 
continuing effort in the New Orleans office?
    Mr. Mueller. Certainly, the Baton Rouge. Our organization, 
whether it be the New Orleans or the Baton Rouge office or 
whatever is necessary to identify that individual responsible 
for those crimes, we will move Heaven and Earth. Whatever you 
need, we will support that investigation or series of 
investigations.
    With regard to public corruption, public corruption is our 
number one criminal priority. I have taken three national 
security priorities, counterterrorism, counterintelligence and 
cyber, and said these are national programs to be run by the 
Assistant Director--investigations to be in the field, but the 
responsibility is with the Assistant Director back at 
headquarters.
    With regard to the criminal priorities within a particular 
field office, I am very open to, in ways that perhaps we have 
not done in the past, allowing the Special Agent in Charge to 
identify those priorities that are most important to that local 
community. So that while public corruption may be important in 
New Orleans and San Francisco, it may well be cyber-crime and 
the like.
    And the Special Agent in Charge should do threat 
assessments of the criminal problems there and address those 
problems with the manpower according to that office. And if 
they need additional--and our number one criminal priority, 
public corruption, we would like to provide that.

                    SEXUAL EXPLOITATION OF CHILDREN

    Mr. Vitter. Well, great. If public corruption is the number 
one criminal priority nationally, unfortunately in the New 
Orleans office it is number one, two, three, four and five. And 
so, I just repeat my statement and encourage you to be able to 
support a third public corruption squad there, which I think is 
the desire of the local FBI leadership.
    Final question: There is an alarming growth of sexual 
exploitation of children on the Internet, which is obviously a 
federal issue. What, in your budget, can help us try to turn 
the corner on that?
    Mr. Mueller. I requested additional agents, as well as 
additional support in our 2004 budget to address that 
particular problem. We requested 32 positions, including 19 
agents, and $3.6 million to support our Innocent Images 
undertaking.
    Mr. Vitter. Do you know offhand what that compares to in 
relation to last year?
    Mr. Mueller. I would have to provide you that. I do not 
think we have that offhand. I would have to provide that for 
you.
    [The information follows:]

               Innocent Images National Initiative (IINI)

    In regards to the IINI Program, the FBI's fiscal year (FY) 2004 
President's Request includes a program increase of $3,594,000. In FY 
2003, the FBI did not have an enhancement request for Innocent Images. 
The total funding for IINI in FY 2003 and FY 2004 are $11,324,000 and 
$15,415,574, respectively.

    Mr. Vitter. Thank you.
    That is all I have, Mr. Chairman. Thank you.
    Mr. Wolf. Thank you, Mr. Vitter.
    Mr. Mollohan.

                           BACKGROUND CHECKS

    Mr. Mollohan. Thank you, Mr. Chairman.
    Mr. Director, welcome, I join my chairman and ranking 
member and members of the committee in welcoming you here.
    There have been a number of laws enacted in the past 
several years expanding the number of background checks that 
are required. There is the Aviation Transportation Security 
Act, USA PATRIOT Act, Public Health Security and Bioterrorism 
Preparedness Act, and the Maritime Transportation Security Act. 
All of those require that the Justice Department respond in 
some way for some purpose, and represent an increased demand 
upon the Department of Justice.
    And currently, IAFIS, as you and I both know, is performing 
extremely well and is the premier fingerprint identification 
system in the world. But with these additional background check 
requirements, and additional requirements anticipated over the 
next number of years, I am concerned that the system could 
reach capacity.
    I am wondering if you are looking at that and anticipating 
that, and what do the trend lines look like, and do we need to 
begin now to make adjustments in IAFIS' capacity in order to 
accommodate that increased demand?
    Mr. Mueller. The answer to both questions is yes. We are 
looking at the various requirements, whether it be instituted 
by Congress or otherwise, just something that needs to be done, 
along with homeland security. We have in the budget at least 
two items that I am aware. You take, for example, the checks on 
pilots' recertification.
    The Foreign Terrorist Tracking Task Force had completed 
over 34,000 of those checks as of March 19th. And we will 
continue to do those checks, and we have requested additional 
funds in our budget for the Foreign Terrorism Tracking Task 
Force.
    We also have in our budget an item for the Visa 
Identification Terrorist Automated Lookout (VITAL), where we 
are requesting $14.2 million to better coordinate with our 
consulate overseas with what I will still call the INS to put 
into place that lookout system. Now, there are a number of 
other areas where background checks are required. For instance, 
for HAZMAT licenses, where we are still discussing to what 
extent our responsibilities lie in just running fingerprints or 
doing a name check, or what responsibilities are our 
responsibilities versus, for instance, TSA or Homeland 
Security?
    And whether it be from Homeland Security or FBI, to the 
extent that we do need additional resources on top of those 
that we requested in the 2004 budget, then we will be looking 
at that in the months to come.
    [The information follows:]

   Clarification of Visa Identification Terrorist Automated Lookout 
                                (VITAL)

    The VITAL concept represents the FBI's proposal to process 
fingerprint background checks for visa applicants and verify the 
identities of foreign nationals at border entry ports. In this rule, 
the FBI would conduct fingerprint-based background checks against the 
Integrated Automated Fingerprint Identification System's (IAFIS) 
criminal master fingerprint file, and eventually against a database of 
previous visa applicants (Visa Repository) that will be developed. An 
IAFIS response sent to the State Department would be used in the 
overall decision-making process concerning visa issuance. An IAFIS 
response returned to the Bureau of Immigration and Customs Enforcement 
(BICE, formerly the Immigration and Naturalization Service) would be 
used to verify the identify of a foreign national for entry into the 
United States.
    The VITAL project consists of two phases. Phase I includes 
personnel funding of $4,228,000 and nonpersonnel funding of $10,000,000 
to manage and develop the VITAL project. These funds would support 52 
project management and information technology personnel (2 Agent and 50 
support) who would modify IAFIS to provide the additional storage 
capacity needed to retain and store embassy and consulate submissions 
for future searches.
    Phase II of the VITAL project would support the development of a 
Visa Repository within IAFIS to store fingerprints, digital facial 
images, and nominal data from visa submissions.

    Mr. Mollohan. Well, for example, in the Aviation and 
Transportation Security Act, under section 113, the Attorney 
General is required to notify the training provider within 45 
days that the candidate represents a risk to aviation or 
national security, or else the person goes forward.
    I am not asking you to detail that act. All I am doing is 
suggesting to you that there are real response times required 
by much of this legislation.
    I am sure you are looking at that and encourage you to do 
so, because we have that system up and working. It is the 
greatest system in the world, and I would hate for it to be 
bogged down by being overburdened by these additional 
requirements.
    Mr. Mueller. And, as I say, we have put in a request for 
funds in the 2004 budget to address some of those needs. And I 
will tell you at the same time that my hope is that we face and 
hopefully overcome our deficiencies in technology. I do not 
believe that technology answers all questions; is the be-all.
    But technology in areas such as background checks and the 
like, my hope is that that will enable us to be much more 
efficient, reducing the necessity for additional manpower to 
handle some of these issues.
    Mr. Mollohan. You have come a long way technologically from 
10 or 15 years ago, when the FBI manually reviewed card files.
    I know that is not your primary responsibility, but it 
certainly would be something you would be interested in as you 
reorganize. There are concerns that maybe in the reorganization 
we are not going to have as many people on the line looking at 
the information coming in as we have had in the past.
    Mr. Mueller. Well, we, in the wake of September 11, 
established a terrorism financing section. It was expansive in 
the wake of September 11. It is where we had probably all--and 
I take this off the top of my head--probably close to 100 
people that were working on that or various pieces of it for a 
period of time. We still have that section. It is large. It is 
very effective.
    And the other point I should make is that we are working 
closely with the other agencies, whether it be the CIA, the 
DIA, NSA, as well as the treasury agencies in addressing this 
particular problem. And the degree of coordination between the 
various agencies on this problem is something that would have 
been unexpected, unanticipated before September 11th.
    Mr. Mollohan. Thank you, Mr. Director.
    Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Sweeney.

                COOPERATION AMONG THE FBI, CIA, AND DHS

    Mr. Sweeney. Thank you, Mr. Chairman.
    Welcome, Director Mueller. It has been now a year and a 
half, I think, since you have been in the position. And I know 
as much as anyone in America, you sort of face the shock and 
the change of September the 11th and felt that. Along with 
being privileged to serve in this committee, I have the 
opportunity to serve in a number of other designations that 
will involve me with many of the sort of structural issues that 
you have to deal with, Director Tenet has to deal with it, and 
Secretary Ridge.
    I am on Approps Homeland, I am on Select Homeland, I am on 
the Subcommittee on Select and Intelligence, I am on Treasury 
Postal, here and then this committee. So one of the predominant 
concerns that has developed over the course of the last several 
months is the capacity that each of the entities are going to 
have in developing a structure and a system to share 
intelligence, to share work. Mr. Mollohan touched on parts of 
those systems.
    The homeland security--the section, the chapter of the 
president's budget spans something like 20 pages, yet there is 
only about one paragraph that deals with the cooperation needed 
between the CIA, the FBI and Homeland Security. And we went 
through the debate a year ago, in terms of whether we were 
going to be able to deal with our own jurisdictional issues and 
developing such emergence. So I understand this is not a 
threatening question. It is as much as is anything, a 
theoretical question.
    Homeland Security and Secretary Ridge are responsible for 
establishing threat assessments domestically.
    How is that going to work? And how are we going to 
establish a system in which you are readily able to share in 
real time the kind of information that you need to share with 
them, and that they are going to be able to process and 
develop, as well as the CIA and their involvement in that?
    Tell us a little bit about how that is going and what the 
needs are.
    Mr. Mueller. Well, we have a system in place now that 
shares in real time. Every morning Tom Ridge, George Tenet and 
I meet with the President. And we will meet either before or 
after those meetings to go over--very briefly I might add--what 
may have occurred overnight in terms of terrorist threats. More 
particularly, though, we have agents at the CIA. The CIA has 
officers and analysts at the FBI. And at Homeland Security, we 
have agents over there. And Homeland Security is in our space.
    Mr. Sweeney. If I could just interrupt for a second for 
clarification. You have FBI agents in each of these locations?
    Mr. Mueller. Yes.
    Mr. Sweeney. From the perspective that Homeland is a new 
entity, probably without the same kind of capacity that either 
the CIA or the FBI has, in your opinion, how are they 
establishing that capacity?
    I am sure they have agents or representatives or people 
with you. And what are we doing to develop their capacity?
    Mr. Mueller. Well, I would have to leave much of that up to 
Tom Ridge. I will tell you that over the last two years that 
Tom Ridge has been as the adviser of the President for Homeland 
Security. I think we have worked cooperatively with him and his 
staff on each of these threat assessments.
    And because in this day and age, you do not generally have, 
when it comes to international terrorism, a threat that has 
information that is just from overseas and just impacts 
overseas or a threat that is just domestic that has no 
international ties. And in almost all of these threats, it has 
to be the CIA working together with the FBI in ways we have not 
worked out that way before, because the globe was smaller.
    And if you look at September 11, you had terrorists that 
came up with a plan overseas, infiltrated the United States. 
And we have to work together and we are doing that.
    And so, when you come up with a threat assessment, the CIA 
will look at the materials, our analysts look at the materials. 
In the future, as the Department of Homeland Security builds 
up, Tom Ridge's analysts will look at the materials, then give 
an assessment on the impact or the threat within the United 
States. That is happening now. I believe that the third leg of 
that stool will grow substantially as Tom Ridge grows his 
intelligence capacity.
    But what we do, we look at the operational information 
within the United States because we have agents out there. They 
are picking up conversations on wires. They are doing 
surveillances. They are looking at sources. And they are 
bringing in that information to the United States in the same 
way that George Tenet's people are bringing it in overseas.
    Tom Ridge's individuals will, in small part, be doing it 
because he has Customs, he has Coast Guard, he has those 
agencies that themselves can develop intelligence. But what he 
and his entity will be doing is looking at the intelligence and 
seeing how it impacts our infrastructure, what has to be 
hardened, are we looking at bridges, are we going to look at 
subways, and determining how that intelligence impacts a 
particular infrastructure.
    Mr. Sweeney. There are two particular points to that that 
are of concern, and that is the capacity of Homeland Security 
staffing to understand and be able to successfully evaluate 
where real threats exists and the ability of the rest of the 
systems to both accept that information and provide back 
relevant information in, as I said, in real time. And those are 
two key points, I think, that will challenge you and the rest 
of us pretty substantially as we develop.
    I have no doubt we are going to do this, but I think we 
need to stay focused on that, because if there are breaks to 
occur, I think those would be pretty significant cracks in 
foundation.
    Mr. Mueller. Can I make one additional point, if I might?
    A threat is never static. In other words, you get a threat, 
but when you get a threat or a piece of information you have to 
follow it up. It may be from a source; you have to do a 
polygraph.
    And all of us, because we have different areas of 
responsibility, whether it be George Tenet or myself, it is a 
continuous process of evaluating a threat and having your 
resources in the field do the evaluation.
    I occasionally think that people think that a threat is 
sort of a static: You get the information, then you decide, 
based on that piece of information you get on the threat, 
``Okay, what do you do to act?''
    Mr. Sweeney. Right.
    Mr. Mueller. But the fact of the matter is, in all of these 
it is an ongoing, evolving situation requiring all of us to 
work cooperatively together and often having to go out and 
direct additional gathering of intelligence from our assets.

                      TERRORIST THREAT EVALUATIONS

    Mr. Sweeney. And, Director, I think you hit the nail on the 
head when you said all of us having to work cooperatively. And, 
you know, I know there has been discussion about the cultural 
changes that you have been working on briefing to your agency, 
and I think that it is a bit contrary for bureaucracies in any 
regard to work together. It is their history, it is their 
nature, and this is going to be a great challenge.
    Based on the question Mr. Mollohan asked, you said 
something that seemed insignificant, but it is interesting from 
the perspective of how threats evaluations are done, and I 
would like to talk about it.
    You said that the principal threat comes from Al Qaeda. It 
is obvious because of the September the 11th attacks, sort of, 
that is the case.
    But the simple question: How do you get to Al Qaeda is the 
principal threat as opposed to Hezbollah, as opposed to Hamas, 
and how does that all work into the process?
    We know Al Qaeda was principally responsible for the 
attacks of September the 11th. As you develop your networks of 
intelligence, you are going to have to be more specifically 
focused on entities and groups, so maybe you can explain why Al 
Qaeda is that principal threat.
    Mr. Mueller. I think there are a variety of reasons to lead 
both the agency and us to believe that it is the principal 
threat. One is the funding. Over a period of time, it amassed 
millions of dollars. The fact that bin Laden himself had access 
to the funds was critical to the growth of Al Qaeda. I believe 
the organizational structure was such, and it grew up in 
Afghanistan over a period of time unhindered. The capabilities, 
capacity of those who are adherents to that philosophy to 
undertake attacks such as September 11th are somewhat unique.
    All of those together, coupled with the fact that the 
avowed desire to kill Americans--men, women and children, 
regardless of where they are around the world--leads us, I 
think, both organizations to believe that the most serious 
threat is Al Qaeda.
    Mr. Sweeney. Let me say, the capacity that you just 
mentioned, attributing to Al Qaeda, would you suggest probably 
does exist with many of these other groups as well, to some 
degree? Maybe to a lesser degree, but could potentially exist 
as well?
    Mr. Mueller. It does exist with other groups.

                     BUILDING INTELLIGENCE CAPACITY

    Mr. Sweeney. And prior to September the 11th, we may have 
had a sense of some of those capacities with Al Qaeda, but not 
the entire picture, and I know this from some of the other 
briefings and hearings that we have had, which leads me to the 
question of how much focus and capacity have we been able to 
expand in the last year and a half since the attacks?
    Tell me about the progress of installing intelligence 
experts in your field offices, and the recruitments that you, I 
assume, are undertaking in the Arab community and places like 
that.
    Mr. Mueller. Well, our source of recruitments, particularly 
in the counterterrorism field over the last year has grown 
almost 96 percent in terms of the recruitment of assets in the 
counterterrorism program. And I do not want to go in that, 
perhaps, more detail than that.
    Mr. Sweeney. Sure.
    Mr. Mueller. In terms of the intelligence, as I have 
articulated, I believe, in my statement, one of the things that 
we had not done well in the past, and that is take what 
information we have, strip off the sources and methods and 
provide that to other agencies that may have use of that 
information.
    And that is something that a cadre of reports officers do 
that we have established in headquarters, and we will be 
establishing in each of our field offices, coupled with 
sections in each of our field offices that are dedicated solely 
to the targeting and development of intelligence, the reporting 
of that intelligence, and then after you get the reporting of 
the intelligence, the analysis of the intelligence, the 
dissemination of the intelligence and then additional taskings.
    And so that circle of intelligence gathering and then 
action on that intelligence is what we are incorporating as a 
part of the Bureau. As I said, I am about to announce shortly 
an Executive Assistant Director who will be in charge of that 
program at a very high level in the Bureau, and we will have 
pieces of that program, you know, the word today is embedded, 
but embedded in the Bureau throughout the country.
    Mr. Sweeney. What are the resources you need to do that? 
Are they in your budget request fully?
    Mr. Mueller. They are.
    Mr. Sweeney. Do you anticipate those changing with changing 
events in the world?
    Mr. Mueller. There are actually three components to that. 
One is, having agents and those who will be dedicated to 
addressing intelligence, and we have individuals within the 
Bureau who have had that background.
    For instance, we have more than 50 former CIA analysts and 
officers in the Bureau. We have over 600 individuals in the 
Bureau who spent time in military intelligence functions and 
the like.
    So we have within the Bureau some of that expertise and 
capabilities. Now, the second thing we need, though, is the 
analytical capability. And we have made requests over the last 
couple of years and additional requests in this budget for 
additional analysts.
    And the last piece of that is the information technology 
upgrades that we are instituting to put in place the databases, 
the centralized database with the most modern database 
architecture that will enable us to utilize a number of off-
the-shelf analytical tools to better help our analysts to be 
more predictive than certainly they were prior to September 
11th.
    Mr. Sweeney. Presumably connected to the Homeland Security 
Agency, at least their intelligence sources and CIA?
    Mr. Mueller. And that goes to the point, the Terrorist 
Threat Integration Center. That, as a piece of it, is 
critically important because that center will be able to pull 
the information from each of our various databases on a 
particular threat to make certain that it is done on a real-
time basis with immediate access to each of those databases.

                     RECRUITMENT OF ARAB-AMERICANS

    Mr. Sweeney. I think it is going to be critically important 
that we provide you the resources to be able to do both the IT 
and the technical pieces, but also the recruitment pieces.
    I alluded to it a little bit, I will ask it more directly, 
the recruitment of Arab-Americans, agents to serve, to 
represent you, is there a concerted, there is a concerted, 
direct effort?
    Mr. Mueller. Yes.
    Mr. Sweeney. How is that going?
    Mr. Mueller. In terms of our recruiting agents, it is going 
well. It could be going better, for a variety for reasons.
    Mr. Sweeney. Could you talk just a little bit about some of 
those reasons and just to give us a sense of it?
    Mr. Mueller. No, we have to make a real effort to go out in 
the communities and explain to individuals what a great job it 
is being an FBI agent.
    There are those communities that have looked askance at the 
Bureau over a period of time, and we have to overcome those 
hurdles. We also do not recruit right out of college.
    There has been a belief over a period of time, and I think 
it is wise, that as an FBI agent, one has tremendous 
responsibility, and what we look for is maturity and judgment, 
and then we look at the skills after that.
    And, consequently, we are looking at persons who have had 
another career before they come into the Bureau and have 
demonstrated often in that other career, in addition to a 
particular skill, whether it be specializing in Middle Eastern 
studies or Far Eastern studies or computer technology, but have 
the maturity, the judgment to be accorded the responsibility 
that is entailed by becoming an FBI agent.
    Mr. Sweeney. Is there a particular challenge in the Arab 
community?
    With the recent, this past weekend's alleged fragging 
incident in the military operation, there is a sense that there 
are at a minimum, to be polite, greater complexities in dealing 
with certain groups, certain people, and particularly certain 
people in the Arab community.
    There is a great deal of concern, I hear this from 
constituents constantly, about the proliferation of members of 
the Wahabi sect as clerics, either in prisons or serving as 
chaplains in the military, those kinds of things, and in many 
respects to develop a focus and a handle on it, we are going to 
rely on you to do that.
    You have your own problems, because you have to recruit as 
well. I will refer to the allegations against Abdel Aziz, an 
agent that another agent has accused of some improprieties, 
refusing to wear wiretaps, wires to record another Muslim, 
those kinds of things.
    Those are complexities that you have to deal with every 
day. I want to ask you a little more specifically about that, 
but talk a little bit about that kind of problem.
    Mr. Mueller. We have, some of the best agents in the 
counter terrorism field come from Middle Eastern backgrounds--
some of our best agents. We are building, we are bringing more 
in.
    They are absolutely terrific. And I think they changed the 
rules so they can take advantage of their frequent flyer miles. 
And if they do, we have them around the world in a variety of 
places day-in and day-out. And they are terrific. And we are 
recruiting and we have had a substantial response from the 
community.
    What takes time getting persons on board is the elaborate 
background process that we go through and the desire to assure 
that each of our agents when we bring them on board, display 
that responsibility, that maturity, that leadership ability 
that we are looking for.
    Mr. Sweeney. Are there heightened concerned with certain 
sects within the Muslim community?
    Mr. Mueller. In any grouping of individuals, we are looking 
for the best who want to be FBI agents. And we go through the 
background process to assure that we evaluate their capability 
for joining the Bureau.
    Mr. Sweeney. Is it not relevant, however, if someone has 
studied with or worked in certain area that devoutly preaches 
an anti-American approach?
    I mean, I would assume, Director, that that is a major 
concern for you and us.
    Mr. Mueller. As you may be aware, probably are aware, 
whenever we do a background check to be an FBI agent in 
particular, we have to fill out that elaborate form, which is 
where you have lived and who your friends are and everything 
since you were very young. And we go out and do an extensive 
background check to make certain that the individual will be 
loyal to, first of all, to the Constitution and to the United 
States and will be a fully contributing agent of the FBI.
    And so regardless of the community from which a person 
comes, we believe that the background check assures us that in 
almost all instances--and we have those that do not work out--
but in most instances, if not all, that the background check 
will expose those who did not fit that person that we want as 
an FBI agent.
    Mr. Sweeney. And you are confident we have the resources--
--
    Mr. Mueller. Yes.
    Mr. Sweeney [continuing]. And the capacity to do that.
    And in these cases, was an investigation done? The 
allegation is that there were these allegations, and then a 
promotion occurred and the individual was transferred to the 
Saudi Arabia office. And that seems confusing to many people.
    Mr. Mueller. For a variety of reasons, I cannot address the 
specifics of that.
    Mr. Sweeney. If at some point, subsequently, I would like 
to follow-up with some questions.
    Thank you, Mr. Chairman.
    Mr. Wolf. Would the director agree to meet with the Mr. 
Sweeney, privately?
    Mr. Mueller. Yes. Somebody can meet with you and review 
what we can disclose, given the appropriate statutes and the 
like.
    Mr. Sweeney. Thank you.
    Mr. Wolf. I think that would be a good idea, so you will 
have that information.
    Mr. Cramer.

                 FOREIGN TERRORIST TRACKING TASK FORCE

    Mr. Cramer. Thank you, Mr. Chairman.
    Welcome back, Mr. Director. I am always impressed by your 
appearance here and before the Intelligence Committee, as well. 
You seem to endure this process very well, at least from 
appearances anyway.
    I would like to direct your attention, to the extent that 
you can, to the Foreign Terrorist Tracking Task Force. Mr. 
Mollohan seemed to be going that way with some of his questions 
there. But you are asking for $60.6 million, that is level 
funding from 2003, I believe.
    And could you elaborate more, and perhaps in a general way, 
on that task force work and its progress since its creation 
back in 2001?
    Mr. Mueller. I believe you are aware that the principle 
reason this was set up was to work with the INS to keep out 
those terrorists, who are outside the United States, who would 
want to come into the United States utilizing various 
techniques.
    Mr. Cramer. Now, is that a collaborative effort?
    Mr. Mueller. It is. It is a collaborative effort, 
particularly with the Department of Defense and with others, 
very collaborative.
    Let me just check one thing, if I could?
    And in terms of the work that the Foreign Terrorist Task 
Force has done since it was set up in October of 2001, I think 
I already alluded to the fact that we have conducted almost 
35,000 checks of FAA certified pilots, assuring that there were 
no individuals in that group that would present a threat. And 
we have, in the course of that undertaking, identified at least 
one or more who should be prevented from getting an FAA 
license.
    We also have looked at a list of approximately 350,000 
individuals that have come from the INS. These individuals are 
referred to as absconders, because they are deemed to be in 
this country illegally and should no longer be in this country. 
We have looked at the list to identify those individuals and 
help law enforcement to not only identify those that present 
the most serious threat, but also to track them down, locate 
them and have them detained. That has been the principle work 
of the Foreign Terrorist Tracking Task Force and why we are 
seeking the funds we are in the 2004 budget.
    And as I also indicated before, there are other background 
checks that in addition to those we do for the FAA, for 
instance, that we will have to do in the future in a variety of 
arenas, such as for HAZMAT licenses, perhaps in what is called 
the VITAL program relating to consular checks and the like. So 
I would expect that the Foreign Terrorist Tracking Task Force 
to be very busy for years to come.
    Mr. Cramer. Well, that is noble work and it needs to be 
done. And I was just concerned that maybe that was not enough 
money. Now, you made reference to your progress with your 
technology issues, the Trilogy-System. A lot of what that task 
force is doing is tracking information, passing on information, 
coordinating information, banking information. And I just 
wanted to make sure that the left hand and the right hand were 
getting the kind of funding and resources that you need.
    Mr. Mueller. Yes, as I am looking at it, I believe we put 
in the request for $60.6 million, as you may also identify, 
which, I believe, for the next year will cover those expenses.
    Mr. Cramer. What amount of that is personnel?
    Mr. Mueller. We have requested no personnel. Many of the 
personnel are on detail. It is probably as it should be.
    Most of that is for a variety of costs that are expended in 
keeping that going, particularly with regard to database 
management.

                        HAZARDOUS DEVICES SCHOOL

    Mr. Cramer. As we have to do in these hearings, now I want 
to shift entirely. I want to comment again as I have before 
about the hazardous devices school, your hazardous devices 
school that is in my district.
    Since ATF is now under the Justice Department, they have a 
bomb training program at Fort A.P. Hill in Virginia. And I know 
that we, at the school, in Alabama are spending $23 million to 
rebuild or, actually, more completely build a set of villages 
so that front-line responders can come in and have an 
environment to train in that is as close to real life as you 
can get.
    It is very much needed, and it is a good school. It has 
been there for a while, as you know. I just wondered if you 
have your hands around yet this other bomb-training program, 
which seems to focus more on post-disaster situations, and 
whether there is some dual coverage there, or if you think 
those are separate programs, or if you see that they need to be 
consolidated.
    Mr. Mueller. Now that the ATF is with the Department of 
Justice, I believe the Deputy's Office and others in their 
department are looking at where there is overlap and where it 
can have the two entities join together and perhaps eliminate 
any duplication.

                  INFORMATION SHARING/GATEWAY PROJECT

    Mr. Cramer. Right. Keep me posted on that, if you would, to 
say the least.
    I want to come back earlier in the questions that you were 
asked about, we got into the Joint Terrorism Task Forces, and 
funding for those task forces, $11.5 million for program 
support and for an information sharing initiative in 10 FBI 
field offices.
    Where are those field offices, and can you give me some 
background information on--or have I got that wrong? Is that 
funding not just for those 10 programs, and is that a focused 
program, an initiative?
    Mr. Mueller. It is an initiative, and it is a focused 
program. It is an initiative and a focused program in St. Louis 
called the Gateway Project. And it is an effort to integrate 
data from the various state police departments, the St. Louis 
Police Department, and the FBI in a database with appropriate 
security so that we can have access to information relating to 
terrorism or narcotics trafficking or burglaries or homicides 
and the like in ways we have not done in the past. And the 
funding is to expand on that form of program.
    Mr. Cramer. So it is a pilot project and you are going to 
share the results of that with the other task forces as well, 
when you reach that point.
    Mr. Mueller. What we want to do is come up with a model 
program that addresses a number of the issues, not just the 
funding issues, but the participation, the security issues, to 
what extent the information can or should be disseminated, who 
has access to it, in a series of pilot projects. And then use 
that as a model for information sharing around the country, at 
the local level.
    Mr. Cramer. I of course will want to pay attention to that 
as well. Thank you for your presence here today.
    Mr. Chairman, thank you.
    Mr. Wolf. Thank you.
    Mr. Kirk.

                     IRAQI UNMANNED AERIAL VEHICLE

    Mr. Kirk. Director, thank you for coming. I just noted that 
the Fox News channel reported an unmanned aerial vehicle 
program in Iraq in which the digital maps loaded into the 
brains of these systems were of U.S. cities.
    And since this little airplane with chemical spray tanks 
cannot reach the United States from Iraq, it would presumably 
be launched from a field inside the United States or Mexico or 
Canada. That puts it squarely in your jurisdiction.
    Are you aware of this threat, working it? Reassure me.
    Mr. Mueller. I am not certain whether I am or not. When did 
you see it on Fox News?
    Mr. Kirk. About two weeks ago.
    Mr. Mueller. I did not see the Fox News report. We have 
been following--I cannot think of a specific threat, but the 
use of UAVs in this context is something that we have been 
looking at for a substantial period of time. I will tell you 
that we also have undertaken investigations, and with the help 
of private industry, to determine exactly from whom and how 
Iraq may be gaining access to this type of UAV. And we have 
several ongoing investigations into that.
    I had not been aware of a specific report of a UAV that was 
programmed with maps of the United States. I had heard reports 
of maps of the United States being found in Iraq, and I have 
heard of UAVs. I am not sure I have heard of them put together.
    [The information follows:]

       Fox News Report Regarding an Iraqi Unmanned Aerial Vehicle

    The Director is aware of the threat that Iraq could be planning a 
chemical or biological attack on American cities through the use of 
remote-controlled ``drone'' planes equipped with Global Positioning 
System tracking maps.

                  TERRORIST THREATS TOWARD U.S. CITIES

    Mr. Kirk. Well, it may be incorrect, but certainly 
something we should be worried about and hope we get on that.
    We have seen that the threat, particularly Iraqi or al 
Qaeda agents, may be unique to New York or Washington, so 
living in Chicago, as I do, I might feel safe.
    On the other hand, we are home to the world's busiest 
airport and the world's tallest building. Should we feel safe, 
should we not? Can you gauge the level of the terrorist threat 
to a Midwest metropolis like Chicago?
    Mr. Mueller. I think people would say that al Qaeda is 
generally known for going back on targets that they have hit 
previously, which would mean that quite obviously New York for 
that and other reasons, and Washington for that and other 
reasons, remain targets. That is not to exclude other targets 
such as Chicago, a large city which has some, I would say, 
attractive targets.
    Over a period of time, not necessarily credible and 
generally not credible threats have been made in which the 
Sears Tower is mentioned as a particular target. I can tell you 
that we do not have any current credible information about 
Chicago being a target of any particular attack or threat. By 
the same token, we are in a condition of heightened alert by 
reason of the hostilities in Iraq.
    There are each day, threats from a variety of different 
sources, whether it be e-mail or walk-ins to embassies or 
otherwise, that make threats against the United States, all 
varying in degree of credibility, but there are a number out 
there.
    So, on the one hand, I do not want to overemphasize the 
concern, but on the other hand, we must point out that we are 
in a time when for a variety of reasons, not the least of which 
is the hostilities in Iraq, we are in a state of heightened 
alert. Chicago cannot be eliminated as a target.

                            TRILOGY SECURITY

    Mr. Kirk. Thank you. Well, we were very pleased when the 
federal government did create the no-fly zone around the Sears 
Tower. And I think that was a wise decision.
    Now, this committee has supported the Trilogy system of 
yours. And we strongly support the bureau moving away from the 
index-card culture that it was in, to one in which we have at 
least linked electronic databases. I think the public expects 
that you already have that, and I am glad we are bringing that 
online. This gives enormous power to agents, but then creates a 
vulnerability for the bureau itself.
    I am wondering if you could reach out to NSA and red-team 
your Trilogy system to see if they can hack their way into what 
you are building. Make it separate, report just to you and make 
sure that the contractors and people supporting you have 
thought of every way. Because I would think that this is a very 
powerful system, and we want you to be able to have it to your 
field people, but it also then creates a unique vulnerability 
if someone was able to get in.
    Mr. Mueller. Well, two things. One, we have had what I will 
call the graybeards: persons from academia, from private 
industry, who have a range of expertise in addressing systems--
for instance, an individual from Sandia Labs--to look at 
Trilogy both from the perspective of will it work, are we on 
target, but also from the security side, and give us some 
advice on how to enhance the security.
    Secondly, I have Ken Senser, who is the Assistant Director 
for Security, who is an expert, and excellent, I might add, at 
this arena and has used the red-team approach in other arenas, 
and we undoubtedly will use it here.
    The last thing I would say is that as we have developed 
Trilogy and are upgrading our information technology, we have 
done it in consultation with the security side and we do not 
take a step without having the input from the security side to 
assure that what we are developing and building is going to 
meet the security standards.
    One of the benefits that we have is that it is a separate 
system, encapsulated, if you will, so that we do not go on our 
computer system outside.
    There are instances where it has occurred and we address it 
forcefully, but my expectation is that with the individuals we 
have in that arena our growth of the division, the security 
division, in the last year and anticipated growth, that we are 
making a substantial effort to assure that the security cannot 
be breached.

                        BIOMETRIC IDENTIFICATION

    Mr. Kirk. Well, I would hope you would reach out to the 
folks at Fort Meade.
    Mr. Mueller. We have and we will continue to.
    Mr. Kirk. Okay, thank you. The State Department is relying 
very strongly now on the retinal scan bringing in, so that 
people seeking entry into the United States will go through 
this process.
    Are you planning on linking to that and any thoughts about 
using a retinal scan for federal prisoners or criminals so that 
we might have a more reliable database on the foreign side and 
on the domestic side?
    Mr. Mueller. Well, yes, we are looking at a number of 
biometrics, including the retinal scan. What I will tell is as, 
by looking at it, though, and it may be useful in terms of 
swiftly allowing persons to pass through an airport.
    On the other hand, from the law enforcement, intelligence 
perspective I think we will always want to use fingerprints, 
principally because you do not leave a retinal scan at a crime 
scene, but you do leave a fingerprint.
    And consequently I believe in the future we will continue 
to rely on fingerprints. I will tell you that we, in the 
documents we obtained out of Afghanistan, for instance, we have 
fingerprinted many of those, and in some cases the 
fingerprinting we did of those documents out of Afghanistan 
have led us to identify individuals whom we would not want in 
this country, led us to identify individuals who are of 
substantial concern to us.
    [The information follows:]

     Clarification of Latent Fingerprints Obtained From Objects in 
                              Afghanistan

    And consequently I believe in the future we will continue to rely 
on fingerprints. I will tell you that we have obtained fingerprints 
from documents obtained from locations in Afghanistan and Pakistan. In 
one instance we identified an individual whom we would not want in this 
country and would be of substantial concern to us if not presently 
incarcerated.

    So our principal focus is still the fingerprint. We have 
taken fingerprints, for instance, of anyone detained in 
Afghanistan so that in the future we could anticipate them 
trying to come to the United States and bar them.
    [The information follows:]

 Clarification of Fingerprints Obtained From Detainees in Afghanistan 
                              and Pakistan

    So our principal focus is still fingerprints. We have obtained 
fingerprints of several thousand individuals detained in Afghanistan 
and Pakistan, which will be used to identify them if they attempt to 
enter the United States in the future. The Integrated Automated 
Fingerprint Identification System will also be used to identify 
fingerprints, which may be found on additional documents located in the 
Afghanistan and Pakistan areas.

    Mr. Mueller. We have provided training to other countries 
such as Pakistan and others in terms of utilizing fingerprints 
so that we can be more effective in the war on terrorism.
    So while I think the retinal scan is good, we are not yet 
going to give up on the fingerprint.
    Mr. Kirk. Good, I just hope you are able to, the bureau 
will be able to use that database and has a formal way in to, 
because it is going to become huge.
    Mr. Mueller. I will have to. I am not currently familiar 
with how we plan to be integrated, but we will follow up on 
that.
    [The information follows:]

    [GRAPHIC)S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
                        HAND-HELD ANTHRAX TESTS

    Mr. Kirk. Okay. Last question. John Marburger, director of 
the White House Office of Science and Technology Policy, issued 
an advisory recommending that all first responders in the 
United States cease using the hand-held anthrax tests that were 
so valuable in reassuring people when we had the anthrax 
scares, that no, your office or school or church is okay.
    We understand, though, that other U.S. government agencies 
are exempt from this recommendation, and it was based on an FBI 
study. So I am wondering if you could share the details of that 
with this committee, because we have an awful lot of first 
responders who have come to me in northern Illinois, and I am 
sure elsewhere, saying, gee, we have this new recommendation 
not to use all of this hand-held anthrax equipment.
    That means that when we get a call from a school, we cannot 
reassure them that what they see is not anthrax or some powder, 
and yet meanwhile other U.S. government agencies are still 
using this equipment, all based on FBI technical findings.
    So I am wondering if you could get back to the committee on 
this and help us sort this out?
    Mr. Mueller. I will do so.
    [The information follows:]

       FBI Study on the Effectiveness of Hand-Held Anthrax Tests

    The January 2003 study was an evaluation of hand-held immunoassays 
(HHAs) conducted for the FBI by the Centers for Disease Control and 
Prevention (CDC). The purpose of this study was to evaluate available 
HHAs to determine whether these devices are suitable for FBI field use. 
The results of the study conclusively indicated problems with HHAs 
reporting both false positive results (e.g., a positive result when 
Anthrax was not present), as well as false negative results. The FBI 
cannot accept false negative results because of the serious 
implications to public health and safety.
    The FBI does not use any of the anthrax HHAs. This is based on the 
fact that these HHAs have problems with false positive and false 
negative results. The FBI completely relies on definitive testing done 
by the Laboratory Response Network (LRN) public health laboratories, of 
which there are more than 100 in the United States. Since 1999 when the 
LRN was brought into existence, there has never been a reported false 
positive or false negative result, and more than 150,000 samples have 
been tested since 9/11/01.
    The FBI has made no recommendation as to whether or not these HHAs 
should be used outside of the FBI.

    Mr. Kirk. Thank you.
    Mr. Chairman, thank you.

                             EL SHUKRIJUMAH

    Mr. Wolf. Thank you, Mr. Kirk.
    We have a number of questions we will go through fast. Can 
you say anything for the record here about the Saudi individual 
that has been in the newspaper and on the media in the last 
couple of days who have not been found?
    Mr. Mueller. Yes, I think what has been made public is we 
are looking for an individual, I believe his name is El 
Shukrijumah. He is an individual whom we believe has the 
capability of undertaking terrorist attacks. We are 
particularly concerned about him, because he does speak 
English, has spent time in the United States, and has been 
identified by those whom we have detained as an individual who 
has not only the ability, but also the will and the direction 
to undertake terrorist attacks.
    Mr. Wolf. How old is he? And how long did he spend in the 
United States? Where did he live?
    Mr. Mueller. His family lives in Florida. I am not certain 
of his age, off the top of my head. One of the gratifying 
instances that has come out of our putting a lookout for this 
individual is that the Muslim community in Florida is working 
very closely with our FBI office down there to follow-up on 
determining the location of this individual. We hear that he 
may be overseas. We have our counterparts overseas looking for 
him. And our hope is that our counterparts overseas will find 
him and detain him, and hope that he is not in the United 
States.
    Mr. Wolf. Is Interpol looking for him?
    Mr. Mueller. I believe. I would imagine that Interpol is, 
but I would have to check on that. I will tell you that since 
we put out the lookout, we have received in excess of 1,000 
sightings of him. And we are tracking all of those down.
    [The information follows:]

                             El Shukrijumah

    El Shukrijumah is 27 years old. Interpol has been alerted to be on 
the lookout for him.

                       VITAL AND CONDOR PROGRAMS

    Mr. Wolf. Can you provide us with an update on the efforts 
of the Foreign Terrorist Tracking Task Force to strengthen the 
visa approval process, and as an anti-terrorism tool?
    We understand that changes have been made over the past 
year. Are you now able to systematically check all applicants 
and report these decisions back to embassies and consulates on 
a timely basis, and how fast? You know, that was the problem of 
the last----
    Mr. Mueller. That was a problem.
    Mr. Wolf. Yes.
    Mr. Mueller. We cannot do that at this point. The 
architecture for that is being put in place by the State 
Department. It is not yet there. We have put in a request for a 
certain amount of money for what is called VITAL. It has two 
agents and 50 support and a total of $14.2 million in 
anticipation of the increase in our workload when this comes 
on-line. It is not on-line yet.
    [The information follows:]

   Clarification of Visa Identification Terrorist Automated Lookout 
                                (VITAL)

    The VITAL concept represents the FBI's proposal to process 
fingerprint background checks for visa applicants and verify the 
identities of foreign nationals at border entry ports. In this role, 
the FBI would conduct fingerprint-based background checks against the 
Integrated Automated Fingerprint Identification System's (IAFIS) 
criminal master fingerprint file, and eventually against a database of 
previous visa applicants (Visa Repository) that will be developed. An 
IAFIS response sent to the State Department would be used in the 
overall decision-making process concerning visa issuance. An IAFIS 
response returned to the Bureau of Immigration and Customs Enforcement 
(BICE, formerly the Immigration and Naturalization Service) would be 
used to verify the identity of a foreign national for entry into the 
United States.
    The VITAL project consists of two phases. Phase I, which is 
represented by the request set forth in the FY 2004 budget, includes 
personnel funding of $4,228,000 and nonpersonnel funding of $10,000,000 
to manage and develop the VITAL project. These funds would support 52 
project management and information technology personnel (2 Agent and 50 
support) who would modify IAFIS to provide the additional storage 
capacity needed to retain and store embassy and consulate submissions 
for future searchers.
    Phase II of the VITAL project would support the development of a 
Visa Repository within IAFIS to store fingerprints, digital facial 
images, and nominal data from visa submissions.

    Mr. Wolf. Are you coordinating with the Department of 
Homeland Security?
    Mr. Mueller. We are, we are.
    Mr. Wolf. What will be in the office over there? Do you 
have a consular from the State Department? Will we have a 
Homeland Security person in the embassy, wherever that is?
    Mr. Mueller. I am not familiar with the ins and outs of it. 
My understanding is that at least in some, if not all, probably 
not all consulates, but embassies, there will be someone from 
Homeland Security. But I am not intimately familiar with the 
homeland security statute to be able to say to what extent 
Homeland Security will have a presence in either embassies or 
in the consulates.
    [The information follows:]

    Visa Identification Terrorist Automated Lookout (VITAL) and the 
        Departments of State and Homeland Security Stakeholders

    If the FBI's VITAL proposal were supported, the FBI would expect 
the formulation of an interagency group or task force, with 
representatives from the stakeholders. This group or task force would 
include the Departments of State and Homeland Security and would 
address the development and use of the VITAL concept. Items to be 
addressed by the task force would include questions concerning staffing 
at the Embassies, final system design (including the technical 
architecture to be used), the hierarchy of processing, the policies 
regarding data security and record integrity, and many other related 
issues. This group also would review enhancements and future potential 
uses for VITAL-related services.

    Mr. Wolf. Has the check stopped anybody from coming in?
    Has this check stopped anybody, has somebody come in or 
applied for a visa in X country and then, using this process as 
poorly as it may very well be, they have not gotten a visa to 
come in?
    Has it stopped any terrorists from coming in?
    Mr. Mueller. Well, we have what is called a Condor Program, 
which is not the electronic VITAL program, which I think you 
are talking about. In the Condor Program, we have stopped a 
number of individuals coming into the United States and 
identified persons--I would have to get you the exact figures--
whom we did not want to have come into the United States and 
were turned back at the border.
    [The information follows:]

                             Condor Program

    Of the 57,300 requests submitted under this program between June 
26, 2002 and March 19, 2003, 56,400 were approved by the FBI and 
returned to the State Department. The FBI is still reviewing the 
remaining 900 requests.

                           AIRLINE MANIFESTS

    Mr. Wolf. Okay, if you would, that is important, because 
that keeps it out of the country.
    Are you getting cooperation from the airlines? This 
committee and Mr. Rogers last year put language in requiring 
all of the airlines that service the United States to give a 
list of their manifests before they land, as other countries 
do. Are all of the airlines that land in the United States now 
in compliance with that?
    Mr. Mueller. I would have to defer to TSA and Tom Ridge on 
that. I believe that from our and my experience with issues 
relating to airlines coming in and the necessity for obtaining 
manifests, I have not seen an instance where we have not had 
the manifest early as is required by the statute and as we need 
it to conduct our investigations. But I would have to check as 
to what extent there may be foreign airlines that still are not 
providing the manifests in the timely fashion.
    Mr. Wolf. Could your people check?
    Mr. Mueller. Yes, I can check that and get back to you.
    [The information follows:]

     Foreign Airlines' Compliance With the U.S. Manifest Provision 
                               Regulation

    Most foreign carriers with inbound flights to the United States 
provide passenger manifests to Bureau of Immigration and Customs 
Enforcement (formerly the United States Customs Service and the 
Immigration and Naturalization Service) for screening purposes prior to 
arrival in the United States. The FBI does not receive these directly, 
unless it directly requests the manifest in advance for investigative 
purposes. Airlines are not required to participate in this process, but 
are strongly urged to do so.

                    TERRORIST RECRUITMENT IN PRISONS

    Mr. Wolf. On the issue of terrorist recruitment in prison, 
my sense is now that the bureau is taking that very serious. 
Can you tell us a little bit about how serious you are taking 
the potential recruitment of terrorists in prison?
    Mr. Mueller. Yes, I actually met last week with Kathleen 
Hawk Sawyer, who is the outgoing----
    Mr. Wolf. Right.
    Mr. Mueller [continuing]. Head of the Bureau of Prisons and 
with Harley G. Lappin, who is going to be taking over the 
Bureau of Prison and this was one of the topics that we 
discussed. And I know that in conjunction with our offices 
around the country, they have undertaken the screening 
mechanisms that perhaps were not there for those who were 
proselytizing in prison and perhaps be recruiting terrorists.
    Apart from the Bureau of Prisons, on the state and local 
sides, each of our Joint Terrorism Task Forces and our Special 
Agents in Charge have this as an issue to discuss with them, 
and to liaison with the prison facilities in the states or 
communities in which they have a presence and to address, in 
particular, this problem.
    The one area that we have focused on is looking at those 
sources of information that we may have in state or local 
institutions who may be able to provide us with information as 
to whether or not, if there is not any particular institution 
and effort being made to recruit those who would commit acts of 
martyrdom.
    Mr. Wolf. So all the state prisons and local prisons are 
now aware that this is a potential problem, because a couple 
months ago, the Bureau did not seem that aware and the Bureau 
of Prisons did not seem that aware. And if the Bureau was not 
that aware and the Bureau of Prisons was not that aware, my 
sense is that a local jail would not be that aware. So now, do 
you think it has permeated up and down that everyone is now 
aware?
    Mr. Mueller. I do.
    Mr. Wolf. And they know what to look for?
    Mr. Mueller. I do, and I know I had conversations with 
Larry Thompson, Deputy Attorney General, several months ago 
about this very issue. And since the Bureau of Prisons falls 
under him, he had put into place a mechanism to address this 
particular issue. We, in the Bureau, have gone out to our 
Special Agents in Charge and identified this as an issue along 
with the Joint Terrorism Task Forces and are following up on 
it.

                         CONFLICT DIAMOND TRADE

    Mr. Wolf. I have met over the last couple of months with 
agents a number of times and over the last couple of years, 
again, urging the Bureau to investigate the conflict diamond 
issue. And on March 10, the U.N. Special Court in Sierra Leone 
handed down its first indictments charging seven former 
government rebel leaders with committing atrocities in the 
country's decade civil war. As you know, they had been cutting 
off arms and legs of young kids and men and women.
    We understand that Lagos, Sierra Leone and most of Western 
Africa are covered by the Legat in France. I really believe 
with strong feelings, almost to the point that I will likely 
write it in the bill, but I really believe you need someone 
based in Western Africa to deal with not only conflict 
diamonds, but those issues. And if your people are not there, 
you cannot cover Sierra Leone from France. And why will you not 
put an agent out in Western Africa: Guinea, Sierra Leone, 
Liberia? Charles Taylor trained in Libya. Foday Sankoh and all 
these others trained in Libya. You have this whole group coming 
through there.
    Why would you not put an agent in this area?
    Mr. Mueller. We are looking at putting an agent some place 
in West Africa, number one. Secondly, on the conflict diamonds 
issue, which I know is a continuing concern both for you as 
well as me, I want to say at the outset that on the tape that I 
received, I watched the BBC tape. I requested our people to 
look at it and identify each lead in there if it had not been 
done before and follow up on it. I will tell you that we 
recently had agents in South Africa talking to De Beers and 
that we have agents that we anticipate going to West Africa to 
follow up on this particular issue.
    I also met with David Crane when he was here. Our people 
are in discussion with him. We were supposed to have 
discussions with him on this issue this week but it was 
postponed until, I believe, next week. On this same issue, I 
will tell you, going back to what we are doing on terrorist 
financing and our multi-pronged approach in addressing 
terrorist financing, we have spent a great deal of time with 
detainees, whether it be in Guantanamo or others that have been 
detained in Pakistan and then moved, on terrorist financing to 
determine whether or not the assertions or the allegations that 
one finds in the BBC tape or otherwise can be corroborated by 
those in Al Qaeda who have had access to the flow of monies 
there.
    And so we are continuously following up on this particular 
issue.
    Mr. Wolf. In the case of the one individual up in New York, 
in the notes he mentions purchasing equipment for mining of 
diamonds. And the man is now in jail in the United States.
    Have your people gone to speak to him?
    Mr. Mueller. We are following up on that. I know you're 
meeting with the Ambassador and that we are following up on 
that, yes.
    Mr. Wolf. So they are actually going to go into the prison 
and speak with that individual?
    Mr. Mueller. I would anticipate they do so. The first thing 
we are doing is going back and pulling in all the information 
from the prosecutors, from the agents that handled that 
particular trial and that individual in preparation for going 
back in and obtaining that information.

                   ESTABLISHING A PRESENCE IN LEBANON

    Mr. Wolf. That would be good.
    On the issue of the Legats, too, the emergency supplemental 
enacted in August directed the FBI to use $44.7 million in 
Cairo to expand the Legat; also, Beirut, Lebanon. When you are 
speaking and talking about the threat of Al Qaeda, and 
certainly I am not questioning you or your determination as it 
being the most important threat. Again, we all know about 9/11.
    But this article here, which dealt with the issue of 
tobacco smuggling and Hezbollah, says the following: ``The 
Hezbollah rap sheet is long: 19 Americans dead in 1996 in 
Khobar Towers in Saudi Arabia, they were all American military, 
Air Force people; 28 murdered in 1992 at the Israeli embassy in 
Argentina; 300 killed in 1983 at the U.S. and French barracks, 
over 241 Marines and then the French lost a large number; the 
Hezbollah was behind the hijacking of TWA flight 847; they were 
behind the kidnappings of 18 Americans and the torture and 
murder of the CIA Station Chief William Buckley in Beirut, 
where they tortured him and killed him,'' and it goes on.
    And so Lebanon is next to Syria, which is next to Iraq, 
which is next to--and we had asked about putting somebody out 
there, and they came back and said, ``Well, there is not room 
in the embassy.''
    Well, is there an agricultural-plant person there that 
maybe might leave for this period of time? The article goes on 
to say the individual you were talking about in the smuggling 
case, eight of the key suspects in the Charlotte case hailed 
from the same neighborhood in Beirut, a long time Hezbollah 
stronghold.
    It just seems to me that you would put an agent there even 
though there is not room. I visited the embassy there, and I 
know it is crowded--but we need to develop that relationship, 
we have a lot of good friends in Lebanon, we need to have 
somebody there.
    Mr. Mueller. We have been in discussions with the State 
Department on this, and as you indicated, there is concern 
about both security and space for individuals, as well as in 
the embassy itself. We have been assured that we would have 
room there.
    In the meantime, we handle it by TDYs, and we will 
unfortunately have to continue to handle it by TDYs, but I will 
go back and look at whether we can augment our TDY presence 
there and make it semi-permanent. And I will discuss with the 
State Department augmenting our presence there.
    [The information follows:]

       Establishment of a Semi-Permanent FBI Presence in Lebanon

    As of March 27, 2003, Lebanon is covered by the Legat office in 
Athens, Greece. The FBI has recently increased the staffing at Legat 
Amman (Jordan) by one agency, who will cover Syria and Lebanon. The FBI 
continues to examine the necessity for additional Legat offices.

    Mr. Wolf. We can help you. I think the problem with TDY, 
they come in, they do a good job, they go back. I think having 
somebody there who gets into the Lebanese police, and gets to 
know the Lebanese authorities, and perhaps there is a great 
Lebanese FBI agent who would be a perfect person, understands 
the language, understands the culture.
    But I think one of the strong points--and again, I do not 
think you take enough credit on the Legat program, is that they 
get to know the culture. They get to do confidence building. 
And I think you really need a permanent person in Lebanon.
    The Lebanese people are wonderful people. It is not a bad 
place to be based. And I think as many of the other important 
roles that are there in the embassy, then maybe, and I do not 
mean that plant inspection is not important, but maybe there is 
a different person there whose role is very important, but in 
this environment that we are in I do not think you should wait 
until the year 2006.
    So if you could do and let us know on that. And we can help 
you with the State Department.

               SOUTHEAST EUROPEAN COOPERATIVE INITIATIVE

    Fifty thousand women and children are trafficked in the 
U.S. each year, 4 million around the world. To help stop this 
crime, and the Committee put $3 million above the request in 
the 2003 omnibus appropriation for the FBI's involvement in 
Southeast European Cooperative Initiative.
    Can you provide the Committee with an update on the FBI's 
part of this, and I notice that you opened a Legat in Bucharest 
which covers Romania and Moldova in December 2000.
    What role does the Legat play in this? Is the Legat working 
with this group with regard to sexual trafficking? And what 
does that legate cover? What countries does he or she cover?
    Mr. Mueller. This is the Legat in----
    Mr. Wolf. In Bucharest. And can they speak Romanian?
    Mr. Mueller. I am going to have to get back to you on some 
of those questions on the coverage there. I will tell you that 
we have five agents committed to the program, one program 
manager and four supervisory special agents.
    Mr. Wolf. They are full-time in Bucharest? How many go to 
Bucharest and live and stay?
    Mr. Mueller. That I do not know, I would have to get back 
to you, Mr. Chairman.
    Mr. Wolf. You know, Bucharest is not a bad place to live. I 
have been there many times. It is really not bad, and the 
Romanian people are wonderful people. The Romanian government 
is very supportive of the effort with regard to the fight on 
terrorism.
    Mr. Mueller. I would have to get back to you on where 
exactly they are located. In terms of what we have in 
Bucharest, we have two agents and one support.
    Mr. Wolf. Full time?
    Mr. Mueller. Now, to what extent that they----
    Mr. Wolf. Full time? Full time?
    Mr. Mueller. Full time.
    Mr. Wolf. Do they speak Romanian?
    Mr. Mueller. I am not certain off the top of my head.
    I will tell you that everybody that goes out to our Legat 
program, I interview. And one of the things that we are trying 
to enhance is the language capabilities of each of our Legats. 
What I have come to find out is that you need a person who is 
good at liaison. You need a good manager, because they run an 
office, and ideally, you would like them to have the language 
skill.
    With regard to Bucharest and Romania, I am not certain; I 
would have to get back to you as to whether or not our legat 
there does speak the language.
    [The information follows:]

                            Legat Bucharest

    Legat Bucharest covers Moldova and Romania. The office has one 
Legat/Supervisory Special Agent (SSA) who speaks Romanian, French, and 
Russian and one Assistant Legat/SSA who speaks Romanian.

    Mr. Wolf. Well, if you could, that is the center of the 
fight with regard to sexual trafficking. And it is a very 
brutal thing. This Administration is very committed to dealing 
with the issue. There was an international conference here in 
Washington. Attorney General Ashcroft spoke. Deputy Secretary 
Armitage spoke. And the Congress has put a lot of effort in it.
    And I think where sexual trafficking takes place in that 
region, a lot of times, law enforcement is involved in it. If 
you admonish law enforcement, it generally shuts the thing 
down.
    And I think that is really important, and I think you could 
help, because they come out of Romania, go down to Macedonia, 
Bulgaria. The Committee put the $3 million in so you could have 
more permanent people there, and I think speaking the language.
    Mr. Mueller. Well, I would say that the four countries that 
we have a presence in, Romania, Bulgaria, Macedonia and 
Albania, are the four principal countries where the trafficking 
in persons----
    Mr. Wolf. Do you have a legat in Albania?
    Mr. Mueller. We do not have a Legat in Albania.
    Mr. Wolf. You know, Osama bin Laden was in Albania for a 
period of time.
    Mr. Mueller. We do not at this time.
    Mr. Wolf. And does the guy out of Romania cover Albania?
    Mr. Mueller. I am going to have to check.
    Mr. Wolf. Who covers Albania?
    Mr. Mueller. I should know that, but I do not.
    Mr. Wolf. And if you could also tell us, how many times has 
the person who covers Albania been to Albania in the last two 
years.
    Mr. Mueller. We can get back to you.
    [The information follows:]

                        FBI Coverage of Albania

    The Legat office in Athens, Greece, covers Albania. Since October 
2000, an agent from Legat Athens has visited Albania nine times. 
Additionally, two agents were sent to Albania in 2001 and 2002 as part 
of their temporary assignments to the Southeast European Cooperative 
Initiative in Bucharest.

    Mr. Wolf. Because they are taking women from that region 
into Europe on fast boats. They are smuggling out of Kosovo. It 
is the center of this problem.
    Mr. Mueller. Well, I know we have at least one agent there 
that is participating in the SECI. So I know we have one agent 
in Albania, but I am not sure----
    Mr. Wolf. You have an agent in Albania?
    Mr. Mueller. I believe we do, yes.
    Mr. Wolf. A full-time agent?
    Mr. Mueller. I would have to check on whether it is full 
time. I know we have five agents committed to the SECI 
initiative, and my understanding is that we have one of those 
individuals in Albania. I will have to check and make certain 
on that.
    Mr. Wolf. You need to check and let us know----
    Mr. Mueller. I will let you know.
    Mr. Wolf [continuing]. If he speaks or she speaks Albanian.
    Mr. Mueller. I will get back to you on that.
    [The information follows:]

          The Southeast European Cooperative Initiative (SECI)

    Two agents have been identified for a six-month tour to the SECI 
Center in Bucharest and are scheduled to be in Bucharest on May 14, 
2003. They will travel throughout the eleven country SECI region, 
including Albania, and work with the various law enforcement entities 
and security services to ensure that the flow of information is steady 
and complete. Neither agent speaks Albanian.

                       FOREIGN LANGUAGE TRAINING

    Mr. Wolf. How do you train people in the languages? Do you 
have a relationship with the Foreign Service Institute?
    Mr. Mueller. We do. In the past, we used the language 
school out in Monterrey, but we do not now for a variety of 
reasons. It is a two-year course, and for a variety of reasons 
we have not done that.
    But we do deal with the State Department. We have a number 
of programs where our agents will go, for instance, up to 
Vermont. There is a summer program, an in-depth program, that 
we send them to. We have a number of programs that we utilize 
for enhancing our language capabilities. They are not where I 
would like to see them.
    One of the issues that I think we need to spend more time 
addressing, frankly, is the language capabilities of our 
Legats. And what we are trying to do is reengineer the Legat 
program so that we identify persons going out to a particular 
country who have the experience, the maturity, the liaison 
capabilities and the management capabilities to head up an FBI 
office in a particular city, but also give them the language 
skills before they get out there.
    The problem that we have as an organization--and we are 
behind; other organizations have done it for years, whether it 
be the CIA or the State Department--is that we have too few 
agents that have the language capabilities and also have the 
other capabilities that are necessary to be a Legat in a city. 
And we have to build up those language capabilities.
    Mr. Wolf. Do you have any agents at the Foreign Service 
Institute now?
    Mr. Mueller. I would have to check.
    Mr. Wolf. But that is in Arlington. That is in my old 
congressional district.
    Mr. Mueller. I would anticipate we would, but I would have 
to check.
    [The information follows:]

                       Foreign Service Institute

    During FY 2002, 19 FBI Agents attended classes at the Foreign 
Service Institute (FSI). As of March 27, 2003, 10 FBI Agents attended 
classes at the FSI.

    Mr. Wolf. But I do not understand why the Bureau does not 
have a permanent relationship, whereby in every class you are 
given a slot or two. I mean, if you go to a country and you 
cannot speak the language, you go in the store and the radio is 
on, you do not understand what is going on, somebody has to 
tell you, you just miss things. And I think all the Legats 
ought to speak the language. Also, it is complimentary to the 
country. They are flattered that you know their language. But I 
really think that they ought to really know the language.
    And if we can help you to put some language in with regard 
to the bill, to set aside some slots at the Foreign Service 
Institute, we would be glad to do it.
    But I think there is an opportunity. And your people who 
live here in the region could take classes. Some of them are 
half-time days and the agents can still be active in doing 
other things. Have you ever been to the Foreign Service 
Institute?
    Mr. Mueller. I have not.

                     PROGRESS OF FBI REORGANIZATION

    Mr. Wolf. The reorganization hearings that we are going to 
have, we do not have a date yet. How is the reorganization 
going? Is everything working the way that you thought it would 
be with regard to the changes?
    Mr. Mueller. I would say yes.
    We had basically three stages of changes. Last December I 
changed the hierarchy of the Bureau to cut down on the lines of 
responsibility and to narrow those somewhat. And that has 
worked out well.
    The second stage was last spring, where we reassigned a 
number of agents to address counterterrorism. And we have over 
the last six months increased dramatically the efforts in the 
counterterrorism arena.
    The current organization addresses the need to enhance our 
intelligence capabilities. And we are about to announce the 
selection of an individual to be an Executive Assistant 
Director for Intelligence. We have selected the Assistant 
Director for the Office of Intelligence. We have changed the 
job descriptions for our analysts to better reflect the job 
descriptions of a very professional, analytical cadre. And we 
are extending the intelligence capabilities throughout the 
Bureau in each of our field offices. That is the biggest 
portion of our most recent reorganization.
    In terms of the reorganization that cuts across the board, 
not just counterterrorism, but counterintelligence, cyber and 
criminal will all benefit by the enhanced intelligence 
capacity. And the reorganization in the counterintelligence 
arena, where we established an espionage unit or section, has 
worked out exceptionally well. And the reassignment of agents 
to counterintelligence has enabled us to have a full 
counterintelligence squad in 48, I believe, of our 56 field 
offices.
    Setting up the cyber division has worked out well, because 
we now have in one place in the Bureau an entity and 
individuals responsible for addressing cyber-attacks and those 
issues relating to the use of the Internet for a variety of 
illegal purposes.

                         REENGINEERING PROJECTS

    So I believe the reorganization is going well in terms of 
establishing these various units. But what is most important is 
reengineering our work processes. We have a number of 
reengineering projects that are under way--somewhat in excess 
of 40--to address, for instance, training.
    As opposed to just having a training entity at Quantico, we 
are building up a structure where we have training for our 
support staff including our analysts. We instituted an 
analytical college for our analysts down at Quantico that has 
been a success. We ought to have more than 200 analysts go 
through the College of Analytical Studies at Quantico.
    We want to expand our intranet training capabilities and 
set in place a structure that will address training throughout 
the FBI, as opposed to really where it has been focused on new 
agents and our National Academy, both of which are jewels for 
the Bureau. But where we have focused on that, we have not 
focused on training the rest of our staff, and we have not 
focused on leadership training, management training and 
retraining for agents after they got out of new agent school. 
So that will be a key component to changing the Bureau.
    And we had a number of other reengineering projects that 
address similar issues.
    Mr. Wolf. The Committee included $10 million above the 
request for training in the bill last year.
    Mr. Mueller. I know that, yes.
    Mr. Wolf. Has anyone started to partake in that program? 
Has anyone left to go to Penn State or some school to begin to 
get a master's or Ph.D. or something like that?
    Mr. Mueller. I cannot say as of this date somebody has left 
to do that. The 2003 budget came, you know----
    Mr. Wolf. Yes, end of January, yes, I know.
    Mr. Mueller [continuing]. In January. And my hope is and 
expectation is to use those monies as swiftly as possible to 
accomplish that type of training.
    Mr. Wolf. And people in the Bureau know this is a good 
thing and not a bad thing for you to take off.
    Mr. Mueller. Yes, absolutely.
    Mr. Wolf. Not take off, but to go and get that additional 
training.
    Mr. Mueller. I have emphasized it at every opportunity I 
have had to talk to agents and staff in the FBI. I have 
emphasized how important it is to expand and to have 
experiences not only outside the FBI, but also elsewhere in the 
FBI.
    When you talk about a Legal Attache program, one of the 
reengineering projects is to give credit to our agents who 
spend time overseas because that experience will be 
indispensable to future leadership in the Bureau. And one has 
to change the way we promote our leaders in order to give 
credit for experiences such as that, as well as the experiences 
of going out to the National War College or to a university for 
a period of time to gather experience on management or Middle 
Eastern studies or something along those lines.
    I firmly believe that those funds will be helpful.
    Mr. Wolf. That is good. The military does really a good job 
in that.
    Mr. Mueller. Does an excellent job.
    [The information follows:]

         Usage of the $10 Million FY 2003 Training Enhancement

    As of March 27, 2003, there have not been any additional degrees 
received in connection with the $10 million enhancement. However, a 
spending plan has been submitted internally for executive management 
review, which will focus on further training in the counterterrorism, 
counterintelligence, and cybercrime programs.

                     BUILDING INTELLIGENCE CAPACITY

    Mr. Wolf. Are you intending to shift more resources from 
the criminal side of the bureau to counterterrorism? Are there 
any plans to shift more?
    Mr. Mueller. Now the only area in which currently we may be 
making a shift is in the analytical side and perhaps in agents 
to go into the intelligence side of the house.
    Mr. Wolf. And where would they come from, the criminal 
side?
    Mr. Mueller. They might come from the criminal side, but 
they could as easily come from counterintelligence.
    Mr. Wolf. And what number might that be?
    Mr. Mueller. I have not focused on a number. It would be 
relatively small. It would not be as large as we had for 
counterintelligence and counterterrorism.
    Many of the field offices around the country have 
intelligence units in any event. And they already are staffed, 
generally, by analysts. My belief is that you need some agent 
staffing in that intelligence unit as well, so there ought to 
be a career path for these agents. Those agents can come from 
either counterterrorism, from counterintelligence, or criminal. 
There may be some that come from criminal, but I do not believe 
it would be a substantial number.
    Mr. Wolf. What will you do if there is a spike in crime, as 
there appears to be?
    Mr. Mueller. We will continue to prioritize as we have in 
the past. We will continue to look at what the priorities are. 
And to the extent that we need to focus or refocus on efforts 
where we have pulled persons off, we will discuss with the 
Attorney General and with the Administration about seeking 
additional funds to address those responsibilities.
    I have looked for areas where there is an overlap with 
other law enforcement or intelligence entities that can 
undertake the responsibilities before I have moved individuals 
from some program. But there will come a point in time that I 
believe that we will go back to the Attorney General and to the 
administration and say, ``In this particular area, we believe 
we need to be augmented in order to undertake those 
responsibilities.''
    Understanding the priority of counterterrorism, what we 
have tried to do is to take agents and push them in particular 
areas where there are investigations and be a far more 
flexible, responsive organization.
    If you talk about how we address particular peaks in crime, 
I have told the SACs, Special Agents in Charge, that where 
there is an issue, particularly violent crime in the community, 
and we bring something special to the table, I am very much 
supportive of our putting individuals on task forces to address 
that particular spike in crime.
    This is just my observation. We have in the past been 
dictated by the funding by programs in a way that does not 
allow us the flexibility to have in a particular area a focus 
on--for instance, Mr. Vitter was talking about New Orleans and 
the necessity for focusing on public corruption. In my mind, we 
ought to be able to push the resources within New Orleans, 
within that field division, to public corruption to address 
that threat.
    And I will give you an example of two cases involving 
mayors in Connecticut. And there have been two successful 
prosecutions where the jury has come back in the last month. 
That office up there took the manpower away from other 
priorities to address those situations with those two mayors. 
And they instituted Title IIIs, they put a lot of manpower on 
it, as well they should.
    But that threat has now been resolved. Consequently, they 
now look at that community and what do you prioritize? They had 
to in the past, prioritize the public corruption of these 
individuals, but now they will shift.
    My hope is to give more flexibility to Special Agents in 
Charge to address those spikes in crime that occur in an area 
and where they bring something special to the table and are not 
supplanting either state or local resources.

                              RECRUITMENT

    Mr. Wolf. Well, that makes sense and I think you are doing 
the right thing. You know, all the questions today dealt with 
asking you about doing this and doing that and doing this and 
doing that. Every bill that passes gives the FBI more authority 
too.
    You can only do so much with so many people. You can drive 
your people to the ground. And I think a lot of this additional 
resources that have been asked for in this supplemental really 
ought to go to people. I mean, I think the Committee has been 
very forthcoming in the area of technology. I really think you 
need people.
    And there is a vote on, so we have a little while.
    But should you reassess some pilot program on interviewing 
directly out of college?
    I mean, we looked at the number of agents who are close to 
retirement, it is fairly high. Should you be looking at people 
that graduate from college at 23 and 24. We have some young men 
and women who are fighting in the Gulf who have incredibly 
complex decisions and judgments to make. They are 20, they are 
21, they are 22, they are first lieutenants.
    How old were you when you were a first lieutenant?
    Mr. Mueller. Twenty-three.
    Mr. Wolf. You think your judgment was pretty good then?
    Mr. Mueller. I would not say that. [Laughter.]
    Well, I learned, though, I learned.
    Mr. Wolf. But my, you see the point I am coming to.
    Mr. Mueller. I know, I did not mean to be----
    Mr. Wolf. I know, I know. They are making very important 
judgments, and we have fighter pilots that make split 
decisions. Should the Bureau look at the issue of maybe 
recruiting out of college for a period of time and putting them 
in, kind of, categories where you develop judgment and language 
skills and things like that?
    Automatically to say that you have to have another career--
I mean, maybe you are right, I do not know, but I just 
wondered--I do not think you have enough people to do what 
people expect of you--every bill that passes here gives you 
more responsibility, and I think as Mr. Cramer was talking and 
Mr. Mollohan was talking, I do not see how you could do it with 
11,000 agents when the New York City Police Department has 
44,000.
    And maybe you ought to look at just recruiting out of 
college.
    Mr. Mueller. We are looking at that for a variety of 
reasons, at least going to colleges and saying, ``Think of us 
as a career down the road.''
    I have become fairly well convinced that it is good that a 
person has not necessarily another career, but the maturity and 
the judgment that is required to have that position of 
responsibility. I will tell you, though, in the same breath, 
that I think those who serve in the military, particularly 
those who serve in some leadership position--I do not care 
whether it is a sergeant or a first lieutenant--gain that 
responsibility and that background and the capability very 
swiftly. And it ought to be credited and it is credited in the 
course of our hiring.
    However, we do not have a lack of candidates for the 
Bureau.
    Mr. Wolf. No, I know, you have 72,000 apply. I know. 
Couldn't you use additional agents and support staff if we put 
them in the supplemental?
    Mr. Mueller. Well, let me put it this way. I try to husband 
our resources. I will tell you one of the things I learned in 
the Marine Corps is that what the Marine Corps would do for a 
period of years is always send back part of the budget unused 
as an indication of the discipline that was undertaken to 
address your budgetary responsibilities.
    I am not going to do that; I am not going to turn money 
back. But I do believe we have a responsibility in the first 
level to husband our resources and make certain that I target 
them. If Congress gives us additional resources, they will be 
used.
    Mr. Wolf. I do, too, but you do not have a Legat in Sierra 
Leone, you do not have a Legat in Lebanon, you do not know if 
all your people speak the language.
    How much are you going to use for overtime?
    Mr. Mueller. At the outset, right now I do not know.

                  TERRORIST THREAT INTEGRATION CENTER

    Mr. Wolf. Well, I mean, the fact that you have overtime is 
an indication that--we are down to seven minutes, so I think 
there may be another one after this. I will go vote and then we 
will come back in about 10 minutes when we do.
    But in the midst of the reorganization the President, 
rightly so, announced the creation of a Terrorist Threat 
Integration Center in the State of the Union. The change will 
certainly impact the ongoing reorganization of the Bureau, from 
change in physical space needs, information technology, human 
capital.
    The documents the committee has seen about the Terrorist 
Threat Integration Center say the counter-terrorism division 
will be co-located with the TTIC. Does this apply only to the 
headquarters cadre included in the counter-terrorism division?
    And since the counter-terrorism division is now the FBI's 
top priority of its field units, as well as most support units, 
how will the counter-terrorism division interact with other 
headquarters components, including FBI leadership and field 
units?
    And one of the concerns that I have is you are going to 
have people from Homeland Security, Defense, CIA and FBI. But 
this individual Brennan is a CIA employee, and the CIA culture 
is different than the FBI. That individual is going to be 
reporting to Director Tenet. And so what----
    Mr. Mueller. Well, number one, we will have the Deputy 
Director of TTIC.
    Mr. Wolf. So the Deputy Director will be an FBI agent?
    Mr. Mueller. Will be an FBI agent, and I think one has to 
keep in mind----
    Mr. Wolf. Now, that has never been announced before, has 
it?
    Mr. Mueller. I am not certain whether it was in the 
briefing papers or not, but he has and we are on the----
    Mr. Wolf. Could an FBI agent ever become the director of 
TTIC, and still report to the----
    Mr. Mueller. Yes, absolutely, I believe so.
    Mr. Wolf. So we want to make that clear, this job is not 
just established for somebody who has been a CIA, an FBI agent?
    Mr. Mueller. No. It is selected by the CIA with the 
concurrence of the Attorney General and, I believe, Tom Ridge 
and myself. But in our discussions, both with the 
Administration as well as with the CIA, it has been left open 
that it could, well down the road, be headed up by an FBI 
agent. And I say, we will have the deputy.
    But the distinction has to be made between the analytical 
capacity, as well, and the line authority, the operational. And 
what TTIC will do is focus on the analytical understanding of 
threats. In the future, the operational capacity will remain 
completely divorced from TTIC or from the CIA. Our people will 
run the operations of the FBI, as we always have.
    In terms of my ability to interact with them, I probably, 
if we are off-site in some place in Virginia or elsewhere, I 
would probably have an office there, I would probably spend 
part of the week there, but I would expect, video-conferencing 
daily. Now I get two briefs a day. I would expect that would 
continue, either by having the persons in my office or out 
there. The fact of the matter is with telecommunications now, 
this kind of arrangement can work if you make it work.
    Mr. Wolf. Sure. No, I think it is a good arrangement. I was 
concerned that this was going to be more a CIA operation and 
that the other agencies would be an appendage.
    I think the President is right, I think it makes a lot of 
sense to put that group together. But it just cannot be a CIA 
activity whereby the other people are, kind of, working for it. 
It needs to be a cooperative center, whereby the information is 
shared. And I am glad to hear that it could be an FBI agent 
that would run it.
    We are down to three minutes. Why don't we just recess for 
10 minutes or so and come back?
    [Recess.]
    Mr. Wolf. We are still voting, but I think the next is a 
15-minute vote, and if it is I can just wait. And that way we 
will not be keeping you and so I will be getting up again.
    In the first phase with regard to TTIC, how many of the 
counter-terrorists and analytical personnel presently located 
in the counter-terrorism division will be relocated to TTIC?
    Mr. Mueller. We anticipate about 20.
    Mr. Wolf. Twenty. How will the physical separation from 
other FBI analytical personnel involved in counterintelligence, 
cyber-terrorism and related criminal activities, such as narco-
terrorism, impact on the work of the bureau?
    Mr. Mueller. I actually think it is beneficial.
    Mr. Wolf. Good.
    Mr. Mueller. I think it is beneficial to have analysts as 
well as agents have different experiences.
    And we have, as I think you are aware, 25 analysts from the 
CIA, whom we have had in the Bureau since last spring. And I 
will wander down and talk to them, and I think they have found 
it has been very beneficial for them to have the experience of 
working in the FBI, learning our record system, learning what 
we do and then go back. I think they will be far more effective 
at the CIA having spent time in the FBI. And I think that is 
true also of our analysts----
    Mr. Wolf. Sure.
    Mr. Mueller [continuing]. To have the experience of working 
in TTIC with others from other agencies.
    Mr. Wolf. Where will the FBI's across-the-board analysis of 
terrorism be located, in the counter-terrorism division, or in 
the FBI headquarters?
    Mr. Mueller. Well, for the present it will be at 
headquarters, and then it will be relocated in a building with 
the CIA.
    I would anticipate our counter terrorism division would 
stay the same, doing what we are doing, and the threat analysis 
would be put out by our counter terrorism division. There may 
be an overall threat analysis that is put out by TTIC, or we 
may have a part of it. But we still need the analytical 
capability, because the analytical capability integrates with 
the operational responsibilities to fill in the facts where you 
have a, for instance, analytical hypothesis.
    So my expectation is that we will continue to maintain our 
capabilities, but they will be augmented by the capabilities of 
TTIC.
    Mr. Wolf. I think we know the answer here, but just to get 
it on the record, does the creation of the TTIC signal a first 
step in taking domestic intelligence collection 
responsibilities away from the FBI?
    Mr. Mueller. No.
    Mr. Wolf. No? Okay.

                          BOSTON FIELD OFFICE

    Could you say something about the Boston office for the 
record, and how long has the individual been in Boston now, the 
new SAC?
    Mr. Mueller. He is just getting there.
    Mr. Wolf. So he has not----
    Mr. Mueller. No, he is just arriving there. As I heard, I 
think, Mr. Vitter say, he came from New Orleans. He is very 
experienced. He is very experienced on the one hand, and, 
secondly, he does not have any ties to Boston.
    Mr. Wolf. Right.
    Mr. Mueller. Consequently, he comes in without any of the 
perceptions or the misperceptions about the Bureau that linger 
from what occurred up there. Needless to say, nobody in the 
Bureau is happy with what happened in Boston over a period of 
time. I do believe that we have addressed those issues. We had 
agents that work with prosecutors there to bring to justice 
those who were responsible. And the individual or individuals, 
I believe, have been brought to justice, in part attributable 
to our efforts.
    But, to the same token, we have a lot of rebuilding to do 
in Massachusetts----
    Mr. Wolf. Any special plans on restoring credibility to 
this office?
    Mr. Mueller. As part of his introduction to Boston, Ken 
Kaiser will be meeting with every one of his counterparts. I 
have had conversations myself with a number of the law 
enforcement executives from Massachusetts who say that things 
are going a lot better. I had a discussion with the Attorney 
General, a week or so ago, of Massachusetts, who indicated that 
it was--actually a fairly long time frame because we had cases 
together at one point--who indicated that the cooperation and 
the sharing of information has improved dramatically up there.
    So I think we are on the road to recovery with expansion of 
the Joint Terrorism Task Force, the incorporation of state and 
local law enforcement into the Joint Terrorism Task Force, and 
with having Ken Kaiser as the new SAC up there.
    Mr. Wolf. And maybe go by to visit with the Boston Herald 
and the Globe, because everyone in the region is not on the 
Joint Terrorist Task Force. I mean, it may be just perfect, but 
until the man on the street reads it in the Globe or the 
Herald, it may not be perfect.

                 OFFICE OF PROFESSIONAL RESPONSIBILITY

    The FBI suffered a serious blow to its credibility 
following a television program that brought to light problems 
in the language translation program. Unfortunately, an agent in 
the Office of Professional Responsibility may have been 
retaliated against by the head of the office for its 
involvement in the program.
    The Department of Justice Inspector General's report stated 
that the Director of the OPR showed a lack of judgment in the 
handling of the situation.
    Can you tell me what steps you are taking with regard to 
this? Because obviously, the Office of Professional 
Responsibility has to be the Office of Professional 
Responsibility and above reproach.
    Mr. Mueller. The Inspector General found that many of the 
allegations directed against this individual were unfounded but 
did make findings with regard to his judgment and to the 
possible appearance of retaliation and one of the moves he 
made.
    I went back to the Inspector General and asked for the 
Inspector General's opinion and recommendation as to what the 
Inspector General found and what steps would be taken. And I am 
in the process of reviewing those steps and expect to implement 
at least some of them, if not all of them.

         THE WEBSTER COMMISSION AND RAND REPORT RECOMMENDATIONS

    Mr. Wolf. The FBI has been front and center in the war 
against terrorism--breaking up cells here on U.S. soil--but 
other important responsibilities must also be aggressively 
pursued--counterintelligence activities--I recently read the 
RAND report, completed at the insistence of this Committee, 
regarding security concerns discovered in light of 20 years 
Hanssen spent conducting espionage against the country. Many 
people believe it was a good report.
    I would like to know what steps are you taking to continue 
implementing these recommendations and those of the Webster 
Commission?
    Mr. Mueller. I have broken down every recommendation of the 
Webster Commission, and we track our implementation of each one 
of those recommendations.
    By far, most of them have been implemented already: things 
like enhanced polygraph program; financial--we are looking at 
instituting enhanced financial disclosure statement 
responsibilities. In the computer side we are implementing as 
we put up our audit programs and capabilities in information 
technology that will give us capacities and capabilities we did 
not have before.
    I think we can provide you a matrix which has each of the 
recommendations and each of the steps that we have taken to 
address those recommendations.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Mr. Wolf. What about the RAND report? Did you read it, or 
what did you think of it?
    Mr. Mueller. I did read the RAND report, several months 
ago. The bottom line, if I recall correctly, is that we were, 
in large part, implementing the recommendations of the Webster 
report and did not have any additional recommendations as to 
things we should be doing that the Webster report had not 
already identified as items that we should undertake.
    Mr. Wolf. I thought they had one or two other 
recommendations.
    Mr. Mueller. They may have. I read it when I first got it, 
and I think it was a couple months ago. And my impression was 
that it basically made much the same findings as the Webster 
Commission. And it may have added one or two things. I do not 
have them at the top of my mind at this point.
    [The information follows:]

                      RAND Report Recommendations

    The RAND report made the following suggestions for improving 
security at the FBI.
    Information Systems Security:
    Improve the quality of monitoring tools.
    Better separate counterintelligence as well as asset and informant 
data.
    Improve feedback on the responses to security flaws in Legacy 
systems.
    Continue vigilance over new systems development.
    Restore faith in the FBI's investigative mainframe.
    Do systematic analysis of Need-to-Know.
    Communicate Security requirements clearly.
    Personnel Security:
    Reevaluate how informants and assets are managed.
    Implement financial disclosure program.
    Merge suitability with security for new hires.
    Oversee and restructure Background Investigation Contract Services.
    Provide more opportunities for Security Education and Training.
    Physical, Technical, and Document Security:
    Provide more pay and flexibility to FBI Police.
    Implement Entry/Exit Checks on documents.
    Examine new ways of standing up task forces.
    Rethink policies toward Wireless Communications.
    Work to develop a Technical Research Program.
    Better define and train technical security processes.

    Mr. Wolf. Has the IG finished reporting on the Hanssen 
case?
    Mr. Mueller. I do not believe it has. I think it is due to 
come out shortly.
    Mr. Wolf. And you will be meeting with them?
    Mr. Mueller. Yes, absolutely.
    Mr. Wolf. Since you have grown so fast, in the Hanssen 
situation, I guess you have to be very careful how fast you 
grow and----
    Mr. Mueller. It is true.
    Mr. Wolf [continuing]. And who you are growing with.
    You are requesting an increase of $6 million for background 
investigations. Is that enough money?
    Mr. Mueller. I believe it is. In this instance, we would 
come back to you if we need more.

                         TRILOGY REPROGRAMMING

    Mr. Wolf. With regard to Trilogy and information 
technology, we understand you will be submitting a 
reprogramming in the next few weeks for $138 million in 
additional funding needs associated with Trilogy.
    The original cost of Trilogy was $380 million. In a 
December 2001 emergency supplemental, the Congress provided the 
FBI with $237 million, including $78 million to speed 
implementation.
    A total of $458 million has been allocated to Trilogy; $78 
million more than requested. If the Committee approves the 
reprogramming, this will bring the total cost to deploy Trilogy 
to $596 million; an increase of some 56 percent more than the 
original cost.
    While most of the FBI will have received new computers and 
the networks have been upgraded, the virtual case file with the 
software that will allow agents and analysts to ``connect the 
dots'' and perform the other tasks in a more efficient, smart 
fashion, will not be available any faster.
    The RAND report was concerned about rolling out Trilogy 
without ensuring that adequate safeguards are in place. If the 
Committee approves the reprogramming, will this be the end of 
the funding increase needed for Trilogy?
    Mr. Mueller. Well, I think we have to distinguish Trilogy 
from our information technology upgrade more generally. As I 
think you have heard in the presentation twice now, after 
September 11th, when I came in, I gave directions saying this: 
``Our information technology has to be improved immediately.'' 
And we started to accelerate the improvements, which was not 
necessarily the wisest thing to do.
    As I became more familiar with the program, I realized that 
it would still keep us back in the dark ages in terms of 
computer capability, because as, I mean, we have said before, 
it would be putting lipstick on a pig. We would have our same 
database structure. And we would have a nice GUI, Graphical 
User Interface, but it would not enable our agents or our 
analysts to do the type of analytical analysis that we needed 
to do to be the foremost law enforcement agency in the world.
    And so, we went back to the drawing board and said, ``Okay, 
what do we need to transform the Bureau?'' And the additional 
costs that are attributable to our going back and putting us in 
a position so that we will not two or three or four years down 
the road have to scrap everything we have done in this year and 
last year, but have this as a foundation for a continued 
refreshment program that will continuously improve the 
capabilities of the Bureau and support each of our agents and 
support personnel.
    Mr. Wolf. So this is the last amount for Trilogy, but you 
call this a refreshment----
    Mr. Mueller. Yes.
    Mr. Wolf. What does refreshment mean?
    Mr. Mueller. Refreshment and augmenting the capabilities.
    Mr. Wolf. That is an interesting word, refreshment. Is that 
a technical word?
    Mr. Mueller. Yes, it is.
    Mr. Wolf. It is? Oh.
    Mr. Mueller. And what you need to do is you cannot be 
static in building a computer or an information technology 
infrastructure, because the technology moves forward so quickly 
you have to continuously refresh that technology. What we had 
not done in the Bureau was do exactly that. And consequently we 
incurred substantial costs to redo the Bureau.
    And what we have done in the additional cost that we had 
requested in the reprogramming we have requested, in my mind, 
sets the foundation for future refreshment programs which will 
continuously keep us up-to-date when it comes to information 
technology, and give us capabilities that were not envisioned 
when persons were putting together the Trilogy project.
    Mr. Wolf. Is anybody in the Justice Department looking at 
the explosion of the IT initiatives. I mean ATF now has 
theirs----
    Mr. Mueller. Yes.
    Mr. Wolf [continuing]. Is there someone looking at all 
these IT programs?
    Mr. Mueller. There is. The CIO, Chief Information Officer, 
of the Department of Justice is responsible for assuring the 
integration of the various IT structures.
    But we have gone out of our way, as we put something in 
place, to assure that it is something that will be useful in 
enabling us to correspond or communicate digitally with the 
CIA, with Department of Homeland Security and the like. As you 
have heard, I think, our Virtual Case File is being looked at 
by Customs and INS as a model for the type of virtual data 
warehouse that would give each of those agencies the 
capabilities that we hope to have when it goes on-line.

                   GANG ACTIVITY IN NORTHERN VIRGINIA

    Mr. Wolf. Okay, we will have other questions that we can 
submit for the record.
    There is a growing gang problem in my district, which is 
incredible. I cannot imagine some of the stuff that is taking 
place. Some of it happens in little sleepy towns in areas that 
you would have never, never, never thought. With the effort 
that is taking place, appropriately so, with regard to counter-
terrorism, how do you deal with this?
    I saw the police chief of L.A. quoted as saying that a lot 
of crime that he is currently dealing with now has come as a 
result of gangs.
    Well, as gangs cross borders and state borders, it is very 
difficult for the Arlington County Police Department or the 
Loudon County Sheriff's Department. What is the FBI 
involvement? Can you put additional resources in this?
    This is a form of terrorism. If you live in a neighborhood 
and you are being terrorized by gangs, if you are a young kid, 
you are being terrorized in school, that is terrorism. And so, 
do you have any additional resources there or any thoughts 
about that?
    Mr. Mueller. Well, two thoughts, in particular with regard 
to Northern Virginia gangs. I have talked to the Special Agent 
in Charge of the criminal division at the Washington Field 
Office about it--I understand we have at least a couple of 
agents that are working on those gangs.
    My expectation is that we ought to work on those gangs in a 
task force concept so that we bring together FBI agents, ATF 
agents, other federal agents as well as state and local law 
enforcement, because on the very basic level, the state police 
and then most particularly the local police know the 
individuals. While we may bring to it the intelligence 
capabilities, the ability to stretch across boundaries, 
nonetheless the people to really know the individuals who are 
participants in these gangs are their local police officers who 
ought to participate in the task force. My goal in each of 
these issues is to allow the Special Agent in Charge to 
establish those task forces to address a particular problem.
    Coupled with that, I think that what we are putting into 
the intelligence infrastructure in the Bureau will be helpful 
in this area. I do not think we have done a very good job in 
establishing the intelligence analytical capability to address 
the gang problem throughout the United States, whether it is 
Northern Virginia or in Los Angeles. My hope is by carving out 
an intelligence component in the Bureau, it will address this 
as one of its priorities on the criminal side.

                 DRUG INVESTIGATION PERSONNEL REDUCTION

    Mr. Wolf. With the shift of 567 agents away from drug 
investigations, has that had any impact on the Bureau? And has 
it been accepted by the criminal side?
    Mr. Mueller. I think generally it has been accepted by the 
criminal side. But quite obviously, there are always agents who 
have done this for a long period of time, who want to do it and 
are disappointed that the Bureau is shifting. But I think for 
the most part the FBI agents understand our first priority has 
to be preventing another terrorist attack.
    When we did this shift of resources, my directions to Grant 
Ashley, head of the Criminal Division, and to the Special 
Agents in Charge was to sit down both here and at Washington 
with counterparts over at DEA and in each of our field offices 
to review the investigations that we were handling so that no 
investigation fell through the crack.
    And what I am trying to focus on in the shifting of 
resources are those areas where there is overlap in terms of 
investigation. For instance, the Colombian or Mexican cartels. 
We have jurisdiction to investigate, DEA has jurisdiction to 
investigate. I think we bring a lot to the table. But by the 
same token, I have seen instances where we are both 
investigating the same cartels and that makes no sense. So to 
the extent that we do not--and defer to the DEA to investigate 
those cartels, I am comfortable in doing that.
    On the other hand, there are drug cases at the state and 
local level that we had been handling in the past that now with 
augmented resources, training, state and local law enforcement 
can handle. So, many of those cases around the country are now 
going to state and local law enforcement.
    I have tried to target those areas where there are other 
law-enforcement entities that can pick up the slack.
    Mr. Wolf. I am going to go vote and I will be right back. 
It will be the last series of votes.
    You do have a diminishing number of people that are now 
working on drugs.
    Mr. Mueller. That is true.
    Mr. Wolf. You took 567 agents away from drugs and 
traditional crimes. The drug problem has not gone away.
    Mr. Mueller. That is true.
    Mr. Wolf. And the DEA said 20,000 people last year died of 
drug overdoses. The administration has actually cut back money 
for some of these programs.
    And I think you may be approaching a point that you are 
taking away people from other activities, obviously to adjust 
to a priority with regard to counter-terrorism and stopping 
terrorist acts--which nobody would disagree with--but the end 
result is we leave neighborhoods exposed and issues exposed 
that quite frankly you are the only one that can really deal 
with those issues.
    And I guess you get back to the first question that Mr. 
Young asked you. It gets back to personnel.
    There are three votes and then I will be right up and we 
will finish.
    Mr. Mueller. Okay.
    [Recess.]

                          LANGUAGE TRANSLATION

    Mr. Wolf. We really carried this one question about 
language. You are not asking any increases for language 
translation in the 2004 budget. Is there any supplemental 
request?
    Mr. Mueller. In our discussions with the Department, we 
will be requesting money for enhanced translation because of 
the hostilities in Iraq, so it is appropriately added in the 
supplemental.
    Mr. Wolf. How many Iraqi-speaking agents do you have?
    Mr. Mueller. That I do not know. I would have to get back 
to the Committee on that.
    [The information follows:]

              Number of Iraqi-Speaking FBI Special Agents

    As of April 2, 2003, 22 FBI agents have tested at a level 2 or 
higher on the Speaking Proficiency Test (SPT). SPT scores run from 0 to 
5:
    0 = no proficiency in a language;
    2 = limited working proficiency, (e.g., satisfy routine social 
demands, such as greetings, and provide limited instructions, 
directions, and explanations); and
    5 = proficiency equal to that of a well-educated native speaker in 
Modern Standard Arabic.

    Mr. Wolf. I have, raised it a couple of times and we could 
never get a definitive answer to know how many of your agents 
have gone to the Foreign Service Institute. And I think we 
ought to maybe put something in the bill just telling them to 
give you some slots.
    Because the people that live here are so close, rather than 
picking the family up and shipping them to California or 
someplace like that.
    And the advanced-degree issue we covered. If you will let 
us know how many agents are doing that.
    The advisory board is going well, I assume.
    Mr. Mueller. Yes, sir.
    [The information follows:]

         Usage of the $10 Million FY 2003 Training Enhancement

    As of March 27, 2003, there have not been any additional degrees 
received in connection with the $10 million enhancement. However, a 
spending plan has been submitted internally for executive management 
review, which will focus on further training in the counterterrorism, 
counterintelligence, and cybercrime programs.

    Mr. Wolf. You have selected the names.
    Mr. Mueller. We are looking at names. I actually asked them 
to go back to the drawing board and have a larger universe of 
individuals that I want to look at. I think that is very 
important.
    Mr. Wolf. And you have a chairperson or a chairwoman?
    Mr. Mueller. Well, I want to look at the chairperson or 
chairwoman first. And then as we expand, I want the input from 
the chairman or the chairwoman as we expand that.
    Mr. Wolf. Okay.
    Was the FBI actually on the ground in Pakistan with Khalid 
Sheik Mohammed when he was arrested?
    Mr. Mueller. I would prefer to answer those questions in 
private if I could.
    Mr. Wolf. Sure. That is fine.
    Mr. Mueller. I do not want to say that we were.
    Mr. Wolf. That is fine.
    Mr. Mueller. But I think that is something we ought to 
handle.
    Mr. Wolf. And you do know who will go to Baghdad? You 
actually have a person, a team, the Iraqi ops?
    Mr. Mueller. Yes, sir.

                           ETHICAL STANDARDS

    Mr. Wolf. I think I will ask the last question and then I 
will recognize Mr. Serrano. And it is good that Mr. Serrano is 
here on this issue and maybe he would want to comment.
    Maybe a way to meet Mr. Serrano's concern. And I look at 
the reorganization sheet--you have an ombudsman. I do not know 
what that ombudsman does precisely. But the Washington Post has 
an ombudsman that when something does not quite go right, they 
have a place to go.
    And I do not know if it would be good for the Bureau to 
have an ombudsman institutionalized to address the concerns, 
which I think you are addressing--frankly, you do not have a 
problem now. I am not inferring again that there are problems, 
but to meet the concerns that Mr. Serrano had with regard to 
civil rights.
    Also with regard to the potential leaking of information 
and things like that. In the past you would sometimes hear that 
the FBI had a favorite newspaper reporter that they would leak 
information here to get stories out and things like that.
    Well, it is totally inappropriate. It is immoral. It is 
unethical. So someplace that could say this really is not right 
or a place that could say we think what is taking place is not 
a good idea.
    But what does the ombudsman do? And would that make any 
sense to have someone in the Bureau that would be someone to 
address some of the concerns that Mr. Serrano would have?
    Mr. Mueller. I think there are three levels of concerns. We 
have an ombudsman in the FBI for FBI employees to call with any 
concerns.
    Mr. Wolf. Yes.
    Mr. Mueller. Secondly, I believe where there are concerns 
about programs we implement, maybe new techniques and the like, 
we have somebody designated in the Office of General Counsel 
specifically to look at these issues from the perspective of 
privacy infringements and raise those concerns, whether it be 
incorporating new security in the Bureau, or new techniques. So 
we have identified somebody to address those concerns.
    I also have identified a person to address concerns 
relating to things like libraries. What are we doing with 
regard to libraries? Issues that come up in terms of the 
changing of our guidelines to be familiar and address those 
concerns and bring to my attention any issues which this person 
believes should be brought to my attention. Those are several 
of the areas that are important.
    And lastly I sent out shortly after I got there a memo 
relating to whistle blowing. That there should not be 
retaliation against whistle blowers. If I hear of any 
indication that there is a whistle blower or retaliation 
against a whistle blower, I immediately give it over to the 
Inspector General for an independent, objective investigation.
    So, I think we have put in place mechanisms to give persons 
who want to bring to our attention issues that should be 
brought to our attention the forum to do so.
    Mr. Wolf. Well, maybe so. And for those of us who are--not 
at odds with Mr. Serrano because we are not at odds--but who 
have been defenders of, but not to be a patsy for the FBI, not 
to be just yes people here, but to really aggressively do what 
you feel is appropriate to have congressional oversight. But to 
explain at times, it may very well be, because I think Mr. 
Serrano raises some legitimate questions.
    Right now in our society, you are on the toll road. They 
know what time you went through the toll road; what time you 
went through the toll meter; what time you went through the 
tunnel. Records are out there. What gasoline you purchase; what 
time you purchase the gasoline; what station you bought the 
gasoline at.
    Somebody could leak your medical record. And there was not 
too long ago a circumstance in the IRS whereby IRS employees 
were looking at tax returns of movie stars and baseball players 
and some other things like that.
    So institutionally to have things that are publicly 
understood--and quite frankly, we just know that things 
happened in the past that I think Mr. Serrano is raising. It is 
good to kind of have him here and question these things that 
institutionally there may be something that would be 
appropriate that the public would know of.
    The FBI is an awesome agency. And you know, in the old days 
when Efram Zimbalist Jr. had the TV shows about the FBI. Well, 
you know, that puts fear into people. And somebody is calling 
and they say, ``The FBI is on the phone''--``Did I go through a 
red light today or what did I do?''
    And so I think the more you can raise the comfort level, I 
think is positive. Particularly, I worry a little bit about all 
the information and the data being collected by banks and by 
all these systems and knowing how it can be accessed.
    And worrying about the loss of privacy in our life, and I 
think that is a concern whether you are a conservative 
Republican, as I am, or a, I think it is fair to say, a liberal 
Democrat, or however Mr. Serrano wants to categorize himself.
    Mr. Serrano. It is modest, liberal is modest.
    Mr. Wolf. Modest, okay. I think it is a legitimate worry, 
and you bear the burden of having things that have happened in 
the past, and so I think maybe you ought to look at something 
that could raise the comfort level.
    You know, we are all human, we all fail, we all sin, we all 
make mistakes, but the system can put certain checks in there, 
and the checks that you explained to the Committee the other 
day was very, very positive.
    I think Mr. Serrano was somewhat comforted by it. The 
country as a whole does not know all those things, but I think 
that to do something in a public way may very well meet some of 
the concerns, and that would enable those of us who want to be 
supportive of the Bureau, as I am, to say I am confident that 
everything possible that can be done should be done, in this 
Committee and other Committees that are having oversight.
    It is something to think about, and with that let me just 
end, I will not have any more questions. Thank you for your 
service. I do think you have done a good job, and thank you for 
your men and women that are serving so well, working so hard, 
and the Committee stands ready to help you.
    I do not have a question, but we were going to ask on the 
supplemental, we are not going to ask it, but just to sort of 
state it, in the supplemental there were no details on how the 
funding should be spent.
    They asked for total freedom to spend as the Attorney 
General sees fit, without further congressional input. The 
Founding Fathers--Madison, who happens to be from my state, 
Jefferson and Mason and Ben Franklin, from my old home town, 
those guys set up a system that worked whereby there are checks 
and balances.
    And I do not think it is appropriate, as much as I support 
this Administration and support what you are trying to do, 
whereby the Congress carte blanche gives authority and just a 
bundle of money to any agency, $500 million to the Attorney 
General, with absolutely no congressional input.
    And then how much do you get? How much does the Bureau of 
Prisons get? I just do not think, so my sense is what the 
Committee ought to do, and quite frankly what the Congress 
ought to do, particularly since we have had these hearings and 
there is good cooperation back and forth, that the Congress 
ought to find out and earmark and watch this.
    Otherwise we will slip into whereby we will make a mistake 
that has been made before, we just dump a lot of money down and 
nobody checks and nobody watches.
    So I think the Administration's request of the number that 
may be accurate, but I do not think it is a good idea just to 
dump $500 million and not have any specification of where it 
should be spent or how it should be spent.
    I have no more questions, with that I recognize Mr. 
Serrano.
    Mr. Serrano. Just a brief statement, not to clarify but the 
Chairman in his desire to be courteous to me continues to refer 
to him as one who supports the FBI. I do not want anybody to 
think that then that puts me on the side of not supporting.
    You know that I am a big supporter, you know that I will do 
whatever I can to make your budget work the way you want it to 
work. My comments are always based on the historical problems 
that existed at the agency at a time when it stopped serving 
the people and became the people's enemy, or at least some 
people's enemy.
    I believe that you are very sincere in your desire to make 
sure that does not happen. But you are not director during the 
1990s, you are director during our biggest war ever on a hidden 
enemy. I understand what you need to do at times, but I will 
just continue to remind you that those of us who have faith in 
you as a person want you to apply that personal integrity to 
that army of 25,000 which can go crazy at times, as it has in 
the past.
    So I am still a supporter, and if I was not, something you 
should know about me personally, when I do not care about 
someone or something I ignore them. When I care about someone 
or something I get engaged.
    So if I did not care about you or your agency or had given 
up on it and said, ``my God, they are going to do whatever they 
are going to do'', then you would just hear me with an opening 
statement and I would keep quiet the rest of the time.
    So I will support you, I will continue to support you. 
Just, every so often, when you are shaving in the morning, say 
Serrano told me to keep a check on these guys. Thank you so 
much.
    Mr. Mueller. Thank you, thank you.
    Mr. Wolf. The hearing is adjourned.
    Mr. Mueller. Thank you, sir.
                                          Thursday, March 20, 2003.

                    DRUG ENFORCEMENT ADMINISTRATION

                                WITNESS

JOHN B. BROWN, ACTING ADMINISTRATOR, DEA

                            Opening Remarks

    Mr. Wolf [presiding]. Good afternoon. Welcome.
    I apologize for being late. The attorney general of my 
state was by talking about OxyContin. All the attorneys general 
are in town. And I apologize again for being late.
    So let me welcome you. I will put my opening statement in 
the record and recognize Mr. Serrano for an opening statement.
    Mr. Serrano. Welcome, Mr. Brown.
    Mr. Wolf. Thank you, Mr. Serrano.
    You may proceed, Mr. Brown. Please summarize your statement 
as appropriate. Your full statement will appear in the record.

         Opening Statement of John B. Brown, DEA Administrator

    Mr. Brown. Thank you very much.
    Good afternoon, Chairman Wolf and Ranking Member Serrano 
and members of the Subcommittee. Thank you for the opportunity 
to address the Subcommittee on the President's fiscal year 2004 
budget proposal for the Drug Enforcement Administration. I am 
very grateful for your unwavering support of DEA's fight 
against drug trafficking organizations that threaten our 
communities. I will proceed with my oral remarks and request 
that my written statement be included for the record.
    Thank you, sir.

                       DISRUPTING THE DRUG MARKET

    The Department of Justice drug enforcement strategy 
supports the President's goal of reducing illegal drug use in 
America by implementing priority three of the President's 
National Drug Control Strategy, and that is disrupting the drug 
market. By addressing the drug trade as a business, every 
action that makes this business more costly and less profitable 
is a step toward breaking the market.

              DRUG TRAFFICKING LINK TO TERRORIST ACTIVITY

    Disrupting the drug market can also play a critical role in 
the war against terrorism. DEA's drug enforcement 
investigations have highlighted the link between groups and 
individuals being investigated for drug trafficking and 
terrorist activity.
    In 2002, drug trafficking charges were brought in the 
United States against high ranking members of terrorist 
organizations for the first time in United States history. Drug 
enforcement may play a critical role in our war on terrorism by 
starving the financial base of criminal organizations and 
depriving them of drug proceeds that may be used to fund 
terrorist acts.

                           DEA BUDGET REQUEST

    The President's fiscal year 2004 budget proposal for DEA of 
$1.7 billion and 8,815 positions responds to the challenge we 
face, reducing the availability of illegal drugs in America by 
disrupting the drug market. To this end, DEA's fiscal year 2004 
budget request includes three programmatic enhancements and 
five program offsets which follow.
    First, to target priority drug trafficking organizations, 
DEA requests $38.9 million and 329 positions, which includes 
123 special agents and 20 diversion investigators. This 
initiative includes a request for administrative support 
positions to free up the equivalent of 80 special agents' work 
hours for enforcement activities, and $4 million to support 100 
state and local task force officers. These resources are 
necessary to fully support DEA's plan for addressing the 
Nation's illegal drug threats in the post-September 11, 2001 
environment.
    Next, to continue the international training program, DEA 
requests $1.5 million and 20 positions, to include 16 special 
agents. These resources will address an anticipated shortfall 
in reimbursable resources the Department of State currently 
provides for this program.
    Next, to improve DEA's financial and asset management 
programs, DEA requests $2.5 million and 20 positions. This 
enhancement will allow DEA to make systematic improvements 
necessary to ensure our continued success in future financial 
audits.
    And for the Diversion Control Fee account, the Fiscal Year 
2004 President's Budget continues the increased level of 
funding that was requested in fiscal year 2003 to strengthen 
our enforcement capabilities for investigating the diversion of 
controlled substances, including OxyContin<SUP>'</SUP>.
    Additionally, the President's Budget includes $23 million 
and 150 positions, including 110 special agents, for DEA, under 
the Organized Crime Drug Enforcement Task Force (OCDETF) 
Program, to support the Department's strategy by targeting the 
Consolidated Priority Organization Targets.
    The President's Budget proposes the following offsets for 
DEA.
    The reduction of $18.3 million and 40 special agent 
positions to eliminate the Regional Enforcement Teams (RET) and 
Mobile Enforcement Team (MET) programs.
    The remaining 367 RET/MET positions, which includes 293 
special agents, will be redirected toward Priority Targets.
    A reduction of $5 million and 11 special agent positions to 
eliminate DEA's Integrated Drug Enforcement Assistance, the 
IDEA initiative, from DEA's Demand Reduction Program.
    A reduction of $10 million in base resources for rent, 
alterations and travel.
    A reduction of $5 million in resources for relocating 
personnel.
    And the reduction of $14.4 million from anticipated savings 
resulting from a Department streamlining effort.
    In summary, the President's fiscal year 2004 budget request 
will ensure that DEA has sufficient resources to focus on 
priority targets, those having a significant impact on 
America's drug supply today.
    Mr. Chairman and members of the Subcommittee, I would again 
like to thank you for your support--your continuing support to 
DEA. I am proud to be a special agent for the United States 
Drug Enforcement Administration who for more than 31 years has 
had the opportunity to serve alongside outstanding, dedicated 
men and women of this agency who go to work every day in all 
parts of the world to try to make a difference.
    And that concludes my oral remarks, sir. I'd be glad to 
answer any questions.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
        
                        DEA BUDGET JUSTIFICATION

    Mr. Wolf. Thank you very much, Mr. Brown. Let me just say 
that I want to thank you for your service, too, and for all the 
good work that your people do. And if some of your responses 
differ with what you say insofar as your testimony, I 
understand how things have to go through OMB and things like 
that, any criticism voiced today ought not be viewed with 
regard to you.
    So let me just say that I do appreciate your service, and I 
know you are a career person, and thank you for your service 
and all of the men and women that have served so well.
    Mr. Brown. Thank you.
    Mr. Wolf. In my opening statement, which I did not read, 
and saved the time, but there was a paragraph that I will read, 
it said, ``I am disappointed in the DEA budget. The 
administration is requesting an additional 318 positions and a 
program increase of some $42.9 million, but it also includes 
program offsets and reductions of some $52.7 million.''
    So it is actually a net reduction to DEA of $9.8 million.
    The budget also includes an increase of 151 positions and 
$23 million in OCDETF accounts, and in DEA increases include 
only 233 new special agents. When you look at the fact that 567 
FBI agents under the FBI reorganization have been taken off the 
street, you are actually down in agent levels. You are actually 
down. And I believe those FBI agents were doing a very good 
job.
    Now, if you were assuming that they were not, it did not 
matter, which I know you would not take that position. That 
would be one thing we hear: You have taken 567 agents away from 
drug investigations.
    And so I do not think that this is really that aggressive 
of a law enforcement budget with regard to drugs, because you 
are going to end up with fewer people. So you are going to work 
smarter. The question is, why did not you all work smarter last 
year and the years before.
    I know you are a career person, and I have never tried to 
ever use this position to aggressively create a problem for 
another body. I am trying to think of my words carefully. But 
do you really think that the request is adequate? My sense is, 
without pinning you down, that it is not adequate, and how do 
you feel about it? I mean, the fact that you are going to have 
fewer agents.
    Mr. Brown. I was an English major, not a math major, so the 
number issue I think will work out for us. In fiscal year 2003, 
this Committee supported us and provided us with 216 special 
agents.
    Mr. Wolf. We did.
    Mr. Brown. It was a very welcome enhancement to our very 
small agency. In the President's proposal for 2004, we will 
look to receive 233 special agent positions, and with the 
realignment of some of the other programs, we will actually 
pick up a redirection of another 362 special agents.
    Mr. Wolf. But what about the loss of the 567 FBI agents?
    Mr. Brown. By adding the 362 special agents that are being 
redirected and the 233 that are being requested, we will 
actually have a net gain of 595 special agents now focusing on 
priority target investigations.
    Mr. Wolf. You will have a net gain.
    Mr. Brown. Yes, sir.
    Mr. Wolf. That math does not quite fit to what----
    Mr. Brown. I was an English major, sir.
    [Laughter.]
    Mr. Wolf. It sounds like that math was run through OMB.
    Are fewer illegal drugs coming into the country to justify 
the decrease?
    Mr. Brown. They continue to come at alarming quantities. We 
would welcome additional resources, of course, but we 
understand the physical constraints that are placed upon all 
the government agencies, so we will take any positions that we 
can receive.

                         DRUG STRATEGY FUNDING

    Mr. Wolf. So the answer is fewer illegal drugs are not 
coming into the country, so the reduction is not justified.
    Two other questions, then I will recognize Mr. Serrano.
    On the drug strategy, we have yet to see a drug strategy 
that we requested last June. I mean, drugs are very, very 
important.
    We understand it will propose a redistribution of DEA 
special agents around the country, based on the areas facing 
the greatest threat. If you are only asking for an additional 
233 special agents, we are going to have some holes in certain 
areas of the country.
    Will some areas of the country be less well covered? You 
cannot pull agents out of middle America because of the 
problems with methamphetamine. You cannot take agents away from 
the northern border or deplete resources at the southern 
border. What is the answer? How do we maintain drug enforcement 
strategy with fewer resources?
    Mr. Brown. You have to work smarter, sir.
    The 233 positions will be a great enhancement to our 
ongoing priority target plan. We have identified, through our 
domestic threat analysis, the significant threat of the 
southwest border. We have already deployed a number of 
resources there to counter that threat. We worked with the FBI 
when they were contemplating their redirection of their special 
agents from counter-drug to counter-terrorism. So where the FBI 
has been withdrawing resources, we have supplemented that by 
placing DEA special agents there.
    The southwest border is absolutely critical. So is the 
southeast, the Caribbean, the northeast, and all along the West 
Coast and across the northern border, and especially across the 
middle of the United States of America. So we have to be very, 
very judicious in how we deploy our resources to meet threats 
that are there.
    Mr. Wolf. How about Appalachia?
    Mr. Brown. Right in the middle of the heartland, 
absolutely. We cannot draw down those resources that are in 
critical places now. You just enhance it with the new resources 
we hope to receive.

                     ILLEGAL ACTIVITY AND OXYCONTIN

    Mr. Wolf. I do not think your answer, with all due respect, 
is really adding up. And, again, I do not want to take 
advantage of your circumstance, as I said, because I know you 
are acting and you are a career person. But it just does not 
add. Let me just cover one other issue, and then I will go to 
Mr. Serrano, and I know Mr. Rogers will probably raise this 
issue, too.
    OxyContin. Please give us an update on DEA's effort to stem 
the spread of OxyContin. Seems like there is a growing instance 
of people being much more aggressive and committing armed 
robbery in order to get their hands on this drug. Is the 
illegal activity surrounding OxyContin getting worse? Yes or 
no?
    Mr. Brown. Yes, sir. It is.
    Mr. Wolf. Have you seen the problem spreading to 
metropolitan areas?
    Mr. Brown. Yes, largely it was an East Coast phenomenon. 
Now it is spreading all across the United States.

                      OXYCONTIN--DEFINITION OF USE

    Mr. Wolf. Well, why hasn't DEA gone over to the Food and 
Drug Administration and told them, with regard to moderate 
pain, that they should change the definition of how this drug 
can be used?
    I am very, very concerned. In fact, there is a reason I was 
late was I was meeting my attorney general, Attorney General 
Kilgore.
    I think that DEA has been very reluctant to engage the 
secretary of HHS to deal with this issue.
    When I looked at how fast FDA moved, appropriately so, when 
the Baltimore Oriole pitcher died because of the drug abuse 
with regard to being on a diet pill--ephedra--and how little 
action our government, Food and Drug Administration and anyone 
else, has taken on OxyContin, it strikes me as very--shocking.
    The answer to my question is not going to be in front of 
you. It is not going to be in front of you. I think powerful 
interests have been hired by this company, because there are 
powerful interests connected by it who have a lot of money.
    And I think as a result of that, you have neglected the 
people in Mr. Rogers' district, you have neglected the people 
down in Wise County and Lee County in the state of Virginia, 
because they are poor people. They are poor people who have no 
power. They have not been able to hire powerful Washington 
lobbyists to come and represent them.
    And as a result of that, OxyContin is spreading rapidly and 
the government is fundamentally not doing almost anything about 
it. DEA may be, but other portions of the government are not.
    And yet, you find this diet drug, which the FDA moved on 
quickly, and should have, because it killed somebody that 
everybody knew.
    Now, we just had a commonwealth attorney in my 
congressional district plead guilty with regard to OxyContin. 
It is beginning to come into my area.
    Why hasn't DEA gone over to the Food and Drug 
Administration and made the recommendation that it should be no 
longer used for moderate pain?
    My mother died of cancer. My father died of cancer. For 
somebody who has cancer, it is a miracle drug, it is a 
wonderful thing. But we see it spreading--we, quite frankly, 
have not seen the Food and Drug Administration, Secretary 
Thompson, do anything to stop it. And my sense is, because 
powerful lawyers, lobbyists, the big names, people that may 
very well have served in this Congress are now out representing 
this company. Every state, I have been told, has in the state 
legislatures lobbyists who are now representing this company, 
lobbyists lobbying in every state capitol, lobbying here.
    What about the people down in Wise County and Lee County 
who are dying? What about the people down in Mr. Rogers' 
district? What about the people--now it is spreading into the 
metropolitan area? Do they not deserve to have their government 
advocate for them? And quite frankly, I think the 
Administration on this issue has failed.
    So my question is, are you prepared, are you, the acting 
administrator of DEA, are you prepared to go to the Food and 
Drug Administration, and tell them you want to see this no 
longer available for moderate pain? Moderate pain is when I go 
out, as I do almost every weekend, and I live out in the 
country and I cut wood, at the end of the day I am in moderate 
pain, maybe even in severe pain. I take Motrin for it. I take 
Motrin. I take Motrin the next day. In fact, if you need wood, 
I have more wood on my five acres that I have cut this last 
winter. And I am in pain, but I do not take OxyContin.
    And my sense is by allowing it to be used for moderate 
pain, it has opened the door to abuse and people are suffering.
    The last comment before you answer: We had a young man from 
Mr. Rogers' district.
    The question is not going to be in the page. Tell your 
staff the question is not going to be on that page. I do not 
want you to have to read the page. Speak from the heart, not 
from the page. This is not a page hearing. It is a heart 
hearing.
    This is a compassionate, conservative Administration. I am 
a compassionate conservative. I care about this issue. You care 
about this issue. We should care about the people.
    A pastor from Mr. Rogers' district testified. And he had 
his young son testify with him. You remember the hearing. His 
son came in. He sat in the back. He had, I remember, a royal 
blue jacket on. And the son then came up to the table and the 
pastor was very impressed that his son had gone through a rehab 
program. It happened to his son.
    Let me yield to Mr. Rogers. What happened to the boy?
    Mr. Rogers. He overdosed again on Oxy. Went back home and 
got readdicted to OxyContin.
    Mr. Wolf. A poor family, who has lived in Appalachia with 
no money, they do not have the money to hire the big Washington 
law firms. You should be their advocate. We will be their 
advocate, but you should be their advocate. So are you prepared 
to go over to the Food and Drug Administration and say, ``We do 
not now--we now believe that this ought not be used for 
moderate?''
    Mr. Brown. Absolutely, sir.
    Mr. Wolf. Okay.
    Mr. Brown. Absolutely.
    Mr. Wolf. I want you to schedule a hearing, a meeting, and 
I will go with you and Leslie. So you tell us when the meeting 
is, and Mr. Rogers will go, too. We will go together, you, Mr. 
Rogers, me and Leslie, will go over. You schedule the meeting 
with the head of the Food and Drug Administration. And I am 
going to hold you to that.
    Mr. Brown. I will do it.
    Mr. Wolf. Okay. Great.
    Mr. Brown. Glad to have your support on that, sir.
    Mr. Wolf. You got it. Believe me. I support you more than 
you even know that I support you.
    My father was a Philadelphia policeman. I had been on the 
side of the law. I mean, and I do support you. But when I see 
the pain and suffering and the agony and the inner city from 
drugs and in Appalachia. And then, I see who this company has 
hired with regard to the powerful interests, it frustrates me 
why this Administration that is compassionate and is 
conservative, cannot deal with this issue. And during the time, 
the body count is increasing day after day after day.
    But we will go with you.
    And I will yield now to Mr. Serrano.
    Mr. Brown. I appreciate your support on that, sir.

                           WAR AGAINST DRUGS

    Mr. Serrano. Thank you, Mr. Chairman. Thank you for your 
eloquence on an issue that we all understand so well.
    Mr. Brown, just to, kind of, follow up where Chairman Wolf 
and Mr. Rogers have left off, you know, I represent a district 
in the South Bronx, and we have not seen the new census 
figures, but for many years it has been the poorest district in 
America which, incidentally, is in walking distance from one of 
the wealthiest districts in America, but that is--the way it is 
the Silk Stocking district.
    If you were to analyze my district and come up with the one 
issue that if we had great impact on it we could alleviate many 
of the problems in my district, it would have to be the issue 
of drug sales, drug addiction, drug trafficking, crime related 
to drugs. And since September 11th, so many of our resources, 
and rightfully so, have been diverted to our fight on 
terrorism, well, at the expense of also having to measure my 
words the way Chairman Wolf said at the beginning that he was, 
on September 11th there was great terror brought on my city 
and, therefore, on my community.
    If you analyze over a period of five, 10 years what drugs 
have done to New York City, to cities throughout this country, 
to rural areas throughout this country, the impact was not the 
same as September 11th, but the result was 10 times, 1,000 
times greater, in terms of the lives that are lost and the 
other crimes and the property lost and the pain.
    And so my question to you is, what do you see that we are 
doing to ensure that the war against drugs continues on the 
pace that it had been for a few years before September 11th, so 
that we do not divert all our resources and divert all our 
focus?
    And tied to that, do you have information that does tie the 
issue of terrorism to the drug trade?
    Mr. Brown. Yes, sir. The DEA continues; we have never lost 
our focus. September 11th was a horrible, tragic day in this 
country. Three thousand people died that day.
    We cannot lose sight of the fact that nearly 20,000 people 
die every year from drug overuse. We have not lost our focus on 
that. We have done everything we possibly can to continue in 
light of resource allocation and so forth to continue this.
    This is an important terrorist act that is perpetrated upon 
our communities. We will not stop, we have not stopped.
    We see links between drug trafficking operations and 
terrorist organizations, absolutely, in this hemisphere 
especially. In Colombia, the Fuerzas Armadas Revolucionarias de 
Colombia (FARC) have been involved in drug trafficking, and 
drug manufacture, excising taxes against other drug traffickers 
to get the funding that they need to carry out their 
revolutionary activities in Colombia. It has held that country 
hostage for four decades.
    United Self-Defense Groups of Colombia (AUC), another 
insurgency-type group in Colombia, does the same thing. So 
those kinds of links are clear, definitive, and confirmed.
    This government, this very small agency, has participated 
with the Department of Justice in securing indictments against 
the leaders of the FARC and the AUC who are involved, with 
confirmed evidence, in drug trafficking activities.
    We have been lucky enough to capture one in Suriname, 
Carlos Bolas, one of the leaders of the FARC, and bring him 
back here to the United States, a terrorist and a recognized 
terrorist organization, but he is here in the United States to 
stand charges on drug trafficking. We have taken some very 
strong actions on that.
    But you are right, these criminal organizations that 
traffic in drugs are terrorist organizations in every sense. 
They terrorize neighborhoods, they terrorize our citizens, and 
we have not stopped our efforts to stop them.

             PUBLIC RESPONSE TO TERRORISM COMPARED TO DRUGS

    Mr. Serrano. Why do you think, as a professional in the 
field, that we cannot seem to get the same sense of outrage 
about this terror from drugs that we have gotten on the war on 
terrorism?
    And, again, for the record, I agree with that war on 
terrorism and I support it. I may get nervous at times and 
confront some of the ways we are dealing with it, in terms of 
how we detain people and hold them without accusations and 
lawyers and charges.
    But you just told me something interesting that most 
Americans probably do not know: We lost 3,000 people in one day 
and we are horrified by that; we lose 20,000 every year from 
drugs, and there does not seem to be a sense of outrage in the 
country. There never has been.
    Why is that? Or is that part of what Chairman Wolf was 
talking about, the fact that there are too many other interests 
in the war on drugs?
    Mr. Brown. I concur with Chairman Wolf's sentiment on so 
many of these things.
    The war on drugs is a term that has been used for so many 
years and years and maybe that is a worn-out term. But it is no 
more worn out than the war on poverty or the war on illiteracy. 
You just have to have a contained, sustained effort to stop it.
    I do not know if it is getting the same headlines that it 
did in the 1980s or the 1990s, but the threat against the 
United States and its citizens is just as great, if not 
greater.
    I am concerned like you are that there is no public outrage 
as voiced in years past about this. The problem has increased, 
not diminished.

                        DEA AND FBI RELATIONSHIP

    Mr. Serrano. Now, let me ask you, the FBI has been given 
quite a bit of new responsibility.
    Mr. Brown. Yes, sir.
    Mr. Serrano. And we are concerned that they, too, have been 
asked to handle one war and have sort of moved away from other 
things. And so it could be that a lot of criminals in this 
country think that this is a vacation time for them; that they 
can get away with everything.
    Have you noticed any change in the relationship between 
your agency and the FBI? And do you see them at the same level 
of involvement in the war on drugs that they had before 
September 11th?
    Mr. Brown. No, sir, they are not at the same level of 
participation. We worked with the FBI when they had to reassign 
their special agents from counter-drug to counter-terrorism, 
because it was going to impact on us directly. So where they 
were drawing down resources and redirecting them, we put 
resources in where we could.
    They have not lost their will to do that. In fact, they 
still have a number of special agents--a significant number in 
the Organized Crime Drug Enforcement Task Force Program, where 
we are partners with them. And they still have a number of 
direct-funded special agent positions that are working in the 
drug enforcement arena. But when they lost 567 positions to 
counter-terrorism, that is a drawdown of 567 partners that we 
had to work with.
    Mr. Serrano. So that was the number of the people that are 
no longer involved with you?
    Mr. Brown. Five hundred sixty-seven, I believe so. Yes, 
sir.
    Mr. Serrano. So you basically lost 567 drug enforcement 
agents in a way.
    Mr. Brown. Yes, we did.
    Mr. Serrano. And you made that up by what? I mean, that is 
a huge number of people, especially in that particular war. You 
made that up by what? You said by filling in some of those 
spots with your own people, but----
    Mr. Brown. With our own people. In the fiscal year 2003 
budget, you were gracious enough to give us 216 positions, and 
we are asking for another 233. But there is a realignment. 
Special agents are being redirected toward the priority 
targets.
    What we are asking for, too, in the 2004 budget is a $4 
million enhancement to allow us to pay overtime for our state 
and local partners in the task force program. That is a force 
multiplier that will give us 100 more police officers to work 
with. That will help immensely.

            DEA ACTIVITIES TO STOP ILLEGAL USE OF OXYCONTIN

    Mr. Serrano. All right.
    Before I give up my time, Mr. Chairman; Mr. Brown, as you 
know, I wrote to you earlier this year with a series of 
questions on DEA's activities in Latin America. I know your 
staff has worked and is working very hard on providing me with 
the answers. And I thank you and them for that. So for the 
record, I will submit some related questions. And once my 
initial questions have been answered, perhaps we can meet to 
discuss them.
    Mr. Brown. Yes, sir. I look forward to that.
    Mr. Serrano. Okay.
    Thank you, Mr. Chairman.
    Mr. Wolf. Thank you, Mr. Serrano.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    About two weeks ago, my home town newspaper carried a 
headline, picture of a 24- or 25-year-old young man pleading 
guilty to assassinating my sheriff. And he claimed at the time 
he was hooked on OxyContin. And he was in a conspiracy with, 
ironically, another guy running for sheriff against my sheriff 
in a primary. And they were being financed by a drug dealer. 
But the bottom line is, OxyContin killed my sheriff, a personal 
friend of mine of many years; wonderful, wonderful sheriff, 
wonderful human being.
    The chairman mentioned the pastor, Reverend Koots, from 
Hazard, Kentucky, who testified here a couple of years ago with 
his son, who later died of an overdose of OxyContin.
    Last week, a medical doctor plead guilty--was convicted of 
over-prescribing OxyContin; Williams--a doctor named Williams. 
The state record showed that in 101 days he wrote prescriptions 
for 46,160 prescriptions, an average of 457 a day, one every 
minute of an eight-hour day.
    That is not uncommon. I mean, these convictions of doctors 
who are over-prescribing this medicine, while the FDA sits 
quietly by, and DEA sits with them, saying, ``No, OxyContin is 
not just for severe pain, it is for a broken finger.'' And 
these kids--these are kids that are dying--crush that 24-hour 
capsule and take it all of a sudden, and it is an extreme joke. 
And once you are on it, you cannot get off we are told by 
people who are on it.
    Good families are being ruined. Thousands of people are 
dying, many of them in my district. And I going to file this, 
Mr. Chairman, this sheaf of papers which is photocopies of the 
Lexington newspaper series on this problem called, 
``Prescription For Pain,'' which graphically describes in ultra 
detail the horror that is going on in my part of Kentucky, my 
part of the country.
    Mr. Wolf. Without objection.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Mr. Rogers. It is the worst thing that has ever hit us.
    A recent federal review of autopsy data has found that 
OxyContin played a major role in 464 deaths throughout the 
nation between May 2002 and February 2003, about a quarter of 
those have occurred in Kentucky and Virginia alone. But there 
is a high incidence of death by overdose nationwide, 
particularly in New York, New Jersey, Philadelphia and 
Appalachia. I do not know why those particular regions, but it 
is so. And DEA sits back.
    You have gone AWOL in the fight against drugs in my 
district. I am sorry to say that. I created, in this 
subcommittee, the first rural HIDTA operation, based in London, 
Kentucky, now, covering the Appalachian area. And it is right 
in the middle of this mess. And I do not know how many DEA 
agents are in the region, but it's minuscule.
    And I do not know what to do. Well, I do know what to do, 
too. And I am doing it. We are having to do our own thing. We 
are starting an organization called Project UNITE, Unlawful 
Narcotics Investigations, Treatment and Education. And we are 
going to organize our people. We are going to have law 
enforcement task forces that we finance and put up ourselves. 
Thank you, DEA, go about your business. We will have to do this 
ourselves because you will not help us.
    We will do treatment in the treatment centers. And we will 
organize people in their homes to take people who are addicted 
into their homes and care for them, because there is no room in 
the treatment centers. They are overflowed. And we are going 
into the schools to educate the young.
    Now that is a sad state of affairs that you have let my 
area get into.
    What do you think?
    Mr. Brown. Sir, I appreciate your concern. I am concerned 
about that, too.
    The issue of having resources to put in your district or 
any other district where there is a drug situation comes down 
to the request that we are making for additional special agent 
positions in the 2004 budget----
    Mr. Rogers. Look, I have heard this for 20 years. I have 
set on this committee for 20 years. I chaired it six. I have 
heard that story every single year: ``Please give us the money. 
We will hire more agents and the problem will be over with.'' I 
have heard. I am up to here with that. That will not cut it.
    You have to do the things like the chairman is suggesting. 
Go to the FDA and say: ``Cut out OxyContin for all but the most 
severe pain.''
    Mr. Brown. We agree with that, sir.
    Mr. Rogers. We cannot fight the river that is out there 
unless you stop the dam back there. That is the problem with 
OxyContin.
    Mr. Brown. Between you and the chairman's support we can 
take this right to them.

                        MANUFACTURE OF OXYCONTIN

    Mr. Wolf. We will go and I will push it.
    Mr. Rogers. There is more to it. One of these stories, and 
I will find it here, deals with DEA itself. Now what 
authority--do you not have the authority--does DEA not have the 
authority to establish how many narcotics medicines are 
produced in the country?
    Mr. Brown. Quota system, yes, sir.
    Mr. Rogers. You do? So is it up to DEA to decide to how 
many OxyContin pills are allowed to be manufactured?
    Mr. Brown. The Drug Enforcement Administration and FDA work 
together on that, sir, to meet legitimate medical needs.
    Mr. Rogers. And how have you come to conclude that we need 
so many OxyContin pills? Because you decided that, didn't you?
    Mr. Brown. It was, I guess, determined by submissions from 
the manufacturers.
    Mr. Rogers. I do not want a guess. I want to know how come 
you decided to produce the number of OxyContin pills that we 
got produced last year, which is an enormous increase over the 
previous year. Why?
    Mr. Brown. That is something I will have to get an answer 
back for you, sir.
    Mr. Rogers. I am amazed you do not know the answer right 
here and now. Didn't you know you were going to confront us 
with this kind of stuff? You know what is being done with 
OxyContin, don't you?
    Mr. Brown. Yes, sir.
    Mr. Rogers. For God's sakes if you do not, you are dumb; 
and you are not dumb. And you come here and say you do not know 
why DEA allowed this enormous production of this pill that is 
killing people. And you knew the concern of many of us up here 
before you came, surely. So how come you do not know that 
answer?
    Mr. Brown. I will get that for you, sir.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Mr. Rogers. I am amazed.
    Well, while we are out there trying to fight the flood of 
drugs that is destroying our communities, not to mention the 
killing of people like good sheriffs and other officials, and 
practically taking over counties--even the governments are 
getting corrupted because of the huge amount of money involved 
here, and these are poor counties--they cannot fight that flood 
if you are going to open the floodgates and flood us more with 
more OxyContin pills. Does that make sense to you?
    Mr. Brown. No, sir.
    Mr. Rogers. Pardon me?
    Mr. Brown. It clearly does not.
    Mr. Rogers. Well, Mr. Chairman, I want to have this agency 
back up here in a few days. And I want to know the answer to 
the questions that you and I and others have asked about this 
matter, because it is a matter of life and death.
    And I want to know why you do not have more agents in that 
region. They all want to go to Lexington, which is a wonderful 
city. But the problem is out in the countryside. It is not as 
nice to live in the countryside there as it is in Lexington or 
Louisville. And DEA clusters in the places where it is nice to 
live.
    But we are paying the salary, and I want those agents where 
the problem is. I want to know why you do not have more of 
those agents where the problem is where people are dying.
    And I want to know how come DEA, last year, authorized the 
maker of OxyContin to flood the market with thousands and 
thousands of more pills than they did the year before. I want 
to know why. And I can guarantee you, I am going to find out 
why.
    So you can be helpful or not. I do not, frankly, give a 
damn. But if you do not do it, I will know the reason why.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF] 
    
    
    Thank you, Mr. Chairman.

                    POOR PEOPLE'S NEED FOR ADVOCATE

    Mr. Wolf. Thank you, Mr. Rogers.
    I think you can see, obviously, that the comments are 
really not directed toward you. And I would have to say that I 
told Leslie at the beginning of the hearing that we were not 
going to have, you know, tough questions. But just leaving the 
meeting that I had with Attorney General Kilgore, and knowing 
what impact it is having. And I just really feel that it is the 
poor who really have no advocate, whether they be in the inner 
city or whether they be in the Appalachia or the regional area.
    If there is anybody from the media here, frankly, you all 
are not doing your job either, because you really have not 
covered this story. There probably is not any media person 
here, maybe, because this not the biggest issue here. But you 
have not covered the story, you have not covered the names of 
the law firms that are out representing this company. You just 
have not covered it and these people are dying.
    And as a father of five children and as a grandfather of 
seven kids, this ought to be something that is on the front 
burner with everybody.
    And I know you have a distinguished career. And you are 
probably saying inside, ``Yes, I agree with everything Wolf and 
Rogers are saying. Yes, I have to get up here''--so I 
understand that. But I think this is the sense of the outrage 
when you think of these poor people that are just--and I cannot 
get it out of my mind, that young boy in the electric blue--
royal blue jacket, who was with his father. And they were so 
happy that he had gone to the rehab program, and now he is 
dead. And then I think of who is out representing this company.

                        OXYCONTIN REFORMULATION

    I want to recognize Mr. Cramer.
    My attorney general said--and maybe you would have a--and 
excuse me for taking Mr. Cramer's time--but if you would just 
say yes or no. He said that now Purdue Pharma was now coming 
out and telling people that they could not do the reformulation 
for four more years. If it takes them four more years, would 
their patent not expire during that period of time?
    Mr. Brown. I do not know how long their patent period is 
for, sir.
    Mr. Wolf. Could you check and see? Because now they are 
being told--he was told that it would be four more years before 
the reformulation. And my sense is the patent would expire from 
when they first had it to four more years.

                      OxyContin<SUP>'</SUP> Patent

    OxyContin<SUP>'</SUP> is covered under several patents. 
There are patents that expire in 2006, 2007, 2008, and 2013.

    With that, Mr. Cramer.

                    METHAMPHETAMINE PRIORITY TARGETS

    Mr. Cramer. Thank you, Mr. Chairman.
    I want to associate myself with your remarks, and Mr. 
Rogers' remarks.
    Well, welcome to a tough arena here and to a set of issues 
that we feel very passionately about.
    I was a prosecutor in my prior life, so I was there on the 
front lines watching my law enforcement folks try to get the 
tools to go toe-to-toe with the organized drug rings that were 
in our area.
    I am from North Alabama. I am from that top of Alabama 
section there. And I read with great interest your net 
information in here, and you concentrate on the areas of the 
country, but it seems that my area of the country is at least 
unnoticed by the information in here. And in Alabama the year 
before last we had the 14th highest number of meth lab busts in 
the United States. We had 143 lab busts, and 100 of those were 
in one county in my congressional district.
    It is an enormous problem for local law enforcement and 
something that we have tried to give them help with. We found 
available cops, grant money to try to give that sheriff's 
department the person power that they need, the resources that 
they would need to get out there in the county.
    I have learned more about the meth users and the kind of 
addicts that they are, and it is a pathetic profile that you 
see there.
    But I am interested to know, from the terminology that I 
read through in here, you talk about 133 open methamphetamine 
priority target cases. I do not know what that means. What does 
that mean?
    Mr. Brown. Went after large organizations. What you see in 
your district, and you talked about the 100 laboratories 
concentrated in one county, that would probably be independent 
laboratories. It is small----
    Mr. Cramer. Oh, it is small. It is crude, crude, small 
labs----
    Mr. Brown. But our priority target organizations are going 
after the manufacturers of very, very large quantities, largely 
in laboratories in the West Coast area, and especially the 
organizations that provide the essential precursor chemical, 
pseudoephedrine.
    If we can eliminate the source of the essential chemical to 
make methamphetamine, we can knock out those small toxic 
laboratories that you see in your district, and we can really 
eliminate some of the large----
    Mr. Cramer. Thank you for leading into that, because that 
is exactly what my law enforcement agencies say; they say if we 
can just get this basic material out of their hands then we can 
combat this.
    So I was curious to see that in your focus, your effort to 
combat this growing drug problem--and it is a huge problem in 
my area, especially--and this is a very rural county, it is a 
county in the foothills of the Appalachian Mountains, and these 
are isolated little crude labs with mainly they are supplying 
themselves.
    But if we do not--if we concentrate on the bigger, more 
sophisticated commercial-like labs that are getting the final 
product out there, then I think we are missing the boat on some 
of these others. So I am glad to hear that that issue----
    Mr. Brown. It is a major issue for law enforcement. A 
typical drug investigation involves making an arrest and a drug 
seizure in these laboratories, and we do that. We make the 
arrest, we make the drug seizure, but we confront boiling 
cauldrons of toxic materials, and after we have shut that down 
we have to clean-up the lab site. And that costs us a fortune 
to do.
    So it is not just a law enforcement issue, it is actually 
an environmental issue and a safety issue, which is a great 
concern for all of us.

                     FUNDING FOR METH LAB CLEAN-UP

    Mr. Cramer. Well, I could probably dig this out of here 
myself, but how much money are you spending on this?
    Mr. Brown. Too much. Too much. Too much. We need to be more 
effective. The Community Oriented Policing Services (COPS) 
Program provides laboratory clean-up funds in the tune of 
millions of dollars we can provide, but to clean up a 
laboratory--a typical lab is $5,000 to $7,000. And that is a 
small toxic lab. Some of these large-scale laboratories will 
cost considerably more than that.
    Mr. Cramer. But are you seeing the problem that I am 
describing----
    Mr. Brown. Oh, I see the problem pretty clearly.
    Mr. Cramer [continuing]. Throughout rural America?
    Mr. Brown. Absolutely. Very concerned about that.
    Mr. Cramer. I just think we need a more targeted way of 
giving those local law enforcement folks the tools to get out 
there and try to hold----
    Mr. Brown. One of the things that the DEA is trying to do 
is to provide more clandestine laboratory training for the 
state and local counterparts that we have. That is a critically 
important program.
    Again, my concern is officer safety. We have officers that 
are making stops of vehicles on the highway, and they come 
across these toxic chemicals, do not know what they are, and we 
have officers being injured by that.
    We have officers in your jurisdiction, even probation 
officers, going into homes to check on their clients and coming 
across a laboratory and not knowing what it was, and having 
some real safety and health issues with that.
    So our training program and the clanlab arena is very, very 
critically important, something we can do for state and local 
law enforcement officers.

                            PRIORITY TARGETS

    Mr. Cramer. In your mission and strategic plan section of 
your statement, you refer to priority targets. ``DEA has 
compiled a comprehensive list of priority targets submitted by 
21 field divisions,'' and then you go on from there.
    Tell me briefly what that is, what is a priority target.
    Mr. Brown. Looking at organizations--criminal organizations 
that are involved in drug trafficking that have international, 
national, regional, and especially for all of us because we 
live in the communities, local impact. We go after those 
targets that give us a biggest return for our limited 
resources.
    Mr. Cramer. So is that an ongoing, fluid--I mean, do you 
update it, do you add to it, do you----
    Mr. Brown. Yes. Yes, our strategic plan is a five-year 
plan, but it is a living document. As the drug trade is very, 
very dynamic, we have to modify that.
    I mean, new substances and analogues of some of these 
synthetics come out, and we need to be able to address that.

                   AGENTS FOR COUNTERTERRORISM EFFORT

    Mr. Cramer. And I am now, obviously, jumping around, but I 
want to come back to one last thing that Mr. Serrano, I think, 
prompted you. But when you referred to the 567 agents that you 
lost--is that figure right, 567?
    Mr. Brown. Five sixty-seven.
    Mr. Cramer. Out of how many?
    Mr. Brown. That is the number of FBI agents that came out 
of the counter-drug effort and went to the counter-terrorism 
effort.
    Mr. Cramer. Well, that is a huge number.
    Mr. Brown. Yes, sir, it is. Yes, sir, it is.
    Mr. Cramer. Thank you, Mr. Chairman.
    Mr. Wolf. Thank you, Mr. Cramer.
    Mr. Kirk.
    Mr. Kirk. Thank you, Mr. Chairman.
    And welcome.
    Mr. Brown. Thank you, sir.

                    STEMMING THE FLOW OF CLUB DRUGS

    Mr. Kirk. One of the big concerns I have in my district is 
over club drugs, Ecstasy, etcetera. We like to be very friendly 
with the Dutch and the Belgians, our NATO allies, but almost 
entirely the supply of these drugs come from those two 
countries.
    Describe for me how you are working with those two 
governments to restrict the flow.
    Mr. Brown. Well, I will address Belgium first. Belgium has 
been extremely cooperative with DEA. We have an office in 
Brussels and we work a number of cooperative investigations.
    The Belgian authorities have participated with us to allow 
controlled deliveries, that is interception of substances in 
their country. We do a controlled delivery of that to the 
intended recipient here and try to identify the supplier and 
the producer of it in-country, in Belgium, the transportation 
mechanism used, and then the ultimate recipient, and the 
distribution network that is here.
    They have been extremely helpful. They worked with us, 
providing information on the organizations that use the 
airports in Brussels, how that works, and some of the internal 
conspiracies in the airline industry and the cargo industry to 
get these shipments of drugs on aircraft and get them out of 
country. They have a number of initiatives. In fact, they have 
developed an MDMA ``Ecstasy'' Working Task Force that we 
participate with them. The Belgium and DEA folks have a great 
exchange of information. One of the key things for law 
enforcement is this communication in coordinating our efforts, 
and the Belgians have been extremely supportive in that.
    The Netherlands had a number of restrictions on how they 
worked with foreign law enforcement agencies, including DEA. 
They were extremely cooperative where they could be.
    We just concluded last week some good bilateral meetings 
with our counterparts in the Netherlands. We have established 
some very solid information exchange commitments on both sides, 
for both of us.
    U.S. Customs Service, which is our partner in stopping the 
flow of drugs from country to country, have also worked with 
the Dutch authorities, and are looking at shipments that come 
out of the airports in Holland--the Dutch, Netherlands. We 
should have a task force at the airport, again, looking at the 
cargo and the passenger flights that come out of country to 
identify for our Customs inspectors and investigators, 
shipments that are probable or suspected drug shipments. The 
exchange of information has been critically important for us.
    The Dutch have a number of initiatives, again, looking at 
precursor chemicals that are essential in the manufacture of 
Ecstasy in-country. And we work with them, and other countries 
in the surrounding area, to control the flow of precursor 
chemicals to limit the production. They are looking at illegal 
manufacturing of methamphetamines and MDMA in-country. A number 
of other things that we are doing with the Dutch involve 
inclusion in a task force.
    The U.S. Customs Service is now providing information back 
to the Dutch on shipments that they have intercepted here, 
which the Dutch work back and try to find those laboratories 
and the manufacturing cells that are responsible for that.
    This is unprecedented in working with the people in the 
Netherlands. They have never had laws that would allow them to 
utilize informants the way that we would here in the United 
States, or even undercover operatives, which is a very 
effective tool in the United States. So they have come a long 
way in working with us on this issue. Hope it pays off.

   RELATIONSHIP WITH STATE DEPARTMENT, BELGIUM AND DUTCH GOVERNMENTS

    Mr. Kirk. I am glad to hear of this progress. But it still 
feels from the northern suburbs of Chicago like we are losing, 
because the drug gangs that are located in my district seem to 
have greater access to this material.
    Can you describe your relationship with the State 
Department and how you might make this a bilateral issue 
between the United States and those two governments?
    Mr. Brown. One of the things that happened this year is we 
issued a notice of concern to the Netherlands about the MDMA 
production in-country and how it is impacting your jurisdiction 
and everybody else's jurisdiction. The State Department works 
with us in every place overseas on narcotics matters. This is 
something we can address more formally with them. But they have 
been very, very supportive.
    I am not going to say the State Department has turned its 
back on that. They encourage us to work with our counterparts 
in the Netherlands to derive some successes. I think we are 
going to have some pretty good results.
    Mr. Kirk. Mr. Chairman, I am wondering if we could have 
DEA--since we are having a hearing on the 2004 budget here--if 
you could lay out a road map in 2004 of where you would like to 
be with the Belgium and Dutch governments on this issue by the 
end of 2004? That would be very helpful to us. And if you could 
transmit that to the committee, I think that would give us a 
work plan, then, where we could to.
    Mr. Brown. Glad to do that, sir. Absolutely.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Mr. Wolf. Sure. Without objection, yes. And we will put 
that in the record. Also, that gives you something as you are 
talking to both of those governments you talked to and say if 
we can get that, we would appreciate it.
    Mr. Kirk. We are going to be inviting the Dutch and Belgium 
authorities to meet with the community leaders in Chicago. They 
have a trade agenda, so we have a drug control agenda. And I 
would like to use your road map to propel this.
    Mr. Brown. We will provide that promptly, sir.
    Mr. Kirk. Thank you, Mr. Chairman.
    Mr. Wolf. Thank you, Mr. Kirk.
    Mr. Kennedy.

                     FEDERALLY LICENSED GUN DEALERS

    Mr. Kennedy. Thank you, Mr. Chairman.
    Let me say, I want to follow up with a few questions that 
were asked before on methamphetamine. We are facing an influx 
of meth and heroin in my region, and would like to get your 
comments on that.
    But because we each have a few moments to ask questions, I 
know the next panelists, and I think the interaction between 
drugs and guns is obviously so clear that when he presents, I 
would like to make sure that he addresses these subjects in the 
course of his statement, and that is, the oversight of 
federally licensed gun dealers.
    We know that most of the guns that are captured are sold 
legally to straw purchasers who can buy huge quantities of 
guns, and those are the guns that are making it onto the black 
market that are facing your law enforcement officers, DEA 
officers. When they go in for drug busts, these are the people 
that are using these straw purchases. And what I would like to 
know, as a DEA agent, you know, how passionate you are about 
making sure we get the guns that we can?
    Just as the chairman said about going to the FDA to get 
them to change the definition for OxyContin, I would like to 
see DEA, all law enforcement, which many law enforcement are 
doing, go to the government, go to ATF and go to others and 
say: ``Our law enforcement officers are getting killed in the 
line of duty because these guns are out there.'' And we know 
under the license of gun dealers that right now we have 3,625 
on-site inspections, it will take 20 years--28 years, nearly 30 
years to visit each licensee only once. So, you know, we are 
not doing what we need to do to oversee the compliance of the 
existing law.
    And I would like--obviously, the federally licensed gun 
dealers have had a few things that have been put in their way, 
by the NRA particularly, in respect to the fact that the 
federal government--ATF--can only inspect a federally licensed 
gun dealer only once in a 12-month period; meaning, even if 
they know a federally licensed gun dealer is trafficking in 
these guns, they cannot visit them more than once in a 12-month 
period; meaning, they cannot crack down on what we know to be 
some of the biggest problems.
    Another thing is is that we do not have much information. 
We have all kinds of safety standards, as you just heard, on 
OxyContin. Maybe it is not the kind of standards that we would 
like, but we have no standards when it comes to gun safety. 
None. We have more standards on toy firearms than we have on 
real firearms. And we are having kids get killed and maimed 
every day because there are no standards of safety on these 
guns.
    What I would like to know--I know DEA constantly faces 
this--is what BATF is doing on--ATF is doing on making sure 
that we track the model and caliber of these guns that are 
being sold, so we get a better handle on what guns are out 
there and we know what we are up against.
    And that fits with my last question, on the grandfathering 
of a lot of the guns that were banned in the federal 1994 ban; 
and, that is, what are we doing to keep track of these? And 
what is the agency doing to improve enforcement of the import 
ban on assault weapons?
    I know, Mr. Chairman, these are questions mostly directed 
to ATF, but I wanted to take my opportunity, because these are 
the areas that I am particularly interested in.
    And I know, as a drug enforcement officer, you see very 
well the problem that guns have. And I would like you to just 
comment on the threat that your agents face all the time when 
they are going in for these drug busts, because of a plethora 
of guns that are out there.
    Mr. Brown. Yes, sir. ATF agents and DEA special agents work 
in partnership and have for years. The guns and drug nexus has 
been prevalent for as long as I have been a police officer and 
a special agent.
    I am tired of calling my special agents in the hospital and 
our task force officers that work with us in the hospital after 
they have been shot. It is very difficult for me to call the 
family members and tell them someone has been shot or someone 
has been killed.
    Every single case that we work we assume--and unfortunately 
correctly so that every suspect is armed; and it happens all 
the time.
    I think now that the Bureau of Alcohol, Tobacco, Firearms 
and Explosives is a brother agency in the Department of Justice 
that will just enhance the working relationship that we have 
enjoyed for a number of years.
    Agent safety is my number one concern.
    Mr. Kennedy. Well, I look forward to working with you to 
enhance agent safety.
    Mr. Chairman, if we talk about stemming the flow of 
OxyContin out there because it is killing so many of our 
citizens, we ought to also talk about stemming the flow of 
these guns.
    And I am not talking about restricting illegal access, I am 
simply talking about these straw purchasers who are 
circumventing--two-thirds of the guns in my region of the 
country come from somewhere else in the country.
    Why? Because those states do not have the one-gun-a-month 
or standard protections limiting the access of these firearms, 
which means people are going to other states, they are filling 
their trunks up full of these guns, they are going to my city 
streets in New England and they are selling them out of the 
backs of the trunk of their car.
    And this is permissible because the Alcohol, Tobacco and 
Firearms has been hogtied in their ability to crack down on 
that 1 percent of federally licensed gun dealers, who we know 
are bad--bad apples.
    And why we do not have more federally licensed gun dealers 
come out and say, ``Listen, we are getting penalized 
because''--or actually no one is getting penalized. But why 
aren't we standing up against the people who are, you know, not 
up and up about this?
    And I look forward to working with both agencies in their 
cooperative efforts because that, to me, is a big, big deal.
    Mr. Brown. Thank you, sir.
    Mr. Kennedy. Thank you, Mr. Chairman.

                          RET AND MET PROGRAMS

    Mr. Wolf. Thank you, Mr. Kennedy.
    Mr. Brown, part of the Justice Department's strategy has 
been to refocus, as you mentioned earlier, the drug enforcement 
efforts at the priority drug trafficking organizations, which 
you just reflected in the request to eliminate the regional 
enforcement teams and the mobile enforcement teams.
    From your perspective as a drug agent who has been working 
these issues for almost 20 years, what are your thoughts on 
focusing efforts on these higher level command and control and 
what kind of impact--and this is, I guess, the real issue--will 
this focus, refocus, have on the state law enforcement efforts: 
sheriffs, state police? How do the sheriffs and the state 
police feel about this?
    Mr. Brown. I have been a federal narcotics agent for over 
31 years. The MET and RET programs are fairly new: 1995 and 
1999, respectively. The Drug Enforcement Administration and the 
Bureau of Narcotics and Dangerous Drugs always worked with our 
state and local counterparts. We have to. All of us do not have 
the resources that we need individually. We work together.
    With the reorganization and the redirection of those 
resources in the MET and RET program nothing is going to 
change. We will continue. We will sustain our efforts working 
with our state and local police on targets that are impacting 
the local area, the regional area, nationally and 
internationally.
    Mr. Wolf. Have the sheriffs spoken out on this, local law 
enforcement?
    Mr. Brown. The sheriffs' departments have not commented on 
the proposal to eliminate these programs. I believe that the 
National Sheriffs Association and the International Association 
of Chiefs of Police realize their partnership with DEA will not 
change one bit.

              COORDINATION AMONG LAW ENFORCEMENT AGENCIES

    Mr. Wolf. You mentioned terrorism, and only recently has 
the American public become aware of the link between drugs and 
terrorism. Are we exploiting the links between the intelligence 
DEA gathers and the intelligence gathered by the FBI or other 
law enforcement?
    And I understand that the FBI has pulled agents away from 
the SOD. I also think that Justice needs to have greater 
coordination. What are your thoughts about this?
    Mr. Brown. Coordination, communication and cooperation are 
the three cornerstones of law enforcement. The FBI has been a 
great partner of ours for years in the crime investigations and 
our joint drug investigations.
    Has the FBI redeployed resources from Special Operations 
Division? Yes, they have. Is it going to impact operations out 
there? I hope not.
    Mr. Wolf. Do you think that is a permanent withdrawal.
    Mr. Brown. I pray not. I pray not.
    We have established those links of communication. Every 
DEA-conducted drug investigation that has any nexus to any 
other criminal activity or terrorism, that information is 
immediately provided to the FBI. So that will not stop.
    Mr. Wolf. You are not part of the so-called TTIC Center, 
the Terrorist Threat Integration Center headed up by Mr. 
Brennan.
    Mr. Brown. We are not part of that formally, but we will 
supply anything that we have to support that.
    Mr. Wolf. So how will that be supplied? Will that be 
supplied to the FBI and they will pay? Because there will be 
Homeland Security people there, FBI, CIA, and I guess military, 
DOD, perhaps. How will any information that you gather get to 
TTIC?
    Mr. Brown. Our direct line of communication is through the 
law enforcement agency, which is the FBI. DEA and FBI are 
partners in these joint terrorism task forces in every 
jurisdiction.
    Mr. Wolf. So whatever you get, we will get up through the 
FBI and it is their responsibility.
    Mr. Brown. Yes, sir.

      DEA PRESENCE IN TRI-BORDER AREA: BRAZIL, ARGENTINA, PARAGUAY

    Mr. Wolf. Hezbollah and Hamas in the tri-border area, I 
read an article in Harpers or Atlantic, I forget which one it 
was, about the financing their activities through drug 
trafficking. Can you tell us about the area? Have you been down 
to the area?
    Mr. Brown. I have not.
    Mr. Wolf. Do we have DEA people down there?
    Mr. Brown. Yes, sir. Tri-border area, and talking about 
Brazil, Argentina, Paraguay.
    Mr. Wolf. Right.
    Mr. Brown. We have officers and special agents and analysts 
at all those locations.
    Mr. Wolf. Now, we saw an article--I saw in The Post the 
other day that Osama bin Laden had been there, down about 1995.
    Mr. Brown. I saw the same article, sir.
    Mr. Wolf. Yes. Was he involved in drugs?
    Mr. Brown. He is involved in all kinds of criminal 
activity, drugs being one of them. We have identified a number 
of organizations he is associated with that are involved in 
drug trafficking and provide funds for his other criminal 
activities, including the terrorist attacks.
    Mr. Wolf. There seems to be a pretty rough neighborhood 
down there.
    Mr. Brown. That is why I have not been there, sir.
    Mr. Wolf. How many DEA people do you have down there?
    Mr. Brown. We have probably five DEA personnel stationed in 
Paraguay. Argentina is a little larger complement: maybe six or 
seven. In Brazil, we have a large contingent in Lima, Brasilia.
    Mr. Wolf. But this town, there is a, sort of, a region in a 
town where, sort of, everyone gathers. We do not have a DEA 
agent there, do we?
    Mr. Brown. No, we work out of the embassy or consulate 
offices. So if there is no consulate there, we would not have a 
presence there.
    Mr. Wolf. And you would get cooperation from the countries 
in----
    Mr. Brown. Yes, sir, we do. Last week, sir, I had the 
pleasure of hosting a meeting with the Argentine drug czar. He 
was very, very full of praise for the efforts that we do 
cooperatively with the officers in his country.
    Mr. Wolf. Do you believe that that has been the basis of 
terrorists down there? There have been some names that I have 
seen who are involved also in Afghanistan. Are they only 
selling drugs, or do you think it is mainly a terrorist 
operation where drugs are financing it? What do you think about 
that region?
    Mr. Brown. Drugs and other criminal activities, gun 
running, other types of contraband, whatever they can do to 
generate resources to fund their operations. We always think of 
drugs being one of the types of currency that fund terrorist 
operations.

                         AFGHANISTAN INITIATIVE

    Mr. Wolf. Afghanistan: Would you provide the committee with 
an update on the Afghanistan initiative that we worked with DEA 
last year to establish?
    I led the first congressional delegation to Afghanistan 
with Congressman Tony Hall and Joe Pitts. And at that time--it 
was last January--we were told that nothing was being done. DEA 
just could not move around the country and said next year would 
be the major year.
    Now the committee did some things that helped out. But now 
I met with a fellow from AID the other day, and he said, ``The 
poppies are growing, they are blooming, and they are going to 
be harvested soon and it is very dangerous to be moving around 
the country.'' And it was his understanding the DEA agents were 
pretty much hunkered down in Kabul.
    How free are they to move--I mean, they are free if they 
want to, but how free do they feel in moving around the 
country? And what are your comments about the drug situation in 
Afghanistan?
    Mr. Brown. We have been very successful in opening an 
office in Kabul. Since 1980 we did not have a presence at all 
in-country, so it has taken some time to build infrastructure.
    We had two special agents there. Unfortunately one had to 
come back from Kabul this past January.
    Mr. Wolf. Why was that?
    Mr. Brown. Severe medical condition, sir.
    Mr. Wolf. All right.
    Mr. Brown. So we are right now trying to find the right 
person to send back, the issue being needing the selectee to go 
through any language training that is necessary.
    As far as them hunkering down, I assure you, sir, that they 
are out and about. But they do travel in armed caravans. They 
travel with the military protectors.
    Mr. Wolf. But what do they do? When we met with Chairman 
Karzai, he said this is one of his major issues. But he said, 
quite frankly, he did not have the capacity to control the 
countryside. If Karzai cannot control the countryside, one DEA 
agent driving around is not controlling the countryside.
    You have established an office, so I guess you think that 
is a beachhead. Maybe that is progress over 1981, but what is 
he or she doing now that she is--I mean, he is there?
    Mr. Brown. I am going to----
    Mr. Wolf. Have they actually stopped any drugs from coming 
out of the country?
    Mr. Brown. I think the intelligence that they have 
generated by developing their cooperating sources and their 
informants have been very instrumental in getting shipments of 
chemicals that go into manufacture to convert opium into 
morphine.
    Mr. Wolf. You have actually stopped something from going 
in?
    Mr. Brown. We intercept a number of shipments going in. 
Operation Containment, which involves the area around 
Afghanistan, those countries, has been very instrumental 
working with our counterparts in that area. Now, we have 
established a number of these sensitive investigative units, 
actually selecting and vetting and training our host country 
counterparts to be narcotics investigators.
    Mr. Wolf. How much does Karzai have there?
    Mr. Brown. He does not have it yet, sir.
    It has been a challenge in Afghanistan, major challenge.
    Mr. Wolf. Well, I think you ought to--easy for me to say, 
but I think you ought to have somebody else over there and 
maybe help working--maybe your office, knowing the limitations 
of law enforcement, Kandahar, maybe that would be better 
training the Karzai government's people to deal with the issue, 
knowing you start small, your people are not out there 
arresting people and making drug busts. But maybe there should 
be a program whereby with the Karzai administration helping to 
help them.
    Has there been an effort to encourage him to put together--
because he raised this issue. He said, ``This is one of my most 
important issues, I want to deal with this drug issue.'' He 
raised it without us asking him.
    Mr. Brown. He has a major challenge there. As I say, we 
have not been present in Kabul or in Afghanistan at all for 23 
years. So for us to develop the infrastructure at the same time 
the Afghani government is trying to structure a law enforcement 
program, we will have to work on it together.
    Mr. Wolf. But is there one that they are working on?
    Mr. Brown. Yes, sir.
    Mr. Wolf. Who is the drug czar for Afghanistan?
    Mr. Brown. I met with the minister of the interior and I do 
not recall his name, sir. And we talked about these very 
issues, about how we can provide some assistance to him as he 
formulates a law enforcement body.

                      AGENTS IN EUROPE AND RUSSIA

    Mr. Wolf. Most of the heroin is going to Europe and Russia. 
Are they helping? Does Europe have DEA agents?
    Mr. Brown. Yes.
    Mr. Wolf. Do you have a DEA wing, does Europe have agents 
there, and does Russia have agents there? Or are we alone?
    Mr. Brown. No, we are not alone. We work very cooperatively 
with the British government officials who are in-country. 
German officials are there also participating with us in 
developing some training programs for the law enforcement 
officers.
    Mr. Wolf. And Russia?
    Mr. Brown. I am not sure about Russia, sir.

                            DEMAND REDUCTION

    Mr. Wolf. Demand reduction. Your budget seeks to reduce the 
IDEA, or Integrated Drug Enforcement Assistance Program by $5 
million, leaving a $3.4 million program.
    The program helps state and localities develop demand 
reduction strategies. Right now, 55 percent of the prisoners in 
the Federal Bureau of Prisons are there because of drug 
convictions.
    Can you explain why the administration chose to reduce this 
effort so dramatically?
    Mr. Brown. No.

             INTEGRATED DRUG ENFORCEMENT ASSISTANCE PROGRAM

    Mr. Wolf. I mean, wouldn't this be one that you would want 
to increase demand reduction?
    Mr. Brown. The President's budget does curtail $5 million 
and a number of positions out of the IDEA Program, the 
Integrated Drug Enforcement Assistance Program.
    It was really developed as a pilot project for us to go in 
after an enforcement operation and provide community support in 
drug prevention and help the treatment and recovery folks get a 
program that will be recognized in the community.
    Mr. Wolf. And has it been a failure?
    Mr. Brown. No, it has not been a failure.
    Mr. Wolf. Well, but why would you cut the money, then?
    Mr. Brown. We are redeploying those resources, again, 
against our priority target organizations. We do have demand 
reduction coordinators in every one of our field divisions.
    Actually, every one of us is a demand reduction 
coordinator. All of us are moms or dads or aunts or uncles and 
we talk to people in the community, including our own kids.
    So that effort will not stop.
    Mr. Wolf. But this was a specified program.
    Mr. Brown. Yes, it was.
    Mr. Wolf. It would seem to me that a demand reduction 
program, you cannot lock up everybody. When we visit federal 
prisons----
    Mr. Brown. That is right.
    Mr. Wolf [continuing]. The number of young kids that were 
in there because of this. Now, obviously, they are a third 
time, but demand reduction, I think, is very, very important. 
You just cannot arrest everybody----
    Mr. Brown. So do we.
    Mr. Wolf [continuing]. 55 percent----
    Mr. Brown. We believe the same as you, sir.
    Mr. Wolf. But the program was cut.
    Mr. Brown. Yes, sir, it was.
    Mr. Wolf. Well, that is not a very compassionate 
conservative thing to do. I think the compassionate 
conservative thing to do would be to keep it at that level or 
to increase it.
    But if you are a mom or dad and you have a young person 
involved with drugs, those type of programs are very important. 
I think to reduce that is really not--this would help 
localities to develop demand reduction strategies.
    I think, I would hope the committee would not support that. 
Do you have any record of all, and if you could just tell us 
your own personal thing, then I will ask one other question of 
record. Mr. Serrano, do you have any record back--this is the 
kind OxyContin question--but do you have any record of any--
many people who have been addicted to OxyContin going through 
drug rehab programs being successful?
    Mr. Brown. I would not have that number, sir. Maybe HHS 
would. I am sure we would have something like that as a 
statistic, someone who has actually recovered from OxyContin 
addiction.
    Mr. Wolf. Yes. Well, but could you check for us?
    Mr. Brown. Yes, sir, I certainly will. If we can find that, 
sure.
    [The information follows:]

             OxyContin<SUP>'</SUP> Rehabilitation Programs

    There is no data system to track admissions to drug 
rehabilitation and recovery programs, regardless of whether 
they provide drug (maintenance or detoxification) or drug free 
treatment. The American Association for the Treatment of Opioid 
Dependence (AATOD) has been offered a grant from Purdue Pharma 
to conduct a sample of 100 programs to establish some baseline 
data. As of May 31, 2003, the AATOD had not agreed to undertake 
this project under Purdue Pharma's auspices. No government 
entity (e.g., the Department of Health and Human Services' 
(HHS) Substance Abuse and Mental Health Services Administration 
(SAMSHA), the Center for Substance Abuse Treatment (CSAT), and 
state authorities) requires programs to compile or provide such 
data.

    Mr. Wolf. And what drug treatment programs maybe we would 
even invite them to come in as witnesses?
    Mr. Brown. That would be great.

                     DIVERSION CONTROL FEE ACCOUNT

    Mr. Wolf. Because I do not know of anyone who is actually--
which leads me to believe maybe the model has not been 
developed, that we could help with regard to the model.

                             DIVERSION FEE

    The 2004 budget continues efforts to increase the fees in a 
diversion control fee account.
    We understand that the increase in fees will enable DEA to 
hire more investigators to address the diversion of illegal 
drugs, such as OxyContin. Can you give us an update on how DEA 
is progressing, getting the new fee structure approved, and 
tell us where any new investigators supported by the fee will 
be located?
    Mr. Brown. It was published in the Federal Register on the 
18th of February of this year. Now, we have it out for comment, 
I think, comments are due back on the 21st of April.
    Mr. Wolf. And when do you think it will be approved?
    Mr. Brown. I hope it is approved shortly thereafter.
    Mr. Wolf. And how long would have that whole process taken?
    Mr. Brown. A number of years to get the new rule in place.
    Mr. Wolf. Mr. Serrano.

                             DRUG SEIZURES

    Mr. Serrano. Thank you, Mr. Chairman.
    I guess the bad news is--as we said before, Mr. Cramer was 
shocked, as I was that you lost so many FBI agents that were 
supporting you.
    On the other hand, we have increased our border patrols and 
protection to the point where I understand, for instance, that 
one October drug seizures increased by 29 percent over the 
previous month.
    Has this pattern continued, and is this the silver lining 
in a situation that otherwise could make us nervous about 
border behavior?
    Mr. Brown. I would imagine that increased seizures along 
the border, especially by the Border Patrol, would be 
significant if those were actually seizures that would help us 
with our investigations.
    Just interdicting piles of drugs without any other 
information or intelligence, especially about the organizations 
that are providing it, is problematic for us.
    Our offices all along the Southwest border respond to those 
kinds of seizures, and if there is no intelligence to be 
gained, no furtherance of an investigation, we have lost a 
number of our investigators away from doing investigations just 
merely to process evidence.
    So if there are increased seizures it may be indicative of 
increased success in turning the drug smugglers back or 
increased captures along the highway or at border patrol 
checkpoints.
    But if we do not get intelligence out of that, the piles of 
drugs are relatively meaningless.
    Mr. Kennedy. Mr. Serrano, could I interject?
    What percentage of drugs do you think you apprehend that 
are coming into this country? Ten percent? Twenty?
    Mr. Brown. I would not want to hazard a guess on a specific 
number, as an English major, not a math major.
    What is critical to know is the actual production figures. 
How much cocaine comes out of a hectare of coca and how much 
heroin is produced from fields of opium poppies. And once we 
have solid figures on that, we can take a look at the figures 
of seizures being made in other parts of the world. The United 
States is a great consumer nation, but so are other parts of 
the world, to make a determination of what we are seizing if we 
know what universe of drugs there are to be seized.

                              DARE PROGRAM

    Mr. Kennedy. Can you answer whether you think the DARE 
program is effective? We constantly hear from GAO that it 
really does not make a difference in terms of demand reduction 
because it actually gets kids thinking about taking the drugs 
when they do these big seminars. I mean, I hear from my DARE 
officers and they tell me it works, and I hear from GAO and 
others and they tell me it does not. Would you hazard--you must 
have the information as to whether that--I know that might be a 
politically charged question, but maybe--
    Mr. Brown. I will answer that very directly. Anything that 
we can do to reduce the use of drugs by our young people is 
significantly important. In my family I have an 11-year-old 
nephew, who the DARE program actually made him come out of 
something that was very dangerous for him. We could not control 
this young boy. So the DARE program in that instance, where it 
personally affected me, was a resounding success. You multiply 
that young boy by the thousands of other kids that are exposed 
to this real positive message, it works.
    Mr. Kennedy. That is good to hear. And thank you for your 
testimony. It makes a big difference to us when we start making 
these decisions.
    Mr. Brown. Thank you.

              DEA'S IMPACT ON DRUG TRAFFICKING IN COLOMBIA

    Mr. Serrano. Mr. Brown--he was borrowing my time. You know 
how the Kennedys are. [Laughter.]
    They are my heroes.
    Mr. Brown, very briefly, if you were to follow my public 
pronouncements over 29 years in public office, if there is a 
contradiction in how I behave, it is that I want certain rules 
to be followed in international affairs and at home, and yet 
when it comes to getting drug dealers, I kind of perhaps at 
times would look the other way if you slap them in the mouth a 
couple of times for me.
    But I question our policy on the issue of Colombia, where I 
have claimed that this country is making a terrible mistake 
getting involved in what is, I believe, a civil war. I have 
referred to it on this committee as a possible Spanish-speaking 
Vietnam for us, because it has been going on for 40 years.
    Now, we used to call these folks narco-traffickers, and we 
switched to calling them narco-terrorists. I claim that we have 
called them narco-terrorists because some folks want an excuse 
to get involved militarily and terrorists are easier to beat up 
on, and for good reason, then narco-traffickers.
    Are we, by calling them narco-terrorists and involving our 
army there, really going to have an impact on the war on drugs 
and the influx of drugs coming into this country, or are we 
just going to get ourselves involved in a civil war?
    Because, if I may take you back a moment in history, the 
FARC--which has no respect from anyone who believes in leftist 
causes, and the paramilitaries also have no respect from 
anybody who believes in conservative causes--the FARC starts 
out 40 years ago as a legitimate group concerned about the 
misery in Colombia and the lack of government effort to do 
anything about social justice and poverty and so on. And 
somewhere along the way it becomes what it is today, because 
that became a business for everybody in Colombia.
    So by getting involved militarily and calling the narco-
traffickers narco-terrorists, do we really have an impact on 
the drug trade? Or do we do something else?
    In other words--you do not have to comment on whether we 
get involved politically into a mess, that is my comment--but 
do we have an impact on drugs?
    Because we now have, what is it, 400 advisers? We have 
already had kidnappings. We have lost Americans. And I am old 
enough to remember when we had 400 advisers in Vietnam. And 
that was all we were going to have, 400 advisers in Vietnam. 
And then you know what happened after that.
    Mr. Brown. That was quite a question, sir. We are a drug 
law enforcement agency, and our role is to go after drug 
traffickers. We identify members of organizations, or not 
necessarily members of any organization, who are trafficking in 
controlled substances. We conduct investigations, hopefully, 
that will lead to successful prosecution. The political aspects 
of that we will leave to someone else to sort out.
    Mr. Serrano. Does your information also bring up the fact, 
or is it a fact, that both the left and the right in Colombia, 
both sides benefit from the drug trade?
    Mr. Brown. Sometimes it is hard to choose sides, to see who 
is on which side today and who is on which side tomorrow. I 
think those who are involved in the drug trade in any way are 
benefiting from that. It is a very lucrative business as a 
criminal activity.
    Mr. Serrano. But my question was, to your knowledge, is the 
drug trade in Colombia not a business only for the FARC? My 
understanding is that it is also a business for the right-wing 
paramilitaries. And that, throughout history, it might have 
been also a business for the government. Not this government, 
but whatever government was in place. At different times in 
that 40-year struggle, drugs have played a role for either side 
of the equation.
    Mr. Brown. They have been involved in historic features 
there, exactly, yes, sir.

                MEXICAN GOVERNMENT AND THE WAR ON DRUGS

    Mr. Serrano. One last question, Mr. Chairman.
    Notwithstanding this latest period, when Mexican President 
Fox may not be Washington's favorite ally, how have President 
Fox and Mexico's government in general been behaving on the 
issue of the war on drugs?
    Because we know that lately he has been making--their 
government has made some serious arrests. Are you satisfied--
again, I do not want you to be a secretary of state--but are 
you happy with what has happened?
    Mr. Brown. Let me give you this perspective, sir, and I 
will comment on your question.
    I served in Mexico for nearly five years, just about 20 
years ago. And the environment there for a law enforcement 
office from the United States was very difficult. We lost one 
of my very good friends, one of our special agents there, and 
it was a difficult time for DEA and it was a difficult time for 
law enforcement, difficult time for our relations with Mexico.
    In the past several years, since the Fox Administration has 
taken over, we have seen some unprecedented changes. Just this 
past two-and-a-half-year period, the Fox Administration has 
taken some real headlong steps into eradicating corruption. So 
much so that now DEA and our counterparts in Mexico are working 
side-by-side.
    Two weeks ago, we had the first, of what we hope will be 
many, bilateral DEA senior managers meeting with our 
counterparts in Mexico City to talk about information-sharing 
initiatives. They would never do that before, working 
cooperatively. We are considering opening up a few more offices 
along the Mexico side of the United States-Mexico border to 
make us even more effective in working side-by-side with our 
colleagues there.
    So has it changed? It has changed dramatically.
    Mr. Serrano. Well, I am glad to hear that, and I hope it 
continues.
    Mr. Chairman, I suspect that we will not go for another 
round because we have another panel. So I will submit the rest 
of my questions for the record.
    And I want to thank you, sir. And for my part, if we seem 
rough on you at times, it is because you and your agency hold 
in your hands the answer to many of the problems that plague 
America. As I told you before, if you remove drugs by 50 
percent from the South Bronx, you probably remove crime by 80 
percent. And you know that to be a fact.
    Mr. Brown. Yes, sir, I do.
    Mr. Serrano. Thank you.
    Mr. Brown. Thank you, sir.

                            Closing Remarks

    Mr. Wolf. Thank you, Mr. Serrano.
    Mr. Brown, we thank you for your testimony.
    How many DEA agents have died since the establishment of 
DEA?
    Mr. Brown. Since the establishment of DEA, probably 20. I 
do not know the exact number, sir, but it is way too many.
    Mr. Wolf. Well, I agree. And I remember the death of the 
agent in Mexico who was tortured. So I want to, you know, let 
you know that I appreciate the good work that you have done and 
your people have done. And I would not want you to go away 
thinking that we are not appreciative. And I know many of you 
people have made tremendous sacrifices. So I want the record to 
show that I do appreciate that, and I appreciate your service 
as a career person.
    I think the frustration that came about--I mean, obviously, 
there is someone in this audience that is working for Purdue 
Pharma. I mean, they were taking notes and everything that goes 
on in this hearing will go back to Purdue Pharma. There is 
nobody taking notes for the poor people of Appalachia. There is 
nobody taking notes for that pastor whose son is gone. You are 
a father, you have children.
    And so, we look for you to be the advocate for the people 
who have no advocate. We will try to be an advocate for them to 
the best of our ability. But you also ought to be an advocate. 
And sometimes, particularly with 31 years in, you must be very 
close to retiring. Whatever the case may be, I would urge you 
to be bold and be willing to, so that when--not yet, and 
perhaps it would be great if they appointed you to be the head 
of DEA. You may be a lot better than who they are talking about 
appointing.
    But be bold, particularly since you have dedicated your 
life to this. And 10 or 20 years from now when you are sitting 
on your rocking chair thinking about what you did, if there is 
something that you could have done that you did not do, you 
will not feel disappointed--so I urge you to be bold.
    And this committee, or certainly I, will support you and do 
everything we possibly can. Because every time you are making 
an arrest, you may very well keep somebody from dying or that 
pastor's son or somebody else or people from my congressional 
district where it is beginning to spread.
    And if Leslie will set up the appointment for us to meet 
with the head of the Food and Drug Administration.
    Mr. Brown. Sure.
    Mr. Wolf. And then, Mr. Rogers will go over with us. And we 
will go over so you can tell them what precisely you want them 
to do. And at least you will know that you have done your job. 
And now we will see if the Food and Drug Administration and 
Secretary Thompson are prepared to do their jobs.
    So with that, I, again, thank you and please take my thanks 
of the committee back to the men and women who serve in the 
DEA.
    And with that, the hearing is adjourned.
    Mr. Brown. Mr. Chairman, thank you very much.

      Opening Remarks on Alcohol, Tobacco, Firearms and Explosives

    Mr. Wolf. Good afternoon. We want to welcome, proudly, the 
director of Bureau of Alcohol, Tobacco, Firearm and Explosives. 
We look forward to hearing your testimony on a fiscal year 2004 
budget request. With the passage of the Homeland Security Act 
of 2002, the regulatory and revenue collection functions of ATF 
relating to alcohol, tobacco were realigned to the new bureau 
into the Department of Treasury--from Treasury to the law 
enforcement function, now into the Department of Justice.
    In addition, ATF has the responsibility for regulating 
intrastate commerce of explosives and explosive training and 
research, a function not currently performed by the government.
    Although a transfer such as this can be a difficult 
experience for the 4,600 ATF employees, it does make sense to 
harness the investigative experiences of Federal law 
enforcement agencies, such as the FBI, DEA, U.S. Marshals 
Service and now ATF under one department. ATF's expertise in 
the enforcement of Federal laws within alcohol, tobacco and 
firearms and arson will certainly strengthen, hopefully, the 
government's ability to investigate criminal activity.
    So we welcome you here, and with that, I will recognize Mr. 
Serrano, and you can present your testimony. Either submit it 
for the record, abbreviate it whatever way you see fit.
    Mr. Serrano. Thank you, Mr. Chairman. As I have said at 
other hearings, my main concern is that, as we focus our 
attention on the war on terrorism, we must not in any way, 
shape, or form be diverted from the fact that we have other 
agencies that perform great service to this country. And so 
rest assured that I will join the Chairman to make sure that 
you get the needed resources to do your work. But at the same 
time, I am very much interested in finding out from you today 
just how this new approach in this country to everything else 
that we have to do to protect the homeland affects you, and 
what role, if different, do you and your agency now have to 
play.
    So I welcome you, and I am looking forward to your 
testimony.
                                          Thursday, March 20, 2003.

          BUREAU OF ALCOHOL, TOBACCO, FIREARMS AND EXPLOSIVES

                                WITNESS

BRADLEY A. BUCKLES, ACTING DIRECTOR, ATF

                  Opening Statement of Bradley Buckles

    Mr. Buckles. Thank you, Mr. Chairman, Mr. Serrano, and 
other distinguished members of the committee. I am pleased to 
be here this afternoon, representing the outstanding men and 
women of the Bureau of Alcohol, Tobacco, Firearms and 
Explosives (ATF). And thank you for this opportunity to testify 
in support of our fiscal year 2004 budget request. I know that 
our time is limited today, so, Mr. Chairman, I will accept your 
invitation to provide an abbreviated summary of my testimony, 
and I have submitted a detailed statement for the record.
    This is our first time before the Committee, and as you 
observe, Mr. Chairman, we have a lot of ATF people with us here 
today. Part of the reason that I wanted to do that was so that 
our ATF executives could have an opportunity to get a feel for 
how this Committee operates and gain a feel for the oversight 
that we are going to be getting in the coming years. At the 
outset, I would like to say that we look forward to working 
with both the members and their staff.
    As you learn about the mission and employees of ATF, I am 
confident that you will find that ATF provides great value to 
the American public and, that we are responsive, thoughtful and 
effective in the way in which we approach our business. I am 
equally confident that as you get to know ATF, you will come to 
share my pride in the people and their accomplishments.

                         ATF TRANSITION TO DOJ

    The Homeland Security Act transferred the public safety 
functions of ATF, both law enforcement and regulatory, to the 
Department of Justice on January 24th of this year. As you 
observe, the revenue collection and consumer protection 
functions previously performed by ATF remained in the 
Department of Treasury. We devoted a great deal of time, effort 
and resources in ensuring a seamless transition, and I believe 
that those efforts have been successful.
    The Department of Justice, in our view, is the right place 
for the newly configured ATF. We share a common cause in law 
enforcement. We share a common mission in protecting the 
public, and we share a deep commitment in ensuring a safer 
America. We also believe that ATF's mission and expertise will 
complement other Justice Department assets and agencies, as we 
work together to defeat the nation's number one threat, 
terrorism.

                  AMENDMENT OF FEDERAL EXPLOSIVES LAW

    While the transition has been smooth, ATF nonetheless faces 
significant challenges in 2003 and 2004 as a result of a 
significant increase in responsibilities found in new 
explosives control legislation. The Safe Explosives Act, which 
like our transfer to Justice was included in the larger 
Homeland Security Act, extended and amended the federal 
explosives laws that ATF has been enforcing since 1970. The new 
law expands the categories of persons prohibited from 
possessing and purchasing explosives, requires a federal permit 
for the retail purchase of explosives and mandates additional 
ATF inspection activities.
    The Safe Explosives Act also requires that ATF perform 
background checks on purchasers of explosives and, in some 
cases, even employees of companies who purchase explosives. 
Today, a purchaser merely self-certifies on a form that he is 
not a prohibited person in order to purchase explosives.
    Beginning May 24th of this year, no one will be able to 
lawfully purchase explosives without a license or permit issued 
by ATF. The new law also demands that ATF conduct on-site 
inspections to ensure that licensees and permittees comply with 
rules relating to the safe and secure storage of explosives. 
Although the timing and frequency of these inspections vary 
with the permit, the law still mandates more inspection work 
for ATF than we have performed in the past.
    ATF currently has less than 500 inspectors to police over 
100,000 Federal firearms licensees and nearly 9,000 Federal 
explosives licensees and permittees. With the new permit 
requirements of the Safe Explosives Act, the number of 
explosive permittees is expected to increase at a minimum to 
more than 10,000 additional permittees. Our current Fiscal Year 
2003 budget contains minimal new resources to carry out this 
law, and our request for fiscal year 2004 seeks an additional 
$10 million for this program. These funds that we are 
requesting are essential in order for ATF to keep explosives 
out of the hands of those who would use them against us, while 
facilitating the useful and legitimate acquisition of 
explosives for use in industry and agriculture.
    Despite these challenges, the men and women of ATF continue 
to perform as dedicated professionals and reliable partners as 
we enforce the nation's firearms, explosives, arson and alcohol 
and tobacco diversion laws. Perhaps the most effective way to 
provide you clear picture of ATF's activities is to give you a 
few examples and highlights of some significant cases we have 
been involved with over the last few months.

                             ATF ACTIVITIES

    The first example I will give was from last fall, where 
nearly 650 ATF special agents, forensic lab personnel, firearms 
examiners and support staff worked with other law enforcement 
agencies here in the Washington area in the District of 
Columbia sniper case. This ongoing investigation crossed State 
and international borders, and is one of the very best examples 
of the strong law enforcement partnerships that ATF has built 
over the years.
    Last month, ATF agents in Rhode Island responded to one of 
the worst nightclub fires in our nation's history that resulted 
in 99 deaths. ATF special agents and our national response team 
responded immediately, and evidence gathered at the fire scene 
is currently being examined and analyzed at the ATF National 
Laboratory Center in Ammendale, Maryland.
    During 2002, ATF conducted an investigation in North 
Carolina that resulted in a conviction for contraband cigarette 
trafficking, money laundering and providing material support to 
a terrorist organization. This case, which we investigated 
along with the FBI, revealed a conspiracy wherein defendants 
were illegally trafficking cigarettes between North Carolina 
and Michigan, and funneling the profits, through various 
methods, back to the Hezbollah in the Middle East.

                       PROJECT SAFE NEIGHBORHOODS

    In addition to these and many other important criminal 
investigations, ATF is a proud participant in the President's 
Project Safe Neighborhoods (PSN). While the threat of terrorism 
from outside the United States is real, the criminal misuse of 
firearms and the resulting loss of life is unfortunately a 
daily event in the United States. Recent statistics show that 
more than 10,000 lives have been lost annually to criminals 
with guns. And for every fatal shootings, there are three non-
fatal shootings. In addition, untold numbers of people are 
threatened each day by the threatened use of a gun in crime.
    While we are ever alert to possible terrorist angles to 
everything we do, the overwhelming majority of ATF's work is 
directed at reducing gun violence in the streets and in the 
neighborhoods of this great nation. The President's Project 
Safe Neighborhood provides for the effective use of Federal 
resources through a series of locally designed and driven anti-
crime efforts. ATF anchors the Federal enforcement efforts in 
these projects around the country. United States attorneys lead 
the PSN initiatives by bringing state and local police and 
prosecutors together with ATF and other Federal resources to 
develop unified strategies tailored to the problems of 
particular communities.
    One component of Project Safe Neighborhoods that is 
specifically designed to protect youth is the Youth Crime Gun 
Interdiction Initiative. This initiative seeks to reduce 
firearms-related violence among our nation's youth by 
identifying and interrupting the sources of illegal firearms. 
This program is due to be expanded in fiscal year 2004, and $13 
million is being requested for that purpose.
    On one last note, since this committee also has 
jurisdiction over the National Center for Missing and Exploited 
Children, I wanted to let you know that ATF is also playing a 
role in the vital mission of that organization. We placed an 
agent on detail to the center and hope to make that detail 
permanent in the near future.
    In the post-9/11 world, ATF does not anticipate a decrease 
in its workload anytime soon. And we hope this Committee can 
support our budget request of $852 million for fiscal year 
2004, to ensure we will have the necessary resources to meet 
our anticipated demands.
    I thank you again for permitting me to testify here today, 
and I look forward to answering any questions that you may 
have.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
        
                     IMPACT OF VIOLENT VIDEO GAMES

    Mr. Wolf. I thank you, Mr. Director.
    I wonder if you have any information on this subject. This 
was brought to my attention. There is a video game called 
``Grand Theft Auto 2, or Grand Theft Auto.'' And in it there is 
a tremendous amount of violence. And I was told--and if you 
shoot and you develop eye-hand coordination, you get points for 
shooting the people. I was told there was a case down in 
Kentucky where that one case, where the young student I think 
killed eight people--how many? Does anyone know how many 
people?
    Mr. Buckles. I vaguely remember that incident with the 
school shooting in Kentucky.
    Mr. Wolf. Paducah, right. That that young boy had trained--
that he had never actually fired a weapon before, I was told. 
And now I am going to ask you if this is true. I was told that 
he had played video games whereby he had developed eye-hand 
coordination. I also saw a report in the paper, and you raised 
this issue with your testimony on the sniper. The sniper 
terrorized my area, my congressional district. One of the 
killings took place in my congressional district, 234 and Route 
66. Do you have any records of the impact of video games and 
eye-hand coordination with regard to young people and some of 
the arrests that have been made that they have been heavily 
involved in video games. I am not talking about Veggie Tales 
and video games like that. But violent games whereby there is 
an incentive in the game to shoot, kill people.
    Mr. Buckles. We do not have any statistics on that that I 
am aware of. I know there have been many writings on that 
subject by people outside the government in terms of what that 
does, and I would observe that the idea of using computer 
simulation to train with firearms is something that is used by 
police departments and probably the military and others. So the 
same technology that we employ quite often in training police 
officers around the country is not that dissimilar to the 
technology that basically is available through video games and 
computer games.
    Mr. Wolf. Can you check your records to see if there are 
any cases that ATF was involved in whereby in the testimony, in 
the trial, or whatever the case may be, that the individual 
said that they had trained, or that video games--again, I want 
to separate out, there are good video games.
    Mr. Buckles. Right.
    Mr. Wolf. And we are only talking about the ones that are 
dealing with violence, that they had spent a lot of time--now, 
if my memory serves me, did not the Columbine shooting, were 
they not involved in video games?
    Mr. Buckles. I am not sure, Mr. Chairman.
    Mr. Wolf. Anybody with ATF know about that?
    Mr. Buckles. We will certainly do an examination of our 
records, to see if we can find evidence of that.
    Mr. Wolf. The Columbine, the Paducah case, the Malvo case, 
and any other cases that you may have, to see--right now I am 
operating on someone just said, and this person says this and I 
read an article. But I wanted to know if you actually had cases 
whereby the individual who was convicted said yes, they had 
been involved in these violent video games.
    Mr. Buckles. We will do some research in that area and get 
back to you.
    [The information follows:]

                     Impact of Violent Video Games

    Numerous queries were conducted within ATF's automated case 
management database to identify investigations or cases where 
violent video games were cited or indicated in investigative 
reports. The results of these numerous queries were negative.
    Since the ``Sniper'' case is still being prosecuted, ATF 
cannot comment on items contained within its investigative 
reports. With respect to the Columbine High School shootings, 
case agents who are familiar with the interviews of members of 
the Trenchcoat Mafia did not glean any relevant leads 
indicating a nexus with violent video games and the group's 
activities. Further, interviews with over 500 people at the 
High School, not connected with the Trenchcoat Mafia, did not 
produce any pertinent information related to these violent 
video games. In the Paducah, KY case, the investigation 
conducted by the McCracken County Sheriff's Office indicated 
that the shooter admitted to the frequent use of violent video 
games. It is our understanding that there were subsequent 
lawsuits by the victims' families seeking damages from the 
makers of those violent video games that were viewed by the 
shooter in this case.

                       YOUTH CRIME GUN INITIATIVE

    Mr. Wolf. Particularly in regard to the eye-hand 
coordination.
    The most recent FBI crime index data we have shows a slight 
decrease in the violent crimes for the first half of 2002. But 
the incidents of gun violence and gang activity remains at an 
unacceptable level. We have been told that all of the homicides 
in 2001, firearms were involved in 63.4 percent of the 
homicides. Of the 1,140 juveniles murdered in 2001, 44 percent 
were killed with a firearm. Nearly 2,800 students were expelled 
for bringing guns to school.
    Your budget request expands the President's Project Safe 
Neighborhood Initiative. They help address the problems of gun 
violence, including juvenile gun violence. You requested an 
additional 59 full-time equivalents, and $13 million to expand 
the Youth Crime Gun Interdiction Initiative for a total of 70.
    Can you tell the Committee what real effect you anticipate 
to have in reducing gun violence in these cities, and any 
connection as to the program demonstrating that the program has 
come into a particular city, and therefore we see there is a 
drop.
    Mr. Buckles. Yes, Mr. Chairman, a number of things. We have 
done specific studies on the effectiveness and the results from 
the Youth Crime Gun initiative that we can make available to 
this committee. In addition, one of the approaches that we are 
taking in Project Safe Neighborhoods is to develop an actual 
measurement scheme so that we can look at the effectiveness of 
each one of these programs in each city and make adjustments 
where necessary. If there are ways that we can improve the 
performance of the gun violence initiatives in those cities, we 
try to do that. We have annual conferences where we try to 
learn from each other what is working in some communities. We 
are doing this on a localized basis with each project to try to 
measure the impact of how our efforts in that city are being 
brought together to reduce gun violence.
    We have reports from some of the cities that started off 
early in Project Safe Neighborhoods. Some of them got started 
more quickly than others. In Kansas City, for example, we have 
seen a dramatic drop in the murder rate and gun violence rate. 
But we can supply those data to you on an individual city 
basis, plus, we have done larger studies of these kinds.
    Mr. Wolf. What are some of the closest cities to 
Washington, D.C.?
    Mr. Buckles. Well, virtually every city here now would have 
a Project Safe Neighborhoods.
    Mr. Wolf. But of the 60 that you have and you added 10, 
what major city is in this region?
    Mr. Buckles. Oh, in this region, we would have Baltimore 
and Washington as both Youth Crime Gun cities, probably 
Richmond, as well. I do not have that list right in front of 
me, but we would have a presence with the existing 60 cities, 
virtually every major city in the United States.
    Mr. Wolf. And has it been a success in the District of 
Columbia?
    Mr. Buckles. Well, I can provide you with the results of 
our studies.
    Mr. Wolf. In my sense, watching the local news, I do not 
get that sense.
    Mr. Buckles. Well, we have to look at the overall anti-
violence program. The Youth Crime Gun Initiative is just one 
where we are attempting to interdict the firearms coming into 
the city. We also have active gang programs and programs to 
prosecute violent offenders. Obviously, in some cities, the 
problems that we are up against are more daunting than others. 
But we can give you the statistics on what the crime levels 
were before our presence what the crime statistics are after.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]

         Youth Crime Gun Interdiction Initiative--Crime Levels

    The Youth Crime Gun Interdiction Initiative was instituted 
in the District of Columbia in 1996, complementing several 
other initiatives already in place, such as a firearms task 
force with the Metropolitan Police Department, use of the 
National Integrated Ballistic Information Network, and outreach 
efforts through the GREAT Program.
    Although we do not currently have data on firearms crime in 
Washington, DC, the numbers of violent crimes in the District 
(i.e., murders, robberies, and assaults) decreased 26 percent 
between 1996 and 2001, from 13,151 crimes to 9,740.
    Additionally, between 2001 and 2002, ATF nearly doubled the 
numbers of firearms defendants recommended for prosecution, 
from 86 to 155.

    Mr. Wolf. My sense is it has not been a success here in the 
district.
    Mr. Kennedy. Mr. Chairman?
    Mr. Wolf. Yes.

                            STRAW PURCHASERS

    Mr. Kennedy. In that regard, would you speak about the 
influx of guns through straw purchasers and what you are doing 
for that to stop the straw purchasers? One of the reasons why 
we have so many gun-related crimes is not because of the law, 
but the fact people drive in with trunks full of guns that they 
purchase through federally licensed gun dealers, I might add, 
in other states. They come here and they sell them by the truck 
load down in downtown Washington.
    Mr. Buckles. Well, this is one of the different components 
of our gun enforcement strategy. The Youth Crime Gun Initiative 
is one that focuses on the sources of the firearms that are 
being used in crime, particularly those being used by youth.
    Mr. Kennedy. What number of those, percentage, are legal? 
Guns that are purchased legally?
    Mr. Buckles. Well, straw purchasers is a major component of 
what we have seen on major trafficking coming into Washington, 
D.C., but also going into other metropolitan areas on the East 
Coast. Now, in a sense, many of the straw purchases are in one 
sense a legal purchase, because the whole idea of the straw 
purchase is to have someone purchase a firearm who is nominally 
qualified to purchase a firearm, can identify themselves, and 
can pass a background test. That person then brings it back 
into another city and resells it, or they are purchasing it on 
behalf of someone else, who they turn the firearm over to.
    This is the most common problem we have in the way firearms 
are trafficked.
    Mr. Kennedy. You trace those dealers that you know are 
selling to those straw purchasers?
    Mr. Buckles. Under the Youth Crime Gun Initiative, we trace 
all firearms that are used in a crime so that we can identify 
what those sources are to determine whether or not there are 
dealers involved. Quite often we find that the dealers 
themselves may not be involved, but through the tracing we have 
been able to identify who has been involved in the trafficking 
of those firearms.
    Mr. Kennedy. I am interested in the dealers that you have 
oversight over. What percentage of the dealers are trafficking 
the majority of the guns that you are seeing?
    Mr. Buckles. Well, if you are talking about what percentage 
of the dealers are engaging in illegal firearms activities, or 
the percentage of dealers. We have trace statistics that show 
that the majority of firearms that are used in crime come from 
a relatively small percentage of firearms dealers.
    Mr. Kennedy. And can you inspect those dealers more than 
once in a 12-month period?
    Mr. Buckles. We can only do one compliance inspection each.
    Mr. Kennedy. And why is that?
    Mr. Buckles. That is a statutory limitation on our ability.
    Mr. Kennedy. Put on you to tie your hands by the NRA.
    Mr. Buckles. It is a law passed by the Congress of the 
United States.
    Mr. Kennedy. Well, they are an extension of the NRA in a 
lot of those respects.

         GANG RESISTANCE EDUCATION AND TRAINING PROGRAM (GREAT)

    Mr. Wolf. Your budget request includes $13 million for the 
Gang Resistance Education and Training Program, GREAT. The 
Committee was told that the program provides outreach to the 
local school systems to prevent children from joining gangs. To 
date, approximately 3 million children have received training 
regarding the hazards of gang activity. And last year, you are 
now moving into Justice. Under the Department of Justice 
program, this Committee provided $11.9 million for grants to 
public and private non-profit organizations to prevent and 
reduce participation of at-risk youth in gang activities.
    Now that ATF is under Justice, why should we not look at 
the ongoing gang education to see if it should be consolidated?
    Mr. Buckles. Well, I think that would probably be 
appropriate, Mr. Chairman. Our program began when we were under 
the jurisdiction of another Appropriations Subcommittee, when 
we worked for the Treasury Department. There may be ways in 
which the funding on these grants could be looked at to make 
sure all the money is being spent effectively.
    We have had both short-term and longitudinal studies done 
on the GREAT program itself. If you recall, what that involves 
is ATF basically providing grants to local police departments. 
It is actually implemented by local police officers. We have 
trained thousands, I think more than 6,000 police officers 
around the country, who actually go into the schools and 
deliver this curriculum. ATF's role is basically to supervise 
the curriculum to make sure that the program is administered 
consistently and the amount of grant money that we have 
available is distributed to police departments on an as-needed 
basis. They compete for it based upon their need and the gang 
problems in the communities, and also their ability to 
effectively deliver on the program.
    But I think the numbers are somewhere around 200 and some 
of the departments actually get some funding under the GREAT 
program.
    Mr. Wolf. What is the cost, and how is that? How much has 
the Congress in the past given you for that program?
    Mr. Buckles. It has been at $13 million for a number of 
years now.
    Mr. Wolf. Level.
    Mr. Buckles. It has been pretty level for the last several 
years, yes. Some portion of that goes to our administrative 
cost, but the vast majority goes out to grants to the police 
departments.
    Mr. Wolf. Well, it may be a good idea to consolidate it 
with the Office of Juvenile Justice and Delinquency programs. 
It may free you up to do other things, but I think we should 
look at that. We are always looking to see if there are ways 
you can save money or streamline it, since you now are part of 
the Department of Justice.
    Mr. Kennedy. Mr. Chairman, was not that eliminated in the 
budget? The president's budget eliminates the office of--the 
new form of Offices of Juvenile Justice and----
    Mr. Wolf. Yes, but we have it here.
    Mr. Kennedy. Thank you. I am glad you made that point.
    Mr. Wolf. I mean, there are certain things. I mean, I love 
this Administration. Let me just say, I pray for President Bush 
and I am very pleased that he is there. But I think there are 
times that I see things differently on certain of these issues. 
And I think that was the whole issue on the first responders, 
of taking some of the money from programs that local law 
enforcement needed, and you would in essence be drawing from 
the same pot. So I think on that issue, we just have a problem 
in Northern Virginia with gang violence. We are going to be 
calling you. So if you can help us out, we are going to try to 
get ATF and some of the other agencies together to meet with 
our local law enforcement people. But it is becoming quite 
violent in the areas of Northern Virginia that really never had 
to deal with this issue. So we will be asking you to kind of 
help us out on that issue.
    Mr. Buckles. I am familiar with some of those problems, Mr. 
Chairman, and I know we are working together to see what we can 
do.
    Mr. Wolf. And I would appreciate that. Let me just 
recognize Mr. Serrano.

               IMPACT ADULT USE OF FORCE HAS ON CHILDREN

    Mr. Serrano. Thank you so much. Mr. Chairman, I do not 
disagree with you on the issue of video games. I think that the 
time has come for us to take a close look at what effect video 
games may have on violence in society. Although I either 
profoundly or sarcastically can tell you that this week, 
American children are probably not using the TV screen for 
video games. They are watching another adult-type behavior, 
which is bombing a country without world support. And I am sure 
one of the questions we should ask the witnesses this day is 
what effect adults settling issues by using force has on 
children, and which one is worse, the video games or bombing 
people who have not actually attacked us. But that is an issue 
for another day.
    Mr. Wolf. That will be at the State Department----

                        ATF AND FBI RELATIONSHIP

    Mr. Serrano. They do not like to watch video games at the 
State Department. They like the real thing.
    Your relationship with the FBI. At times we have read about 
comments back and forth, mostly from their side, about your 
abilities--or inabilities--to get the job done. I have to tell 
you that to a lot of American people used to think that the ATF 
was a part of the FBI, because it always looked like you showed 
up at the same time and the same place. In some cases you made 
the same mistakes at the same time and the same place, and at 
other times you had great success at the same time and the same 
place.
    I was just reading a report about the gentlemen with the 
tractor, after you guys showed up with a white truck--I mean, 
it is a serious issue; I would love to know what was in that 
white truck that made him leave, but you can tell me that in 
private later. What is happening with the relationship between 
the FBI and your agents? Have things improved? What needs to be 
done, or is it part of what many members of Congress claim was 
wrong before September 11th in this country, that there was no 
communication between a lot of Federal agencies?
    Mr. Buckles. I would have to say, Mr. Congressman, that in 
large part ATF and the FBI work together well, and we work 
together every day. One of the examples that I gave in my 
testimony was a case that we worked jointly with the FBI that 
when we had a cigarette trafficking case that had a terrorist 
connection, we engaged through the Joint Terrorism Task Force 
and worked that case jointly.
    Having said that, there are areas where we have had, if you 
will, overlapping responsibilities. And I cannot say in every 
case it has worked as smoothly as it should. I would tell you 
that it works well most of the time, and unfortunately, the 
exceptions tend to be what gets a lot of attention.
    The source of it is that under the Federal explosives laws, 
ATF has responsibilities over certain kinds of Federal bombing 
crimes. The FBI has jurisdiction over other federal bombing 
crimes that involve terrorists. So the source of primary 
jurisdiction relates to what the motive is. Ours relates more 
if it is a bomb or not, we have jurisdiction. So there are 
cases where we show up at the same scenes and we have to try to 
figure out ways that we can work through our respective 
responsibilities.
    I have to tell you, we show up at the same places every day 
in all sorts of different situations, and in the vast majority 
of cases, we work very well with the FBI. I have spoken with 
Director Mueller. He is an outstanding leader who, like 
Director Freeh before him, is determined that Federal law 
enforcement agencies will work well together. So I do not see 
any major problem there. There are minor problems. I think some 
of those minor problems on how we interface now have an 
opportunity to be addressed more effectively in that we are in 
the same Executive Department.
    It was a little bit harder to sort those things out when we 
were under different Department leadership. But I am confident 
that now that we are within the Justice Department, those kinds 
of issues can be ironed out much more effectively.
    Mr. Serrano. Do you think it is an ongoing getting-along-
better process? It does not require any special sit-downs to 
try to target or----
    Mr. Buckles. I do not think so.
    Mr. Serrano. Or are you just suggesting that you do this on 
a daily basis, and the press only tells us about certain 
instances.
    Mr. Buckles. Sometimes people in our own agency tend to 
only talk about it when something goes wrong. I think a common 
tendency we all have is to talk about things that do not go as 
well as they could, rather than--when things work well, people 
do not seem to notice it. But I do not think it requires 
anything beyond some of the efforts that we are currently going 
through with the Justice Department, where the Attorney General 
is interested in what all of our jurisdictions are in the area 
of explosives and what the FBI is doing and how those issues 
should work out.
    And it is not all just related to responding to particular 
incidents. As you know we have a training facility in Virginia 
where we conduct explosives training. The FBI also has 
explosives training that it conducts at Redstone arsenal in 
Alabama, and we need to make sure that we are aligned in the 
training, that we are not duplicating our efforts. There are 
many things that we do that are just simply different. And 
having two agencies do two different things is not necessarily 
bad.
    These are issues that the Attorney General is interested in 
examining, in terms of our investigative jurisdiction, our 
technical capabilities, and our training services and 
laboratory services to make sure that we are conducting our 
work in the most effective and efficient way and that we all 
know how we are going to be working together. So I am confident 
that whatever the issues are they are going to be worked out 
effectively.

                      IMPACT OF DOJ GUN PHILOSOPHY

    Mr. Serrano. Okay, let me present to you an issue that is 
probably on the minds of a lot of folks who are beginning to 
pay attention. And that is the fact that as you come under the 
umbrella of the Justice Department, some of the Justice 
Department's current leadership's beliefs on certain issues, we 
fear, may begin to influence your decisions. Now, every time 
Attorney General Ashcroft sits in front of this Committee, I 
find myself sort of with mixed feelings. Because on one hand, I 
have a desire as a fellow human being to like him, and on the 
other hand, the older he gets, the more to the right he goes. 
And the older I get, the more to the left I go. The gap 
continues to grow between us, but we try to be cordial about 
it.
    A lot of people are feeling that his views, and there is no 
other way of saying it, will have great influence on ATF and 
the whole issue of guns in this country. And there is ongoing 
dilemma and ongoing controversy about a person's right to own a 
gun. And then, on the other side, people like me are saying, 
``Yes, but those guys in the Bronx with those Saturday night 
specials are not the people we are supposed to be protecting, 
so why are you guys protecting these guys when we are not after 
you?''
    What can you tell us about the fears that some of us have 
that the Justice Department's current philosophy on guns may 
affect your day-to-day operations?
    Mr. Buckles. Well, I think the answer lies quite a bit in 
what our role is, in what kind of responsibilities we have. We 
are an agency whose job is and has been to oversee existing 
laws enacted by Congress. We have not been involved in the 
political arena about what kind of gun control might be 
necessary or the more philosophical and political issues on gun 
control. Our efforts have been designed to enforcing the 
existing laws.
    So in that respect, I have to tell you that we have seen 
really no change in the movement from the Treasury Department 
to the Justice Department, or quite frankly even from one 
Administration to the other in terms of what we are doing in 
trying to enforce the firearms laws in this country in a way to 
protect the American public.
    So in that sense, I can only tell you what my experience 
has been as I have been with ATF for 28 years. I have been 
through many Administrations, back and forth, and despite the 
fact that a lot of people think of us as being at the political 
forefront on issues of gun control, our mission really is 
limited in enforcing the laws that have been passed. And we 
have found support through every Administration for our efforts 
to make sure that we are enforcing the existing gun laws.
    In terms of larger gun control policy, quite frankly, my 
experience has been over the years that that has always been 
the daily work of the Justice Department. Even when ATF was in 
the Treasury Department, enforcing existing law, issues about 
the development, say for example, of the Brady Bill, or 
whatever firearms legislation you might want to talk about, on 
the policy on gun control issues, really were driven by the 
Justice Department.
    In that sense, those issues have not moved from Treasury to 
Justice. I have watched them reside in the Justice Department 
as it is. I can only tell you if your fears are that there is 
some influence on how we are enforcing the gun laws, I can just 
honestly tell you that what we are doing today is very much the 
same thing we were doing four or five years ago under a 
different Administration in a different Executive Department.
    And we are finding strong support for us trying to do what 
we can to address gun violence in this country.
    Mr. Serrano. Okay, thank you, Chairman.
    Mr. Wolf. Mr. Cramer.

                              ATF TRAINING

    Mr. Cramer. Thank you, Mr. Chairman, and welcome before the 
Subcommittee. I am sure we will have a good and aggressive 
relationship with one another. I want to weave through some of 
the issues. As you know, I have made a few remarks to you about 
your, more or less, your explosive school, your training center 
down the road in Virginia there. The focus of that is for the 
regulation of the explosives industry?
    Mr. Buckles. No. Most of the training that we do at the 
Fort AP Hill facility that we are doing now, and, frankly, 
other training that we do around the country, is focused 
largely in the criminal area and largely on post-blast type 
investigations. That is something that is different than what 
is done at Redstone, which is a hazardous device school where 
bomb technicians learn how to deal with hazardous devices and 
disrupting them. We do not teach that kind of training. We 
teach how to put the scene back together after the bomb goes 
off, to reconstruct what kind of device was used.
    So that is a large part of what we do.
    Mr. Cramer. And how do you engage that training? Do you 
bring teams in for that training? How do you conduct the 
training there?
    Mr. Buckles. Yes, we have ATF employees who are involved in 
the training. We also have contractors.
    Mr. Cramer. Who comes to the training?
    Mr. Buckles. About 25 percent of the training that goes on 
down there are ATF employees, where we are training our own 
people. The other 75 percent would include state and local 
investigators and bomb techs. And we also do training for the 
State Department for bomb investigators from around the world.

                GREAT PROGRAM INTERFACE WITH COMMUNITIES

    Mr. Cramer. I want to switch now to the Gang Resistance 
Education and Training program. How long has that existed? I 
mean, not exactly, but----
    Mr. Buckles. It has probably been in existence for 8 or 10 
years.
    Mr. Cramer. And we have had, probably still have, in my 
area of north Alabama, a gang problem, which is a problem we 
thought we would be spared. But is that--how are we doing with 
that problem, and how is this program interfacing with 
communities like mine?
    Mr. Buckles. Well, I do not know if we have the gang 
program in your community, but we have the GREAT program being 
taught by almost 1,800 police departments across this country. 
Some in many large cities, but as you know, you do not have to 
be in a large city to have a gang problem. We have many smaller 
police departments that are also involved in delivering the 
GREAT program. Obviously, like anything else, it is not a cure 
all. But we believe it does have an impact in communities. I 
made reference to the fact that the 200 and some departments 
actually get federal funding from us to carry out the programs. 
But when you think there are 1,800 police departments 
delivering this training.
    Mr. Cramer. Is it competitive the way that is done? I mean, 
do they----
    Mr. Buckles. Yes. And we look at the whole variety of 
things in terms of the nature of the gang problem that exists. 
So we have grant procedures that we go through and who well get 
them.
    Mr. Cramer. And I would like to get more information from 
you, and not necessarily now, about how many communities have 
participated in that, and how that process works.
    Mr. Buckles. But one of the things, I think, that helps 
indicate the value of this program is that only a few hundred 
actually get funding from us for the program, yet I think 
something like 1,800 police departments around the country 
engage in the GREAT program. So I think that is a testament 
that police departments around the country see value in that 
even if it is something that the Federal government does not 
give them direct money to carry out. They are willing to spend 
their own time and money on the program.

                         INFORMATION TECHNOLOGY

    Mr. Cramer. And now I want to switch to your information 
technology. You said that your state of the art equipment and 
standard systems infrastructure have greatly improved your 
abilities. How long has that equipment and system existed?
    Mr. Buckles. Basically, we were able to use the year 2000 
conversion money to get most of our systems off of mainframe 
computers, onto new server technology so that we are not locked 
into those old kinds of programs. We have unified architecture 
on every program that is written in the bureau, so we have got 
the ability to make things integrate. We were one of the first 
agencies to engage in what was called seat management. We were 
always running behind. Every time you would get a little money 
you would buy a few more computers and then you would have one 
segment of the agency that would have advanced computers and 
somebody else still had the old ones, and files and software 
and everything did not mesh.
    We went to a process where we now lease computers through a 
contract so that every computer on every employee's desk in ATF 
contains the identical software and has the identical 
capability. All of our major programs are written at the same 
time in the same kind of programming language so that we have 
the ability to share information across the board.
    Mr. Serrano. So, do you have any needs in that regard? I 
mean does this budget reflect coverage?
    Mr. Buckles. We are not asking for any additional money. 
The main investment that we have to make right now in our 
information technology has to do with complying with the 
requirements of the Government Information Security Reform Act 
(GISRA) on the information security.
    Some of our systems that were built several years ago are 
not compliant yet with the information security requirements 
and that is going to require an investment during the course of 
this year and probably into next year to get all of our systems 
compliant on the information security side.
    Mr. Serrano. Well, I encourage you to get what you need and 
to tell us what you need, because I am amazed at how critical 
agencies like yours are so poorly equipped in this day and 
time, and how they lack abilities to cross communicate and to 
do things that big companies are doing regularly all over the 
world. So, please work with us on that. Thank you. Thank you, 
Mr. Chairman.
    Mr. Wolf. Thank you.

                            GUN TRAFFICKING

    Mr. Kennedy. Thank you, Mr. Chairman. Let me follow up on 
that computerization of records. To go back to your question on 
the one percent that traffic most in these guns that end up as 
purchasers and ask what you are doing if you know that there 
are a minority of federally licensed gun dealers dealing in 
most of gun-related trafficking, what are you doing to crack 
down on that?
    Mr. Buckles. What we have done is use our trace data to be 
able to identify where the sources of the firearms are. That is 
really only the first step because it does not tell you whether 
or not the dealer was involved in it or what the source of the 
problem really is.
    We conducted a study several years ago, about two years ago 
now where we went out and conducted a thorough and complete top 
to bottom inspection and found that one percent of the dealers 
had most of the firearms traced to them.
    What we found in that was the entire range of things. In 
some cases we found dealers who were very dirty, who had been 
selling guns, hundreds and hundreds of guns off the books, and 
we found other dealers who were complying with every law and 
regulation there was on the books and were not in any way 
complicit, but one of the reasons they had a large number of 
guns showing up was that they were very large volume dealers.
    So, if you took a percentage of their sales, they did not 
have an inordinate percentage of guns they were selling ending 
up in crime. It was simply a matter that they were large volume 
dealers. What we have been engaged in over the last few years 
is to develop a more data driven inspection regime where we are 
using the data from our traces to identify who it is that we 
need to spend our time on.
    As I mentioned, we only have less than 500 inspectors 
around the country, so we have to be very selective on who we 
spend our time looking at and making sure that we are not 
spending a lot of time on dealers who are really not the 
problem and who are complying with the law.
    So, we are engaged in this process of developing a more 
data driven way in which to approach those dealers and are 
hoping that is going to yield a much greater benefit when it 
comes to how we use those resources.
    Mr. Kennedy. I appreciate that, especially acknowledging 
what you just said that there are so few dealers for the number 
of inspections that they have to make, that as far as taking--
how long it would take for them to inspect all federally 
licensed gun dealers, it would take 28 years to visit each 
licensee only once according to my statistics.
    Maybe it is 20 years but it is clearly where I am more 
interested is getting compliance of Federal law in the source 
of guns and that is why I want to go back to Mr. Serrano's 
question about where the pressure is going to be for you to 
spend your resources.
    And a lot of people who want to run away from their 
obligations to help us crack down on gun-related violence, wrap 
themselves in this well we want to prosecute all those gun-
related crimes, and yet when it comes to special interest 
groups like the NRA saying well we do not want, you know, a lot 
of crackdown on this and that because, you know, that infringes 
on our--that is Big Brother. That is infringing on our rights.
    You know, the agency does not, you know, put its resources 
behind that. So, I want to ask in 2002 there were 3,625 onsite 
inspection visits and, you know, my statistics show that, you 
know, the evidence is that most of your resources are going to 
other laws that deal with use of guns in criminal activity and 
things that end up on the street rather than working on trying 
to limit the number of guns that originally get in the street.
    We talked earlier about drug interdiction and the Chairman 
was very eloquent saying we need to stop the drugs at their 
source, get FDA to work with DEA to stop it and that is what I 
am interested in with guns. Let's try to stop it at the source. 
So, maybe you could comment on maybe needing more resources to 
do that?
    Mr. Buckles. Sure. I would just make the observation that 
the only firearms initiative growth that we have proposed in 
this budget is, in fact, an interdiction initiative, the Youth 
Crime Gun Interdiction Initiative. It is one that focuses on 
tracing firearms and tracking them back to the source to 
interdict those firearms before they end up in the hands of 
youth.
    So, if the concern is that we are turning away from that, 
in fact the only new initiative that is represented in this 
budget actually is one aimed at that end of the problem.

                   MONITORING THE MANUFACTURE OF GUNS

    Mr. Kennedy. Do you have discretion on how you monitor the 
make, the caliber of the guns out there so we get more 
information on what guns are being manufactured and sold in 
this country?
    Mr. Buckles. We do get reports on the guns being 
manufactured and sold, yes.
    Mr. Kennedy. But not the specific numbers of----
    Mr. Buckles. Well, I think we have fairly specific data but 
I will caution that by saying I have not looked at those 
reports in a while and I cannot tell you exactly how they are 
broken down but I know we do have reports that manufacturers 
and importers are required to file with us that tell us details 
about the weapons they are manufacturing and bringing into the 
country.
    Mr. Kennedy. Well, I appreciate your work in this area and 
I look forward to working with you through this Committee to 
help you in your efforts. I know you get beat up a lot by those 
that see you as the enemy when you are following the law and I 
might add it is a law that could be strengthened substantially 
and I know that is our job up here, that whole idea that you 
can only inspect dealers once in every 12-month period.
    I understand in the past that the computer record keeping 
was done on paper which made it inordinately difficult to track 
gun-related crimes, and it was almost deliberately put in the 
bill that you had to stay on paper. You could not go to 
computerization because of the worry that the National Rifle 
Association had that that was going to mean more inspections, 
more tracking and tracing. Do you have any understanding of 
what that history is?
    Mr. Buckles. Yes. Well, let me say that from the point of 
view of our dealings with any guns involved in crime, we have a 
very sophisticated ability to handle that tracing information, 
to sort it. We provide through the Youth Crime Gun Interdiction 
Initiative and many others reports on crime gun use to police 
departments around the country and it is proving to be very 
effective.
    Mr. Kennedy. Right.
    Mr. Buckles. The one area of records that we maintain that 
has been sensitive has dealt not with crime gun information we 
have but there is a requirement in federal law that dealers 
have to keep records on every firearm they sell so that we can 
trace them when they go out of business.
    In order to maintain our ability to trace a crime gun, the 
law requires that their records be turned over to us so we have 
an out of business record center that keeps all of the records 
of every sale made by a licensee who goes out of business.
    There have been concerns that we not computerize all of 
those records in the sense of developing computerized 
capability to look at who is purchasing firearms, et cetera, 
where they have not been used in any crime. They are simply 
records of legitimate sale.
    Mr. Kennedy. Did the attorney general say that we want you 
to expunge every record a year after the purchase of the gun or 
five--two or three years? I remember this was an issue last 
year or the year before how long----
    Mr. Buckles. I think you are talking about in the Brady 
checks, those are not records maintained by ATF. They are 
maintained by the FBI through the National Instant Criminal 
Background Check System. I cannot tell you exactly what all of 
the circumstances around that were but I think that is what you 
are referring to.
    Mr. Kennedy. Right.
    Mr. Buckles. That is not a record system that ATF 
maintains.
    Mr. Kennedy. But it would be useful to you in doing your 
investigations?
    Mr. Buckles. We use some of that information when we go out 
to inspect a dealer to determine whether or not they have 
complied with Brady, and we work with the Justice Department to 
ensure that we have information so that we can determine if 
people are complying with it.
    Mr. Kennedy. Yes, but you can track the straw purchasers if 
Justice destroys the Brady records within a year or two.
    Mr. Buckles. Well, I think it is a shorter period than 
that.
    Mr. Kennedy. Well, that makes it ever more worrisome.
    Mr. Buckles. It is required by law that those records be 
disposed of or purged within a reasonable period of time, and I 
think the debate that is gone on is what period of time is 
reasonable.
    Mr. Kennedy. I thank you for your good work and hope that 
we can try to correct some of those other things and thank you 
for your work in Rhode Island. You know we had a lot of support 
from various federal agencies and certainly yours in the 
investigation that is ongoing into our tragic fires welcomed 
and appreciated. So, I want to thank you for that.
    Mr. Buckles. Thank you.

                  TERRORIST THREAT INTEGRATION CENTER

    Mr. Wolf. Thank you, Mr. Kennedy. When information is found 
out with regard to terrorism, there is the new TTIC threat, a 
terrorist threat integration center, how will your information 
that you acquire from whatever investigation get there? Will it 
be through the FBI? Would you give it to the FBI and they would 
take it there or how will that--or have you given that any 
thought?
    Mr. Buckles. I am not sure exactly how the details of that 
information will flow. I know we work directly with the FBI. We 
are members of every joint terrorism task force around the 
country. We have a representative on the National Joint 
Terrorism Task Force here in Washington, the FBI's, so we have 
all sorts of plug-ins to that system.

                           CONFLICT DIAMONDS

    Mr. Wolf. When you were in Treasury, I know we are trying 
to pass legislation dealing with conflict diamonds. Al Qaeda 
and Hezbollah have used conflict diamonds coming out of Sierra 
Leone and places. You have seen pictures where they have hacked 
off the arms of the children over the last several years. Did 
ATF ever get involved in that issue at Treasury Department, or 
were you ever involved anywhere?
    Mr. Buckles. Not that I am aware of, Mr. Chairman.
    Mr. Wolf. Because some of the same people that are involved 
in smuggling of cigarettes and different things like that were 
involved in that but the issue of conflict diamonds never came?
    Mr. Buckles. No, that does not ring a bell with me, 
although, if they were also involved in some of the counterfeit 
or contraband cigarette smuggling, I can assure you we were 
working with Customs on many cases involving that activity from 
around the world and maybe I am just not familiar with what 
some of the other crimes that were going on and being committed 
by the same people.

                          INFORMATION SHARING

    Mr. Wolf. The FBI has a new program trilogy which the 
committee has funded at a pretty high rate and are your names 
going into their computer system with regard to if you are 
involved in people with regard to terrorist crimes, training, 
and how will you be sharing with them? I do not mean for the 
TTIC as to a threat assessment, but how will you be sharing the 
information that you are working on with regard to this?
    Because many times people that are involved in, let's say, 
cigarette trafficking are involved in sex trafficking down 
through Albania and places like that. Or, if you are involved 
with a cartel that has been involved, how will the people you 
will be working on be shared with the FBI?
    Mr. Buckles. Well, we have a number of systems that do 
that, particularly--and when systems do not do it, we have 
people involved in task forces so that the databases are 
available to the FBI through the National Joint Terrorism Task 
Forces, et cetera, so that we have agents there who have access 
to all of the information in ATF databases.
    Mr. Wolf. Do your computers talk to each other?
    Mr. Buckles. Our computers do not fully talk to each other 
right now and I will tell you that one of the things we are 
doing in ATF, and our major focus over the past three years, 
and we have made huge strides in that, is making sure that 
internally all of our computers talk to each other. Many law 
enforcement agencies and other organizations have had problems, 
even within their own organization of making sure that all 
information that you have is available everywhere it should be.
    Mr. Wolf. And are doing well with that?
    Mr. Buckles. We are doing very well in that and we have 
made tremendous strides in terms of bringing all of our 
information together and so that we are not missing ways to 
connect the dots when it comes to ATF investigations. So that 
if we have a name popping up in a firearms importation 
application we need to know that somewhere else in the country 
there may be a criminal investigation involving that same 
individual and we have systems now that we have been able to 
convert to that will facilitate this within ATF.
    The next challenge we all have is how to make our 
respective databases interactive with other agencies and to 
what extent to do it as well because sometimes there are 
circumstances surrounding information we have that does not 
necessarily need to be shared everywhere across the government 
instantaneously, but rather on a need-to-know basis.
    But that is really the next challenge we are facing. We are 
currently in the process of reexamining our organization of 
what I will call our intelligence division, Basically we do not 
gather intelligence, but like any agency we have to be able to 
manage the information we have and make sure it is being used 
to its maximum potential.
    As I said, we have made great strides on doing that 
internally but we have looked at our overall organization and 
that intelligence division right now is at a kind of a layer 
below the main executive level. We are probably going to 
propose something that would move that up. The main reason is 
it will facilitate us to plug into other agencies to make sure 
the information we have that the FBI or other people need to 
know is transmitted to them, and to make sure that if they have 
information we need that that information is coming to us.
    Mr. Wolf. Now, that you are in Justice, how often do the 
different heads get together, you and Mr. Mueller, and U.S. 
Marshal Service, once a month?
    Mr. Buckles. Once a month would be the routine basis where 
we would get together but obviously there would be things in 
between where there would be reasons for us either to get 
together or speak on the telephone.

                               ATF FOCUS

    Mr. Wolf. Your budget justification refers to ATF as a team 
player in the fight against terrorist financing, especially in 
efforts to reduce the rising trend of illegal diversion of 
distilled spirit and tobacco products. You also mention an ATF 
case involving tobacco diversion and you mentioned in your 
testimony Hezbollah, the North Carolina case. I remember 
reading that in the paper.
    Would you tell the committee what percentage of your 
personnel is dedicated to these investigations?
    Mr. Buckles. It is a very small percentage. I believe it is 
about one percent, so Alcohol and Tobacco is still 50 percent 
of our name but it is probably only a little more than one 
percent of what we do.
    Mr. Wolf. Should we change the name?
    Mr. Buckles. Well, that was something that was being 
bantered around when the Congress was moving us to the Justice 
Department. There were a number of names that were floated.
    Mr. Wolf. What would you change it to, I mean if----
    Mr. Buckles. Well, there was Firearms and Explosives 
Agency, you know because even though we were going to have some 
small amount of alcohol and tobacco, there was an argument that 
it should not be that prominent in the name.
    Mr. Wolf. Tobacco is so small now, isn't it?
    Mr. Buckles. Yes. Well, actually alcohol is the smallest 
portion of what we do at this point because while there is some 
alcohol trafficking, it is a much bigger commodity to move, and 
there would be a lot more problems. Interstate cigarette 
smuggling is more profitable so we tend to see a little more of 
that. So, of those two, probably tobacco gets a little more 
resources at this point than the alcohol would.
    Mr. Wolf. So, if you had to break down the percent, I mean 
what?
    Mr. Buckles. Probably about 75 percent of what we do would 
be firearms and 24 percent would be arson and explosives, and 
probably one percent the alcohol and tobacco diversion.
    Mr. Wolf. Well, is there just this kind of attachment to 
the name because--or is it----
    Mr. Buckles. Well, we did not have a whole lot of say when 
this was happening. I can tell you that part of the feeling was 
there is a certain brand name that goes along with ATF that had 
been established, at least those letters.
    Mr. Wolf. Sure.
    Mr. Buckles. Not so much all of the words involved and, you 
know, most people do not remember today that 3M means Minnesota 
Mining and Manufacturing, and I think there was a sense on some 
people here on the Hill who were involved in this move that 
there was a value in keeping the name. Technically all of those 
jurisdictions are still there. I might note that, as you have 
seen, our name now has explosives on the end as well.
    Mr. Wolf. Right.
    Mr. Buckles. And we have made a conscious decision to stick 
with the three letters, ATF, as our abbreviation just because 
that is the brand name. I know the Center for Disease Control 
recently had ``and Prevention'' added to their name but they 
have stayed with CDC. I thought that was a pretty good model, 
and we have decided to stay with ATF as our initials.

              ATF PARTICIPATION IN BOMBING INVESTIGATIONS

    Mr. Wolf. Well, that is certainly not for this committee to 
decide but explosives, if you look in to see with the terrorist 
activity around the world, if you have been to Israel and see 
what they are going through and some of the other countries, 
the Kenyan bombing, the Tanzania bombing, you know, the USS 
Cole, and the Riyadh bombing, the Beirut bombing, marine 
barracks bombing, the Beirut Embassy bombing, explosives, 
explosives, explosives. I assume you had people over there in 
Kenya and Tanzania?
    Mr. Buckles. No, we did not. We made our services available 
to the FBI but we did not participate in that.
    Mr. Wolf. I would have thought they would have had somebody 
from your office involved in that investigation. Do they have 
their own explosive people?
    Mr. Buckles. I believe that case was being handled by the 
New York City Field Office. I believe I read the Osama bin 
Laden al Qaeda investigation was a New York City case, so it 
was being handled by the New York Field Division and their 
joint terrorism task force. They have the New York City Bomb 
Squad that works as part of that joint terrorism task force.
    So, in terms of the work they were doing, the New York City 
Bomb Squad, as everything else with New York, is probably 
second to none in terms of its capability. So I think having 
their resources available, we spoke with Director Freeh back in 
those days and made sure he was aware that anything we could do 
that they needed we would, but as it turned out, they did not 
need our resources.
    Mr. Wolf. Are you involved in any of the bombings, the USS 
Cole, Riyadh?
    Mr. Buckles. No, none of the international bombings.
    Mr. Wolf. See, that explains. I would have thought that you 
would have had someone.
    Mr. Buckles. Well, these are, you know, frankly these are 
some of the issues I think the Attorney General is going to be 
able to look at to make sure that now that we are all in the 
Justice Department that all of the resources available in the 
Justice Department are being used to the maximum extent and 
there is no artificial or organizational reasons that resources 
might not be brought to bear. We were part of the Treasury 
Department during that period of time. Now we are in Justice.
    Mr. Wolf. That could have been a hindrance, you know, there 
but I would think now you would want to be or they would want 
to have someone from ATF involved. You know the first World 
Trade bombing came about. Then we had the second World Trade. I 
mean these things repeat themselves and what is going on in 
Israel today.
    Mr. Buckles. Right. And, of course, we did work on the 
first World Trade Center bombing along with the FBI, the Murrah 
Building bombing.
    Mr. Wolf. Who had the lead at the Murrah Building bombing, 
you or FBI?
    Mr. Buckles. The FBI was the lead, but we had a task force 
where there was an FBI person at the top of it but we had 
assistant special agents in charge who were--who participated 
in the investigation, the same thing with the Eric Rudolph 
case. We had the Olympic Bomb Task Force, supporting the 
Centennial Park bombing.
    Mr. Wolf. He has never been caught has he?
    Mr. Buckles. No. The FBI took the lead on the bombing at 
Centennial Park because it was part of the Olympics and the 
agreement was they were heading up that responsibility.
    But if you recall, Eric Rudolph then bombed The Other Side 
Lounge and a couple of abortion clinics. Because those were the 
traditional kinds of bombings ATF worked we had the lead in 
those bombings. It was subsequently developed that the suspect 
in our bombing was also the suspect in the Centennial Park 
bombing and that became a joint task force with ATF, FBI, and 
the Georgia Bureau of Investigation and others.
    [Clerk's note.--Subsequent to the hearing, Eric Rudolph was 
apprehended on May 21, 2003 by the Cherokee County Sheriff's 
Office of North Carolina.]

                           ATF WORK IN ISRAEL

    Mr. Wolf. Have you had a team ever go to Israel to look at 
what they are faced with?
    Mr. Buckles. Yes, we have, and we have worked with the 
Israelis on some explosives studies that we have done. We had a 
program where we were doing studies on the effects of vehicle 
bombs and we also worked with the Israelis in some studies that 
we did at congressional request on the possible tagging of 
explosive materials for post detonation tracing.

                       LICENSEE EXPLOSIVE EFFORTS

    Mr. Wolf. Your request includes 88 new inspector positions, 
$10 million for licensee explosive efforts, including the 
creation of a new National Explosive Licensing Center in 
Martinsburg, West Virginia. Why West Virginia?
    Mr. Buckles. We have a facility in West Virginia right now 
that would handle this. It sounds like a huge operation by 
calling it a National Licensing Center.
    Mr. Wolf. How many people will be there?
    Mr. Buckles. I am not sure what the ultimate size of this 
would be but it would be handling the 20,000 or so permitees 
that we have.
    Mr. Wolf. Roughly what do you think the number would be?
    Mr. Buckles. I am just going to guess and say somewhere 
around 20 people.
    Mr. Wolf. Twenty people, and you are not moving people from 
this region out there?
    Mr. Buckles. No.
    Mr. Wolf. Because that is not fair to the families. They 
would have to be uprooted and kids pulled out of school just to 
put something in West Virginia.
    Mr. Buckles. No, and the current licensing of the 
explosives permitting is done at our facility in Atlanta.
    Mr. Wolf. So, that will stay?
    Mr. Buckles. And that will stay and they do the 103,000 
federal firearms licensees plus 8,900 explosives licensees, so 
it is a fairly small piece of that, less than ten percent is 
what we will move up to space that we already have. It is where 
we have our tracing center in West Virginia.
    It is a former IRS facility that we were able to acquire. 
We will have enough room in there to put the explosive 
licensing, and it is small enough that we will not be moving 
numbers of people up from Atlanta.
    We will, based on attrition, allow them to right size to 
handle the firearms licensees and we will handle the explosive 
ones. We just physically do not have any room to expand in 
Atlanta which is the biggest problem we have there.

                            ATF HEADQUARTERS

    Mr. Wolf. Just a couple more questions, then Mr. Serrano. 
Your new headquarters, where are they and is the building on 
schedule?
    Mr. Buckles. It is as on schedule as any Federal building 
project can be. It is going to be built at New York Avenue and 
Florida Avenue and that is around 1st Street, N.E.
    Mr. Wolf. Have you broken ground?
    Mr. Buckles. We had the official groundbreaking last 
spring. They are actually going to start digging a hole 
sometime here in the next month or so. GSA has the final 
construction contracts out and they should actually start the 
construction, in May.
    Once that starts, there is a construction cycle in the 
contract that, I believe is something in the order of 720 days 
and there will be penalties of $5,000 a day if the building is 
not completed on time. So, we are confident once this contract 
is actually issued to the general contractor and they begin 
construction that we will be on a good schedule.
    But this has frankly been a very frustrating process over 
the course of many years. We started this in 1994 and 1995. So, 
if you hear a little frustration in my voice it is because it 
has been so long trying to get this thing done.

                             TELECOMMUTING

    Mr. Wolf. Telecommuting, the Committee has put language in 
urging agencies to allow people to telecommute and any 
employees that you have, particularly in this region but 
anywhere else, Atlanta where there is a terrific traffic 
problem, how many people telecommute from your headquarters?
    Mr. Buckles. I could not really tell you the exact numbers. 
I know we use it kind of as a flexiplace where people are 
allowed to, in some cases, work from home.
    Mr. Wolf. Well, could you give it for the record?
    Mr. Buckles. I can provide you for the record what we are 
doing.
    Mr. Wolf. And how many people total?
    Mr. Buckles. Yes. We will be able to give you those 
numbers.
    Mr. Wolf. Yes, and what your plans are for allowing others 
to telework?
    Mr. Buckles. Yes, we can provide all that to you.
    [Clerk's note.--Subsequent to the hearing, the following 
information was provided:]
           Progress in Adopting Telecommuting and Flexiplace
    The Bureau of Alcohol, Tobacco, Firearms, and Explosives (ATF) 
recognizes the potential benefits of telecommuting and flexiplace 
arrangements. Reduced costs associated with space, improved work 
operations, better customer service and increased employee morale are 
just a few of the observed and anticipated benefits of using alternate 
work site arrangements.
    ATF is making progress with implementing telecommuting and 
flexiplace on several fronts.
    Headquarters Flexiplace Program--A proposal has been prepared for 
management's consideration on a program that will cover all 
headquarters bargaining and non-bargaining unit positions that lend 
themselves to flexiplace work arrangements. The nature of work 
performed by most headquarters organizational units and limited funds 
for purchasing required telecommunications equipment will likely limit 
the initial participation to 25 percent of the positions identified.
    Ad Hoc Work at Home Arrangements--On a case-by-case basis, a number 
of Headquarters employees are currently working at a home workplace. 
These arrangements, though not covered by a formal flexiplace program, 
are utilized by supervisors and managers to accommodate short-term 
medical emergencies and for the completion of assignments that are 
project oriented in nature and can be performed from a home workplace.
    Flexiplace Pilot Project for Field Instructors--ATF recently 
completed a one-year pilot project in which a selected group of ATF 
alcohol and tobacco inspectors worked from their home workplace and 
reported to their assigned duty station only when necessary. 
Preliminary analysis indicates the pilot was a great success. Twenty-
one inspectors are continuing to work under the arrangement while 
further analysis and expansion considerations are being discussed.
    Hoteling--This concept, which is the sharing of workspace by 
multiple users, has been integrated into the design of the new 
headquarters building. Approximately 75 spaces will be designed for 
hoteling, which is an aspect of the flexiplace program.

                           ATF CANINE CENTER

    Mr. Wolf. And the last question I guess and then Mr. 
Serrano. You have the 2002 Anti-terrorism Supplemental that 
provided additional funding to expand the ATF Canine Center in 
Front Royal, which is my congressional district. What are your 
plans with regard to that center and the training of 
individuals from other countries?
    Mr. Buckles. Right.
    Mr. Wolf. How does that differ from what some of the other 
training centers have?
    Mr. Buckles. Well, this is a training facility we have just 
for canines and we share the site currently with the U.S. 
Customs Service. As you may recall, we opened this facility a 
couple of years ago.
    Mr. Wolf. What percentage of the appropriations is Customs, 
what percentage is ATF?
    Mr. Buckles. Well, we have our own separate Appropriations 
for that. I think their operation may be slightly larger than 
ours in terms of the number of dogs they train. They are 
training dogs primarily for drug detection.
    Mr. Wolf. Yes.
    Mr. Buckles. And we have our kennel facilities that are 
right there adjacent to the Customs Service kennel facility so 
that we can get some benefit of being together with them there. 
Our actual training building itself is separate. It is up the 
road a piece from where the Customs Training Facility is but it 
is all in the same general property area.
    What we are doing right now is we have sufficient kennel 
capacity to handle additional training at that site but the 
building that was constructed will not handle the additional 
training demands that we have. That is the money we received a 
few years ago and we are looking at a number of sites in that 
particular area to be able to expand the training.
    Mr. Wolf. What about some of the other agencies now like 
TSA? Are they using dogs or do they need dogs?
    Mr. Buckles. Well, we train dogs for a number of agencies, 
explosives detection dogs. I do not believe we are training any 
for TSA at this point.
    Mr. Wolf. What other agencies are you training?
    Mr. Buckles. The FBI has ATF trained canines, the State 
Department, and perhaps the Marshal Service. I would have to 
get you the details on that but we have trained both for other 
federal agencies. We have also trained dogs for state and local 
law enforcement.
    Mr. Wolf. When the diplomatic, like one time I was out 
there they were training people from Egypt. Is that paid out of 
the State Department money?
    Mr. Buckles. That is paid out of the State Department 
funds. We have trained dogs for, I do not know exactly how many 
countries around the world but I was out there around that same 
period of time and we were training dogs for Australia to get 
ready when they were having the Olympics.
    So, we have trained under the State Department contract and 
they contract with us and reimburse us for the expenses for 
that training. I think we have trained, in the hundreds of the 
dogs for law enforcement around the world.
    Mr. Wolf. And what about state and local?
    Mr. Buckles. State and local, we currently have I believe 
about 35, 36 explosives detection canines and 50 or so 
accelerant detecting canines because we also train dogs for the 
accelerant, used in arson investigations to determine whether 
or not an accelerant was used to start a fire. So, we are 
training dogs in both of those disciplines and will probably 
together have close to 100 of these dogs out in state and local 
agencies.
    Mr. Wolf. What is your competition for dog training? There 
is training on one on military bases.
    Mr. Buckles. Well, military trains some explosives 
detection dogs. I believe the FAA, you referred to TSA. I know 
at one point the FAA had--was looking at explosives detection 
canines. There are a variety of companies that will supply 
explosives detection canines. I read about it in the paper not 
too long ago. There is such a large demand for this.
    Someone was recently indicted for selling bomb detection 
dogs to someone where the dogs could not find bombs but there 
was a tremendous demand for those kinds of dogs so I think 
people need to be careful on what they are doing.
    We have a very, very structured program. We require all the 
dogs to be re-certified every year and have very strict 
standards on how they are trained. We believe we have the 
finest explosive detection canines in the world that go through 
our system but there are other agencies that do this as well.
    Mr. Wolf. Great, thank you--Mr. Serrano.

                        BALLISTIC FINGERPRINTING

    Mr. Serrano. Thank you, Mr. Chairman. I would just like to 
ask one last question. Can you explain to us briefly ballistic 
fingerprinting, what is it, and how reliable is it, and is this 
something that you are going to expand on or are we nervous 
about using it?
    Mr. Buckles. Well, I do not think we are nervous about 
using it. We have recently completed the roll out of the 
National Integrated Ballistics Information Network (NIBIN) and 
that is a computerized system where you can input shell casings 
and projectiles, the actual bullets from weapons. We have 
deployed NIBIN at over 200 police departments and law 
enforcement agencies around the country who put this 
information into their computers.
    The computer does a sorting of the data so that you can 
find connections between two different crimes that you would 
not have known were related. The actual science of looking at 
ballistics evidence itself is longstanding and well recognized 
by the courts.
    The trick has always been that you have to have some reason 
to know you want to compare a particular shell casing to some 
other crime that was not related. The ability to match those 
ballistics fingerprints, if you will, and we call them that 
sometimes because the markings left on shell casings or bullets 
are unique like fingerprints.
    But the trick has always been how do you find out if you 
have evidence that link crimes when you do not know which ones 
to compare it against. You cannot go compare a handgun that is 
recovered from a criminal against thousands of--or tens of 
thousands of pieces of evidence that may be around the country.
    This system will allow you to put all the data in there. 
The computer would look for possible matches. It would then 
bring it up and it would still require a forensic firearms 
examiner to determine whether or not there were any true 
matches. So, that is something that is being used quite 
aggressively in forensic law enforcement at this point.
    Mr. Serrano. So there still has to be the human aspect of 
trying to----
    Mr. Buckles. There still has to be the human aspect of 
actually calling a confirmed match. Now, there were some 
suggestions during the sniper investigation, for example, that 
perhaps we should try to capture some sort of computerized 
image of shell casings or projectiles for all guns before they 
are sold.
    So that if you ever have a crime committed, you could take 
that shell casing or bullet and compare it against the universe 
of evidence that would be in a computer and you could find 
matches, even cases where there had not been a previous crime 
committed with the firearm.
    That is something that expands dramatically the amount of 
information that would have to be in the computer if you were 
capturing it on every gun whereas we capture it right now only 
on crime guns. And so, the question is if you had that much 
data, would it still be able to do reliable sorts that would be 
useful?
    We have been tasked with participating in a study with the 
Justice Department as to what kind of capabilities this same 
computer equipment would have in perhaps that larger context.
    Mr. Serrano. Okay, well I want to thank you for your 
testimony today and we will be seeing each other as this 
process goes on.
    Mr. Buckles. I look forward to it.
    Mr. Serrano. Thank you. Thank you, Mr. Chairman.

                            Closing Remarks

    Mr. Wolf. All right, Mr. Serrano, thank you very much and I 
think it is a good fit. It will be good to have you at Justice 
and I often wondered, you know, why. I think years ago there 
was a reorganization. I think you were--at one time there was 
some consideration maybe back during the Nixon administration, 
I am not sure, of putting you in and changing some others and 
then no agency wants to lose, and so no cabinet secretary wants 
to lose.
    But I think it will fit. I think you and Director Mueller 
being in the same, not building, but the same agency should I 
think be good for the country, but we thank you for your 
testimony. If you could have somebody on this--the issue of any 
cases whereby people were convicted and at the trial came out 
the day had trained or had used the video. Again, I am talking 
about violence.
    Mr. Buckles. Right.
    Mr. Wolf. We are not talking about the other stuff, and 
anything that you have if you could get that to me as quickly 
as possible.
    Mr. Buckles. Okay. I will certainly do that and I will 
follow up on the issue with the telecommuting.
    Mr. Wolf. Great, thank you very much.
    Mr. Buckles. Thank you, Mr. Chairman.
    Mr. Wolf. The hearing is adjourned. Thanks.
                                         Wednesday, March 26, 2003.

                  COMMUNITY ORIENTED POLICING SERVICES

                                WITNESS

CARL R. PEED, DIRECTOR, COMMUNITY ORIENTED POLICING SERVICES

                    Opening Remarks of Chairman Wolf

    Mr. Wolf [presiding]. Good morning. The hearing will come 
to order.
    I want to welcome, Assistant Attorney General Daniels and 
Director Carl Peed, whom I have known for a long, long time for 
appearing before the Subcommittee this morning to discuss the 
Department of Justice fiscal year 2004 budget request for State 
and Local Law Enforcement Assistance Programs.
    OJP and COPS administer a variety of grants and programs 
that can have significant impact on the safety and well being 
of families and communities across the nation. These programs 
support critical law enforcement activities, including 
juvenile-delinquency prevention, law-enforcement hiring and 
overtime, drug-abuse prevention, intelligence sharing and 
communications initiatives, the missing and exploited children 
program and assistance for victims of trafficking.
    This year's budget request reflects the transfer of the 
Office of Domestic Preparedness to the newly established 
Department of Homeland Security. We would like to thank the 
employees of the Office of Domestic Preparedness for their good 
work. I am sure they will fit in very well over into the 
Homeland Security.
    Since September 11 attacks, crime has increased across the 
country, and State and local governments are suffering from 
historic budget shortfalls. Yet, the Administration's fiscal 
year 2004 budget request proposes a $1.2 billion, or 34 percent 
reduction, in discretionary funding for successful State and 
local programs available for law enforcement.
    While the Subcommittee's allocation will be tight this 
year, we do want to ensure that sufficient resources are 
provided to prevent the continued growth in crimes such as 
murder and rape.
    I will also ask you several questions on what steps you are 
taking to ensure that OJP and COPS programs are complementary 
but not duplicative of first-responder programs proposed under 
the Department of Homeland Security. We need to ensure that 
State and local law enforcement agencies understand what 
programs are available to them throughout the Federal 
government and not just in the Department of Justice.
    With that I would like to recognize Mr. Serrano for any 
comments, and then I am going to run out and testify on an 
issue of hunger before the Agriculture Committee and Mr. Vitter 
will come to the chair.
    Mr. Serrano.

                 Opening Remarks of Congressman Serrano

    Mr. Serrano. Now I can attempt a coup on your gavel.
    [Laughter.]
    Mr. Wolf. That is a good one.
    Mr. Serrano. You are coming back?
    Mr. Wolf. Yes, I am coming back.
    Mr. Serrano. Okay, I look forward to that. Thank you, Mr. 
Chairman.
    Welcome Ms. Daniels and Mr. Peed. We talk a lot about the 
pressures facing first responders--now sometimes also called 
``first defenders'' or ``first protectors'' these days--and the 
problems many agencies are having stretching existing resources 
to cover the new demands for equipment, training, overtime and 
the like as the nation faces elevated terrorist threat levels.
    The New York City Police Department is a prime example, 
even if it is on a larger scale than most. The programs in your 
jurisdiction are where these agencies have traditionally turned 
for research, best practices, technical assistance and funding 
to strengthen their ability both to serve their people and to 
respond to extraordinary threats.
    I am troubled, then, by the budget request, which withdraws 
from OJP and COPS significant resources to offset the $3.5 
billion in not-really-new funding for first responder grants.
    I am also concerned with proposals to shuffle many of your 
programs within COPS and OJP, which will have the effect of 
reducing the visibility of programs like Violence Against Women 
that Congress has determined need that visibility, and to 
eliminate programs for which Congress has repeatedly 
demonstrated support.
    In any case, I look forward to your testimony and the 
conversation to follow, and I assure you that while I have some 
serious and deep questions I stand ready to join the chairman 
in helping you in any way that I can this coming session.
    Mr. Wolf. You are welcome to proceed as you see fit. Your 
full statements will appear in the record, you can read the 
entire statement, summarize, whatever you see it fit, but the 
full statements will appear in the record.
    Ms. Daniels. Thank you, Mr. Chairman. Do you want me--
    Mr. Peed. I will be happy to go first.
    Ms. Daniels. Feel free.

                    Director Peed's Opening Remarks

    Mr. Peed. Mr. Chairman, Congressman Serrano, members of the 
Committee, Subcommittee, thank you very much for inviting me 
here. I am pleased to be here on behalf of the Office of 
Community Oriented Policing Services, or COPS, as you know it, 
and since this is my first appearance before this Committee I 
would like to take a few minutes to share with you my 
background.
    For me law enforcement has been more than a career, it has 
been a way of life. My father, my grandfather, my father-in-
law, my brother, my brother-in-law, all have served in law 
enforcement.
    I served 25 years in the Fairfax County Sheriff's Office, 
the last 10 as the Sheriff. Most recently I served as the 
Director of Virginia's Department of Juvenile Justice.
    The legacy, this legacy of law enforcement services makes 
me proud to lead an organization that supports State and local 
law enforcement and tribal communities to reduce crime through 
community policing.

                          COPS 2003 RESOURCES

    As you know, this Committee included funding in the COPS FY 
2003 Appropriations Act that allows us to continue providing 
crime-fighting resources to American law-enforcement agencies 
while supporting their efforts to secure our homeland.
    This year COPS will award $200 million to hire community-
policing officers and school resource officers. To help 
American law enforcement agencies meet the challenges of 
policing a post-September 11th world, COPS will invest $60 
million of this funding in a new Homeland Security Overtime 
Program.
    COPS will work closely with Federal Emergency Management 
Administration (FEMA), National Institute of Justice (NIJ), 
National Institute of Standards and Technology (NIST) and 
others to administer a new Inter-Operability Communications 
Technology Program that helps neighboring law enforcement and 
public safety agencies to work together.
    We will make $35 million available to Indian country, to 
help Federally recognized tribes improve their law-enforcement 
infrastructure. COPS will provide $20 million in grants to 
further community policing and training and technical 
assistance this year, and will continue to fund innovative 
programs to help secure our homeland with community policing 
strategies.
    COPS will continue to support efforts to build trust 
between law-enforcement professionals and the communities they 
serve through our Police Integrity Program.
    We will secure our nation's schools by investing $15 
million in our School Safety Initiative. COPS will invest $57 
million to continue the fight against methamphetamine, and we 
will award $189 million in COPS Law Enforcement Technology 
Grants.
    As you know, COPS has a statutory obligation to advance 
community policing. For a number of years community-policing 
principles have helped reduce conventional crime.

                COPS FY 2004 PRESIDENT'S BUDGET REQUEST

    These same principles, likewise, will provide an effective 
response to the threat of terrorism. The President's Fiscal 
Year 2004 budget seeks $164 million for COPS. This request 
includes $50 million for the new COPS Information Technology 
Program, $30 million for Indian country, and $20 million to 
fund COPS methamphetamine and police-integrity programs.
    It also provides additional resources for advancing 
community policing, including $20 million to deliver training 
and technical assistance to state and local law enforcement.

       STATE OF THE ART CRIME-FIGHTING TECHNOLOGY AND STRATEGIES

    COPS supports the creation of new crime-fighting strategies 
through our national network of Regional Community Policing 
Institutes, or RCPIs. These RCPIs provide training and 
technical assistance to law enforcement professionals, local 
government leaders and citizens all over the country.
    So far, the RCPI network has trained over 210,000 law 
enforcement professionals and community leaders. The COPS 
office will continue to work closely with our Federal partners 
to ensure that the training we support delivers the most 
comprehensive and consistent information available, especially 
as it relates to homeland security.
    COPS continues to respond to the pressing technology needs 
of American law enforcement. More than $1 billion from COPS 
technology funding has enabled State, local and tribal law 
enforcement agencies to purchase the state-of-the-art crime-
fighting technology.
    This funding not only helps law enforcement combat 
traditional crime, it also helps meet the many new challenges 
of securing our homeland. St. Louis, Missouri, for example, 
used COPS funding to help build Project Safe City.
    Safe City offers citizens on-line access to crime-mapping 
tools, and helps law enforcement share information between 
local agencies through technology and partnerships with federal 
law enforcement agencies like the FBI.

                        FY 2004 BUDGET PROPOSALS

    The President's FY 2004 budget proposes a new info-tech 
program for COPS that funds time-saving technologies that help 
move law enforcement professionals from behind the desk out 
into their communities.
    COPS new Inter Operable Communications Technology Program 
helps these departments not only work more effectively 
internally, but also helps them work closely with other 
agencies.
    One of America's most historically under-served communities 
is our Native American population. Because many tribal lands 
span not only interstate but international boundaries, these 
areas need greater law enforcement assistance.
    COPS has contributed more than $200 million to combat crime 
and disorder in Native American communities by funding 233 
federally recognized tribes.
    Another way that COPS helps advance community policing is 
by working to have law enforcement professionals build a 
culture of integrity within their own ranks and demonstrating 
this commitment to the communities they serve.
    This will be the third-consecutive year that COPS has 
invested $17 million in American law enforcement agencies that 
want to change their organizations to better institutionalize 
community policing.
    Increasing the level of trust between law enforcement and 
the community greatly increases the amount of information 
community members bring forward. COPS currently funds a wide 
variety of projects that help law enforcement agencies build 
trust and mutual respect with the communities they serve, which 
the President's 2004 budget will continue.
    Finally, COPS has dedicated more than $200 million to help 
law enforcement and their partner organizations fight 
methamphetamine. And 2004 requests will add $20 million next 
year to continue that effort.
    Community-policing strategies help American law enforcement 
agencies reduce crime by engaging their communities and gaining 
partnerships to meet new and existing challenges. These 
agencies are now finding out how well their strategies can 
secure our homeland.
    The men and women of law enforcement dedicate not only 
their careers, but their lives to keeping America safe. As the 
first to respond to the tragic events of September 11th, 2001, 
they reminded us all that they place themselves in harm's way 
every time they don their uniforms.
    COPS looks forward to continuing to support them by 
advancing community policing so that they can meet their ever-
growing challenges they face in 2003 and beyond.
    And I would be happy to answer any questions.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
        
    Mr. Wolf. Thank you, Mr. Peed.
                                         Wednesday, March 26, 2003.

                       OFFICE OF JUSTICE PROGRAMS

                                WITNESS

DEBORAH J. DANIELS, ASSISTANT ATTORNEY GENERAL OFFICE OF JUSTICE 
    PROGRAMS

Opening Remarks of Ms. D.J. Daniels, Assistant Attorney General Office 
                          of Justice Programs

    Ms. Daniels. Thank you, Mr. Chairman. And thanks to the 
members of the Committee who are here today. It is an honor for 
me to be with you, Chairman Wolf, and Congressman Serrano--to 
present the Administration's budget request for the Office of 
Justice Programs.
    It is important for me to begin, I think, by reiterating 
what the Attorney General stated before this Committee several 
weeks ago. And I quote him, ``The first and overarching 
priority of this budget and the Department of Justice is the 
protection of American freedom, the protection of Americans in 
exercising that freedom from acts of terrorism, and of course 
to bring justice to terrorists.''
    Thank you for all of your assistance to the Department of 
Justice. It allows us to confront the threat of terrorism as 
well as to detect, to disrupt and destroy terrorism.
    During the past decade, the Office of Justice Program 
(OJP), has experienced extraordinary growth and change since 
the passage of the Crime Bill in 1994. OJP has added four 
program offices, expanded its focus from 14 to 43 major budget 
activities, and increased by 1,300 percent the number of grants 
awarded annually, as well as experiencing more than a five-fold 
increase in the total dollar amount of awards of administered.
    This period of growth has greatly increased the ability of 
OJP to drive and support improvements throughout the system. 
However, as this committee particularly has noted in the past, 
the piecemeal fashion in which organizational and programmatic 
changes have occurred has resulted in a wide range of 
management challenges.

                      OJP'S REORGANIZATION EFFORTS

    Therefore, before I explain the fiscal year 2004 budget 
specifics after OJP, I first want to update you on OJP's 
reorganization efforts in which this Committee has been 
involved since the 1998 Appropriations Act. OJP has begun, and 
in some cases made great progress, in implementing our 
reorganization.
    In 2001, we began reorganizing and streamlining through a 
reorganization plan that was submitted to this Committee. This 
reorganization has already resulted in a consolidation of 
overlapping functions, reduced management redundancy, improved 
coordination and communication, not only within OJP, but also 
with the field.
    The reorganization has also transformed OJP's grant 
processing, moving our process from a labor-intensive paper 
process to a centralized, paperless system through which now 84 
percent of our grants are now processed.
    By the end of fiscal 2003, we expect to administer all 
OJP's grants electronically. Within less than 18 months, we 
expect a cradle-to-grave award-and-management electronic 
system, which will be most helpful.
    I will soon be working to merge the program functions and 
staff of the Executive Office for Weed and Seed, the American 
Indian and Alaska Native Affairs Desk into a new Community-
Capacity Development Office.
    At OJP, we know that the vast majority of work-related 
criminal justice, delinquency prevention, victim assistance 
activities have handled at the local level. We are excited 
about the opportunity to establish the Community Capacity 
Development Office, which will allow us to concentrate on 
helping communities and organizations build their capacity to 
address these issues and sustain their work in progress.
    We are also making progress in the business of serving our 
customers. The Bureau of Justice Statistics continues to 
present trends through user-friendly tools such as Key Facts at 
a Glance.
    Our Guide to Federal Resources in Weed and Seed communities 
will improve sustainability by helping to identify other 
potential resources besides those in the Department of Justice 
for funding and training.
    The Bureau of Justice Assistances Guide to Grants is not 
only a good tool for Grantees, but will serve as a model for an 
OJP-wide Guide to Grants.
    The reorganization, streamlining and other successes that 
OJP has accomplished over the past few years have been achieved 
with the strong support and assistance of this Committee. And 
specifically your support of OJP's reorganization efforts has 
been vitally important and is greatly appreciated.

                         FY 2004 BUDGET REQUEST

    The Administration's fiscal year 2004 budget request for 
OJP's is $2.185 billion. The funds requested will help States, 
local communities and organizations across the country build on 
what we have learned through research and experience about what 
works in controlling crime.
    Communities will be able to maintain their momentum in 
finding ways to reduce and prevent crime, controlling drug 
abuse and trafficking, to meet the needs of the crime victims, 
and address problems such as gang violence, juvenile 
delinquency, and domestic violence.
    The President's overall budget request reflects the 
Administration's unwavering commitment to our State and local 
partners. The President's Budget includes over $3 billion for 
first responders. And out of this amount, no less than $500 
million will support State and local law enforcement anti-
terrorism efforts.
    This $500 million in the budget for the Department of 
Homeland Security is in addition to the fiscal year 2004 
request of $600 million for the proposed Justice Assistance 
Grants program. Through a variety of programs, OJP continues to 
work with communities to provide coordinated federal funding, 
training, technical assistance and information sharing to help 
communities combat crime. This effort involves the commitment 
of resources provided directly to local entities through 
programs such as our Weed and Seed Program under which we 
requested $58.265 million in fiscal 2004 for this program in 
the Justice Assistance Appropriation..
    As previously mentioned, we request $600 million for the 
Justice Assistance Grants program, which is a consolidation 
with the Local Law Enforcement Block Grant Program (LLEBG) and 
the Edward Byrne Formula Grant Program into a single grant 
program. Justice Assistance Grant funding would be distributed 
to both State and local governments. Of the total funds 
available, approximately 46 percent is intended to be provided 
in the form of direct awards to local jurisdictions with the 
remaining funds awarded to States.
    OJP also proposes that the more than 29 Byrne grant purpose 
areas and the seven LLEBG purpose areas be combined into a few 
very broad purpose areas: law enforcement, prosecution, court 
programs, drug treatment, planning evaluation, and technology 
improvement, which will encompass all of the existing purpose 
areas in both LLEBG and Byrne. Under this structure, local 
jurisdictions will be given more discretion than they currently 
have because they will be able to use their funding for broader 
purposes than those available under the existing LLEBG program.
    We are also recommending a $12 million increase in fiscal 
year 2004 to further expand the Regional Information Sharing 
System, or RISS. RISS is a multi-jurisdictional criminal 
intelligence sharing system operated by and for State and local 
law enforcement agencies. We are committed to sharing 
information and intelligence with our State and local law 
enforcement partners, with other Federal agencies and with the 
intelligence communities through RISS. Our goal is to collect 
and disseminate law enforcement and counterterrorism data 
quickly and effectively, to stop terrorists before they strike.
    The $12 million increase will further expand RISS' 
accessibility to State and local public safety agencies for the 
purpose of sharing terrorism alerts and related information.
    One of the most important initiatives in the President's 
Budget is the DNA Initiative. On March 11, Attorney General 
Ashcroft announced the President's commitment to a 
comprehensive strategy using DNA technology. DNA offers 
significant opportunities to ensure fairness in the criminal 
justice system, to help protect our citizens, and to enhance 
support for victims of crime. But its full potential can only 
be realized through a concentrated effort that improves current 
Federal and State DNA collection and analysis systems.
    To accomplish these goals, President Bush has proposed 
$232.6 million in Federal funding in fiscal year 2004, 
including $100.7 million in new funding for his initiative, 
Advancing Justice Through DNA Technology. And he has called for 
continuing this level of funding for five years, a total 
commitment of over $1 billion.
    The elements, of the DNA Initiative are to eliminate the 
backlogs of unanalyzed samples, which are huge, both the known 
offender samples and the crime scene samples, including rape 
kits; to enhance crime lab capacity both on the Federal and the 
State and local level for funding for automation; stimulating 
research and development so that we can develop faster and 
easier methods of conducting the tests, also in order to help 
the labs keep up with the load; training the criminal justice 
and medical communities to properly collect and use DNA 
evidence; using DNA to protect the innocent by providing post-
conviction testing and, finally, using DNA to identify missing 
persons.
    We firmly believe that through this comprehensive approach, 
we will vastly improve the criminal justice system's ability to 
swiftly apprehend and convict the guilty, to protect the 
innocent and to prevent the commission of additional crimes by 
repeat or serial offenders.

       MISSING AND EXPLOITED CHILDREN AND AMBER ALERT COORDINATOR

    The Administration's commitment to protecting children is 
clearly seen, not only in the DNA Initiative, but also in the 
$32.986 million request of the Missing and Exploited Children's 
Program and AMBER Alert. As you know, on October 2 of last 
year, the President issued a directive to the Attorney General 
to designate an AMBER Alert coordinator within the Department 
of Justice, which he did that same day by designating me to 
that position. It is an honor for me to serve in that capacity.
    The Missing and Exploited Children's Program collects 
statistics about missing children, identifies model programs, 
best practices and emerging technical information to keep 
ongoing training and technical assistance programs current.
    The AMBER Alert Program, as you may well know, is a 
voluntary collaboration between police departments and 
broadcasters through which emergency alerts are issued to 
notify the public about the abduction of children. The plan was 
created in 1996 in Texas after 9-year-old Amber Hagerman was, 
unfortunately, kidnapped and brutally murdered while she was 
riding her bicycle in Arlington, Texas.
    After her very tragic abduction and death, the AMBER Alert 
Program was implemented not only in Texas, but at this point 
has now been implemented in 88 jurisdictions across the 
country, statewide in 39 states, 10 more than even since 
October when I was appointed to this particular position, and 
has assisted in the recovery of nearly 50 children at this 
point.
    In fiscal year 2004, the President has requested $2.5 
million to develop a coordinated AMBER Alert network 
nationwide, provide training and other services to the law 
enforcement and broadcasting members of this important 
coalition. And we greatly appreciate this Committee's efforts 
in providing $2.5 million in fiscal year 2003, allowing us now 
to make significant headway on this project immediately. In 
addition to programs I have mentioned, OJP proposes $12.1 
million for the Internet Crimes Against Children (ICAC) Task 
Force Program. ICAC, as it is known, funds 35 regional task 
forces and 58 investigative satellites that work on child 
pornography and cyber enticement cases. These task forces and 
satellites involve the efforts of more than 160 State and local 
law enforcement agencies in 45 states.
    Since 1994, the Office on Violence Against Women has 
awarded more than $1 billion in grant funds to help communities 
increase support services for victims of domestic violence, 
sexual assault and stalking.
    During this Administration, and with your help, we have 
increased the annual budget to address these issues by $100 
million.
    For fiscal year 2004, the President's Budget includes 
$385.399 million for programs authorized by the Violence 
Against Women Act of 2000. These funds will continue to allow 
us to expand our ability to reach even more communities in 
need.
    Now Mr. Chairman, I know that an issue of extreme 
importance and concern that you share with this Administration 
is that of trafficking in persons. In fiscal year 2002, 
Congress provided OJP's Office for Victims of Crime $10 million 
for a discretionary grant program to ensure that trafficking 
victims are properly treated and given all of the benefits 
available to them under the 2000 Trafficking Victims' 
Protection Act.
    OVC has awarded the funds to organizations to strengthen 
collaborative networks to provide comprehensive services for 
trafficking victims. We will continue our efforts in this area 
with the $10 million you have graciously provided for this 
program in fiscal year 2003 Appropriations Act and will 
continue working the Department of State and others in the 
administration to address this issue.
    Mr. Chairman, my statement presents only a handful of OJP's 
priorities for fiscal year 2004. OJP also proposes to continue 
to support a comprehensive array of demonstration and training, 
technical assistance, research statistical analysis, 
information sharing and other programs and initiatives to 
enhance the capacity of states, local communities and 
organizations in preventing and responding to crime. OJP is 
committed to being a premier resource for the justice 
community.
    I assure you that I look forward to continuing our work 
together to ensure that OJP carries out its mission to the best 
of its ability.
    Thank you so much again for the opportunity to present 
OJP's fiscal year 2004 budget to the Committee. I, too, will be 
pleased to respond to any questions that members of the 
committee may have.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
                    FBI UNIFORM CRIME REPORTING PERCENTAGES

    Mr. Wolf. Well, thank you very much. As you were 
commenting, I was just thinking about a lot of different 
issues. Let me ask the first question and then follow up on a 
couple notes that I made.
    I am not speaking for the Committee--I am speaking for 
myself. The crime is increasing throughout the country. The 
FBI's Uniformed Crime Report released in December reports that 
from January 2002 to June 2002, crime increased by 1.3 percent 
when compared to the same period in 2001.
    This includes a 2.3 percent increase in murders. And when 
we use percentages, it is almost cold-hearted. I mean, how many 
people is that? How many people are murdered in the country 
every year?
    Ms. Daniels. I probably cannot give you that exact number 
at this moment, sir.
    Mr. Wolf. Mr. Peed, do you know?
    Mr. Peed. Not the exact number, no, sir.
    Mr. Wolf. Well, if we can get for the record how many 
people are murdered every year and how many more this would be. 
And I think we clinically talk about this like it is a 
percentage. But every time, the pain and the suffering and the 
agony in that family and--is overwhelming.
    So it is just not a little kind of up tick and not that 
bad. They are people.

                          DIVERTING RESOURCES

    At the same time, the FBI is diverting resources which this 
Committee has supported. I think Director Mueller has done an 
outstanding job. I commend Attorney General Ashcroft on the 
reforming of the FBI. Director Mueller was here yesterday and a 
bipartisan group explained what has been done.
    But the FBI is diverting resources away from the 
traditional crime fighting to strengthen its counter terrorism 
capabilities. Five-hundred-and-fifty-seven agents were taken 
off the streets that were involved in drug investigations.
    Obviously, they were doing a great job, and if you transfer 
them, then you have a vacuum. And DEA has not requested 
additional funds. It is just like if you took 557 people off of 
the highways who are mowing grass in the State of Virginia, you 
would have more grass growing.
    These agents were doing a good job, but you have taken 557 
off drug cases it has an impact. However, Director Mueller I 
think did it for the right reason.
    So it is really difficult to understand why the budget 
request dramatically decreases funding available for State and 
local law enforcement systems.
    The reduction is $1.2 billion, 34 percent. And you know 
what struck me, the Administration is going to send a 
supplemental request of $1 billion, the same amount as the 
proposed reduction to go to Turkey. For what?
    What has Turkey done?
    I support the President strongly on what he is doing with 
regard to Iraq but what has Turkey done to get a $1 billion? I 
can tell you what they have done to hurt the United States and 
put in jeopardy young men and women.
    I would say to Carl Peed, and let the record show, Carl and 
I have known each other and are good friends. But I was out in 
the Shenandoah Valley two weeks ago with Sheriff Armatrot, and 
they are concerned about the growing increase in amphetamine 
labs in Shenandoah County. This is Skyline Drive--Blue Ridge 
Mountains. You just do not find methamphetamine labs in 
Shenandoah County. And yet, they are in Shenandoah County.
    So the local law enforcement people see this, and they are 
having a hard time dealing with it. And in order to keep the 
overall budget request, the Administration will sometimes 
propose eliminating these successful programs that have strong 
Congressional support in order to fund other priorities, 
knowing that Congress will restore them. However, that may not 
be possible in this year.
    I support this Administration on almost all the other 
issues. And I know you are up here representing the 
Administration, and do not take it personally, but how will the 
proposed budget for OJP and COPS address the increase of crimes 
such as murder and rape? How will they?

                              BUDGET CUTS

    Ms. Daniels. Actually, if I might respond to that, Mr. 
Chairman, I think the most exciting thing we have to offer, and 
the thing that will really advance law enforcement by leaps and 
bounds in terms of specifically rape and murder--is this DNA 
issue.
    That is why we have been laboring over this for many 
months----
    Mr. Wolf. I agree with you on that. I commend you. But 
overall, I do not think a cut of $1.2 billion can be sustained. 
I mean, you could have increased funding for DNA and not had 
the cut.
    And if you juxtaposition it with a billion dollars for 
Turkey, and Egypt, which has anti-Semitic writings in all their 
newspapers, blasting the United States government, and funds 
are requested in the supplemental for Egypt. So this troubles 
me.
    I think the record should show, I personally do not believe 
that you can cut funding by 34 percent and still help local law 
enforcement. And This budget proposal troubles me.

                    NON-ISSUES OF THE ADMINISTRATION

    As a compassionate conservative--there is no question that 
I am a conservative and in many respects, maybe more than most 
in my party. Because I am a little frustrated that my party 
will not get active in some of the issues that I think are 
really conservative issues.
    Stamping out gambling. I have heard this Administration say 
nothing about gambling. The silence is deafening. Mr. Peed, you 
talk about Indian country--Indian country is awash with 
gambling. It is breaking up families, it is creating 
corruption. We will have a wave of corruption in this country. 
But I do not really hear anything.
    I have sent letters down to the Administration on this 
issue until I could literally paper my family room with them. 
My family room--not my downstairs bathroom--and I never get a 
response to them.
    This is a crime issue. This is an important, compassionate 
conservative issue.
    The other issue is videos. ``Touched By An Angel'' did a 
television show three weeks ago, or two weeks ago, about young 
kids that are buying these video games like ``Grand Theft 
Auto.'' They showed abusive violence. I have never heard the 
Administration speak out on the issue of violent video games.
    Now there is a powerful video game interest with a lot of 
powerful lobbyists.
    So, when I am going to go testify. And I was just going to 
recognize Mr. Serrano.
    I would hope that Mr. Rogers would pick up on the 
OxyContin. OxyContin is impacting my State. The prosecutor--and 
one of the prosecutors in Prince William County has now pled 
guilty and is going to jail for the use of OxyContin--in Prince 
William County. That is where the First Battle of Manassas, 
Second Battle of Manassas--who would think that OxyContin abuse 
could take place there?
    And yet, this Administration has never said anything about 
OxyContin. The Food and Drug Administration has allowed it to 
be used for moderate pain. And yet, when this Baltimore Orioles 
player took that weight-reduction drug, and I commend the 
Administration for acting so fast. But he was a powerful 
person. He was a Baltimore Orioles player. It got on television 
and the FDA took action.
    But the pain and suffering that is coming in families from 
OxyContin, now in my district, the robbery in the Plains 
Pharmacy, the six robberies now out in Loudoun County. And I 
hear this Administration say nothing about OxyContin.
    Not only do they say nothing, when given an opportunity, 
Secretary Thompson could say we are no longer going to allow it 
for moderate pain. It can be a miracle, drug.
    But for severe pain, but not for moderate pain. As I told 
the Committee the other day, moderate pain is what I have when 
I am working and cutting wood in my property. My back bothers 
me, but I take Motrin.
    And the Administration has been silent. Yet they moved on 
that diet drug, which I commend them, but have been silent on 
the issue of OxyContin. And I believe--and I recognize Mr. 
Serrano--it may be because powerful interests have been hired 
to represent the company that is making it, Purdue 
Pharmaceuticals. So I think we need to be consistent and speak 
about evil all over.
    And the war on terrorism, which I support, because 30 
people from my district died at the Pentagon. But 20,000 
people, the DEA guy said the other day, died in the war on 
drugs and we are not saying very much about the war on drugs. 
And OxyContin is part of that war on drugs.
    So I will recognize Mr. Serrano and then I will be back and 
we will cover this and other issues but I think the 
Administration has to talk about and provide funding to address 
some of these issues. Man does not live by bread alone. It only 
is not the money you have, but it is speaking out and taking 
moral leadership.
    The Administration has not spoken out on gambling. Has not. 
Has not. Has not on OxyContin. Has not. And has not on violent 
video games.
    I would ask both of you to--if you do not have a copy, I 
will get it to you--go buy ``Grand Theft Auto'' and watch it. 
And violence and violence against women, and yet nobody from 
the administration ever speaks out on these violent, violent 
video games.
    Mr. Serrano.

                   CUTS TO STATE AND LOCAL ASSISTANCE

    Mr. Serrano. Thank you, Mr. Chairman.
    Once again, welcome.
    It is really not my place as the ranking member, but we 
should have told you that when you come before a Subcommittee 
that handles the State Department and the Justice Department, 
we do discuss national and international issues at the same 
time as budget issues.
    And it is important to tie them in because I agree--in 
fact, my first question and my first comment the Chairman 
already asked in one way and I am going to try to approach it 
in another way.
    And that is our concern that dollars are being spent on 
other things when you--both of you represent areas where more 
and more dollars should be spent and where I would not in any 
way apologize for spending dollars.
    I do disagree with the chairman only on one thing. Or I 
want to add something to it. He has a very serious concern 
about dealing with crime in this country and about young people 
on the whole issue of the violence shown in video games.
    My problem is that I am watching a lot of TV this week 
which might make a lot of young people think that perhaps war 
is a solution. I wonder is it not just as bad to have adults 
respond to political issues through the use of violence? I 
would like to have a hearing that asks both questions. What do 
videos do to the violence in our community? And what does war 
on TV do to young people's acceptance of violence as a way of 
solving problems?
    Getting to my point, I am deeply concerned about the cuts 
to State and local-enforcement assistance laid out in the 
President's 2004 budget. While I am sympathetic to the need to 
streamline programs and reduce duplication, this budget does 
not seem to recognize the plight of local governments.
    States are experiencing unprecedented shortfalls. Local law 
enforcement is feeling this pain at a time when crime is on the 
increase. According to the numbers we have, serious crime is up 
2.1 percent, the first increase since 1991. Violent crime in 
2001 rose by 0.8 percent over 2000. Robberies increased 3.7 
percent. Murders rose 2.5 percent. Forcible rapes increased in 
volume. Property crimes were up 2.3 percent. Motor vehicle 
thefts increased 5.7 percent. Burglaries rose 2.9 percent.
    In addition--and this is something that really worries me 
and something I have talked with the FBI a lot on--law 
enforcement has been asked to take a greater homeland security 
role. This creates a problem for agencies like the FBI and DEA; 
feeling pressures of their own, they are now proposing to pull 
back from many areas that directly impact State and local law 
enforcement.
    So, have either of your agencies done any type of 
assessment of current State and local funding of program needs? 
If so, what were the results? And if not, why not?
    Secondly, how can you responsibly propose to make cuts this 
deep?
    And, lastly, have you done any assessment as to the 
possible impact of these cuts on law enforcement efforts?

                 FEDERAL LAW ENFORCEMENT ORGANIZATIONS

    Ms. Daniels. I think, if I may, Congressman, Carl and I 
have been collaborating on a project with a consortium of law 
enforcement associations--the International Association of 
Chiefs of Police, the Police Foundation, National Organization 
of Black Law Enforcement Executives NOBLE, a group of these 
organizations--to talk about how we can help State and local 
law enforcement by identifying the ways in which police 
organizations around the country have in a creative way dealt 
with multi-jurisdictional cases, more complex drug cases, white 
collar crime--the sorts of things that the FBI has previously 
been helpful with and may not be able--and this is of course on 
a district by district basis depending on what is going on at 
the time in that district--may not be able always to be as 
helpful as they have before, because of what you and the 
Chairman have made reference to.
    So what we are attempting to do with these groups is to 
identify the areas in which State and local law enforcement 
might benefit by best practices information. And provide that 
kind of information, so that they can figure out how and when 
the Federal Bureau of Investigation FBI is not there to help, 
or cannot put as many agents on as previously, how they can, 
you know, in a creative and collaborative fashion handle some 
of these cases.
    So, we are attempting to assist State and local law 
enforcement in that particular area.

                       BUDGET PROPOSALS AND CUTS

    Mr. Serrano. Well, I appreciate that. But one of the things 
that I would hope you carry back to the folks who make 
decisions about what kind of budgets to propose and what cuts, 
to propose is--take, for instance--and I use New York City as 
an example, one, because it is where I come from; two, because 
it was the scene of the crime of the attack on America; and 
three, it continues, in the minds of a lot of people here and I 
imagine overseas, to be the number one target. If you want to 
hurt this country, you hit big cities. And you not only kill 
people, but you embarrass, you create attention. That is why it 
happened to New York, for no other reason I am sure.
    When I left Monday, the police in New York were on the 
street along with the National Guard. This is 24-hour-a-day, 
seven-day-a-week situation for them. Now because of the war, it 
is even worse. When the baseball season starts next week, 
Yankee Stadium and Shea Stadium will have to be guarded like 
nothing before. And this is a physical and a monetary drain.
    So I just for the life of me--and I think this is what 
Chairman Wolf was getting to--I cannot see why folks like you 
would ever be cut now. I mean, if there was ever a time for you 
to have more dollars to do more work, it would be now because 
we have all these folks on the street doing more, even things 
they did not do before, we have the FBI pulling back, and then 
we are not going to have you with the ability to do the work 
you need to do.
    Ms. Daniels. I know Carl has plenty to say on this too, but 
let me just chime in, Congressman, that the Administration is 
obviously very concerned about all these issues. Difficult 
budgetary choices have to be made.
    We know that State and local law enforcement have new 
responsibilities in counter terrorism, and it is critical to 
help them meet them. The things that you have described such as 
having to secure Yankee Stadium and the like are going to 
require attention to the counter terrorism side of this ledger. 
And that is funding that is being requested in the President's 
Budget, but it is being requested in a different department. 
But it is going to go to state and local law enforcement.
    I might point out that the Office for Domestic Preparedness 
ODP, which was at the Office of Justice Programs OJP until 
March 1, has now transferred to the Department of Homeland 
Security is made up of people who come from OJP, actually who 
were in the Bureau of Justice Assistance BJA, many of them, 
before they went to ODP. ODP will understand the multiple needs 
of law enforcement. We are also working very closely with ODP 
to manage their grants so that we do not drop any stitches.
    In fact, we have promised them that we will turn their 
grants around in 10 days. From the time they are able to make 
decisions about them, we will get them through the process and 
they will get them out the door immediately. So that money will 
be getting out to State and local law enforcement, specifically 
to deal with the issues you mentioned.
    I am sorry, Carl, go ahead.
    Mr. Peed. You mention a needs assessment. And while there 
has not really been a needs assessment from our organization, 
we have had some meetings I think that you might want to hear 
about.

          POST 9/11 MEETING WITH LAW ENFORCEMENT ORGANIZATIONS

    My first meeting following 9/11--I called to my office the 
groups that Deborah talks about--the International Association 
of Chiefs of Police, the National Sheriff's Association, the 
NOBLE, the National Organization of Black Law Enforcement 
Executives, the PERF, Police Executive Research Forum and the 
foundation, the Police Foundation. I called those leaders into 
my office on September the 19th, and my question to them was, 
what can my office do, the COPS office do to help in the war on 
terrorism, and how can we help protect America?
    The response to me on September the 19th was that community 
policing is more important today than ever before. And so I 
felt like we had an obligation to continue those things that we 
had always done.
    I am talking about partnerships, problem solving, 
prevention, proactive policing, and public participation. So we 
have continued in that role. That is our mission, and we have 
continued it.
    The second meeting I called about a month later was a Chief 
Executive Officer's, the CEO, what we call our CEO Symposium. 
We invited about 50 chiefs from across the country back to 
Washington.
    They had met back in August to talk about the emerging 
needs of law enforcement, and we called them back about October 
for a review of what they had consulted on in August before I 
got there to see how they would respond to a post-9/11.
    We talked about issues like training, and we have our 
Regional Community Policing Institutes that we have trained in 
excess of 200,000 and we are geared and will continue to 
collaborate with people like OJP to deliver things like the DNA 
training, the Project Safe Neighborhoods Training that the 
President and the Attorney General have proposed.
    We have funded the Police Executive Research Forum to 
conduct a post-9/11--what is it like for police today in a 
post-9/11 environment?
    I would agree with the Chairman that Director Mueller is 
just doing a fantastic job in changing the FBI.
    One of their changes is the FBI has created State and local 
law-enforcement coordination effort. They are starting to, and 
I believe, doing a better job of sharing information, of 
partnering not only with the 18,000 law enforcement 
organizations out there.
    So, while we do not have a needs assessment, I think in the 
last year the FBI's made tremendous progress. I think the 
Attorney General's office, the Justice Department, are just 
doing a super job of doing what we can do within the resources 
we have.

                          SUPPLEMENTAL FUNDING

    Mr. Serrano. Well, Mr. Vitter, I know that we have quite a 
few members here who want to speak, so I am not going to abuse 
my position on this Subcommittee, but, every opportunity we 
get, at any hearing, we have to say what we feel about these 
things. Chairman Wolf had brought the point out about the 
expenditures and where we are going.
    In closing let me tell you, I still represent the poorest 
Congressional district in the nation, not followed too far, 
incidentally, by Chairman Rogers, who represents a different 
kind of a district with some very deep, serious pockets of 
poverty.
    And this morning I saw some of that violent video I talked 
about, telling me that we are going to knock out hundreds of 
bridges but already plan to rebuild with the third supplemental 
that will cover the war.
    And I personally resent the fact that I cannot get a new 
housing development in the South Bronx but we are going to be 
rebuilding Iraq, and if we know we are going to do that I do 
not know why we are knocking it out now.
    But that is another issue. So for the record, I hope Mr. 
Sweeney will join me in getting some of that supplemental for 
New York rather than to rebuild Iraq later on.
    Thank you, Mr. Chairman.
    Mr. Wolf. Thank you, Mr. Serrano.
    Mr. Rogers.

                     COORDINATION OF GRANT FUNDING

    Mr. Rogers. Thank you, Mr. Chairman. I want to follow up on 
a point that you earlier made about the coordination between 
ODP and OJP.
    We have got--the President's Budget has $3.5 billion for 
first-responders grants, and of that amount no less than $500 
million is proposed for State and local law-enforcement anti-
terrorism efforts, which presumably would come from the 
Homeland Security Bill.
    And then there is $600 million in the Justice Assistance 
Grant Program that you have for State and local law enforcement 
through OJP. Tell me the difference?
    Ms. Daniels. The difference is, Congressman, that the money 
that we have available through OJP is very broad-based. The 
Justice Assistance Grants that we proposed, which is the merger 
of Byrne and Local Law Enforcement Block Grants with the 
broader purpose areas, permits law enforcement to do a number 
of things.
    It is important to have that funding available, but at the 
same time many of the things that they will do in counter-
terrorism are, frankly, dual purpose.
    So we are gratified that in the authorization bill for the 
Department of Homeland Security, and again, then, in the 
President's Budget there is a reservation of no less than $500 
million specifically to go to State and local law enforcement 
for counter-terrorism activities, which is a very broad-purpose 
area in itself.
    That gives them $1.1 billion for law enforcement 
activities, including counter-terrorism activities. Now, there 
is another $3 billion in that budget proposal for counter-
terrorism and for first responders, so the $500 million is a 
minimum figure.
    I fully expect that to be greater.
    Mr. Rogers. How are you coordinating between the two? I 
know the generalities of which you speak, but how are you going 
to coordinate ODP and OJP grants?
    Suppose a police force applies for both. Are you going to 
know that they have tried to get both of them?
    Ms. Daniels. Yes, sir, and that is very important to us. As 
a matter of fact, that is one of the reasons I mentioned that 
we work so closely with ODP----
    Mr. Rogers. Tell me how are you working closely with them?
    Ms. Daniels. We are intimately involved with every grant 
they are going to issue, and so we will be seeing who gets 
grants for what purpose so that we can better manage our other 
grants.
    Mr. Rogers. Take me to the bottom line here real quick. Who 
is going to decide those things, and how do you coordinate 
that? Just a plain old, simple question.
    Ms. Daniels. We meet regularly with the leadership of ODP. 
As I have said, every grant that they award will be fully known 
to us, because we are managing all those grants. We are 
actually awarding them for them.
    Now, they will make the decisions on who gets them, and for 
what purpose, but we have all that information. We will, in 
turn, be sharing our information directly with them through our 
budget personnel and our program personnel, so that before we 
make discretionary awards, as opposed to formula awards--which 
are, as you know, distributed on a formula basis to the States, 
and the States then make the determination on how they spend 
that money.
    No, but, as we make any discretionary awards, they will be 
fully aware. And before we make them, we will make sure they 
are not duplicative of anything that they are doing.
    Mr. Peed. If I could just follow up on that. We have a very 
small portion of the funds that we are working on with the 
Office of Domestic Preparedness, and FEMA. And we met yesterday 
to resolve that very same issue that you are referring to.
    Our funds are for interoperability. FEMA offers grants to 
fire departments. We provide grants to law enforcement. We have 
had three meetings already to do exactly what you want. And 
that is to make sure they are coordinated.
    So, we are developing process and we are going to share the 
final decision. People like myself never will make final 
decisions, but they are going to be providing what has been 
called the input.
    Yesterday, we agreed to create a national clearinghouse in 
Deborah's shop, NIJ and their Advanced Generation of 
Interoperations for Law Enforcement AGILE program, so we can 
understand where all the radio communications are going. 
Therefore, everybody will know who is getting what grants and 
where they are going.

                               OXYCONTIN

    Mr. Rogers. Well, we expect you to keep an eye on that. 
Because we are not going to have enough money in either account 
or anybody else's accounts to adequately reimburse local 
responders. So every penny that we can muster toward that cost 
to prevent and preventing duplication and waste is very 
important.
    Now, I, too, am concerned about the reductions. At a time 
when the FBI's mission has been changed away from crime to 
terrorism prevention, no one can argue with that. But the net 
result is we have got a vacuum in the crime fighting.
    And at a time when insidious drugs are, in many cases in my 
area, taking over. I have got some communities and counties 
that have been practically taken over by the drug cartel. Small 
counties with a lack of resources. And the young people, 
especially, are dying.
    I mean, this OxyContin prescription drug diversion mess is 
absolutely horrendous. I have never seen anything like it. And 
we have had dozens of people die. And we are helpless. We 
cannot get the FBI involved in it. The DEA is absolutely 
outmanned. And the local police forces are inadequate. Drug 
treatment centers are flooded.
    And out of desperation, we are going to announce early next 
month the creation of our own law enforcement task forces. I 
mean, it is almost like the Wild West.
    But we have no choice. We are organizing on our own a thing 
called Project UNITE: Unlawful Narcotics, Investigations, 
Treatment and Education. And we will involve thousands of 
people in that. We will organize the law enforcement resources 
we have to share across county lines, and we will go into the 
schools and try to educate the people and the kids about the 
insidious nature of these drugs.
    But that should--we should not have to do that. For God's 
sakes, that is why the Federal government is supposed to be 
there. And yet we see you drastically cutting back on aid to 
these very people that are in most desperate need, and that is 
the State and local--particularly local--police forces and the 
like.
    But I am a voice in the wilderness crying for help, and I 
am getting from you the words, ``Sorry.'' Is that right?
    Ms. Daniels. Congressman, I do not think we are just 
saying, ``Sorry.'' I think it is quite clear that our mission 
at the Federal level is to build the capacity of local law 
enforcement--not to do their job for them, because they do 97 
percent of the work done in law enforcement in this country. 
Federal law enforcement is never going to be able to take the 
place of local law enforcement.
    The best thing that we can do, Carl and I, in our 
respective positions, particularly, is to help build the 
capacity, provide training and technical assistance, actually 
the development of task forces on the local level and the 
education of kids in schools is exactly what should be 
happening.
    And I think that with the funding that this committee has 
given us, we are managing this for DEA--to deal with the 
OxyContin matter. There's $2 million in the 2002 budget and 
$7.5 in the 2003 budget. We will be able to help build those 
kinds of task forces around the country because it is going to 
have to be on the front lines that those issues are dealt with. 
We can provide that back-up support, but we will never be able 
to take it over.
    Mr. Rogers. There are a couple of things I think you can 
help on that would help us swim the river, the tide against 
which we are swimming.
    And the chairman, Chairman Wolf, mentioned it briefly 
earlier. And that is the loose prescription practices for the 
painkiller OxyContin, which is a wonderful drug. It is a 24-
hour time-release drug that the young people are crushing and 
destroying the time mechanism so that you get the whole shot 
all of a sudden.
    And many doctors are prescribing these things by the 
zillions. And so there is a river out there of that particular 
drug, along with Percocet and others. And yet the FDA refuses 
to try to tighten down on how it can be prescribed.
    As the Chairman says, it should be limited to severe pain. 
And that is what it was designed to do. And yet it is being 
prescribed, allowed to be prescribed, for anything from a 
thumbnail problem to an itch in the eye.
    Why can you not approach FDA and say, ``Give us a break.'' 
What do you think?
    Ms. Daniels. I think we can certainly carry that message 
back. And I think it is a good message. I am a former United 
States Attorney myself, and I saw some of the difficulties in 
going after pharmacists and physicians who either would be 
taken advantage of or would collaborate in disseminating these 
drugs.

                     PRESCRIPTION MONITORING SYSTEM

    Mr. Rogers. The State just prosecuted and convicted last 
week a medical doctor in one of those so-called pain clinics, 
at which the cars lined up outside in a drive through window 
for blocks.
    And this doctor had prescribed--I forgot the number. But he 
was prescribing like 160 people a day, OxyContin pills, I mean 
by the truck load. We are talking 40,000, 50,000 in a short 
span of time.
    And finally, they caught him and prosecuted him and he was 
convicted.
    But I can repeat that story time and time again through 
that region and I suspect country wide and partly because the 
FDA--that doctor can prescribe those pills legally from 
anything from a sore finger to a black eye. And it is only 
these very severe cases like this doctor that we were able to 
get him.
    But we cannot fight upstream the numbers of these things 
coming at us. And the numbers can be tightly--or, better 
regulated by FDA.
    And yet they have so far refused to do that.
    Chairman Wolf and I and others are going to stay on top of 
them until we get that changed. But it would--it needs to be 
done by those of you in law enforcement who know what the 
problem is. That is one thing. That is A.
    B, most states do not yet have a prescription-monitoring 
system where they can keep track of doctors or pharmacies or 
whatever who are filling spiked amounts of these drugs. So that 
it shows up real quick and you can move in on it. Kentucky 
fortunately has a system called CASPER, which does this very 
thing.
    We are trying to upgrade it to where it is real time. It is 
not real time now. It may take weeks before you see these 
developments. But we are trying to make it real time so it is 
instantaneous, and we can prevent double filling of 
prescriptions and we can monitor certain doctors or pharmacies 
who are obviously doing something outlandish.
    But other States have not done that. Our neighbor--we do it 
in Kentucky and then they go across the line and get a 
prescription filled in West Virginia, Tennessee or Virginia 
which does not have such a system.
    And this subcommittee, in the last two years now, has 
provided funds for State grants to put in those prescription-
monitoring systems. Several States have applied. Kentucky is 
trying to go real time with theirs.
    I do not even know who administers that grant program. Do 
you know?
    Ms. Daniels. That is the one that we are administering, 
sir. Right.
    Mr. Rogers. What have you seen in terms of other States 
applying for those funds?
    Ms. Daniels. Well, right now, as I understand it, there are 
nine States that are slated to receive awards in the 2002 
program. Kentucky is one who has already received its award and 
Pennsylvania is the other.
    In the 2003, we expect to expand that, but we are just 
getting that solicitation out the door. I think it went out 
already or we expect it go out by early April.
    I fully agree with you, this is very important. A dozen or 
more years ago, when I was U.S. Attorney in Indianapolis--I am 
from your neighboring State, Indiana--we were trying to set up 
just a triplicate prescription program so that we would be able 
to keep track of these. And you know, it was the 20th century 
version of what you are proposing now.
    I think it is very important, and we are going to work 
closely with DEA to maximize the effect of these dollars 
because I absolutely agree this is critical.
    Mr. Rogers. And what about the FDA? What do you think about 
the----
    Ms. Daniels. Well, I think that from a law enforcement 
perspective, the best that we can do is try to identify those 
outliers through an automated system such as the one you 
suggest and much as we do with Medicaid fraud and other sorts 
of things. You can catch those doctors or those pharmacists who 
clearly are over prescribing or over filling.
    From the FDA side, we can simply deliver a message back and 
suggest that our folks work closely with FDA to see if there 
are ways they could tighten at their end.

           METHAMPHETAMINE AND REDUCED FUNDING IN 2004 BUDGET

    Mr. Rogers. Well, I mean, downstream from the dam, we can 
fight this tide all we can. But if the flood gates are open up 
there, the chances of us being successful at preventing some 
flooding on the banks of the river downstream are very small. 
We have got to cut off that huge flood gate up there that the 
FDA is allowing these doctors to prescribe.
    The other thing that I wanted to mention is methamphetamine 
labs, which somebody else has mentioned already. These things 
are now a dime a dozen. I mean, every day in my local newspaper 
the police forces have seized another drug lab, meth lab. There 
are--I mean, these things are everywhere now and we are 
swamped. Law enforcement is swamped.
    I do not know what I am asking you here or what you can do 
about it. But I am just crying out in the wilderness for help.
    Mr. Peed. In the 2003 budget, we have $56 million to 
address methamphetamine issues. And we partner with DEA on a 
number of issues. In the president's 2004 budget, we have 
another $20 million to address methamphetamine issues.
    I know that it is sweeping the country. It is coming across 
the country rapidly. And up until a few years ago, I had never 
heard of methamphetamine. I was aware of OxyContin because of 
all the deaths caused by OxyContin down in Southwest Virginia 
when I was director of Juvenile Justice.
    I found out that meth is an easy--it is over-the-counter 
medications. And you find it in the back of cars and hotel 
rooms and garages. And I know that in Congressman Wolf's 
district, Winchester, or in that area up there, it led the 
State of Virginia last year in methamphetamine busts.
    I did not know much about it before two years ago. But I--
and you can talk to people in New York today, small agencies up 
in New York, they still do not know much about methamphetamine. 
They have never had a lab bust. It just has not gotten or made 
it that far east or that far north. But it is coming. It is 
coming.
    Mr. Rogers. You admit it's on the increase?
    Mr. Peed. Yes, sir.
    Mr. Rogers. Well, then why did you decrease funding request 
for it? Your methamphetamine is decreased by $55 million from 
2003 levels.
    Mr. Peed. The president has priorities. And I think 
homeland security is that priority and getting his limited 
resources.
    Mr. Rogers. Well, did you object to this? I mean, you have 
an input on the budget, on the request to OMB. What did you 
request OMB for this--for methamphetamines?
    Mr. Peed. Just the same thing that we requested in 2004, it 
was what had been requested in 2003.
    Mr. Rogers. So you asked for level funding in 2004, right?
    Mr. Peed. Level funding from what had been requested by 
OMB.
    Mr. Rogers. For methamphetamine?
    Mr. Peed. Yes, sir.
    Mr. Rogers. And so you asked for $55 million more than they 
gave you?
    Mr. Peed. We asked for 20, which was the same that had been 
requested by the president in 2003, as I understand it.
    Mr. Rogers. You asked for 20. Well, I am confused. What did 
you ask for in 2004 for methamphetamines?
    Mr. Peed. I am sorry, what was your question, Congressman?
    We have $20 million in 2004, that is--
    Mr. Rogers. You asked for 20 in 2004?
    Mr. Peed. Yes, sir.
    Mr. Rogers. Although we had given you 70?
    Mr. Peed. I am showing 56--56 in 2003.
    Mr. Rogers. Okay.
    Mr. Peed. Much of that was in the conference report.
    Mr. Rogers. Nevertheless--
    Mr. Peed. And we will be following any obligations that 
were in the conference report.
    Mr. Rogers. Nevertheless, your request is $55 million less 
than 2003 levels, correct?
    Mr. Peed. I do not think so. It is thirty less, 
Congressman, thirty less.
    Mr. Rogers. I am still confused. You asked for what figure?
    Mr. Peed. In 2004, we asked for twenty.
    Mr. Rogers. For twenty?
    Mr. Peed. Yes, sir.
    Mr. Rogers. And what did you have in 2003?
    Mr. Peed. In 2003, we had a total of $56 million--$56.7 
million. Much of that was included in the conference report.
    Mr. Rogers. So you are asking $30-something million less 
than you have now.
    Mr. Peed. Yes, sir.
    Mr. Rogers. How can you justify that?
    Mr. Peed. That is the--that is what OMB and the office had 
worked--the numbers that worked out.
    Mr. Rogers. So you really had no choice in it?
    Mr. Peed. Limited.
    Mr. Rogers. Well, if you had a chance at all, would you 
have asked for more?
    Mr. Peed. I think there is a need based upon the 
methamphetamine issues that I am seeing sweeping the country.
    Mr. Rogers. Well, I doubt this subcommittee is going to go 
along with--like last year we did not. I mean, methamphetamine 
is taking us over.
    So if you will get the FDA to cut off the supply of 
OxyContin and if you will come to your senses on funding for 
fighting methamphetamine labs, then you will all be forgiven.
    [Laughter.]

                           OXYCONTIN OVERDOSE

    Mr. Wolf. Thank you, Mr. Rogers.
    I am going to recognize Mr. Cramer. But neither of you 
ought to feel obstructed. I worked in a cabinet agency, I 
worked for Secretary Robert C.B. Wharton. We understand. You 
can look at the big picture. I think the frustrations, 
particularly of the Members that come from the regions that are 
now experiencing drug problems are with OMB.
    Winchester is an idyllic town of the plains. And I am 
seeing things that I never had seen before coming into this 
region.
    There was a hearing last year where we had the prosecutor, 
the DA from Lee County, Kim Humma. She said pretty much that 
there is not a family in Lee County--which is small, small 
county--but has not been impacted by OxyContin--either someone 
in the family is using it, or they were robbed, or a relative. 
And it has just, just spread.
    And then, I do not know, did you mention the young pastor?
    Mr. Rogers. No.
    Mr. Wolf. There was a pastor from Mr. Rogers' district, 
from Hazard, Kentucky. And he had a son. I can still recall it, 
because he wore a very electric blue color suit coat and he was 
sitting in the back.
    And the pastor was testifying--he had been invited by Mr. 
Rogers--about how it had devastated their area. But he was very 
proud of the son, because the son had just gone through a 
rehab, I think, in Indiana. It was a faith-based program.
    And he was very proud as you, would if your son had gone 
through. And the son then came up to the witness table.
    Two months or three months ago, the boy died.
    Mr. Rogers. Overdose.
    Mr. Wolf. Overdose. And the frightening thing is, I do not 
know of anyone we have asked who has ever gotten addicted to 
OxyContin and been rehabilitated.
    I think you would be negligent if you did not deal with 
this in your region because the war on terrorism is very 
important, but there is a war on terror in this country. There 
is agony and the pain and the suffering among families impact 
by oxy and meth.
    Mr. Serrano. Will the Chairman yield for a question?
    Mr. Wolf. Yes, Mr. Serrano and then Mr. Cramer
    Mr. Serrano. I just want to join both of you. As I have sat 
here over the last year-and-a-half or so hearing both Mr. 
Rogers and you, Mr. Wolf, speak to this issue, I am reminded of 
so many times when we in the Bronx and cities like LA and 
Detroit said, ``you know, there is a new drug on the scene. 
Stop it now.'' And people said: ``Well, you know, it will be 
okay,'' or whatever. And it was not okay. And when you look at 
areas like Watts, when you look at the South Side of Chicago 
and you look at the South Bronx, and you say, ``That is a tough 
neighborhood,'' you are really saying, ``That neighborhood has 
drugs.''
    Because if you get rid of the drugs, or reduce them, then 
crime immediately reduces itself and everything else, high-
school drop out rates and everything else that goes along with 
drugs is reduced.
    So I just want to say that for what I have to offer in this 
Committee, use me, my staff and my side of the aisle because I 
know what you are going through, I know what you are talking 
about, and I know your frustration at the fact that the 
government is not paying attention.
    And if I may be a little bold here in using the time you 
have given me, the difference is I think this time that this 
particular drug, which is affecting your communities and not 
mine yet, is produced by corporate America, and so people are 
trying to figure out how do you get rid of, or control a drug 
which is legal and has a lot of lobbyists for it, but is being 
used illegally?
    And the result is as bad as the crack cocaine sold in my 
neighborhood.

                ASSASSINATION CAUSED BY OXYCONTIN USAGE

    Mr. Rogers. Can you yield briefly? I really appreciate 
that, Mr. Serrano. But I know we all share the same problem, 
and I think this thing is all over the country and even in New 
York.
    But it comes home for us in smaller communities maybe more 
closely than it would in a large city. My home-town sheriff, a 
personal friend of years and years, 18-year veteran sheriff of 
Pulaski County, Kentucky, where I live, was assassinated by a 
young guy who was hooked on OxyContin.
    I had to speak at his funeral, it was 2,000 or 3,000 mainly 
police officers from around the country. It was one of the 
hardest things in my life to do.
    But that is how these things are reaching down to us, that 
this thing is out of hand. And we are not going to sit idly by 
here and watch this thing occur.
    We are going to make you do what you need to do, without us 
making you do it, and we need to do it quickly. And the thing 
you can do is get FDA to change their damn rules.

                              DRUG COURTS

    Ms. Daniels. If I may, Congressman, and Mr. Chairman, and 
Congressman Serrano, I know you have all raised this and 
another thing that I think that we can do is that we have 
requested a significant increase in drugcourts budget for 2004.
    So this is another tack. I mean, there are several fronts 
in this particular war, and I think another one is that the 
coercive power of the drug courts may be able to help deal with 
some of these serious, serious drug problems that people are 
experiencing on OxyContin, as well as other drugs.
    Mr. Rogers. I am really glad to hear that. That is one of 
the things that our united campaign is going to try to do. We 
have got the Chief Justice of the State working with us.
    And he--we are meeting with all the judges next month in 
about a third of the State to establish drug courts in every 
county. The problem the State of Kentucky has is they do not 
have any money, and----
    Ms. Daniels. On that, on that note, we will be happy to 
work with you on some of those issues. One of the other things 
that is in the President's Budget that I am aware of, because I 
have been trying to collaborate pretty closely with Charlie 
Curie, who is the head of SAMHSA, the Substance Abuse and 
Mental Health Services Administration at Health and Human 
Services HHS.
    There is, and it was mentioned in the President's State of 
the Union address that there would be a substantial request for 
treatment funding no matter where people are present in the 
system.
    So if they come through the drug courts that is one place 
they will be present, and our biggest problem with the drug 
courts has been finding the funding for treatment.
    So I think collaborating closely with SAMHSA, who is 
requesting this large amount of funding, I think it is at least 
a couple hundred million per year for a period of time, will go 
a long way toward that.
    And we would be happy to work with the Committee further on 
these issues.
    Mr. Rogers. Well, I will be happy to.
    Mr. Wolf. Well, I appreciate that. Mr. Cramer. Excuse me.

      IMPORTANCE OF COPS AND LOCAL LAW ENFORCEMENT GRANT PROGRAMS

    Mr. Cramer. Thank you, and I enjoyed the remarks of the 
Chairman, Mr. Rogers, the Chairman and the ranking member as 
well. I welcome both of you to this hearing.
    We are starved to have this kind of interaction 
collectively, but I want to congratulate both of you on the 
positions that you occupy. Ms. Daniels, you and I have known 
each other for a long time, we have been out there in the 
trenches together and fought a lot of battles together, so I 
think you are perfect for the position that you are in.
    Mr. Peed, I know by background of you, and I congratulate 
you, especially the fact that you have been a sheriff for a 
number of years in your prior life.
    Dave Buchanan, who is behind you there, has been enormously 
helpful to our office as we try to access programs that you 
preside over. Vonda Matthews, you are back there, too, and we 
thank you for that.
    The COPS Program is very important to local law enforcement 
in my area, so I am listening as well as our members weigh in 
on the issues that we face on the front lines in our 
communities.
    I want to start off by making a comment based on both your 
witness statements and your testimony here. The COPS Program is 
valuable because of what it does, but it is valuable because it 
is user-friendly. It is easier for the smaller jurisdictions to 
comply--dot the i's, cross the t's--and not have to hire grant 
writers or have a grant-writing agency or division in their 
departments in order to comply--access the funding.
    So, Ms. Daniels, in your statement, when you are talking 
about those grants, and your comments about being more user-
friendly, I think of COPS as a Justice program, but more on the 
other Justice sides, I think the more that we can do to make 
those grant programs user-friendly, the better off our local 
agencies would be.
    Now, I quickly want to segue into jumping right on this 
issue. In my State, the meth-lab problem is a tremendous 
problem. And, again, like you, Mr. Peed, this is not something 
I have known that much about even though my background is there 
as a prosecutor and was on the front line.
    But we, Alabama, ranked 14th in the number of meth busts. 
And last year, that was 143. And 100 of those occurred in one 
of my counties. I have six counties.
    And this county, Mr. Chairman, sounds like the kind of 
counties that exist in your communities and Mr. Rogers' 
community. It is a rural, very large county, foothills of the 
Appalachian mountains. So the communities there are isolated.
    And local law enforcement has been totally overwhelmed by 
this. The issue of profiling the victims and their families--I 
mean, these are pathetic, hopeless drug addicts. These labs are 
cheap to throw up. They are not--they are not a sophisticated 
setup at all. In fact, it is just off the shelf stuff that they 
are getting.
    So we need to empower and fund local law enforcement. And I 
am troubled by the reduction that you have been beat up over 
here, of the money in the meth hot spots line item that funds 
what I assume the local law enforcement gets is from $57, $58 
million down to $20 million this year.
    And I just want to weigh in on that. That is just not 
enough, especially as I view this as an emerging problem. We do 
not yet have the full OxyContin problem in my area, but it is 
coming. Law enforcement is seeing it. It is happening as well.
    So on both of those fronts, we have got a lot of work to 
do. So if you would take that message back, I sure would 
appreciate it.

                  REGIONAL INFORMATION SHARING SYSTEM

    I would like--Ms. Daniels, you made reference to the 
Regional Information Sharing System, the RISS system. How long 
has that existed?
    Ms. Daniels. Well, actually, you may remember these from 
your prosecutor days, Congressman, when they were not automated 
yet. But they were created by State and local law enforcement I 
want to say some 20 years ago.
    Mr. Cramer. I thought that might have been the background 
for that. I was not sure.
    Ms. Daniels. Yes, it was about 20 years ago. And now there 
are six regional information sharing systems. We were a member 
of Middle-Atlantic Great Lakes Organized Crime Law Enforcement 
Network MAGLOCLEN, which was the Northeast one. You would have 
been--I cannot remember the name of the Southeast one.
    But they used to kind of go to a location and talk. Now, it 
is an encrypted, secure, Internet-based communication system 
for intelligence sharing. It really is beginning to serve as 
the backbone for intelligence sharing, not only on drugs, gangs 
and other traditional law enforcement areas, but also on 
counterterrorism. And it is a marvelous tool. That is why we 
have requested the increase.
    Mr. Cramer. And I want to help you with that and I applaud 
that.
    I want to say to the COPS program, the technology side of 
the COPS program has been tremendously important to my law 
enforcement agencies.
    And to both of you, your leadership is extremely important 
for us and for the folks that we represent that are there on 
the front lines, to make sure that your programs are flexible, 
to make sure that you move that money around. I understand that 
partnership. You cannot do it all. Local law enforcement has so 
much that they have to do.
    However, this is a time for State government, local 
government and federal government as well. I mean, we just do 
not have enough money to spread around. So it is important that 
you show the kind of leadership that you are capable of 
showing, that you have shown. And that you redefine what the 
local agencies need and how you can provide it and what the 
current problems are. I think that technology area on the COPS 
program is just extremely important.
    Mr. Peed. Thank you.
    Mr. Wolf. Thank you, Mr. Cramer.
    Mr. Vitter.

                 OXYCONTIN AND METH LABS NEED CHANGING

    Mr. Vitter. Thank you, Mr. Chairman.
    Thank you both for being here.
    First of all, not to beat a dead horse, but I certainly 
want to echo the comments of all of my colleagues about 
OxyContin and meth labs. They are huge issues in almost every 
part of the country, certainly including my district, 
particularly OxyContin.
    I have talked to the DEA--the person who was then head of 
the DEA and the FDA and the Justice Department and many other 
folks about this problem. And my perception is that nothing 
fundamental has changed. And something fundamental, in my 
opinion, has to change. And a solution cannot come from just 
inside your building. But you all need to be the leaders in 
reaching outside your building to forge a solution.
    You mentioned drug courts, which are inside your building, 
as it were, in terms of the program. I support drug courts. 
That is not going to solve the OxyContin problem, in my 
opinion, because the root of the problem is not getting the 
folks buying the stuff and putting them in a drug court. It is 
the network of distributing the stuff, the network itself which 
is legal, which is being abused through either pharmacists who 
are actually part of illegal transactions, or pharmacists and 
other folks who are basically looking the other way when they 
have information--prescription volumes and other things--that 
is a flashing red light that abuse and illegal activity is 
going on.
    That is the only way you solve the problem is to address 
that through DEA or FDA or whomever. But you all need to reach 
outside your building and see that that happens. Because we 
have been talking about it for two, three, more years and I do 
not think anything fundamental has changed. And I do not think 
anyone is looking at that source of the problem.
    Also, meth labs are an enormous problem in large parts of 
my district. So I certainly echo all those comments.
    I also echo the comments in support of COPS grants and also 
Byrne grants. Those have been very well received and very 
effective in all sorts of communities, certainly including my 
district.

                 FY 2003 COPS AND BYRNE GRANTS CATEGORY

    Tell me--walk me through this. I looked at the budget and I 
think I understand the answers, but walk me through it. In both 
the COPS grants category and the Byrne grants category, what 
are you proposing compared to what we just appropriated for 
2003? And is that difference moving the money somewhere? Or 
cutting the money? Or what?
    Ms. Daniels. Well, I will speak to the Byrne grants issue 
and the broader issue of Byrne, Local Law Enforcement Block 
Grants (LLEBG) and counterterrorism grants going to the states.
    The President's Budget actually, given the $3 billion 
requested for counterterrorism and first responders, $500 
million of which at a minimum must be spent for State and local 
law enforcement counterterrorism activities, coupled with the 
$600 million, or just under--a hair under $600 million in the 
combined Byrne grant, LLEBG category, which we propose to call 
Justice Assistance Grants, but which will be available to the 
same people it was available to before but for broader purposes 
in the case of local law enforcement. It comes to $1.1 billion 
minimum that the President's Budget and, again, I am reaching 
outside my building here as you suggest, but the President's 
Budget is recommending us to go to state and local law 
enforcement to deal with the broader array of issues that they 
now have to deal with, that they did not have to deal with a 
couple of years ago.
    Mr. Vitter. If I could interrupt for just a second and back 
up. The appropriated level for Byrne Grants that we just passed 
in February, was what, $500 million?
    Ms. Daniels. It was $500 and $400 million for Local Law 
Enforcement Block Grants.
    Mr. Vitter. So Byrne Grants was $500 million?
    Ms. Daniels. Correct.
    Mr. Vitter. Local Law Enforcement Block Grants was $400 
million?
    Ms. Daniels. $400 million.
    Mr. Vitter. Compared to that, what are you proposing?
    Ms. Daniels. $1.1 billion in that we propose to merge Local 
Law Enforcement Block Grants and Byrne Grants into the--just a 
hair under $600 million Justice Assistance Grants Program. The 
President is asking in another department for a minimum of $500 
million to provide to State and local law enforcement the 
assistance that they need in counterterrorism activities, much 
of which is dual use as the committee is well aware.
    Mr. Vitter. You lost me. Byrne Grants, Local Law 
Enforcement Block Grants are merged.
    Ms. Daniels. Together, $600 million.
    Mr. Vitter. $600 million
    Ms. Daniels. Correct.
    Mr. Vitter. Compared to $500 plus $400 million this past 
year?
    Ms. Daniels. I compare $1.1 billion to that, sir, because 
even though----
    Mr. Vitter. So you are adding $600 plus what, $500 of 
terrorist assistance?
    Ms. Daniels. Correct. Correct, to State and local law 
enforcement.
    Obviously, the world has changed. And so normally that 
money would have been available through our budget because it 
would have been through Office of Domestic Preparedness ODP--it 
will be through ODP. ODP moves to a different department.
    Mr. Vitter. Compared to the traditional Byrne Grant and 
Local Law Enforcement Block Grant categories, is the universe 
of recipients the same or is it different?
    Ms. Daniels. It is the same.
    Mr. Vitter. It is exactly the same?
    Ms. Daniels. Yes, sir.
    Mr. Vitter. It is not smaller. It is not bigger.
    Ms. Daniels. The universe for recipients is the same. And 
in fact the percentage which would go directly to local law 
enforcement, we wanted to make sure to keep that the same, 
because that is why LLEBG was really created, that local law 
enforcement became concerned at some point in the 1990s that 
the States were not getting enough funding directly to them.
    So we want to preserve that percentage, which is 46 percent 
of the total would go directly to State or to local law 
enforcement and the remaining 54 percent would go to the States 
for distribution which is the way it works now.
    The added benefit to local law enforcement, in particular, 
would be that the purpose areas would be much broader so they 
would be able to apply the funds to broader purposes.

               COUNTER AND ANTITERRORISM ACTIVITY FUNDING

    Mr. Vitter. The $500 million for antiterrorist activity, 
which you say a lot of it is dual use.
    What would be an example of that?
    Ms. Daniels. Well, frankly that funding can be used for 
radio interoperability, which is something that we fund--you 
can fund through Byrne Grants, you can fund through LLEBG, 
which COPS has funding for independently in their office. Any 
of the things that will protect police from traditional violent 
criminals and help them do their jobs to investigate those, can 
very often be used in counter-terrorism.
    So assistance that they get, specifically not for first 
responder but for counterterrorism activities, will help them 
across the board.
    Mr. Vitter. Now, a lot of local law enforcement will say, 
``We have used this Byrne Grant money, other local law 
enforcement grant money for traditional local law 
enforcement.'' And to the extent you are taking a bunch of it 
and putting it in this new anti-terrorism category, you are 
decreasing resources for more traditional local law 
enforcement, which we have come to depend on.
    How do you answer that critique?
    Ms. Daniels. I answer that by saying that as the President 
has said, and as the Attorney General has told this 
Subcommittee, difficult choices have to be made when we are in 
a war on terrorism. We want to help State and local law 
enforcement with their new responsibilities in that war on 
terrorism but we are not going to be able to do everything we 
did and everything we want to do. So balances must be struck.
    This was the best balance we thought we could strike as an 
Administration to assist State and local law enforcement in 
doing everything that they are now required to do.
    Mr. Vitter. Okay, how does this--if that were the goal, why 
would you not create maximum flexibility?
    Ms. Daniels. I think that is what we are arguing actually 
by creating the Justice Assistance Grants, which creates much 
more flexibility, particularly for local law enforcement 
agencies who formally were restricted to certain LLEBG purpose 
areas. And now we will have the panoply of purpose areas, which 
frankly enables them to do just about everything they want as 
long as it is law enforcement oriented with the Justice 
Assistance Grants pot.

                    COPS BUDGET IN FY 2003 & FY 2004

    Mr. Vitter. Okay, how does this spread sheet look--what 
does this spread sheet look like in 2003, you know, what we 
just appropriated, what you are proposing on the COPS side?
    Mr. Peed. In 2003 the COPS office had $198 million in 
hiring money. Break that out a little bit.
    We have $140 million to hire new officers. Of that $140 
million, $40 million will be used for COPS in schools. And that 
has a Homeland Security element to it. And that was provided 
for in the appropriations funding.
    We also have $60 million in overtime, and we are developing 
that program, that overtime program. And we will report back to 
this committee by the 20th of next month.
    Overtime funds will be primarily used for those 
jurisdictions that have--or at least some of the issues we are 
looking that have an excessive number of reserve call-ups that 
are requiring overtime, Joint-Terrorism Task Force--those are 
involved in Joint-Terrorism Task Force, those that are involved 
in terrorism training, and those that have critical 
infrastructure that need to be protected.
    Mr. Vitter. This is a 2004 proposal?
    Mr. Peed. That is 2003.
    Mr. Vitter. What we have just done.
    Mr. Peed. Yes. We also have----
    Mr. Vitter. What about COPS technology?
    Mr. Peed. We have almost $200 million in COPS technology 
for 2003.
    Mr. Vitter. So all those COPS categories amount to what?
    Mr. Peed. I am sorry--in which?
    Mr. Vitter. In 2003.
    Mr. Peed. In 2003? We have a total in 2003 of $587 million.
    Mr. Vitter. And so what are you proposing in 2004?
    Mr. Peed. In 2004, we have $20 million for training and 
technical assistance, $16 million for police integrity, $30 
million in Indian country, we have $50 million in information 
technology, $20 million in methamphetamine, plus management and 
administration, comes to a total of $163 million, almost $164 
million.
    I would like to go back to----
    Mr. Vitter. Where does the rest of the money go to?
    Mr. Peed. It has been reprioritized and going to different 
organizations to support the terrorism effort in Washington to 
support the homeland.
    Mr. Vitter. When you factor this COPS cut into the 
equation, why is there still an increase that you described?
    Ms. Daniels. I would address that, I guess, by saying that 
there are specific things. And I am not responsible for the 
COPS budget, so I am less familiar with its specifics. But that 
much of their technology is applicable to counter-terrorism. So 
by funding it over in Department of Homeland Security DHS, that 
is not a negative.
    The COPS hiring program is something that I think the 
Subcommittee knows the Administration has indicated--has 
achieved its purpose in hiring, I was telling you this morning, 
116,000 police officers throughout the country--more than 
meeting the 100,000 goal.
    When we have accomplished the purpose--and there are a 
couple of those on a smaller scale in our budget, where we have 
accomplished the purpose of the program--we then wish to 
reprioritize those funds toward something else that will also 
help law enforcement, but in a different way. Many of the 
things in this budget are redirected toward counterterrorism, 
which I think is not a surprise to anyone.
    Mr. Vitter. All I am saying is, the overall increase you 
describe to $1.1 billion, if you include the COPS side of it, 
it is no longer an increase.
    Ms. Daniels. In terms of what it represents, I think it is. 
Because what we were talking about with Byrne and LLEBG, and 
the funding coming out of ODP--Office of Domestic 
Preparedness--it is formula funding going straight to the 
states and the local jurisdictions for purposes that they can 
accomplish, as opposed to, perhaps, hiring only.
    These are the formula, broad-based grants, so everything in 
that category, I think, shows a net increase.
    The specific--I think some of your cut is in things that 
are specifically targeted to COPS hiring. I do not know what 
else is in there, Carl.
    Mr. Peed. I would like to just----
    Mr. Vitter. My point is much more basic or simple--the 
overall COPS decrease for 2003 to your proposed 2004 is how 
much?
    Mr. Peed. About $400 million.
    Mr. Vitter. $400 million. $400 million is more than the 
$200 million you were describing as an increase from $900 
million to $1.1 billion. That is what my local law--they can do 
math--that is what my local law enforcement's going to tell me. 
What is the response?
    Ms. Daniels. Well, basic math will tell you that there is a 
$200 million difference there. There is a $3 billion pot being 
requested at the Department of Homeland Security. A minimum of 
$500 million of which--a minimum of $500 million of which--is 
to assist State and local law enforcement and counterterrorism 
activities.
    I, frankly, suspect a good deal more of that would be 
available for that purpose, as well as technology purposes that 
will also assist.
    Mr. Vitter. That pot in Homeland Security is available to 
all sorts of first responders, correct?
    Ms. Daniels. Except for this carve-out of a minimum of $500 
million that has to go to State and local law enforcement 
specifically for counterterrorism activities as opposed to the 
bigger pot, which can be other first responders as well.
    Mr. Vitter. So that $500 million in the universe of 
applicants or recipients for that money is the same as the 
traditional universe for Byrne, COPS, etc.?
    Ms. Daniels. Yes.
    Mr. Vitter. Okay. That is all I have. Thank you, Mr. 
Chairman.

                   JUSTICE ASSISTANCE GRANTS PROGRAM

    Mr. Wolf. Thank you, Mr. Vitter.
    We are waiting--we have a vote on and we are down to four 
minutes. But I am--I think Mr. Kolbe is going to get back so we 
do not have to keep you waiting.
    It is my understanding that the program--Justice Assistance 
Grants Program is not authorized.
    Ms. Daniels. I think that is correct. It is not currently 
authorized.
    Mr. Wolf. Are you in consultation with the Judiciary 
Committee?
    Ms. Daniels. As a matter of fact, we are--we are meeting 
with Chairman Sensenbrenner tomorrow to talk about a number of 
issues related to OJP authorization issues within the greater 
Justice Department.
    Mr. Wolf. And this is one you are discussing, right?
    Ms. Daniels. And this is one of those, yes, sir.

                                OVERTIME

    Mr. Wolf. In fiscal year 2003, Congress made $60 million 
available in COPS hiring program for law enforcement overtime. 
The Committee hears frequently from local law enforcement 
officials about increased overtime requirements associated with 
raised terrorist threat levels. Around here, it seems to be a 
constant thing, sending officers to specialized domestic 
preparedness training and continuing their traditional crime 
prevention roles.
    How will you execute this overtime program?
    Mr. Peed. We have $60 million for overtime and we are in 
the process of developing that program. And as I said earlier, 
we are looking at a number of issues to determine where that 
money would go. And such issues as those jurisdictions who were 
hit hardest by reserve call up duty for overtime--they have to 
use overtime to cover the the reserve call up. The Joint 
Terrorism Task Force, those that are involved in the Joint 
Terrorism Task Force, training for terrorism, like the state of 
New York, as well as infrastructure protection where those 
jurisdictions have critical infrastructure that means where 
they are using overtime to protect it, be it for power plants, 
be it bridges or financial centers, et cetera.
    Mr. Wolf. Thank you.
    With that, I am going to recognize Mr. Kolbe. I will be 
back after the vote.

                   REDUCING THE FY 2004 SCAAP BUDGET

    Mr. Kolbe. Thank you. We are playing tag-team here today. 
We are trying to catch these votes, keep the hearing going. A 
lot of people asking good questions.
    Thank you very much for being here today.
    I want to ask some questions that not, you might be happy 
to know, not about OxyContin, about some State and local 
enforcement issues. I think the budget for State and local law 
enforcement assistance is a bit discouraging. It is a little 
bit hard in the budget request to make the right comparisons 
because some--it is against the FY-03 requested amounts because 
of the lateness in passing the budget in this year instead of 
the actual appropriated amounts. And there are some transfers 
between accounts.
    But you have already talked about the local law 
enforcement, the Byrne grant. Mr. Vitter talked about that with 
you and I think you covered that. As well as the--it is not 
quite apples, but you can believe that there is $1.1 billion 
compared to the current $900 million there.
    But I am, just to clarify, I am correct in saying that the 
Administration has recommended State Criminal Alien and 
Assistance Program, or SCAAP program, be zeroed out, that 
correct?
    Ms. Daniels. Yes, sir.
    Mr. Kolbe. And on some good news that there is an $8 
million increase for the Southwest Border Prosecutor initiative 
that is being requested. Is that not correct?
    Ms. Daniels. That is correct. From the enacted level.
    Mr. Kolbe. That is from the enacted level?
    Ms. Daniels. Yes.
    Mr. Kolbe. Okay. Let me talk about the State Criminal Alien 
Assistance Program, SCAAP, for a minute. I think, as certainly 
everybody here in this room knows, this is a program that pays 
for the prison costs, incarceration costs for undocumented 
aliens that are not being held, you know, in Federal detention 
centers, partly due to a lack of capacity or because the 
Federal government declines the prosecution and turns the 
prosecution over to local law enforcement.
    The Administration did attempt this last year to eliminate 
the program again, or I should say the first time. And I am 
happy to say that Congress did not agree with that decision. 
The House did approve the full amount that--or virtually the 
amount that--the same amount that had been, I believe it was 
the--not quite the previous year.
    The previous year, as I recall, was $565 or $560. The 
Congress had--the House had $500 in its Omnibus 2003 Bill for 
the SCAAP program. The Senate, of course, did not go along with 
that or did not put anything into it. And so we were forced 
into a situation of basically splitting the difference and we 
have $250 million in it now.
    As you just acknowledged, there is nothing again in there 
for funding for this program. Let me make it clear that in my 
view that illegal immigration is a Federal responsibility. Let 
me just begin by asking that quick question. Do you begin--do 
you believe that the responsibility for the enforcement of the 
immigration laws is a Federal responsibility and not a State 
responsibility?
    Ms. Daniels. Yes, sir, we do. And I think--well, we will 
follow up with some of that after you ask your----
    Mr. Kolbe. Okay. Until the follow up questions, yes.
    Ms. Daniels [continuing]. Further questions.

                             ILLEGAL ALIENS

    Mr. Kolbe. Well, if the Federal government does not do its 
job, for whatever reason, or if a person over stays their visa, 
if they come in illegally and we are not able to catch them and 
they commit some kind of crime when they are on this side of 
the border, then it seems to me that this is a responsibility 
of the Federal government to pay the costs of these actions, 
particularly when they are, as they often are, caught by 
federal agents here.
    The State--the localities along the border, counties that 
are along the southern border, the U.S.-Mexican border are 
among the very poorest counties in the United States. In fact, 
I think, documentation shows that if you took those counties 
collectively they would have the lowest per capita income, 
disposable income of any dozen counties that you could put 
together anywhere in the United States.
    So they do not really have the resources to pay for these 
costs. And yet they are constantly being required to pay for 
these costs in large measure because the Federal government 
either, as I said, chooses to simply house people in the local 
jails, because they do not have the capacity in the federal 
prisons for short-term detention, or they choose not to 
prosecute these people.
    In one county along my border, Cochise County, where, by 
the way, they have the most apprehensions of illegal aliens of 
any kind in the United States--at any place in one sector in 
the United States. Forty percent of all the indicted felony 
drug defendants result from Federal referrals from the Federal 
prosecutor. The jail has a capacity of 160 inmates. It has got 
270 in there right now, of which more than 20 percent are 
Federal referrals.
    I guess my question is simply, what is the rationale--why 
is it the view of the Federal government, of this 
administration, that it is not a core responsibility of the 
Justice Department in terms of law enforcement to provide for 
the costs of incarceration of these individuals who are 
arrested by Federal officers or referred by Federal prosecutors 
to local officials?
    Ms. Daniels. I will offer to respond to that since that is 
in our part of the budget.
    Congressman, I think the Attorney General also heard from 
you in his testimony and responded and I will respond somewhat 
similarly. I think I would maybe go back to when SCAAP was 
created. It seemed that perhaps that was created because the 
Federal government had decided it was not doing a very good job 
and was not going to do a very good job of its mission of 
protecting the borders.
    This Administration has determined that what it needs to do 
is a better job of protecting the borders. They were already in 
the process of trying to overhaul the Immigration and 
Naturalization Service even before it became a part of Homeland 
Security.
    We view, as our mission, and I speak for the broader 
Administration, the Justice Department and the Department of 
Homeland Security here, to protect the borders and to minimize 
the amount of these cases that you should have to deal with 
because we did not manage to protect the borders.
    Ms. Daniels. So the theory behind this shift is that, while 
we have asked, I think three years running here, for $50 
million for border security, and now we have a third request in 
the 2004 budget for purposes of State and local law 
enforcement, courts, prosecutors and jails.
    There are a great deal of resources being put in on the 
Federal level to securing the borders over at Homeland Security 
by adding, as I understand the Attorney General indicated, 18 
Federal judges down in that area, so that the Federal 
government will take on a larger share. Hopefully, the numbers 
of those cases will decrease. And so it is for that reason that 
there is the shift.
    Now, I know that the Attorney General----
    Mr. Kolbe. But that has not occurred yet?
    Ms. Daniels. No, of course not. And, of course, there is 
always a delay in SCAAP, because we have to learn each year how 
much expense, based on the prior year, before we can reverse.
    So our theory is, I guess--shift, if we can prevent you 
from having such great expenses in a given year, then there 
would be less need.
    Now, I know the Attorney General indicated to you that, 
while this works real well in many jurisdictions, I think he 
called it as something of a diversionary effect, and Arizona 
has a particular problem. I personally recently visited your 
southern border and flew over some of those areas, and I 
absolutely agree that you have a monumental problem there.
    Mr. Kolbe. I hope you are not under any illusion the border 
is under control.
    Ms. Daniels. I am not.
    Mr. Kolbe. Okay.
    Ms. Daniels. But that is the theory behind this shift.
    Mr. Kolbe. Well, I understand the--you know, I understand 
your theory. But, I mean, the theory suggests that it is going 
to be implemented. In the meantime, you are going to--you are 
going to put the responsibility on the local law enforcement 
officials to pay and local taxpayers of Arizona to pay this 
cost.
    I asked this question of the Attorney General, so I will 
ask it again of you. What would be the reaction of the Justice 
Department, how would you respond to a decision by the local 
prosecutors--and this is actively out of consideration--to 
simply refuse all Federal referrals?
    So then drug smugglers will know that if they smuggle below 
a certain amount and--I will not use it, but they all know what 
it is--that there will be no prosecution because the Federal 
government will not prosecute?
    I think those are the ones that they refer. So if the local 
officials refuse to take it, they simply will be released and 
deported at that point.
    What will be the reaction of the Justice Department to 
that?
    Ms. Daniels. I am no longer a United States Attorney, and I 
would not purport to speak for Paul Charlton, the United States 
Attorney there.
    But I think that our response would be that we would hope 
that we can work much more closely together than that, and that 
we would not reach the point where those kinds of difficult 
decisions had to be made.
    And I promise you that, from our vantage point, we will 
work with you to do whatever we can to be of assistance in that 
regard.
    Mr. Kolbe. Well, I appreciate the words, but, you know, the 
way you would do that is to put the money up there and provide 
the funds.
    And so your statement that you intend to try to work with 
the local law enforcement agencies, including the prosecutors 
and the sheriff who maintains the jails in those counties, is 
an empty promise, I have to tell you. There is nothing backing 
it.

                   SCAAP AUTHORIZATION FROM 2004-2010

    Ms. Daniels. I think there is something backing it. There 
has about $150 million, two-thirds of which this Committee has 
been gracious enough to assist us in obtaining in our budget 
for the last two fiscal years for 2002 and 2003, and we are 
requesting another $50 million in 2004, specifically for 
Southwest border prosecutions.
    So I am hopeful that that will be very helpful to you.
    Mr. Kolbe. Well, Mr. Chairman, I just say that I introduced 
a bill, H.R. 933, this year, with some bipartisan support, that 
will authorized SCAAP--we authorized SCAAP, I should say--for 
the fiscal year 2004, at a level of $750 million, and $850 
million in fiscal year 2005, and then $950 million for the 
years beyond that through 2010.
    I am not sure that we will have success in getting that 
authorization through, or what the Administration's response 
would be if it actually were to pass both the House and the 
Senate, but I intend to continue to push for this.
    And I continue just to be dismayed, I must say, with the 
Administration's, what I think is a fairly cavalier approach to 
local law enforcement and to simply walk away from the 
responsibilities of the Federal government for reimbursing 
States for the cost of Federal prosecutions--what should be 
Federal prosecutions, which they decline to do and turn over to 
local law enforcement agencies. And to pay for the cost of that 
incarceration, which is a tremendous burden, as you know, on 
State and local officials.

                     HOMELAND SECURITY COORDINATION

    But let me just turn my last question to, very briefly, to 
coordination with Homeland Security. And you, again, touched on 
this in talking about the amounts of money with--that are 
available to the Department of Homeland Security. And that you 
plan to support counter-terrorism efforts locally.
    But my question really goes to this issue of first 
responders. Homeland Security's got $3.5 billion in assistance, 
including $500 million, which, I think, is the same $500 
million you referred to, for grants to provide firefighters 
with health and safety equipment. Maybe that is a different 
grant, I believe. And vehicles as they prepare to respond to 
future terrorist incidents. And then there is $500 million that 
you were referring that is intended for State and local law 
enforcement terrorism prevention activities.
    How are you coordinating, how is Justice coordinating with 
the Department of Homeland Security in determining who is going 
to do what and how much we are going to do and how we are going 
to divide these responsibilities for support for local 
initiatives?
    Ms. Daniels. As I mentioned, Congressman, our--the Office 
for Domestic Preparedness--just transferred from the Office of 
Justice Programs within Justice over to Homeland Security. They 
have not actually physically moved at all but are still within 
our building.
    And we are still working hand-in-glove with them, because 
we will be managing their grants, at least through the end of 
this fiscal year. We have an agreement to do that. They are of 
OJP.
    We are working very closely with them on a person-to-person 
basis, so that we will know, because we are managing their 
grants, exactly how they are spending their part of the money.
    And secondly, I think our automated system makes a big 
difference because we have as part of our reorganization, this 
Committee has been very helpful, has been able to automate our 
entire grant system so we can see with a flick of the mouse 
exactly where the funding is going, for what purpose, and to 
whom.
    We also have a point person within the Office of the 
Attorney General overall collaborating very closely and working 
out minute details of the collaboration between Justice and the 
Department of Homeland Security.
    So I think among all of those things, we can do a very 
efficient job of making sure that we are not duplicating 
efforts in any way.

           INTEROPERABILITY COMMUNICATIONS AND SYSTEMS GRANTS

    Mr. Kolbe. Well, anytime you have a reorganization as 
massive as this, it poses problems, and I understand that. But 
just let me ask specifically, who has the responsibility for 
the interoperable communications of the first responders?
    And who has the responsibility of the interoperable or the 
communication-systems grants that are going to assure 
interoperability between Federal, State, tribal and local 
officials?
    Ms. Daniels. And I know Carl has talked about this 
Committee. And you might want to talk a little more about who 
all is collaborating on this group.
    Mr. Peed. As I said earlier, we have got about $20 million 
in interoperability funding, and we have been meeting with NIJ, 
with NIST as well as FEMA and the Office of National 
Preparedness to determine how that money can best be utilized 
from where it is going to go.
    We are going to coordinate our grant proposals with them. 
And as I said, also we agreed yesterday to create a national 
clearing house so that everybody will know where money goes 
whether its directed funds, and including what local 
jurisdictions are already doing.
    Because sometimes there are many good, good interoperable 
communications systems out there already.
    Mr. Kolbe. Should all of this stuff be centralized in one 
location, for the grant programs? Is it too diffused? I have a 
real concern that my local people have not got the ball up, 
which ball.
    Mr. Peed. I think OMB is looking towards creating a one-
shop stopping for grants. And it is an e-grants initiative----
    Mr. Kolbe. And it will include law enforcement, justice--
    Mr. Peed. Yes, sir.
    Mr. Kolbe [continuing]. And the homeland security area?
    Mr. Peed. I think it is all grants----
    Ms. Daniels. Actually, it is broader than that. It is all 
grants.
    Mr. Kolbe. All grants?
    Ms. Daniels. Correct.
    Mr. Kolbe. Okay, thank you very much.
    Mr. Wolf. I think before we address Mr. Mollohan, I think 
you will see it would almost be good if this could be videoed 
and played downtown. Because what Mr. Kolbe said and I think a 
lot of the credit for the SCAAP money being in last year, if 
anybody from Arizona is listening, the credit should go to Mr. 
Kolbe.
    We put $500 million in. The Senate put zero in. And so the 
Subcommittee split the difference as $250. Those of us who are 
not on the border are not real--I think Mr. Kolbe has 
sensitized the Committee, also some other members who I will 
not mention, who are--I mean they are on our side, if you will. 
And this is a--and California.
    And so the impact that they have. You are from Indiana. I 
am from Virginia. I do not think I understood until Mr. Kolbe 
educates just a few other people. But I think you see some of 
the stress and the tension and they are faced with just 
flooding over.
    Mr. Kolbe. Mr. Chairman, thank you very much for the kind 
words. And I appreciate the fact that we have a Chairman of the 
Subcommittee who is willing to do as much as you have done.
    Mr. Wolf. Well, thank you, Mr. Kolbe. And Mr. Mollohan?
    Mr. Mollohan. Mr. Chairman, I have been at another hearing. 
I do not have any questions.

                      CRITERIA FOR AWARDING GRANTS

    Mr. Wolf. Oh, Okay, I will just ask a couple. And then we 
will try to end the hearing. Mr. Peed, if you can tell us what 
may be submitted for the record so we are not keeping you too 
long.
    But what criteria will you use to award these grants that 
we were talking about as I left on the overtime program?
    Also, on the COPS hiring, in fiscal year 2002, 116,000 
officers had been funded, and Ms. Daniels you mentioned 
116,000--
    Ms. Daniels. I got that from Mr. Peed.
    Mr. Wolf. Okay. We understand that through July 2002 only 
88,000 were on the street. What is the disparity?
    Mr. Peed. We funded 116,000. There are actually only about 
88,000 on the street and there is the difference in budgeting 
cycles, the federal budgeting cycle and our grant--when we 
grant the funds versus a local's budgeting cycle.
    Secondly, it takes--it could take up to about 10 months to 
hire those individuals. And secondly, it takes a long time to 
train them. So there is a lag time between the time we obligate 
those funds, and they actually get the positions on the street.
    Mr. Wolf. So there will be if you take that into 
consideration of 116,000, we are not losing this many that are 
coming on and leaving.
    Mr. Peed. No, sir, they will be continuing to hit the 
street over the next couple of years.
    Mr. Wolf. The DNA, let me just thank you for that. I 
commend the Administration for putting the $96 million in. I 
think the DNA backlog is very, very important to deal with.
    And I have a question. We will just let it go and just 
submit it for the record.
    Thank you for that.
    Ms. Daniels. Thank you.

                                FAIR ACT

    Mr. Wolf. I have some concern on the competitive sourcing 
initiaitve. If you can let us know how this process will work 
and what will be the impact on OJB employees if the contractor 
wins the competition.
    Ms. Daniels. Would you like me to give you a little summary 
of that now, sir? Yes.
    Actually, the competitive-sourcing initiative began with 
passage of the FAIR Act by the Congress in 1998. The 
President's Management Agenda has embraced competitive sourcing 
as one of six aspects of that management agenda.
    And the Justice Department, like every department 
throughout government, is asked to identify under the FAIR Act 
which functions in its inventory are inherently governmental 
versus which are commercial in nature. Now once that has been 
determined that does not mean those are going to be competed.
    There is a lengthy process in which we are engaged, and in 
which we have engaged an expert to advise our employees so that 
they will be well-positioned.
    The whole theory, just to do this in a nutshell because I 
know that the Committee is probably tired at this point--but 
the whole theory of competitive sourcing is not to negatively 
affect employees, but to positively affect the work we do, the 
services we provide to our customers by injecting competition 
into the process we spur the creativity that enables us to 
better serve our customers. So that is the theory behind 
competitive sourcing.
    It is not an effort to affect the level of employees or 
anything else. So what we are doing with our folks, is we are 
working very closely to identify what functions would benefit 
by being competitively let out for competition, but also to 
make sure that our employees have a level playing field in 
competing so that they are not at any kind of disadvantage. The 
experience has been at various levels of government, who have 
worked with competitive sourcing.
    But in the vast majority of cases, the government employees 
end up wining the bids and you end up with a better product at 
a lower cost to the taxpayers and better service to the 
consumers, while public employees also win. Our goal, at OJP in 
particular, is to make sure that our employees are in a 
position to win those bids.

                        GANG RESISTANCE PROGRAMS

    Mr. Wolf. Now, the Gang Resistance, Education Training 
program. The Homeland Security Act transferred ATF to Justice, 
where I think it should be. They have a Gang Resistance, 
Education Training (GREAT) program, $13 million per year, to 
over 200 law enforcment agencies to teach students to resist 
gang pressure. I do not know where you live--but we, now, have 
been impacted by gangs. The violence is incredible.
    The GREAT program is similar to DARE and other Juvenile 
Justice Delinquency Program. Is the department looking to 
consolidating this ATF program with one of the others, because 
it sounds like they are similar?
    Ms. Daniels. Thank you, Mr. Chairman. We have not really 
had a chance to talk to Brad Buckles about whether there should 
be a consolidation. I knew that we are looking at an evaluation 
of GREAT--much as we try to evaluate all those kinds of things 
that we do to make sure that it is making a differnece, because 
the dollars are scarce.
    I think they have been revising their training such that it 
might be more effective in the classrooms. I know that our 
Weed-and-Seed sites very often work with GREAT, to try to 
incorporate GREAT into Weed-and-Seed strategies. We have not 
yet had conversations on that issue. I would be happy to work 
with your staff and gather a little bit more information on 
this and see if, in fact, they are so similar that they ought 
to be merged.

                       CIVIL RIGHTS OF IMMIGRANTS

    Mr. Serrano. What evidence do you have that some of what 
you are doing, if you are doing anything, has had an effect, 
and how do you evaluate after September 11th what is happening 
in this area? Do you keep a data bank on complaints, on how 
local law enforcement is handling these issues?
    You know, you have a situation now, where, as you know, in 
some communities, local police have now been asked to serve as 
immigration officers. That creates two problems.
    The police really do not want to do this. And the local 
person, whether they are here documented or not--even folks who 
are documented and are not citizens, they may come from a 
society where they have always feared the police and the 
immigration department. They come to this country--and I think 
this is important to note--they come to this country, 
especially from Latin America, and for the first time in their 
lives, they find a professional police force with rules and 
regulations.
    And while I am the first one who complains about certain 
actions by the police, in general, it is a professional force 
throughout this country that deals with immigrants and poor 
people in a certain sound way.
    Now, these folks are faced with the possibility of the 
local police officer that they always see as their protector 
becoming the one who could be questioning their immigration 
status again. Even if you are here totally documented, all your 
papers in order, anything that smells of the INS always makes 
you very jittery.
    You are not going to have, I think, people coming forward 
to assist the police. And the police also has a second role.
    So, I know I asked you a few things at the same time and 
made a few comments, but if you could comment on that, I would 
really appreciate it.
    Mr. Peed. Congressman, thank you so much. I spent my entire 
career protecting civil rights of individuals. And I take very 
seriously the issue of what I call the integrity.
    We have funded for a number of years, going back to 2001, 
$17 million a year on the issue of integrity. And as I said, I 
take it very seriously. I consider an incident--it only takes 
an incident to ruin the trust of law enforcement in this 
country. Whether it is a New York incident or a Los Angeles, 
CA, incident. It hurts law enforcement all across this country 
when you have an incident, especially a high-profile incident.
    We are providing training all across the country on issues 
of integrity. They range from use of force, development of 
early intervention systems to identify people who may be 
involved in potential civil rights violation; self-assessment 
techniques so agencies can determine what they are doing if 
there are any potential civil rights violations.
    So we have about 12 strategies--those are just a few.
    Last year, we funded demonstration sites in--or models 
looking at our major county sheriffs and our major city 
chiefs--to develop systems to look at all those issues, 
including--we went back to our State associations--the State 
police associations, the state sheriffs associations to look at 
integrity issues.
    In addition, I went to meet with Ralph Boyd, who is 
director of our Civil Rights Division in the Justice 
Department. Mr. Boyd is very interested about this issue, of 
making sure that civil rights are protected throughout this 
country.
    He is interested in preventing, not just detecting, 
prosecuting and, ``We are going after people.'' But he would 
like to move toward prevention of civil rights violations 
throughout the country.
    And just because there is a jurisdiction that has 
difficulty does not mean that the Justice Department should 
wait to go in there. For example, Cincinnati had some issues 
out there, and both Director Daniels' office and my office 
worked to go out there to help Cincinnati to deal with the 
issues of potential civil rights violations.

                          USE OF POLICE FORCE

    Ms. Daniels. And if I may add to that, Congressman. The 
President and the Attorney General expressed on multiple 
occasions a very strong commitment to civil rights. The 
Department of Justice is determined that it will respect and 
protect the civil rights of people throughout this country, 
whether they are citizens of this country or guests in the 
country.
    For our part, we are doing a number of things within OJP, 
and that includes the training that we have available through 
the Bureau of Justice Assistance, both in counterterrorism and 
in hate crimes issues, where we are sensitizing police to these 
issues in partnership with one another so that we make sure 
that police, while they are aggressive in doing their jobs, are 
doing so in a way that respects individual civil rights.
    We have met with Ralph Boyd, as Carl describes, and we are 
working on a couple of collaborations. One is along the lines 
of the Cincinnati idea. We both helped fund some training in 
Cincinnati.
    What we would like to do is, as the Civil Rights Division 
identifies issues with police departments, before they ever get 
to the level of severity where we have got big problems, what 
we would like to do is go in at the front end and provide 
training that is going to prevent those issues from arising, 
particularly in the area of use of force, and you know, some of 
the other issues that tend to arise in the civil rights 
investigations.
    We have had some difficulty identifying funding that is 
available for us to direct toward that purpose, but we are 
doing our best to collaborate with Civil Rights toward that 
end.
    One of the other things we are trying to do, as a matter of 
fact, particularly with regard to the Hispanic community, and 
the tremendous growth in Hispanic citizens in this country in 
recent years, and what we will see in the oncoming years, is to 
try to provide information--not only to the police, and the 
Chairman was talking about cultural issues--I think there are 
cultural misunderstandings sometimes--to provide information to 
the police about the culture from which new residents may come 
and information to those new residents about what they should 
expect if they are pulled over by a police officer.
    So we have been providing a lot of new information to 
communities in collaboration with HAPCOA, the Hispanic American 
Police Command Officers Association, and our Weed-and-Seed 
Sites, for example, to try to improve that relationship.
    So, I think between our two offices, there are a number of 
things we are trying to do to ensure that both on the 
counterterrorism front and the traditional law enforcement 
front we respect civil rights completely.

                            Closing Remarks

    Mr. Serrano. Well, let me close by just saying this.
    I appreciate your comments on the issue of civil rights. I 
also want you to keep it in the context of the fact that we are 
detaining people right now. I know that Attorney General 
Ashcroft has publicly said that he is committed to the 
protection, but I have told him in half-jest and half-pain 
that, given a choice, he will detain half of us in this country 
and put us somewhere for a while.
    So, I worry about that.
    But, understanding the culture is very important during 
this period of time as is understanding that we should not 
repeat the errors of the past. We as a nation still feel bad. 
We do. I do not know anybody who feels good about what we did 
to Japanese-Americans during World War II.
    We are in the process of doing it again. If we do not watch 
it, we will expand it and create enemies of ourselves.
    And lastly, as I said, understanding the culture is very 
good. We had an incident in New York a couple years ago, where 
I jumped up and screamed, and people thought I was crazy.
    We had asbestos at a couple of voting sites. So, what they 
suggested was to have election day in a tent outside with the 
National Guard guarding the polls. Now that, really, if you do 
not think about it, does not sound too bad.
    But say you are from Latin America, and you became a 
citizen, the thought of the military standing at your polling 
site--you are never going to vote. Because that is what they 
always did. They stood there and made a little note of who you 
voted for.
    And that is how the elections--these democratic elections 
that we support in Latin America--that is how they are run. 
With the military outside telling people--they were trying to 
solve a problem. But again, understanding who it is that we are 
dealing with. Keep that in mind.
    And lastly, Mr. Peed, I have just come to the conclusion at 
the end of this hearing that you could play a big role on this 
issue. Because if I am not mistaken, you were sheriff and 
worked at the Fairfax County department during the time of the 
largest growth in Hispanic population anywhere in the country.
    See, everybody thinks the largest growth was in Florida, 
Texas, New York and California. But the highest percentage 
growth was Southern Maryland and Northern Virginia. Am I right? 
And you were there. So you know, you dealt with these issues 
over time and I hope you become a voice in the administration 
for that.
    Mr. Peed. One of the things we did when I was the sheriff 
is following the Rodney King incident in LA is our chief judge 
and myself held public hearings in minority communities to look 
at not only the fairness of our justice system but the 
perceptions of fairness. And we held meetings in our minority 
communities, including our Latino and Hispanic communities to 
look at that issue. And many issues came up.
    Those hearings won a national award through the National 
Association of Counties because we addressed issues like 
interpreters for the courts and, again, the perceptions of 
fairness.
    If the perception of fairness is--if they perceive it not 
to be fair, you have got to change that perception. And if it 
is unfair, you need to change it to make it fair.
    Thank you so much to both of you and thank you, Mr. 
Chairman.
    Mr. Wolf. Mr. Peed did an outstanding job as sheriff in 
Fairfax County. And as--did your follower, Sheriff Winston, 
before him.
    And Mr. Mollohan.
    Mr. Mollohan. Thank you, Mr. Chairman. I have some 
questions I am going to submit for the record. I think they can 
be handled that way.
    Mr. Wolf. Without objection, the hearing will be adjourned. 
Thank you both.

       [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


</pre></body></html>
